No. 20A64, 20A65, 20A66
In the

Supreme Court of the United States
JILL SWENSON, et al.,
Petitioners,
v.
WISCONSIN STATE LEGISLATURE, et al.,
Respondents.
SYLVIA GEAR, et al.,
Petitioners,
v.
WISCONSIN STATE LEGISLATURE, et al.,
Respondents.
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Petitioners,
v.
WISCONSIN STATE LEGISLATURE, et al.,
Respondents.
To the Honorable Brett M. K avanaugh Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Seventh Circuit
APPENDIX TO RESPONDENT’S OPPOSITION TO
EMERGENCY APPLICATION TO VACATE STAY
VOLUME II OF III
Scott A. Keller
Baker Botts LLP
700 K Street, N.W.
Washington, DC 20001
(202) 639-7837
Eric M.Mcleod
Lane E. Ruhland
Husch Blackwell LLP
P.O. Box 1379
33 East Main Street, Suite 300
Madison, WI 53701-1379

Misha Tseytlin
Counsel of Record
Robert E. Browne, Jr.
Kevin M. Leroy
Sean T.H. Dutton
Troutman Pepper Hamilton Sanders LLP
227 West Monroe Street, Suite 3900
Chicago, IL 60606
(608) 999-1240
misha.tseytlin@troutman.com

Lisa M. Lawless
Husch Blackwell LLP
555 East Wells Street, Suite 1900
Milwaukee, WI 53202-3819
Counsel for Wisconsin State Legislature

TABLE OF CONTENTS
Wisconsin Elections Commission Memorandum In Support Of Its
Motion To Dismiss, Edwards v. Vos, No. 3:20-cv-340, Dkt. 15
(W.D. Wis. May 25, 2020)………………………………………………………...……..App. 1
Wisconsin Elections Commission’s Voter Registration Guide……...…..………..App. 10
Notice of Withdrawal of Attorney, Democratic Nat’l Comm. v.
Bostelmann, Nos. 3:20-cv-249 et al., Dkt. 56 (W.D. Wis. Mar. 26, 2020)………App. 12
Notice of Withdrawal of Attorney, Democratic Nat’l Comm. v.
Bostelmann, Nos. 3:20-cv-249 et al., Dkt. 57 (W.D. Wis. Mar. 26, 2020)………App. 14
Notice of Withdrawal of Attorney, Democratic Nat’l Comm. v.
Bostelmann, Nos. 3:20-cv-249 et al., Dkt. 58 (W.D. Wis. Mar. 26, 2020)………App. 16
Washington Post, The Wisconsin Primary Had Extraordinarily
High Turnout, dated April 15, 2020………………………………………..……..….App. 18
Wisconsin Elections Commission’s Canvass Results for 2020
Spring Election and Presidential Preference Vote – 4/7/2020.……………….…App. 24
Wisconsin Elections Commission’s Unofficial Spring
Election Turnout-34.3%-4/14/2020……………………………………………..…..App. 34
Wisconsin Elections Commission’s April 2020 Absentee Voting Report.……….App. 37
Deposition of Meagan Wolfe, dated July 3, 2020…………………………….…….App. 61
Deposition of Meagan Wolfe, dated July 16, 2020………………………………..App. 142
DNC Plaintiffs’ Second Amended Complaint, Democratic Nat’l Comm. v.
Bostelmann, Nos. 3:20-cv-249, Dkt. 198-1 (W.D. Wis. Apr. 30, 2020)…………App. 256
Swenson Plaintiffs’ First Amended Complaint, Swenson v. Bostelmann,
No. 3:20-cv-459, Dkt. 37 (W.D. Wis. June 23, 2020)………….………………….App. 296
Deposition of Robert Spindell, dated July 7, 2020………………………………..App. 367
Wisconsin Elections Commission’s April 7 Election and Next Steps
Memorandum from Meagan Wolfe………………………………………………….App. 408
-i-

Wisconsin Elections Commission’s April 18, 2020 Special
Teleconference Meeting Notes………………………………………………………App. 419
City of Madison’s CORRECTED Polling Place Listing for April 7……………..App. 422
Leung, et al., No Detectable Surge in SARS-CoV-2 Transmission due
to the April 7, 2020 Wisconsin Election (Apr. 29, 2020)…………………………..App. 429
Wisconsin Elections Commission’s Absentee Ballot Report –
May 12, 2020 Special Election for Congressional District 7……………………..App. 437
Wisconsin Elections Commission’s May 1, 2020 Voter
Registration Statistics………………………………………………………………..App. 440
Wisconsin Elections Commission’s More Than 69,000
Absentee Ballots Already Returned for May 12 Special Election……………….App. 443
WEC Defendants’ Status Report, Democratic Nat’l Comm. v.
Bostelmann, Nos. 3:20-cv-249 et al., Dkt. 227 (W.D. Wis. June 25, 2020)……..App. 447
Wisconsin Elections Commission’s Update on Commission
Actions 5/27- COVID-19…………………………………………………………......App. 501
Wisconsin Elections Commission’s WEC Prepares For Fall
Elections By Approving Block Grants To Municipalities and
Mailing to Voters - COVID-19………………………………………………………..App. 504
Court of Appeals Order Granting Emergency Stay (Sept. 28, 2020)…………..App. 509
Transcript of Injunctive Hearing Before District Court (Aug. 5, 2020)………..App. 512
Wisconsin Elections Commission’s Absentee Ballots ……...…..……..………….App. 742
Deposition of Neil Albrecht, dated July 23, 2020…………………………………App. 746
Deposition of Kris Teske, dated July 28, 2020…………………………………….App. 778

- ii -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 1 of 40

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WISCONSIN
DEMOCRATIC NATIONAL COMMITTEE,
et al.,
Plaintiffs,
v.

Civil Action No. 3:20-cv-249-wmc

MARGE BOSTELMANN, et al.,
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
et al.,
Intervening Defendants.
Civil Action No. 3:20-cv-278-wmc

SYLVIA GEAR, et. al.,
Plaintiffs,
v.
MARGE BOSTELMANN, et al.,
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
et al.,
Intervening Defendants.

Civil Action No. 3:20-cv-284-wmc

REVEREND GREG LEWIS, et al.,
Plaintiffs,
v.
MARGE BOSTELMANN, et al.,
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
et al.,
Intervening Defendants.
.

SECOND AMENDED COMPLAINT OF PLAINTIFFS DEMOCRATIC NATIONAL
COMMITTEE AND DEMOCRATIC PARTY OF WISCONSIN
FOR DECLARATORY AND INJUNCTIVE RELIEF
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 1
- App. 256 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 2 of 40

Plaintiffs DEMOCRATIC NATIONAL COMMITTEE and DEMOCRATIC PARTY OF
WISCONSIN file this Second Amended Complaint for Declaratory and Injunctive Relief against
Defendants MARGE BOSTELMANN, JULIE M. GLANCEY, ANN S. JACOBS, DEAN
KNUDSON, ROBERT F. SPINDELL, JR., and MARK L. THOMSEN, in their official capacities
as Wisconsin Elections Commissioners, and against Intervening Defendants REPUBLICAN
NATIONAL COMMITTEE, REPUBLICAN PARTY OF WISCONSIN, and the WISCONSIN
LEGISLATURE, and allege as follows:
NATURE OF THE CASE
1.

Wisconsin’s April 7, 2020 Spring Election was a voting rights and public health

fiasco. People throughout the nation were horrified by images of thousands of Wisconsin citizens
forced to stand in long lines for hours in order to cast their ballots, many wearing masks, gloves,
and other protective gear as they congregated together to vote in the midst of the worst pandemic
in over a century. Virtually every other jurisdiction in the United States has thus far postponed inperson voting since mid-March because of the obvious public health risks. But due to Wisconsin’s
ongoing political dysfunction, the apparent desire of some to use a public health emergency to
suppress the vote, and other factors, the State proceeded with the April 7 election in the face of
scathing criticism from throughout the country.

Equally shocking was the breakdown in

Wisconsin’s absentee-voting process, with thousands of voters never even receiving their
requested ballots in time to vote by election day, thus forcing them either to go to the polls during
the pandemic and risk exposure to the COVID-19 virus or be disenfranchised altogether.
2.

Plaintiffs support in-person voting options that can be conducted in a safe and

secure manner. That did not occur in Wisconsin’s April 7 election. The decision to proceed with
the election and the manner in which it was conducted have been branded a “travesty” and “an

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 2
- App. 257 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 3 of 40

abomination, a civic tragedy that never should have occurred”; 1 “insane”; 2 “cruel”; 3 “brazen”; 4
“nightmarish” and “scandalous”; 5 “appalling” and “terrifying”; 6 “a dangerous spectacle that forced
voters to choose between participating in an important election and protecting their health”; 7 and
“[o]ne of the most shameful chapters in American’s long history of voter suppression,” requiring
voters “to make an unconscionable choice between their lives and their citizenship.” 8 These harms
fell disproportionately and with especially brutal impact on voters of color and economically
disadvantaged voters. 9 The title of one article has urged: “Never Forget Wisconsin.” Supra n.8.

1

Ned Foley, Worrying about Wisconsin, While Waiting for Its Election Returns, Medium
(Apr. 12, 2020), https://medium.com/@Nedfoley/worrying-about-wisconsin-while-waiting-forits-election-returns-9dc94334c8a6.
2

The Editorial Board, You Shouldn’t Have to Risk Your Life to Vote, N.Y. Times (Apr. 3,
2020), https://www.nytimes.com/2020/04/03/opinion/wisconsin-primary-coronavirus.html.
3

Leah Litman, The Supreme Court’s Wisconsin Decision Is a Terrible Sign for remaining,
The Atlantic (Apr. 7, 2020), https://www.theatlantic.com/ideas/archive/2020/04/supreme-courtshypocrisy-going-get-americanskilled/609598/?utm_source=newsletter&utm_medium=email&utm_campaign=atlantic-dailynewsletter&utm_content=20200407&silverid-ref=MzEwMTU3MjAxODkzS0.
4

Zak Cheney-Rice, Wisconsin Supreme Court Justices Voted Absentee Before Making
Everyone Else Vote in Person, New York Magazine (Apr. 14, 2020),
https://nymag.com/intelligencer/2020/04/wisconsin-voters-braved-covid-while-justices-votedabsentee.html.
5

Ed Gilgore, After Its Disturbing Election Day, What Happens Next in Wisconsin?, New
York Magazine (Apr. 8, 2020), https://nymag.com/intelligencer/2020/04/after-a-disturbingelection-day-now-what-in-wisconsin.html.
6

Miela Fetaw, ‘I Could Get the Virus If I Vote’: Wisconsin’s Terrifying Election Day, The
Daily Beast (Apr. 7, 2020), https://www.thedailybeast.com/people-are-going-to-die-in-thiselection-wisconsin-votes-amid-coronavirus-pandemic-1.
7

Astead W. Herndon & Alexander Burns, Voting in Wisconsin During a Pandemic: Lines,
Masks
and
Plenty
of
Fear,
N.Y.
Times
(Apr.
7,
2020),
https://www.nytimes.com/2020/04/07/us/politics/wisconsin-election-coronavirus.html.
8

Sherrilyn Ifill, Never Forget Wisconsin, Slate (Apr. 8, 2020, 6:46 PM),
https://slate.com/news-and-politics/2020/04/never-forget-wisconsin.html.
9

19

See Fetaw, supra n.6; Scott Bauer, Milwaukee’s black community hit hard by COVIDpandemic,
Wisconsin
State
Journal
(Mar.
28,
2020),

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 3
- App. 258 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 4 of 40

3.

On April 28, three weeks after the election, the Wisconsin Department of Health

Services reported that 52 people who voted in person or worked the polls on April 7 have tested
positive for COVID-19 thus far. These numbers may grow. 10
4.

Plaintiffs filed this suit on March 18, 2020 in an effort to avoid this calamity and

ensure that Wisconsin voters—many of whom are their members and constituents—would be able
to fully exercise their constitutional right to vote in the midst of this unprecedented public health
crisis. Although this Court denied plaintiffs’ preliminary injunction motion in some respects
(without prejudice), in other respects it granted important relief that enabled tens of thousands of
voters to register and cast their ballots. And although the Court’s preliminary injunction was
further narrowed on appeal by the U.S. Court of Appeals for the Seventh Circuit and the Supreme
Court, one of the most important parts of this Court’s injunctive relief survived intact: the Court’s
order enjoining defendants “from enforcing the requirement under Wis. Stat. § 6.87(6) that
absentee ballots must be received by 8:00 p.m. on election day to be counted,” and extending that
deadline for receipt of absentee ballots by six days, provided that such ballots were mailed and
postmarked on or before election day. See Democratic Nat’l Comm. v. Bostelmann, Civ. No. 20cv-249-wmc, 2020 WL 1638374, at *22 (W.D. Wis. Apr. 2, 2020), clarified, ECF No. 122 (W.D.
Wis. Apr. 3, 2020), stayed in part sub nom. Democratic Nat’l Comm. v. Republican Nat’l Comm.,

https://madison.com/wsj/news/local/health-med-fit/milwaukees-black-community-hit-hard-bycovid-19-pandemic/article_8cf82962-0e17-5044-aba9-ecdd9b54b65a.html;
David
Bowen,
Wisconsin’s primary subjected people of color to yet another Covid-19 disadvantage, The
Guardian (Apr. 8, 2020), https://www.theguardian.com/us-news/2020/apr/08/wisconsincoronavirus-black-communities-inequality.
10

Associated Press, The Latest: 52 coronavirus cases may be linked to spring election
(Apr. 28, 2020), https://apnews.com/b1503b5591c682530d1005e58ec8c267. “Several” of these
people reported additional possible exposures, so it is unclear whether the election itself caused
them to contract the virus. If they already had contracted the virus prior to the election, they may
also have spread it to others at the polls on April 7.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 4
- App. 259 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 5 of 40

Nos. 20-1538 & 20-1546 (7th Cir. Apr. 3, 2020), stayed in part, No. 19A1016, 2020 WL 1672702
(U.S. Apr. 6, 2020). The defendants and intervening defendants did not challenge this extension
of the ballot-receipt deadline, and the Supreme Court relied on this extension in denying “an
additional extension, which would allow voters to mail their ballots after election day.” 2020 WL
1672702, at *2.
5.

This Court’s April 2 preliminary injunction extending the ballot-receipt deadline

from April 7 to April 13 appears to have resulted in over 142,000 Wisconsin citizens being able to
cast their ballots by election day—ballots that would otherwise have been rejected and, thus, voters
who would have been disenfranchised. 11
6.

Although the disastrous April 7 Spring Election is now past, several more elections

will be held in Wisconsin in 2020, culminating in the November 3 General and Presidential
Election. Contrary to the Wisconsin Legislature’s false claims in a recently filed motion to
dismiss, see ECF No. 197, plaintiffs’ original and amended complaints clearly and repeatedly ask
for injunctive relief both with respect to the April 7 election and for “any election that occurs
while this crisis continues.” ECF No. 55 ¶ 7 (emphasis added); see id. at 19, pts. C-E (asking for
various injunctive relief to extend “until the COVID-19 crisis is over”) (emphasis added); see also
id. ¶ 44 (seeking injunctive relief for “the upcoming April 7, 2020 [election], as well as other
elections taking place during the COVID-19 crisis”) (emphasis added). To reiterate, plaintiffs
seek injunctive relief applicable to any and all elections—up to and including the November 3

11

The data regarding ballots that arrived between April 8 and April 13 can be found at
https://elections.wi.gov/blog; see also https://electionlawblog.org/?p=110746. As of 8 p.m. on
April 7, there had been 990,129 absentee ballots returned. https://elections.wi.gov/blog. WEC
reports that, ultimately, 1,132,923 absentee ballots were returned and counted, suggesting that
142,794 ballots were able to be counted that would not otherwise have been. See
https://elections.wi.gov/sites/elections.wi.gov/files/202004/Ballot%20Data%20as%20of%20April%2017%202020.pdf.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 5
- App. 260 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 6 of 40

election—that are held while the COVID-19 crisis continues in Wisconsin and until that crisis is
over.
7.

Plaintiffs in this Second Amended Complaint challenge the same statutory

requirements for registering to vote and absentee voting that they challenged in their prior
pleadings, see ECF Nos. 1, 55, and add an additional challenge regarding early in-person absentee
voting and in-person voting on election day. The previously challenged provisions are: (a) the
requirement that polling places receive absentee ballots by 8:00 p.m. on election day for ballots to
be counted (“Election Day Receipt Deadline”), Wis. Stat. § 6.87; (b) the requirement that for an
absentee ballot to be counted, the absentee voter must have a witness certify to the truth of the
information the voter provides on the ballot, id. § 6.87(2); (c) the requirement that copies or scans
of photo identification accompany absentee ballot applications, id. § 6.86; (d) the requirement that
copies of proof of residence accompany electronic and by-mail voter registration, id. § 6.34; and
(e) the by-mail and electronic registration deadlines in id. § 6.28(1), which require the registration
to “be delivered to the office of the municipal clerk or postmarked no later than the 3rd Wednesday
preceding the election.” The additional challenge is to the defendants’ failure to provide sufficient
financial, personnel, and other resources to ensure an adequate number of early in-person absentee
voting sites and election-day polling places throughout the State to accommodate in-person voters
in a safe and secure manner. These challenges are collectively referred to as the “challenged
matters” or “challenged provisions.”
8.

Each of the challenged matters, on its own, continues to pose significant risks to

voters seeking to exercise their right to vote in the remaining 2020 elections (and any other election
that occurs while the pandemic continues). Collectively, these challenged matters will ensure that
many Wisconsin citizens (a disproportionate number of whom are voters of color or live in

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 6
- App. 261 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 7 of 40

economically disadvantaged communities) will be unable to vote or will have their validly cast
ballots discarded. Without injunctive relief from this Court, thousands of Wisconsin voters at
minimum will likely be disenfranchised again, as occurred in the April 7 election. Or, as also
happened in the April 7 election, many other voters will refuse to be disenfranchised, will vote inperson, and will risk exposure to the COVID-19 virus. These are irreparable injuries.
9.

Accordingly, plaintiffs file this Second Amended Complaint to ensure that

Wisconsin voters—many of whom are their members and constituents—are able to fully exercise
their right to vote in the midst of this unprecedented crisis. Plaintiffs seek expanded injunctive
relief enjoining the Election Day Receipt Deadline and allowing all ballots postmarked 12 on or
before an election day but received within a minimum of 10 days thereafter to be counted;
enjoining in part the requirement that a voter submitting an absentee ballot have a witness certify
to the accuracy of the voter’s information on the ballot; suspending in part the requirements that
copies of documents and photo IDs be included with voter registration and absentee ballot
applications; extending the deadline for electronic and by-mail voter registration to the Friday
before an election, or whenever in-person absentee voting ends; and requiring defendants to take
immediate steps to ensure there will be an adequate number of early in-person absentee voting
sites and election-day polling places throughout the State to accommodate in-person voters in a
safe and secure manner.

12

The term “postmark” refers to any type of imprint applied by the U.S. Postal Service to
indicate the location and date the Postal Service accepts custody of a piece of mail, including bar
codes, circular stamps, or other tracking marks. Where a ballot does not bear a postmark date, it
should be presumed to have been mailed on or before election day unless the preponderance of the
evidence demonstrates it was mailed after election day.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 7
- App. 262 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 8 of 40

JURISDICTION AND VENUE
10.

Plaintiffs bring this action under 42 U.S.C. §§ 1983 and 1988 to redress the

deprivation, under color of state law, of a right secured by the United States Constitution.
11.

This Court has original jurisdiction over the subject matter of this action pursuant

to 28 U.S.C. §§ 1331 and 1343 because the matters in controversy arise under the Constitution and
laws of the United States.
12.

This Court has personal jurisdiction over the defendants, the Commissioners of the

Wisconsin Elections Commission (WEC), who are sued in their official capacities only. The
intervening defendants have voluntarily submitted to the Court’s jurisdiction.
13.

Venue is proper in the U.S. District Court in the Western District of Wisconsin

pursuant to 28 U.S.C. § 1391(b)(2) because a substantial part of the events that gave rise to
plaintiffs’ claims occurred there.
14.

This Court has the authority to enter a declaratory judgment pursuant to 28 U.S.C.

§§ 2201 and 2202.
15.

This Court has continuing jurisdiction to enter and enforce additional injunctive

relief despite the intervening defendants’ appeal of this Court’s April 2 and 3 interlocutory orders
on plaintiffs’ motion for a preliminary injunction. See 28 U.S.C. § 1292(a)(1). This Court’s April
2 and 3 orders pertained only to the April 7 election. Bostelmann, 2020 WL 1638374, at *22
(extending receipt deadline to April 13 and request deadline to April 3); ECF No. 122 at 2
(enjoining release of unofficial results until April 13). To the extent this Court’s April 2 order
extended beyond the April 7 election⸺for example, preventing defendants “from enforcing Wis.
Stat. § 6.87(2) as to absentee voters who have provided a written affirmation or other statement
that they were unable to safely obtain a witness certification despite reasonable efforts to do so,”

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 8
- App. 263 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 9 of 40

2020 WL 1638374, at *22, the Seventh Circuit’s stay does not prevent this Court from
reconsidering the issue. The Seventh Circuit stayed this provision of this Court’s order because
“the district court did not give adequate consideration to the state’s interests” when suspending
this requirement. Democratic Nat’l Comm. v. Republican Nat’l Comm., Nos. 20-1538 & 20-1546,
at **3-4. The Seventh Circuit did not declare that suspension of this rule was inappropriate under
all circumstances. In fact, the Seventh Circuit suggested that a modified witness requirement
might be appropriate. Id. at *4. The United States Supreme Court did not consider this issue.
Democratic Nat’l Comm. v. Republican Nat’l Comm., 2020 WL 1672702, at *1 (order stayed only
“to the extent it requires the State to count absentee ballots postmarked after April 7, 2020”).
PARTIES
16.

Plaintiff the Democratic National Committee (DNC) is a national committee, as

that term is defined by and used in 52 U.S.C. § 30101, dedicated to electing local, state, and
national candidates of the Democratic Party to public office throughout the United States. In
particular, the DNC is charged with facilitating the Democratic presidential nominating process,
which culminates in the 2020 Convention that is scheduled to take place in Milwaukee, Wisconsin
in August.
17.

The DNC has members and constituents across the United States, including eligible

voters in Wisconsin whose rights to vote have been and will continue to be severely burdened and
denied outright by the challenged matters during the current coronavirus crisis.
18.

Plaintiff the Democratic Party of Wisconsin (DPW) is a state committee, as defined

by 52 U.S.C. § 30101(15), dedicated to electing candidates of the Democratic Party to public office
throughout the State of Wisconsin. The DPW has members and constituents from across

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 9
- App. 264 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 10 of 40

Wisconsin, including many voters whose rights to vote have been and will continue to be severely
burdened and denied outright by the challenged matters during the current coronavirus crisis.
19.

As part of their missions, both plaintiffs work to ensure that their members and

constituents are able to effectively exercise their right to vote for their chosen candidates. Plaintiffs
are directly harmed by the challenged matters, which by making it more difficult for plaintiffs’
members and constituents to register and vote, have required and will continue to require plaintiffs
to expend additional resources assisting their members and constituents to overcome these burdens
to exercise their right to vote. These are resources that the plaintiffs otherwise could be spending
in educating voters about core issues and preparing for the general election. See, e.g., Crawford v.
Marion Cty. Election Bd., 472 F.3d 949, 951 (7th Cir. 2007) (political party had standing because
of its diversion of resources “to getting to the polls those of its supporters who would otherwise be
discouraged by the new law from bothering to vote”), aff’d, 553 U.S. 181, 189 n.7 (2008); One
Wis. Inst. v. Thomsen, 198 F. Supp. 3d 896, 908-10 (W.D. Wis. 2016).
20.

Defendants Marge Bostelmann, Julie M. Glancey, Ann S. Jacobs, Dean Knudson,

Robert F. Spindell, Jr., and Mark L. Thomsen are the six Commissioners of the WEC and are
named as defendants in their official capacities. Together, they comprise the WEC, the body that
administers and enforces Wisconsin’s election laws, including Wis. Stats. §§ 6.28(1), 6.34, 6.86,
and 6.87. See id. § 5.05. Defendants have acted under color of state law at all times relevant to this
action. Defendants also have “the responsibility for the administration of chs. 5 to 10 and 12 and
other laws relating to elections and election campaigns, other than laws relating to campaign
financing.” Wis. Stat. § 5.05(1); see also Frank v. Walker, 196 F. Supp. 3d 893, 918 (E.D. Wis.
2016) (“Carrying out a federal court’s order concerning the state’s election procedures would

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 10
- App. 265 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 11 of 40

qualify as administering the state’s election laws and ‘other laws relating to elections’ (which
includes federal laws relating to elections).”).
21.

Intervening defendant the Republican National Committee (RNC) is a national

committee, as that term is defined by and used in 52 U.S.C. § 30101, dedicated to electing local,
state, and national candidates of the Republican Party to public office throughout the United
States. This Court granted the RNC leave to intervene permissively in this litigation on March
28, 2020. See ECF No. 85.
22.

Intervening defendant the Republican Party of Wisconsin (RPW) is a state

committee, as defined by 52 U.S.C. § 30101(15), dedicated to electing candidates of the
Republican Party to public office throughout the State of Wisconsin. This Court granted the RPW
leave to intervene permissively in this litigation on March 28, 2020. See ECF No. 85.
23.

Intervening defendant the Wisconsin Legislature (Legislature) is made up of the

State Assembly and the State Senate, and is “vested” with the “legislative power” of the State of
Wisconsin. See Wis. Const. art. IV, § 1. The United States Court of Appeals for the Seventh
Circuit held on April 3, 2020 that the Legislature is entitled to intervene in this litigation, and this
Court accordingly held that the Legislature has “effectively been an intervening defendant” since
that decision and granted the Legislature’s motion to intervene on April 6. See ECF No. 191.
STATEMENT OF FACTS AND LAW
A.

Wisconsin Registration and Absentee Laws
24.

Wisconsin law provides that registration by mail and electronic registration closes

on the third Wednesday preceding an election. Wis. Stat. § 6.28 (1)(a).
25.

Individuals registering by mail or electronically must provide a copy of an

“identifying document that establishes proof of residence.” Id. § 6.34(2). The only exception to

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 11
- App. 266 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 12 of 40

this rule is for individuals registering electronically who do not have to provide such
documentation if they provide “the number of a current and valid operator’s license [or]
identification card.” Id. (2m).
26.

Individuals wishing to register after the mail and electronic registration deadline

can only do so by registering in-person when they apply for an in-person absentee ballot or on
Election Day at a polling place. Id.
27.

Historically, Wisconsin voters have relied heavily on same day registration.

Between 2008 and 2016, for example, 10 to 15% of all registrations took place on election day. 13
28.

Wisconsin also provides a process for absentee voting for all registered absentee

voters, allowing them to request an absentee ballot by mail, in person at the municipal clerk’s
office, or by signing a statement and requesting to receive an absentee ballot, via an agent, special
voting deputy, or by e-mail or fax. Id. § 6.86(1)(a).
29.

All voters, except for those who fall within specified exceptions, are required to

present a copy of their proof of identification with their absentee application. Id. § 6.86(1)(ac).
30.

Once a voter has received and completed their ballot, he or she must return it so

that “it is delivered to the polling place no later than 8 p.m. on election day.” Id. § 6.87(6).
B.

The COVID-19 Pandemic and the April 7 Spring Election
31.

We remain in the midst of the worst national health emergency since at least the

Great Influenza of 1918-20. As of April 29, 2020, Wisconsin had had at least 6,520 reported cases
of the COVID-19 coronavirus, and at least 308 Wisconsinites had died from it, with the death toll
continuing to rise. As a result, Wisconsinites continue to socially distance themselves from each

13

https://elections.wi.gov/sites/elections.wi.gov/files/page/general_election_voter_registr
ation_and_absentee_s_4.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 12
- App. 267 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 13 of 40

other to try to slow the spread of the disease in a collective effort to save their friends, neighbors,
and families, with no clear end in sight. Projections by the federal government indicate that the
virus will persist at least into the fall, if not longer. The Director of the Centers for Disease Control
and Prevention recently warned that the country may encounter a second, more deadly wave of
COVID-19 in the fall, which will “be even more difficult than the one we just went through.” 14
This means that Wisconsin’s upcoming 2020 elections will occur in the middle or immediate
aftermath of the worst public health crisis in over a century. Indeed, the latest projections indicate
that this crisis may persist for 14 to 18 months, and perhaps even into 2022.
32.

Governor Evers’ “Safer-at-Home Order,” issued March 24, 2020, has been

extended pursuant to the April 16, 2020 Emergency Order #12 and is now scheduled to remain in
effect until May 26, 2020 “or until a superseding order is issued.” All Wisconsinites must continue
to stay at home as much as possible; non-essential businesses and operations remain closed, with
limited exceptions; and all forms of travel continue to be prohibited unless explicitly excepted.
Virtually all public and private gatherings of any number of people continue to be forbidden.
Public and private K-12 schools are now closed for the remainder of the 2019-20 school year. The
extended Order remains enforceable by local law enforcement officials and county sheriffs, with
violations or obstruction of the Order punishable by imprisonment, fines, or both. Wis. Stat. §
252.25. It is presently uncertain whether and to what extent the Order will survive state legal
challenges against it and, if it does, whether it will be extended past May 26. It is reasonably clear,
however, that the pandemic will continue and may even worsen this year, and may well extend
into 2021 or even 2022.

14

Zack Budryk, CDC director warns second wave of coronavirus might be ‘more difficult’,
The Hill (Apr. 21, 2020), https://thehill.com/policy/healthcare/493973-cdc-director-warnssecond-wave-of-coronavirus-might-be-more-difficult
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 13
- App. 268 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 14 of 40

33.

Wisconsin citizens continue to distance themselves to ensure their safety and to

comply with the Safer-at-Home Order. Many are unwilling to risk their safety and the safety of
others by waiting in line to register to vote or cast their ballot. And the frightening results of the
April 7 election, see supra ¶¶ 1-3, give them good cause for these concerns. Wisconsin voters
have several more elections in 2020, culminating in the November 3 General and Presidential
Election, with public-health conditions likely to be similar to, if not even worse than, the April 7
election. The experience of the April election helps demonstrate what the remaining 2020 elections
in Wisconsin will be like absent additional judicial intervention and relief.
34.

The City of Milwaukee shut down in-person registrations on March 23, 2020. ECF

No. 63-1, at 8; see also ECF No. 63-9. Based on information and belief, other cities and towns
took similar steps to limit in-person registration. As a result, for a large number of Wisconsin
citizens, registering by mail or electronically was the only alternative to in-person registration on
election day.
35.

In-person absentee voting saw similar cuts throughout the State. During the in-

person absentee voting period, for instance, the City of Milwaukee closed all three locations
offering this option. ECF No. 63-1, at 8; see also ECF No. 63-9. The City of Madison closed all
in-person absentee voting locations except for one location that permitted voters the option of
curbside absentee voting. ECF No. 63-1, at 8.
36.

The most severe impacts to in-person voting occurred on election day. This was

due in large part to severe staffing shortages. 15 Milwaukee only opened five of its usual 180 sites;

15

See, e.g., Patrick Marley & Craig Gilbert, Wisconsin polling places are closing because
there's not enough people to work the April 7 election, Milwaukee Journal Sentinel (Mar. 31,
2020),
https://www.jsonline.com/story/news/politics/elections/2020/03/31/wisconsin-votingsites-closing-due-coronavirus-poll-worker-shortage/5090003002/.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 14
- App. 269 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 15 of 40

Green Bay opened only two of its usual 30 sites; Waukesha opened just one of 13; and Kenosha
opened only 10 of its usual 22 sites. 16 In Milwaukee, these closures resulted in thousands of voters
being forced to wait in line for hours in close quarters with other voters. 17 The lines were
consistently long throughout the day; according to poll workers at one location in north
Milwaukee, no fewer than 350 voters were in line throughout the day. 18 Voters in Green Bay also
waited for as many as four hours to cast a ballot at one of two locations—down from the normal
30 polling places available. 19
37.

The burdens and risks imposed by all of these restrictions on in-person registration,

early in-person absentee voting, and in-person voting on election day fell disproportionately on
African-American, Latino, and Hmong voters and on economically disadvantaged communities.
See supra n.9.
38.

Faced with few options to vote in-person and stymied at multiple points in obtaining

and casting an absentee ballot, it was not surprising that Milwaukee voters turned out in fewer
numbers than expected. One political scientist estimates that the City of Milwaukee “saw nearly

16

Briana Reilly, Madison has 66 polling sites on Election Day, Milwaukee has five. What’s
the deal? (Apr. 7, 2020) https://madison.com/ct/news/local/govt-and-politics/madison-has-66polling-sites-on-election-day-milwaukee-has-five-whats-the-deal/article_8868bacf-6697-5cf4aa4f-d85fb37cf846.html.
17

Mary Spicuzza, ‘A very sad situation for voters’: Milwaukeeans brave wait times as long
as 2 1/2 hours, top election official says, Milwaukee Journal Sentinel (Apr. 7, 2020),
https://www.jsonline.com/story/news/politics/elections/2020/04/07/wisconsin-electionmilwaukee-voters-brave-long-wait-lines-polls/2962228001/.
18

Ben Jordan, Voters bear long lines on Milwaukee's north side, WTMJ-TV Milwaukee
(Apr. 7, 2020), https://www.tmj4.com/news/coronavirus/voters-bear-long-lines-on-milwaukeesnorth-side.
19

Daniel Bush, Record absentee ballots sustain turnout in Wisconsin primary, PBS (Apr.
14, 2020), https://www.pbs.org/newshour/politics/record-absentee-ballots-sustain-turnout-inwisconsin-primary.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 15
- App. 270 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 16 of 40

16,000 fewer votes than it should have, given the performance of other municipalities in the
county.” 20 Similarly, in the City of Green Bay, voter turnout was reportedly down 50% from the
2016 presidential primary election and down 25% from a 2019 mayoral race. 21
39.

Even worse, the voters who stood in line to cast ballots faced public health risks—

including exposure to the highly contagious COVID-19 virus. The Wisconsin Department of
Health has hired 120 additional contact tracers specifically “to gear up for potential cases resulting
from exposure at Tuesday's Spring General Election.” 22 The Wisconsin Department of Health
Services reported on April 28 that 52 people who voted in-person or worked as poll workers on
April 7 have tested positive for COVID-19. 23
40.

For those voters who intended to cast absentee ballots—or did actually cast them—

problems also were rampant. First, many voters could not provide the required identification to
request an absentee ballot. 24 As a result, some local officials recommended that all voters consider

20

Charles Stewart III, Important lessons from the Wisconsin primary, Mischiefs of Faction
(Apr. 17, 2020), https://www.mischiefsoffaction.com/post/important-lessons-from-the-wisconsinprimary.
21

Voter turnout in Green Bay down more than 50% compared to 2016 spring election, Fox
11 News (Apr. 14, 2020), https://fox11online.com/news/election/voter-turnout-in-green-baydown-more-than-50-compared-to-2016-spring-election.
22

J.T. Cestkowski, State hires ‘contact tracers’ to help contain spread of COVID-19,
WKOW (Apr. 9, 2020, 5:04 PM), https://wkow.com/2020/04/09/state-hires-contact-tracers-tohelp-contain-spread-of-covid-19/.
23

See supra ¶ 3; see also Devi Shastri, In-person voting was likely a 'disaster' for
Wisconsin's efforts to flatten coronavirus curve, national experts say, Milwaukee Journal Sentinel
(Apr. 8, 2020), https://www.jsonline.com/story/news/politics/elections/2020/04/08/coronaviruswisconsin-election-likely-hurt-effort-flatten-curve/2961718001/.
24

See, e.g., Reid J. Epstein & Adam Nagourney, Democratic Victory in Wisconsin Looms
as
‘Clarion
Call’
for
Trump,
N.Y.
Times
(Apr.
14,
2020),
https://www.nytimes.com/2020/04/14/us/politics/trump-wisconsin-2020election.html?smid=nytcore-ios-share (quoting Wisconsinite on how some voters lacked the
“wherewithal to request absentee ballots or the inclination to vote in person on April 7”).
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 16
- App. 271 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 17 of 40

themselves indefinitely confined and therefore exempt from the photo identification requirement.25
The Wisconsin Supreme Court enjoined this practice, holding instead that each voter had to assess,
based on their own individual circumstances, whether they were “indefinitely confined” and thus
exempt from the photo identification requirement. The court added that a voter did not need to be
completely or permanently confined to claim the exemption.

Jefferson v. Dane Cty., No.

2020AP557-OA (Wis. Mar. 31, 2020).
41.

Second, many absentee ballots failed to arrive until after April 7, effectively

denying the voters who received their ballots late even the opportunity to cast their vote. 26
According to statistics from the WEC, as of April 7, there were 1,282,762 absentee ballot
applications but only 1,273,374 absentee ballots sent out—a difference of 9,388 absentee ballots
that had not even been sent to the requesting voters as of the day the voters had to mail them back.27
Other ballots were mailed but never delivered. In Milwaukee, a postal worker located three bins
of absentee ballots that never reached their destinations in Oshkosh and Appleton. 28 In response
to reports that the U.S. Postal Service struggled to deliver mail ballots to voters—resulting in some
ballots being delayed or, even worse, not arriving at all—both of Wisconsin’s U.S. Senators called

25

Alison Dirr & Patrick Marley, Absentee voters in Milwaukee, Dane counties can say
they're 'indefinitely confined' and skip photo ID, clerks say, Milwaukee Journal Sentinel (Mar. 25,
2020),
https://www.jsonline.com/story/news/local/milwaukee/2020/03/25/absentee-votersmilwaukee-dane-counties-can-skip-photo-id-coronavirus-indefinitely-confined/5085017002/.
26

See, e.g., Nick Corasaniti, Some People Got to Vote Today, N.Y. Times (Apr. 7, 2020),
https://www.nytimes.com/2020/04/07/us/politics/wisconsin-absentee-ballots.html
(discussing
voters, such as a pregnant health care worker, who did not receive their absentee ballot by the
deadline and could not vote in-person).
27

https://elections.wi.gov/node/6825

28

Nick Corasaniti & Stephanie Saul, Inside Wisconsin’s Election Mess: Thousands of
Missing
or
Nullified
Ballots,
N.Y.
Times
(Apr.
9,
2020),
https://www.nytimes.com/2020/04/09/us/politics/wisconsin-election-absentee-coronavirus.html.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 17
- App. 272 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 18 of 40

on the Inspector General of the U.S. Postal Service to begin an investigation into “absentee ballots
not being delivered in a timely manner.” 29 One investigation “into Wisconsin’s missing ballot
crisis reveals a system leaking from all sides,” including through “[i]nadequate computer systems,
overwhelmed clerks and misleading ballot information [that] hampered Wisconsin’s historic―and
historically troubling―spring election.” 30
42.

The problems voters faced with the U.S. Postal Service during the recent election

are not likely to abate any time soon. To the contrary, as more voters throughout the country turn
to voting by mail in the coming months, that increased reliance in by-mail voting is likely to
coincide with a budgetary crisis the U.S. Postal Service is facing due to COVID-19—a crisis that
threatens to shutter the entire agency by this summer. 31 The Postal Service is experiencing
dramatic decreases in mail volume compared to last year and, “[a]s a result, . . . is projecting a $13
billion revenue shortfall this fiscal year because of the pandemic and another $54 billion in losses
over 10 years.” 32 And, as the pandemic continues to spread, postal workers have increasingly been
infected. As of April 11, nearly 500 postal workers across the country had already tested positive

29

See Letter from Senators Tammy Baldwin and Ron Johnson to U.S. Postal Service
Inspector
General
(Apr.
9,
2020),
https://www.wispolitics.com/wpcontent/uploads/2020/04/200409LETTER.pdf.
30

Daphne Chen et al., ‘They should have done something’: Broad failures fueled
Wisconsin’s absentee ballot crisis, investigation shows, Milwaukee Journal Sentinel (Apr. 21,
2020), https://www.jsonline.com/story/news/2020/04/21/wisconsin-absentee-ballot-crisis-fueledmultiple-failures/5156825002/ The investigation was conducted by the Milwaukee Journal
Sentinel, the PBS series FRONTLINE, and Columbia Journalism Investigations.
31

Kyle Cheney, House panel warns coronavirus could destroy Postal Service by June,
Politico (Mar. 23, 2020), https://www.politico.com/news/2020/03/23/coronavirus-postal-servicejune-145683.
32

Nicholas Fandos & Jim Tankersley, Coronavirus Is Threatening One of Government’s
Times
(Apr.
9,
2020),
Steadiest
Services:
The
Mail,
N.Y.
https://www.nytimes.com/2020/04/09/us/politics/coronavirus-is-threatening-one-ofgovernments-steadiest-services-the-mail.html.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 18
- App. 273 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 19 of 40

for the coronavirus, 19 had died, and more than 6,000 were in self-quarantine because of
exposure. 33
43.

All of these developments have grave implications for voting rights in the State of

Wisconsin. In years past, when the Postal Service has faced budget crises, it has closed hundreds
of mail processing centers. 34 Moving forward, it is likely the Postal Service will need to make
further cuts to routes, processing centers, and staff, which will exacerbate mail processing delays.
Any such delays will be acutely felt in Wisconsin, where mail routing is already circuitous. See
ECF No. 72 ¶¶ 6–7 (describing how mail takes five days to go across Madison); see also ECF No.
75 ¶ 6 (describing how mail in Viroqua is routed through Minneapolis).
44.

Finally, even the votes from Wisconsinites who successfully received and returned

their absentee ballots on time were not guaranteed to count. Many of them lacked a witness
signature—even though it is likely many of them were cast during the window of time when this
Court enjoined that requirement and offered a narrow, reasonable alternative. For example, in
Milwaukee, at least 750 absentee ballots were missing the signature and were therefore not
counted. 35 Hundreds in Marathon County were rejected for a variety of reasons, including 48 in
the City of Marshfield either because of a late postmark or because of a missing witness
signature. 36

33

Jacob Bogage, White House rejects bailout for U.S. Postal Service battered by
coronavirus,
Wash.
Post
(Apr.
11,
2020),
https://www.washingtonpost.com/business/2020/04/11/post-office-bailout-trump/.
34

See Office of the U.S. Postal Service Inspector General, Area Mail Processing
Consolidations (June 5, 2015), https://www.uspsoig.gov/sites/default/files/document-libraryfiles/2015/no-ar-15-007.pdf.
35

Spicuzza, supra note 17.

36

Naomi Kowles, Hundreds of absentee ballots for April election in Marathon County
rejected, WSAW.com (Apr. 17, 2020), https://www.wsaw.com/content/news/Hundreds-ofSECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 19
- App. 274 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 20 of 40

45.

Despite all of these obstacles, more than 1.1 million Wisconsin voters cast absentee

ballots. 37 Approximately 71% of Wisconsinites who voted in the election cast absentee ballots—
far more than the 14% of the electorate who voted this way in the April 2019 election, the 11% in
the April 2018 election, and even far more than the 27% in the 2016 general election. 38 Given the
extraordinary circumstances of the April election that are likely to continue for the foreseeable
future, it is not surprising that Wisconsinites—faced with this unconscionable choice between their
safety and potentially endangering the lives of others and exercising their fundamental right to
vote—relied on absentee voting at record levels. It is all but certain that this unprecedented demand
will continue through the remaining elections held in 2020.
C.

The Impact of the Challenged Statutory Provisions During the COVID-19 Pandemic
46.

As the nation witnessed during the April 7 election, Wisconsin’s regulatory scheme

is hostile to voting rights as applied in the context of the COVID-19 pandemic. As a direct result,
without additional action by this Court, thousands of Wisconsin voters at a minimum will be
disenfranchised in the remaining 2020 elections, culminating in the November 3 General and
Presidential Election. Many thousands more, at a minimum, will vote only by overcoming
unconscionable burdens, including potential exposure to the COVID-19 virus. These burdens
disproportionately impact voters of color and economically disadvantaged communities.

absentee-ballots-for-April-election-in-Marathon-County-rejected-569748131.html.
37

Absentee Ballot Report - April 7, 2020 Spring Election and Presidential Preference
Primary, Wis. Elections Comm’n (Apr. 17, 2020), https://elections.wi.gov/index.php/node/6859
38

Miles Parks, ‘In The End, The Voters Responded’: Surprising Takeaways From
Wisconsin's
Election,
Nat’l
Public
Radio
(Apr.
15,
2020),
https://www.npr.org/2020/04/15/834037566/in-the-end-the-voters-responded-surprisingtakeaways-from-wisconsin-s-election.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 20
- App. 275 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 21 of 40

47.

As described below, each of the challenged statutory provisions on its own poses

significant risks to voters seeking to exercise their right to vote in the upcoming 2020 elections;
collectively, they combine to ensure that many Wisconsin citizens will continue to be unable to
vote or will have their ballots discarded.
a.

Extension of Deadline for Receipt of Absentee Ballots

48.

In the upcoming 2020 elections, it is highly likely that thousands of absentee ballots

will arrive after the Election Day Receipt Deadline imposed by Wis. Stat. § 8.87(6), due to no fault
of the voters.
49.

In the weeks leading up to the April 7 election debacle, municipal clerks were

inundated with an unprecedented number of absentee ballot requests. Despite valiant efforts from
understaffed clerk’s offices, over 9,300 absentee ballots that were timely requested were not even
mailed out by election day. See supra ¶ 41. That figure apparently does not include the additional
large tubs of undelivered absentee ballots found on election day. Id. Many thousands more voters
received their ballots just days before the election, often leaving insufficient time for them to return
their ballots through the mail by election day.
50.

For the April election, this Court extended the absentee ballot receipt deadline by

six days, and the Seventh Circuit affirmed that decision. The intervening defendants did not
challenge this extension in the U.S. Supreme Court, but instead relied on it in arguing that the
District Court should have imposed an April 7 postmark deadline for absentee ballots. See
Democratic Nat’l Comm. v. Republican Nat’l Comm., 2020 WL 1672702, at **3-4.
Approximately 142,000 absentee ballots arrived during those six days. See supra ¶ 5. Had this
Court not extended the absentee-ballot-receipt deadline, the voters casting these ballots would have
been disenfranchised. In addition, approximately 4,678 additional absentee ballots were rejected

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 21
- App. 276 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 22 of 40

because they arrived after 4:00 p.m. on April 13; it is not yet known how many of these rejected
ballots were timely mailed on or before April 7. 39
51.

All evidence indicates the situation will remain the same for future elections this

year. No plans to hire more staff have been announced, and there currently is no budget for
heightened “postage and envelope costs” for absentee ballots. 40 The Postal Service, already
“pushed to the brink of [its] capabilities” during the April election, is on the verge of bankruptcy.
Supra ¶¶ 41-43.
52.

Accordingly, it is likely that thousands of voters will once again receive their timely

requested absentee ballots too late to be able to cast and return them in sufficient time that the
ballots are received by election day. Without intervention by the Court, all of those voters will be
disenfranchised by the Election Day Receipt Deadline imposed by Wis. Stat. § 8.87(6). That
would squarely conflict with the outcome in Democratic National Committee v. Republican
National Committee, in which all nine Justices unanimously agreed that it was appropriate to
extend the Election Day Receipt Deadline by an additional six days, with the 5-4 disagreement
being over whether those ballots had to be postmarked by election day itself. Compare 2020 WL
1672702, at **1-4 with id. at *5 (Ginsburg, J., dissenting) (“If a voter already in line by the poll’s
closing time can still vote, why should Wisconsin’s absentee voters, already in line to receive
ballots, be denied the franchise?”).

39

See 2020 Spring Election and Presidential Preference Vote Ballot Status as of April 17,
2020, Wis. Elections Comm’n,
https://elections.wi.gov/sites/elections.wi.gov/files/202004/Ballot%20Data%20as%20of%20April%2017%202020.pdf
40

See Summary of April 7, 2020 Election at 5, Wis. Elections Comm’n,
https://elections.wi.gov/sites/elections.wi.gov/files/202004/April%207%20Election%20Summary%20and%20Next%20Steps.pdf.
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 22
- App. 277 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 23 of 40

53.

The Supreme Court majority imposed the postmark deadline in part because it

found “no probative evidence” that “late-requesting voters” in the April 7 election “would be in a
substantially different position from late-requesting voters in other Wisconsin elections,” using the
example of a voter who in an “ordinary election” requests an absentee ballot on the last day for
doing so (the Friday before the election), who can “usually” expect to receive the ballot the
following Monday or even on election day itself―i.e., in time to mail and postmark the ballot by
the end of election day. Id. at *3. The April 7 election results provide the “probative evidence”
the Supreme Court found lacking before the election―evidence that thousands of voters did not
receive their requested ballots until after election day, through no fault of their own. See supra ¶¶
1, 41. These voters were all in “a substantially different position from the late-requesting voters”
described in the per curiam opinion, who received their ballots in time to return them on election
day.
b.

Relief from Requirement of Witness Signature for Absentee Ballots

54.

Wisconsin’s requirement that each voter submitting an absentee ballot have another

adult witness and sign their ballot puts tens of thousands of Wisconsin voters in an untenable
situation and unconstitutionally burdens their right to vote. See Wis. Stat. § 6.87(2). Over 600,000
Wisconsinites live alone, and even more live with an individual who is unqualified to be a witness
(e.g., a child or non-citizen). With the requirements of the Safer-at-Home Order and the health
risks of venturing out to find a witness, many voters who live alone will not have a witness to attest
to their absentee ballots and, absent intervention by the Court, simply will not be able to vote.
Adding to their burden, a significant portion of this population is comprised of senior citizens who
are most at risk from the coronavirus and who could not interact with a witness even if they could
find one.

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 23
- App. 278 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 24 of 40

55.

This Court granted limited relief from the witnessing requirement, allowing a voter

who could not obtain a witness through reasonable effort to certify that “he or she was unable to
safely obtain a witness certification despite his or her reasonable efforts to do so.” Bostelmann,
2020 WL 1638374, at **20, 22. The Seventh Circuit stayed enforcement of this provision for the
April 7 election, concluding that (a) “the district court did not give adequate consideration to the
state’s interests in suspending this requirement”; (b) the Purcell principle counseled against relief
given that the election was only days away; and (c) the “overbreadth of the district court’s order
. . . categorically eliminates the witness requirement applicable to absentee ballots.” Democratic
Nat’l Comm. v. Republican Nat’l Comm., Nos. 20-1538 & 20-1546, at *3. The panel suggested
the WEC’s “alternative suggestions” for fulfilling the witness requirement (e.g., having the witness
observe the voter over Skype, the voter mail the completed ballot to the witness, and the witness
sign and date the ballot) would be sufficient, especially given the extra time that voters had to
obtain a witness signature because of the extension of the ballot-receipt deadline. Id.
56.

WEC’s proposed alternatives proved insufficient. According to preliminary data,

approximately 11,944 returned ballots were rejected because of “insufficient” certification. Supra
¶ 50 & n.39. Moreover, there are strong grounds to believe that many of the 135,417 unreturned
ballots—over 10% of all ballots sent out—were not returned because the voters who had requested
these ballots were unable to navigate the witnessing requirements in the midst of the pandemic and
resulting isolation from others. Supra ¶¶ 44, 54.
57.

Plaintiffs respectfully submit that, given the experience in the April 7 election, both

this Court and the Seventh Circuit should reconsider their views on this issue. The Seventh Circuit
was concerned that this Court gave “no effect to the state’s substantial interest in combatting voter
fraud.” Democratic Nat’l Comm. v. Republican Nat’l Comm., Nos. 20-1538 & 20-1546, at *3.

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 24
- App. 279 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 25 of 40

That criticism is not fairly applied to this Court’s April 2 decision. Moreover, as discussed below,
the State permits “indefinitely confined” voters to forego the requirement of submitting copies or
scans of their photo IDs, even though the photo ID requirement serves the same “substantial
interest in combatting voter fraud.” See infra ¶¶ 62-64. There is no sound basis for allowing
indefinitely confined voters to avoid the photo ID requirements notwithstanding the State’s interest
in combatting voter fraud but not extending similar relief to voters who are willing to attest they
cannot meet the witness requirement.
58.

The Seventh Circuit suggested that one way for a voter to “satisfy the statutory

signature requirement” might be “by maintaining the statutory presence requirement but not
requiring the witness’s physical signature.” Democratic Nat’l Comm. v. Republican Nat’l Comm.,
Nos. 20-1538 & 20-1546, at *4. The panel, however, incorrectly believed the WEC could
implement that suggestion. The WEC does not believe it has the authority to make such an
“accommodat[ion].”41
59.

Even if it rejects broader relief, this Court should, at minimum, take the Seventh

Circuit’s suggestion and provide that a voter who is unable to safely obtain a physical witness
signature may have someone act as a witness from afar (or by video) without obtaining their
physical signature. The voter would then write down the witness’s name and contact information
on the ballot in the space provided, enabling election officials to contact the witness if they had
any questions about the legitimacy of the ballot. This narrow relief would allow individuals to
comply with social-distancing requirements and to avoid the risk of COVID-19 transfer from
touching the same paper. It would not “categorically eliminate[ ] the witness requirement” and
would give “effect to the state’s substantial interest in combating voter fraud.” Democratic Nat’l

41

See, e.g., https://elections.wi.gov/index.php/node/6790.

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 25
- App. 280 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 26 of 40

Comm. v. Republican Nat’l Comm., Nos. 20-1538 & 20-1546, at *3. Indeed, every absentee voter
would have a witness and the State would have information about that witness.
c.

Relief from Proof of Identification Provision

60.

Wis. Stat. §§ 6.86 and 6.87, which require a copy of a voter’s photo identification

to accompany a request for an absentee ballot, continue to burden voters.
61.

As discussed supra ¶ 40, many voters did not even attempt to vote absentee during

the April election because the photo ID requirements were too burdensome, especially for those
without access to smartphones or the Internet. Because many workplaces, public libraries, and
copy shops remain closed, many voters will continue to face substantial burdens in obtaining the
copies or scans they need to complete their absentee ballot applications and will continue to be
prevented from voting. In addition, even if those establishments were open, many voters are
fearful of leaving their homes because of the health risks of the coronavirus pandemic and the
prohibitions in the extended Safer-At-Home Order.
62.

Wisconsin law specifically exempts a voter from the requirement of providing a

photo ID with a request for an absentee ballot if the voter is “indefinitely confined” because of
age, illness, infirmity, or disability. Wis. Stat. §§ 6.86(2)(a), 6.87(4)(b)(2). “Designation of
indefinitely confined status is for each individual voter to make based upon their current
circumstances. It does not require permanent or total inability to travel outside of the residence.”
Jefferson, No. 2020AP557-OA, at *2. This Court relied heavily on the “indefinitely confined”
option in its April 2 order denying preliminary injunctive relief, holding that “the current proof of
ID requirement, as being applied under the WEC guidance and state court order, does not impose
an undue burden on the right to vote[.]” Bostelmann, 2020 WL 1638374, at *21.

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 26
- App. 281 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 27 of 40

63.

The “indefinitely confined” option, however, gets only passing mention in the

instructions provided to voters requesting an absentee ballot. Voters are not told that designation
of indefinitely confined status is for each individual voter to make based on how they feel about
their own current circumstances, nor are they told that a claim of indefinitely confined status does
not require permanent or total inability to travel outside of their residence. As the WEC and
Wisconsin Supreme Court have shown, “indefinitely confined” is not a self-defining term, and in
the absence of explicit, prominent instructions on the absentee ballot request form, many voters
are likely to misunderstand their entitlement to claim this status and, if they are otherwise unable
to copy or upload an acceptable photo ID, may forego attempting to obtain an absentee ballot.
64.

Thus, at a minimum, this Court should hold that materials for requesting absentee

ballots must explicitly and prominently explain a voter’s option to claim “indefinitely confined”
status during the COVID-19 pandemic, including the WEC and Wisconsin Supreme Court
explanations of what that term means.
d.

Relief from Proof of Residence Provision

65.

Wis. Stat. § 6.34 requires new voters to provide a copy of their proof of residence

to register if they do so by mail or online and do not have the number of a current driver’s license
or state identification card with a matching address on file with the Wisconsin Department of
Transportation.
66.

This Court denied as moot plaintiffs’ request to enjoin the enforcement of this

provision in connection with the April 7 election because the registration deadline for that election
had already passed by the time the Court issued its order. Bostelmann, 2020 WL 1638374, at *50.
67.

The issue is not moot with respect to the remaining 2020 elections. Wisconsin’s

requirement that voters provide a copy of their proof of residence to register by mail or

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 27
- App. 282 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 28 of 40

electronically operated to burden eligible voters in the April 7 election and will continue to burden
eligible voters in the upcoming 2020 elections. The scanners and printers that many would-be
electronic or by-mail registrants would typically use are often located at places of work, libraries,
and commercial establishments (e.g., UPS locations) that are now closed or unsafe to visit. As a
result, many Wisconsin citizens will be unable to obtain the copies they need to complete their
voter registration applications and will be prevented from registering.
68.

In addition, it is irrational and unfair for Wisconsin to exempt self-identified

“indefinitely confined” voters from having to comply with some documentary proof requirements
(i.e., photo ID requirements, see supra ¶¶ 62-64) while refusing to exempt such voters from other
documentary proof requirements (i.e., proof of residency requirements). The anti-fraud and
verification purposes of all these proof requirements are similar if not identical. No reasonable
public purpose is served by excusing indefinitely confined voters from some documentation
requirements but not others. If relaxing the photo ID requirements to accommodate indefinitely
confined voters during the current pandemic is appropriate, there is no reasonable public purpose
to be served in failing to relax other documentary proof requirements for such voters.
e.

Extension of Mail-In and Electronic Registration Deadlines

69.

Under Wis. Stat. § 6.28(1), the deadlines for registrations in person, by mail, and

electronically all close on “the 3rd Wednesday preceding the election”—i.e., 21 days before the
election. This provision goes on, however, to authorize registrations in person (but not by mail or
electronically) to continue for those voters who cast “in-person absentee ballot[s]” or vote at the
polls on election day. Id. Thus, those casting in-person absentee ballots may continue to register
until the Sunday before the election, see id.; id. § 6.86(b), and those voting at the polls may register

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 28
- App. 283 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 29 of 40

on election day itself, but those seeking to register by mail or electronically must do so no later
than three full weeks before the election.
70.

Historically, Wisconsin voters have registered to vote in person in large numbers,

relying heavily on same-day registration during in-person absentee voting or on election day. As
a result, thousands of Wisconsin voters typically do not register before they vote. However, many
Wisconsinites did not have viable in-person registration options for the April 7 elections. As
discussed above, in-person absentee voting was shut down in many parts of Wisconsin. See supra
¶ 34. And many Wisconsinites were understandably reluctant—if not altogether unable—to
venture out in public to register and vote either through in-person absentee voting or at the polls,
given the public health risks during the pandemic. For these voters, failure to register 21 days
prior to the election effectively meant they could not vote.
71.

No valid, reasonable state interests are served by this disparity and discrimination

against by-mail and electronic registration. If election officials can accommodate registrations as
late as election day when done in person, there is no sufficient reason why they cannot
accommodate by-mail and electronic registrations much closer to the election than “the 3rd
Wednesday preceding” it.
72.

In its March 20, 2020 Opinion and Order, this Court recognized “the excruciating

dilemma” faced by those who missed the statutory deadline for by-mail or electronic registration—
“either venture into public spaces, contrary to public directives and health guidelines or stay at
home and lose the opportunity to vote.” ECF No. 37 at 11. The Court found it likely that this was
“an undue burden on citizens’ right to vote,” and concluded that extending the registration deadline
would “impose only a minimal burden while potentially affording a great number of as yet
unregistered voters the opportunity to exercise their franchise by safely voting absentee.” Id. at

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 29
- App. 284 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 30 of 40

12, 15.

The Court ordered that the “deadline by which individuals may register to vote

electronically” be extended from March 18 to March 30 but declined to extend the by-mail
registration deadline. Id. at 14-15, 20.
73.

As the Court predicted, the evidence demonstrates that the extension of the

electronic registration deadline to March 30 imposed only minimal burdens while affording many
voters the opportunity both to register and to vote without risking exposure to the COVID-19 virus.
In fact, the evidence shows that election administrators could have accommodated an extension of
both the electronic and the by-mail registration deadlines to April 3, the Friday before the election.
The Court’s concerns about by-mail registrations received even closer to the election that this, see
id. at 14-15, could be resolved by requiring that by-mail requests be received by the Friday before
the election.
74.

Absent relief by this Court, unregistered but eligible voters who decide to register

and vote shortly before one of the upcoming 2020 elections will face the same “excruciating
dilemma” identified by this Court—“either venture into public spaces, contrary to public directives
and health guidelines or stay at home and lose the opportunity to vote.” Id. at 11.
75.

The individual and cumulative impacts of the challenged statutory provisions

discussed supra ¶¶ 46-74 (together with defendants’ failure to ensure a sufficient number of safe
early absentee-voting sites and election-day polling places) will, absent injunctive relief, cause
plaintiffs, their members, and their constituents irreparable injuries that cannot be adequately
redressed by money damages. Those injuries greatly outweigh any alleged injuries that defendants
and intervenor-defendants may claim to face from the requested injunctive relief.
76.

The balance of the equities and the public interest strongly favor plaintiffs’

requested injunctive relief.

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 30
- App. 285 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 31 of 40

CLAIMS FOR RELIEF
COUNT I
First and Fourteenth Amendments
U.S. Const. Amend. I and XIV, 42 U.S.C. § 1983, 28 U.S.C. §§ 2201, 2202
Undue Burden on the Right to Vote
77.

Plaintiffs reallege and incorporate by reference all prior paragraphs of this Second

Amended Complaint and the paragraphs in the counts below as though fully set forth herein.
78.

Under the Anderson-Burdick balancing test, a court considering a challenge to a

state election law must carefully balance the character and magnitude of injury to the First and
Fourteenth Amendment rights that the plaintiff seeks to vindicate against “‘the precise interests
put forward by the State as justifications for the burden imposed by its rule,’ taking into
consideration ‘the extent to which those interests make it necessary to burden the plaintiff’s
rights.’” See Burdick v. Takushi, 504 U.S. 428, 434 (1992) (quoting Anderson v. Celebrezze, 460
U.S. 780, 789 (1983)).
79.

Unless plaintiffs are granted the relief requested herein thousands of Wisconsin

voters, including plaintiffs’ members and constituents, will be severely burdened in attempting to
exercise their right to vote (if not outright disenfranchised) in the upcoming 2020 elections. These
burdens will fall disproportionately and with extra force on African American, Latino, and Hmong
voters as well as economically disadvantaged voters.
80.

Because of the ongoing pandemic and its projected course, many Wisconsin voters

who would normally register in-person after the statutory cut-off for electronic and by-mail
registration (either by registering during early in-person voting or at the polls) will continue to be
unable or unwilling to do so. Similarly, Wisconsin voters are less able and, in some cases, wholly
unable to copy and scan the documents and photo IDs required to complete their electronic and
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 31
- App. 286 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 32 of 40

by-mail registration and absentee ballot applications. And, as absentee balloting increasingly
becomes the safest way to vote, Wisconsin voters will remain at high risk of not receiving their
ballots with sufficient time to return them to the municipal clerk’s office so they are received prior
to the Election Day Receipt Deadline. Indeed, many thousands of voters may once again not even
receive their timely requested absentee ballots by election day, making it impossible to cast those
ballots by election day. These are severe burdens on the right to vote that will continue to lead to
the outright disenfranchisement of many voters.
81.

The State cannot provide any colorable justification as to why the statutory deadline

for electronic and by-mail registrations should not be extended and why ballots received after the
Election Day Receipt Deadline should not be counted in light of the unprecedented strains on the
voting and postal systems created by the COVID-19 pandemic.
82.

Further, the requirement that voters have witnesses attest to the truthfulness of their

personal information on absentee ballots will disenfranchise many Wisconsin voters who are
unable to locate witnesses for this purpose. The State has reasonable alternative means to enforce
the witness requirement without requiring a physical witness signature on a voter’s ballot.
83.

And because of the State’s continuing failure to provide sufficient financial,

personnel, and other resources to local election officials to ensure an adequate number of safe early
in-person absentee voting sites and election-day polling places throughout the State, many voters
will continue to be at risk of having to endure long lines and wait times in order to register and
vote in person on election day and will thereby increase their risk of exposure to the COVID-19
virus. Wisconsin has delegated its authority to “establish[]” polling places to local governing
bodies, Wis. Stat. § 5.25(2), but the State cannot delegate its duty to ensure safe and sufficient inperson registration and voting facilities for all voters throughout the State. The defendants bear

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 32
- App. 287 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 33 of 40

the statutory “responsibility for the administration of” Wisconsin’s election laws, Wis. Stat. §
5.05(1), which at minimum requires defendants to develop and implement plans to coordinate
available state, local, and private resources to ensure that all voters throughout the State are able
to cast early in-person absentee votes and to vote in-person on election day in as safe and secure a
manner as feasible.
84.

In short, the challenged matters are not supported by a state interest that is sufficient

to justify the resulting burdens on the right to vote, and thus violate the First and Fourteenth
Amendments.
COUNT II
Due Process
U.S. Const. Amend. XIV, 42 U.S.C. § 1983
Denial of Procedural Due Process

85.

Plaintiffs reallege and incorporate by reference all prior paragraphs of this Second

Amended Complaint and the paragraphs in the counts below as though fully set forth herein.
86.

The Fourteenth Amendment’s Due Process Clause prohibits the states from

depriving “any person of . . . liberty . . . without due process of law.” U.S. Const. amend. XIV, §
1. The right to vote is a fundamental liberty that is recognized and protected by the U.S.
Constitution. Which protections are due in a given case requires a careful analysis of the
importance of the rights and the other interests at stake. See Mathews v. Eldridge, 424 U.S. 319,
334–35 (1976). Courts must first consider the nature of the interest that will be affected by the
government’s actions as well as the “degree of potential deprivation that may be created” by
existing procedures. Id. at 341. Second, courts consider the “fairness and reliability” of the existing
procedures “and the probable value, if any, of additional procedural safeguards.” Id. at 343.
Finally, courts consider the public interest, which “includes the administrative burden and other
SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 33
- App. 288 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 34 of 40

societal costs that would be associated with” additional or substitute safeguards. Id. at 347 “[D]ue
process is flexible and calls for such procedural protections as the particular situation demands.”
Id. at 334 (quotation and citation omitted).
87.

Wisconsin’s procedures for registering to vote, absentee voting, and voting in

person must comport with due process. “Such due process is not provided when the election
procedures [for voting by mail]” do not adequately protect the right to vote or ensure that an
“individual is not continually and repeatedly denied so fundamental a right.”

Raetzel v.

Parks/Bellemont Absentee Election Bd., 762 F. Supp. 1354, 1358 (D. Ariz. 1990); see also Saucedo
v. Gardner, 335 F. Supp. 3d 202, 217 (D.N.H. 2018) (“Having induced voters to vote by absentee
ballot, the State must provide adequate process to ensure that voters’ ballots are fairly considered
and, if eligible, counted.”).
88.

“When an election process ‘reache[s] the point of patent and fundamental

unfairness,’ there is a due process violation.” Fla. State Conference of N.A.A.C.P. v. Browning,
522 F.3d 1153, 1183 (11th Cir. 2008) (citation omitted) (re substantive due process).
89.

Under the current circumstances, there is little question that Wisconsin’s election

process is fundamentally unfair. The nature of the interest at stake in this case⸺the right to vote
and to have that vote count⸺is the most precious liberty interest of all because it is preservative
of all other basic civil and political rights.
90.

But the challenged matters threaten to continue to deprive Wisconsin voters of this

right in the remaining 2020 elections. Given the unprecedented situation at hand, Wisconsin must
establish adequate procedures to ensure that voters have a reliable, fair, effective and safe method
to cast their ballots in these upcoming elections. Because the challenged matters are markedly
inadequate in all of these respects, and substitute procedures are readily available to protect voters’

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 34
- App. 289 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 35 of 40

rights with minimal burden to the State, the challenged matters violate Wisconsin voters’
procedural due process rights.
COUNT III
Equal Protection
U.S. Const. Amend. XIV, 42 U.S.C. § 1983
91.

Plaintiffs reallege and incorporate by reference all prior paragraphs of this Second

Amended Complaint and the paragraphs in the counts below as though fully set forth herein.
92.

The Equal Protection Clause of the Fourteenth Amendment to the United States

Constitution prohibits a state from “denying to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV, § 1. This constitutional provision requires that
“all persons similarly situated should be treated alike.” City of Cleburne v. Cleburne Living
Center, 473 U.S. 432, 439 (1985).
93.

And this applies to voting. “Having once granted the right to vote on equal terms,

the State may not, by later arbitrary and disparate treatment, value one person’s vote over that of
another.” Bush v. Gore, 531 U.S. 98, 104-05 (2000). Among other things, this requires “specific
rules designed to ensure uniform treatment” in order to prevent “arbitrary and disparate treatment
to voters” based on which county or local jurisdiction they live in. Id. at 106-07. There is no
“emergency exemption” from this equal protection requirement. “The press of time does not
diminish the constitutional concern. A desire for speed is not a general excuse for ignoring equal
protection guarantees.” Id. at 108-09; see also id. at 109 (shutting down the 2000 Florida recount

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 35
- App. 290 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 36 of 40

because the recount process was “inconsistent with the minimum procedures necessary to protect
the fundamental right of each voter”).
94.

The April 7 election abounded with many examples of unfair, unequal, and

disparate treatment of Wisconsin voters depending on where they live. Safe and sufficient inperson registration, absentee voting, and election-day voting opportunities were available to some
Wisconsin voters but not to others, depending on where they resided. See, e.g., ECF Nos. 63-10,
63-12, 63-14; Exs. 10, 12, 14; see also ECF No. 39 at 2 (identifying closure of some, but not all,
polling places due to COVID-19). Voters of color and the urban poor were disproportionately
denied sufficient opportunities for safe in-person registration, early voting, and election-day
voting. Similarly, the application of the documentation requirements for registering to vote and
requesting an absentee ballot varied broadly across cities and counties, resulting in some voters
being subject to these requirements while others were not. See ECF No. 74 ¶ 7. Voters also
received conflicting guidance on the witness requirement for absentee ballots depending on where
they lived and who they called. See, e.g., ECF No. 63-16 at 6 (quoting Madison officials
suggesting FaceTime or Skype to satisfy requirement). Many voters, particularly those who live
alone, lacked access to a witness but were simultaneously being instructed by the authorities to
stay at home and practice social distancing. See, e.g., ECF No. 66 ¶ 3; ECF No. 70 ¶ 3; ECF No.
75 ¶ 4.
95.

Another example of disparate and non-uniform treatment involved the

interpretation and administration of the U.S. Supreme Court’s requirement that an absentee ballot
be “postmarked by election day” in order to be counted. Democratic Nat’l Comm. v. Republican
Nat’l Comm., 2020 WL 1672702, at *2. Wisconsin elections officials and the Postal Service do
not follow uniform standards and procedures in postmarking absentee ballots. As a result, many

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 36
- App. 291 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 37 of 40

absentee ballots were returned to local election officials by the Postal Service with either no
postmarks at all, postmarks without dates, or illegible postmarks. The six Commissioners of the
WEC, on a 3-3 tie vote, largely failed to agree on how election officials should address these issues,
leaving local election officials throughout Wisconsin to make these decisions without any uniform
standards ensuring consistent treatment throughout the State, rather than through discretion
exercised locality by locality.
96.

A further example of “arbitrary and disparate treatment [of] voters,” Bush, 531 U.S.

at 104-05, is the interpretation adopted by the WEC and the Wisconsin Supreme Court of Wis.
Stat. §§ 6.86(2)(a) and 6.87(4)(b)(2), which exempt voters who are “indefinitely confined because
of age, physical illness or infirmity” from many of the absentee voting restrictions and conditions.
In response to conflicting advice from county and local election officials about what it takes to be
“indefinitely confined” by the pandemic within the meaning of these statutes, the Wisconsin
Supreme Court, in an original action, adopted the WEC’s guidance, which provides in relevant
part that the “[d]esignation of indefinitely confined status is for each individual voter to make
based upon their current circumstances. It does not require permanent or total inability to travel
outside of the residence.”

Jefferson, No. 2020AP557-OA, at *2 (emphasis added).

This

“guidance” in no way provides “uniform” rather than “arbitrary and disparate treatment to voters.”
Bush, 531 U.S. at 106-07. If using a standard that “might vary … from county to county” or
“within a single county” violates equal protection, id. at 106, so much more the case where the
interpretation and application of the standard varies from voter to voter.
97.

In these and other respects, if this Court does not require “uniform rules” and

“specific standards” in conducting the remaining 2020 elections under these emergency
conditions, there will be an unacceptably high risk that Wisconsin will not satisfy “the minimum

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 37
- App. 292 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 38 of 40

requirement for nonarbitrary treatment of voters necessary to secure the fundamental right” to vote.
Bush, 531 U.S. at 105-06. If anything, the equal protection risks are even greater here than in Bush
v. Gore. There, the right to vote was at risk. Here, the risks are to the right to vote and to the right
to life⸺our own and the lives of others.
98.

The dramatically inconsistent availability of safe and sufficient in-person

registration and voting opportunities, the diverging standards across cities and counties with
respect to the documents required to register and vote, the conflicting guidance on the witness
requirement for absentee ballots, the absence of any statewide standards for implementing the
“postmark” requirement, and the standardless discretion left to each voter in applying the
“indefinitely confined” exception are depriving voters, including plaintiffs’ constituents, of equal
protection of the laws.
PRAYER FOR RELIEF
WHEREFORE, plaintiffs respectfully request that this Court enter judgment:
A.

Declaring that in the context of the current coronavirus crisis, Wisconsin’s current

by-mail and electronic registration deadlines, Wisc. Stat. § 6.28(1); requirements that copies of
proof of residence and voter photo ID accompany electronic and by-mail voter registration and
absentee applications, id. § 6.34, 6.86, respectively; requirement that polling places receive
absentee ballots by 8:00 p.m. on election day to be counted, id. § 6.87; and requirement that an
absentee voter obtain the signature of a witness attesting to the accuracy of personal information
on an absentee ballot, id. § 6.87(2); together with defendants’ failure to ensure that all citizens
have safe and sufficient opportunities to register and vote in person, are unconstitutional in
violation of the First and Fourteenth Amendments;
B.

Enjoining defendants and their respective agents, officers, employees, and

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 38
- App. 293 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 39 of 40

successors, and all persons acting in concert with each or any of them, from rejecting ballots that
are postmarked on or before Election Day and arrive at the municipal clerk’s office within a
minimum of ten days after Election Day, subject to the definition of “postmarked” discussed supra
n.12;
C.

Enjoining in part the enforcement of the witness requirement in Wis. Stat. § 6.87(2)

until the COVID-19 crisis is over;
D.

Enjoining in part the enforcement of the photo identification requirements in Wis.

Stat. §§ 6.86 and 6.87 until the COVID-19 crisis is over;
E.

Enjoining in part the enforcement of the proof of residency requirement in Wis.

Stat. § 6.34 for voter registrations until the COVID-19 crisis is over;
F.

Ordering defendants to extend Wisconsin’s deadline for electronic and by-mail

registration to the Friday before each of the remaining 2020 elections;
G.

Ordering defendants to exercise their statutory authority and responsibility, see

Wis. Stat. § 5.05(1), to develop and implement plans to coordinate available state, local, and
private resources to ensure that all voters throughout the State are able to cast early in-person
absentee ballots and to vote in-person on election day in a safe and secure manner;
H.

Awarding plaintiff their costs, expenses, and reasonable attorneys’ fees pursuant

to, inter alia, 42 U.S.C. § 1988 and other applicable laws; and
I.

Granting such other relief as the Court deems just and proper.

Dated this 30th day of April, 2020.

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 39
- App. 294 -

Case: 3:20-cv-00249-wmc Document #: 198-1 Filed: 04/30/20 Page 40 of 40

Respectfully submitted,
/s/ John Devaney
Marc E. Elias
John Devaney
Bruce V. Spiva
Amanda R. Callais
Zachary J. Newkirk
PERKINS COIE LLP
700 Thirteenth St., N.W., Suite 800
Washington, D.C. 20005-3960
Telephone: (202) 654-6200
Facsimile: (202) 654-9959
melias@perkinscoie.com
jdevaney@perkinscoie.com
bspiva@perkinscoie.com
acallais@perkinscoie.com
znewkirk@perkinscoie.com
Charles G. Curtis, Jr.
Sopen B. Shah
PERKINS COIE LLP
33 East Main Street, Suite 201
Madison, Wisconsin 53703-3095
Telephone: (608) 663-7460
Facsimile: (608) 663-7499
CCurtis@perkinscoie.com
SShah@perkinscoie.com
Counsel for the Plaintiffs

SECOND AMENDED COMPLAINT OF DNC AND DPW FOR DECLARATORY AND
INJUNCTIVE RELIEF - 40
- App. 295 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 1 of 71

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
_______________________________________________
)
Jill Swenson
)
Melody McCurtis
)
Maria Nelson
)
Black Leaders Organizing for Communities
)
Disability Rights Wisconsin
)
)
) No. 20-CV-459-WMC
Plaintiffs,
)
v.
)
)
Marge Bostelmann, Julie M. Glancey, Ann S. Jacobs,
)
Dean Knudson, Robert F. Spindell, Jr., and
)
Mark L. Thomsen, Commissioners of the Wisconsin
)
Elections Commission;
)
)
Meagan Wolfe, Administrator of
)
the Wisconsin Elections Commission.
)
)
)
Defendants.
)
_______________________________________________ )

FIRST AMENDED COMPLAINT AND PRAYER FOR DECLARATORY AND
INJUNCTIVE RELIEF

- App. 296 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 2 of 71

INTRODUCTION
1.

The April 7, 2020 election was unlike any other in Wisconsin’s history, tainted by

breakdowns in critical aspects of the election process and disenfranchisement of a substantial
number of Wisconsin voters. Two days before the election, the Surgeon General of the United
States likened the novel coronavirus (“COVID-19”) pandemic to the Pearl Harbor and
September 11 attacks, warning the nation to prepare for the “saddest week of most Americans’
lives.”1 While all other states with primaries scheduled in April delayed their elections,
Wisconsin held its election in the midst of a global pandemic. Defendants and others took steps
to attempt to administer the election fairly, including some at the order of this Court, but those
actions were insufficient to protect the rights of Wisconsin voters. As a result, voters were forced
to choose between forgoing their constitutional rights to participate in their democracy or risking
the health of themselves and their loved ones in order to vote. Tens of thousands of voters were
disenfranchised by failures in the absentee and in-person voting systems. The election shook the
public’s faith in the democratic process.
2.

This outcome was foreseeable and, for too many Wisconsin voters, including

Plaintiffs, preventable. For over a month before the election, Defendants were aware of the
growing danger of COVID-19 and the attendant risks of administering an election during the
escalating pandemic. With each passing day, public health officials grew louder in their calls for
social distancing, urging Americans to stay at home. Each day brought more deaths and more
new infections. By election day, 83 Wisconsinites had died of COVID-19 and 2,440 residents
were known to be infected with the virus. At the same time, election experts from across the
country expressed alarm over the lack of actionable steps taken by the state to conduct an

1

Quint Forgey, Surgeon General Warns This Week ‘Is Going to Be Our Pearl Harbor Moment’, POLITICO (Apr. 5,
2020), available at https://www.politico.com/news/2020/04/05/surgeon-general-pearl-harbor-moment-165729.

1
- App. 297 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 3 of 71

election in such extraordinary circumstances. As municipal and county clerks warned about the
lack of capacity and resources to carry out the election properly, nine mayors, including the
mayors of the five largest cities in Wisconsin, demanded that the election be postponed.2
3.

What ensued has been described by one election law expert as the biggest election

failure since the Voting Rights Act was enacted in 1965.3 Voters encountered obstacles at almost
every stage of the election process, including: navigating the online systems designed to register
voters and request absentee ballots; requesting absentee ballots, which were either never
delivered or delivered too late; and voting in person. Before election day, 111 voting
jurisdictions reported not having enough poll workers to open even one polling place; on election
day, Milwaukee had 5 (of its usual 180) polling locations, Green Bay had 2 (of its usual 31)
polling locations, and Waukesha had only 1 (of its usual 15). Voters who did go to the polls in
many places encountered long waits and voting locations without adequate safety supplies for
voters and poll workers alike.
4.

Plaintiffs bring this case to prevent a replay of this mass disenfranchisement in

either the August Partisan Primary or the November General Election. Like the April 7 election,
those elections will take place against the backdrop of COVID-19 and the extraordinary
challenges it presents to election administrators and voters. There is a growing consensus among
experts that COVID-19 will alter the daily lives of Americans at least into next year, and
certainly through November. Whatever the precise course of the pandemic between now and the
coming elections, there is no question that community transmission and attendant risks will

2

Joseph Ax, Citing Coronavirus, Wisconsin Mayors Urge Postponement of Tuesday’s Election, REUTERS (Apr. 5,
2020), available at https://www.reuters.com/article/us-health-coronavirus-election-wisconsin/citing-coronaviruswisconsin-mayors-urge-postponement-of-tuesdays-election-idUSKBN21O0CZ.
3
Shawn Johnson, To the Polls in a Pandemic: How Wisconsin Went Ahead with an Election Amidst a Public Health
Crisis, WIS. PUBLIC RADIO (Apr. 13, 2020), available at
https://www.wpr.org/polls-pandemic-how-wisconsin-went-ahead-election-amidst-public-health-crisis.

2
- App. 298 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 4 of 71

continue to impact the demand for online registration and for absentee voting methods, safe
protocols for in-person voting, and other mechanics and processes of voting and election
administration. The U.S. Constitution and the Voting Rights Act of 1965 require Defendants to
administer upcoming elections in a way that avoids forcing voters to choose between their votes
and their safety.
5.

The U.S. Constitution guarantees that no eligible Wisconsin citizen will be

deprived of the right to vote. Plaintiffs are individuals who were deprived of that right in the
April 7 election and organizations whose work to ensure that Wisconsinites can participate in
elections is burdened by Defendants’ failure to provide a safe and accessible election under
pandemic conditions. Plaintiffs allege that Defendants, by failing to take appropriate actions to
ensure that Wisconsinites can safely access the ballot, violated Section 11(b) of the Voting
Rights Act, the First and Fourteenth Amendments of the U.S. Constitution, and the Americans
with Disabilities Act (“the ADA”). They bring this civil action to enjoin Defendants—
Commissioners and the Administrator of the Wisconsin Elections Commission—from similarly
violating Wisconsinites’ rights to vote during future elections affected by COVID-19.
6.

As the April 7 election demonstrated, Defendants maintain and administer an

election system that—amidst a pandemic that both Wisconsin and national public health officials
expect will continue and might well intensify between now and November—forces voters to
choose between casting a ballot and protecting their own, their families’, and their communities’
health. In the April 7 election, Defendants failed to take available steps necessary to allow voters
to vote safely, either in person or by the absentee voting procedures provided by Wisconsin law;
and, despite the reports of substantial voter disenfranchisement, they have not taken sufficient
steps to remedy those failures in advance of the coming elections. The burdens imposed by those

3
- App. 299 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 5 of 71

failures, moreover, did not fall equally on voters across the state. As a result, voters faced starkly
different opportunities to safely cast a ballot depending on where they live, their age, their
disability status, and their race.
7.

Plaintiffs do not contest the results of the April 7 election. Plaintiffs instead come

before this Court to obtain an order requiring Defendants to administer impending elections in a
manner that will not violate eligible voters’ federally protected rights to participate in those
elections. To be sure, Wisconsin’s April 7 election was conducted in the face of a public health
crisis that few foresaw until the month before the election, and many election officials worked
hard to manage the challenges it posed. Those challenges, however, do not alter the fundamental
commands of the U.S. Constitution, the Voting Rights Act, and the Americans with Disabilities
Act: that Defendants take reasonable steps to ensure that all voters can safely access the ballot
and participate equally in a fair democratic process.
8.

Specifically, to comply with the requirements of federal law, Defendants must

ensure that in-person voting can be safely conducted during the impending elections, including
by mandating that all polling locations be managed in compliance with social distancing
guidelines to minimize COVID-19 transmission risk; that there is an adequate number of poll
workers to open and administer safe, in-person polling locations; that ample, safe opportunities
for in-person absentee voting are available; that all voters who request and are qualified to
receive absentee ballots in fact timely receive those ballots; that voters can safely, effectively,
and timely return their absentee ballots so their votes are counted; and that online systems
designed to register voters and request absentee ballots are sufficient to handle anticipated voter
traffic. Critically, to restore public confidence in the electoral process and prevent further

4
- App. 300 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 6 of 71

disenfranchisement, Defendants must also educate the Wisconsin public about how they can
safely vote—either in person or by absentee ballot—in the impending elections.
9.

Defendants failed to implement such measures for the April 7 election and have

not taken steps to do so for the rapidly approaching August and November elections. Careful
preparations are necessary to meet the inevitable challenges of conducting safe, fair elections
amidst a pandemic. And those preparations must be undertaken sufficiently in advance of
election day. Implementing changes to the administration of elections requires planning and
preparation. Yet Defendants have not adopted policies that would implement the changes
necessary to avoid the widespread disenfranchisement and substantial burdens on the right to
vote that plagued the April 7 primary. Absent intervention by this Court—including by requiring
Defendants to adopt such necessary policies when authorized by state law, and by enjoining state
laws that currently preclude Defendants from taking necessary measures—the same electoral
process breakdown and resulting violation of Plaintiffs’ rights under federal law is likely to recur
during the impending August Partisan Primary and November General Election.
PARTIES
I.

Plaintiffs
10.

Plaintiff Jill Swenson is a resident of Appleton, Wisconsin, and a registered

voter. Ms. Swenson is sixty-one years old and has early stage chronic obstructive pulmonary
disease (“COPD”), an inflammatory lung disease. Ms. Swenson was unable to vote in person
because of the risk to her physical health and safety represented by the COVID-19 pandemic.
She requested and received a mail-in absentee ballot, but she lives alone and was unable to
secure an in-person witness. Consistent with this Court’s order in Democratic Nat’l Comm. v.
Bostelmann, No. 20-CV-249-WMC, 2020 WL 1638374, *18-20 (W.D. Wis. Apr. 2, 2020), she

5
- App. 301 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 7 of 71

mailed in an un-witnessed absentee ballot on the morning of April 3, 2020. After the Seventh
Circuit stayed that order, Democratic Nat’l Comm. v. Bostelmann, Nos. 20-1538, 1539, 1545,
1546, Order (7th Cir. Apr. 3, 2020), and as a result of Defendants’ decision not to provide voters
like Ms. Swenson a reasonable opportunity to cure, Ms. Swenson’s ballot was not counted. She
was thus disenfranchised in the April 7 election. Ms. Swenson does not currently have a safe and
effective way to cast a ballot in the upcoming elections.
11.

Plaintiff Melody McCurtis is a resident of Sherman Park in Northwest

Milwaukee, Wisconsin, and a registered voter. Ms. McCurtis lives with her
immunocompromised mother, so it was unsafe for her to vote in person due to the COVID-19
pandemic. As a Black community organizer, she is also aware of the disproportionate rates of
infection and death in the Black community, and these elevated risks added to her fears. She
timely requested an absentee ballot on March 22, 2020. Her ballot never arrived. In order to vote
in the April 7 election, Ms. McCurtis was forced to endanger her mother and endure a wait of
more than two hours at Washington High School. Ms. McCurtis was unsafe because voters in
line were not able to maintain social distance, because the polling location did not provide voters
with personal protective equipment, and because voting equipment did not appear to be sanitary.
Ms. McCurtis plans to vote in August and November and presently does not have a safe,
equitable way to cast her ballot.
12.

Plaintiff Maria Nelson is a resident of Appleton, Wisconsin, and a registered

voter. Ms. Nelson has breast cancer and has been undergoing treatment since February 2019. As
a result, she did not feel safe voting in person. Ms. Nelson timely emailed her absentee ballot
request to the Appleton Clerk’s office. She did not receive an absentee ballot by April 7, 2020.
Ms. Nelson was unable to vote in person on April 7 because of the risk to her physical health and

6
- App. 302 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 8 of 71

safety represented by the ongoing COVID-19 pandemic. Ms. Nelson was thus disenfranchised in
the April 7 election. Ms. Nelson does not currently have a safe and effective way to cast a ballot
in the upcoming elections.
13.

Plaintiff Black Leaders Organizing for Communities (“BLOC”) is a civic

engagement project based in Milwaukee, Wisconsin, and a fiscally sponsored project of Tides
Advocacy, a California nonprofit. BLOC mobilizes Black Wisconsinites to participate at all
levels of government and encourages communities of color to fulfill their potential for electoral
impact in Milwaukee. As part of its work, BLOC educates the Black community in Milwaukee
about voter eligibility rules and the options for casting a ballot, and it conducts a get-out-the-vote
field program. In the run-up to the April 7 election, BLOC was forced to divert significant
resources in response to the constitutional and statutory violations challenged here. BLOC staff
were forced to spend additional time troubleshooting online registration and absentee ballot
request issues, walking voters through changing deadlines, and providing them with information
about what in-person voting in Milwaukee would look like. This diversion of resources has
continued through the May 12th Special Election and will continue through the August and
November elections if these violations are not remedied.
14.

Plaintiff Disability Rights Wisconsin (“DRW”) is a statewide nonpartisan,

nonprofit, non-stock corporation organized under the laws of Wisconsin. DRW is based in
Madison, and maintains offices across the state, including in Menasha, Milwaukee, Green Bay,
and Rice Lake. DRW’s mission is to address the issues facing, and to ensure the rights of, all
people with disabilities in Wisconsin. DRW is a member of the National Disability Rights
Network and is designated by the Governor of Wisconsin to act as the congressionally mandated
protection and advocacy system for Wisconsin citizens with disabilities, pursuant to Wis. Stat.

7
- App. 303 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 9 of 71

§ 51.62; 29 U.S.C. § 794e; 42 U.S.C. §§ 15041, et seq.; and 42 U.S.C. §§ 10801, et seq.
Accordingly, DRW has a state and federal mandate to protect and advocate for the rights of
people with disabilities in Wisconsin, including those with developmental disabilities, mental
illness, and traumatic brain injury. As part of this mandate, DRW oversees self-advocacy training
and other programs and services to assist people with disabilities, including to secure election
access, registering to vote, accessing polling places, and casting their ballots, and it staffs a Voter
Hotline to assist voters with disabilities. DRW also co-leads the Wisconsin Disability Vote
Coalition. In the run-up to the April 7 election, DRW was forced to divert significant resources
in response to the constitutional and statutory violations challenged here. DRW had to produce
numerous resources and trainings for voters that it would not have otherwise produced, and it
had to spend staff time untangling the options for voters with disabilities and assisting voters
who were at risk of being disenfranchised. This diversion of resources has continued through the
May 12th Special Election and will continue through the August and November elections if these
violations are not remedied. DRW also brings this suit on behalf of people with disabilities in
Wisconsin who face significant obstacles to voting as a result of COVID-19 and will either be
disenfranchised or exposed to heightened risk of illness if their legal rights to safely vote are not
vindicated.
II.

Defendants
15.

Defendants Marge Bostelmann, Julie M. Glancey, Ann S. Jacobs, Dean

Knudson, Robert F. Spindell, Jr., and Mark L. Thomsen are the six Commissioners of the
Wisconsin Elections Commission and are named as Defendants in their official capacities.
Together, they comprise the Wisconsin Elections Commission, the body that administers and

8
- App. 304 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 10 of 71

enforces Wisconsin’s election laws other than those related to campaign finance. Wis. Stat.
§ 5.05(1), (2w).
16.

Defendant Meagan Wolfe is sued in her official capacity as the Administrator of

the Wisconsin Elections Commission. She is the chief elections officer of the state. Wis. Stat.
§ 5.05(3g).
17.

Defendants have acted under color of state law at all times relevant to this action.
JURISDICTION AND VENUE

18.

Plaintiffs bring this action under 42 U.S.C. §§ 1983 and 1988 to redress the

deprivation, under color of state law, of rights secured by the U.S. Constitution and by the
Voting Rights Act, 52 U.S.C. §§ 10101, et seq., and the Americans with Disabilities Act, 42
U.S.C. §§ 12131, et seq. This Court has jurisdiction over Plaintiffs’ claims pursuant to 28 U.S.C.
§§ 1331 and 1343 because this case arises under the U.S. Constitution and federal statute and
seeks equitable and declaratory relief for the deprivation of federal constitutional and statutory
rights under color of state law.
19.

This Court has jurisdiction to award attorneys’ fees and costs pursuant to 42

U.S.C. § 1988(b) and 28 U.S.C. § 1920.
20.

This Court has jurisdiction to grant declaratory relief pursuant to 28 U.S.C.

§§ 2201 and 2202.
21.

This Court has personal jurisdiction over Defendants, who are sued in their

official capacities only.
22.

Venue is appropriate in the Western District of Wisconsin, under 28 U.S.C.

§ 1391(b)(1), because Defendants are state officials located in Madison, Wisconsin. A

9
- App. 305 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 11 of 71

substantial part of the events giving rise to these claims occurred and continues to occur in this
district, making venue also proper under 28 U.S.C. § 1391(b)(2).
FACTUAL ALLEGATIONS
I.

Defendants and the Wisconsin Elections Commission
23.

The Wisconsin Elections Commission (“the Commission”) administers and

enforces all “laws relating to elections and election campaigns, other than laws relating to
campaign financing,” which are administered separately by the Wisconsin Ethics Commission.
Wis. Stat. § 5.05(1), (2w).
24.

The Commission consists of six members, four appointed by legislative leaders

and two nominated by the Governor. Wis. Stat. § 15.61. Defendants Bostelmann, Glancey,
Jacobs, Knudson, Spindell, and Thomsen are the members of the Commission.
25.

The Commission operates “under the direction and supervision of an

administrator,” who also serves as the “chief election officer” for the state. Wis. Stat.
§ 15.61(1)(b); Wis. Stat. § 5.05(3g). Defendant Wolfe is the Administrator of the Commission.
26.

The Commission maintains wide-ranging authority over the architecture of

Wisconsin’s electoral system. The Commission retains authority to promulgate rules “applicable
to all jurisdictions for the purposes of interpreting or implementing the laws regulating the
conduct of elections or election campaigns, other than laws regulating campaign financing, or
ensuring their proper administration.” Wis. Stat. § 5.05(1)(f).
27.
•

Among many other things, the Commission’s authority includes:
Issuing appropriate guidance or formal advisory opinions, or promulgating
administrative rules, necessary to implement any state or federal court decision that is
binding on the Commission. Wis. Stat. § 5.05(5t).

10
- App. 306 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 12 of 71

•

Providing financial assistance to eligible counties and municipalities for election
administration costs, consistent with other provisions of state law. Wis. Stat.
§ 5.05(10)-(11).

•

Conducting or prescribing requirements for educational programs to inform electors
about voting procedures, voting rights, and voting technology. Wis. Stat. § 5.05(12).

•

Ensuring that the voting system used at each polling place permits all individuals
with disabilities to vote without the need for assistance and with the same degree of
privacy that is accorded to nondisabled electors voting at the same polling place. Wis.
Stat. § 5.25(4); and

•

Prescribing uniform instructions for municipalities to provide to absentee electors.
Wis. Stat. § 6.869.

28.

The Commission may also “reconsider at any time any written directives or

written guidance provided to the general public . . . with regard to the enforcement and
administration” of Wisconsin election law, including by county and municipal officials. Wis.
Stat. § 5.05(16)(c).
29.
II.

Defendants at all times acted under color of state law.

The Coronavirus Pandemic and Wisconsin’s Response
A. COVID-19 and its Health Effects
30.

In the United States, the first confirmed case of the novel coronavirus known as

COVID-19 was identified in Washington State on January 21, 2020.
31.

People infected by COVID-19 exhibit a wide range of symptoms, most

prominently cough or shortness of breath or difficulty breathing.4 In addition, according to the
4

Ctrs. for Disease Control and Prevention, “Symptoms of Coronavirus,” available at
https://www.cdc.gov/coronavirus/2019-ncov/symptoms-testing/symptoms.html (last updated May 13, 2020).

11
- App. 307 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 13 of 71

U.S. Centers for Disease Control and Prevention (“CDC”), five other symptoms indicate that a
person may have COVID-19, including: fever, chills, muscle pain, sore throat, and new loss of
taste or smell.5
32.

COVID-19 is an especially infectious virus because it is frequently transmitted by

people who are not experiencing symptoms. It may take up to 14 days after exposure to the virus
for a person to exhibit any symptoms, and people may be most infectious prior to exhibiting
symptoms. One study estimated that 44 percent of people infected contracted the virus from
people who felt healthy at the time.6 In fact, some people may remain asymptomatic carriers and
nonetheless transmit the virus.7 Others recover fully from their symptoms and continue shedding
the virus that can infect others.8
33.

The highly infectious nature of the disease—including its long incubation period

and the number of asymptomatic, pre-symptomatic, and post-symptomatic carriers—poses
significant concerns for populations that are most vulnerable to COVID-19, such as the elderly
and the immunocompromised. The CDC identifies older adults as having a higher risk of
developing more serious complications from COVID-19 and recommends that they stay home as
much as possible when the virus is spreading in the community. The CDC has also warned that
immunocompromised people (including smokers, those undergoing cancer treatment, bone
marrow or organ transplantation, and those with poorly controlled HIV or AIDS, and immune
deficiencies), as well as individuals with lung disease, asthma, heart conditions, severe obesity,
diabetes, chronic kidney disease undergoing dialysis, and liver disease are at higher risk of

5

Id.
Katherine Harmon Courage, How People Are Spreading Covid-19 Without Symptoms, VOX (Apr. 22, 2020),
available at https://www.vox.com/2020/4/22/21230301/coronavirus-symptom-asymptomatic-carrier-spread.
7
Id.
8
Are COVID-19 Patients Contagious After Symptoms, LABMATE (Apr. 16, 2020), available at https://www.labmateonline.com/news/laboratory-products/3/breaking-news/are-covid-19-patients-contagious-after-symptoms/52030.
6

12
- App. 308 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 14 of 71

developing more serious complications from COVID-19 illness.9 The Kaiser Family Foundation
estimated that 92.6 million Americans ages 18 and older—nearly 40 percent of all American
adults—are at heightened risk from COVID-19.10
34.

People outside of these groups, however, are not free from risk. The Wisconsin

Department of Health Services has warned that “[y]ounger people, and particularly those who
are 18 to 30 years old, aren’t immune to COVID-19.”11 A recent CDC analysis of coronavirus
cases from mid-February to mid-March found that a fifth of those who needed to be hospitalized
were ages 20 to 44, and nearly half were ages 20 to 54.12 In Wisconsin, people ages 20 to 49
account for 54 percent of all COVID-19 cases.13
35.

COVID-19 is infecting and killing Black people at disproportionately high rates

across the United States. The latest available data indicates that the COVID-19 mortality rate for
Black Americans is 2.3 times higher than the rate for Whites and Asians and 2.2 times higher
than the rate for Latinos.14 A Washington Post analysis of available data and census
demographics shows that “counties that are majority-black have three times the rate of infections
and almost six times the rate of deaths as counties where white residents are in the majority.”15

9

Ctrs. for Disease Control and Prevention, “People Who Are at Higher Risk for Severe Illness,” available at
https://www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/people-at-higher-risk.html (last updated May
14, 2020).
10
Wyatt Koma, et al., How Many Adults Are at Risk of Serious Illness If Infected with Coronavirus? Updated Data,
KAISER FAMILY FOUNDATION (Apr. 23, 2020), available at https://www.kff.org/global-health-policy/issuebrief/how-many-adults-are-at-risk-of-serious-illness-if-infected-with-coronavirus/.
11
Wis. Dep’t of Health Servs., “Outbreaks in Wisconsin,” available at
https://www.dhs.wisconsin.gov/outbreaks/index.htm (last visited March 26, 2020).
12
Ctrs. for Disease Control and Prevention, “Severe Outcomes Among Patients with Coronavirus Disease 2019
(COVID-19) — United States, February 12–March 16, 2020” (Mar. 27, 2020), available at
https://www.cdc.gov/mmwr/volumes/69/wr/mm6912e2.htm?s_cid=mm6912e2_w#T1_down.
13
Wis. Dep’t of Health Servs., “COVID-19: Wisconsin Cases,” available at https://www.dhs.wisconsin.gov/covid19/cases.htm (last updated June 18, 2020).
14
APM Research Lab, “The Color of Coronavirus: COVID-19 Deaths by Race and Ethnicity in the U.S.,” available
at https://www.apmresearchlab.org/covid/deaths-by-race (last updated June 10, 2020).
15
Reis Thebault, et al., The Coronavirus Is Infecting and Killing Black Americans at an Alarmingly High Rate, THE
WASHINGTON POST (Apr. 7, 2020), available at https://www.washingtonpost.com/nation/2020/04/07/coronavirus-isinfecting-killing-black-americans-an-alarmingly-high-rate-post-analysis-shows/?arc404=true.

13
- App. 309 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 15 of 71

This trend is also discernable at the individual state level, where Black people disproportionally
are infected with, and die of, COVID-19.
36.

In Wisconsin, Governor Tony Evers has called the disproportionally high

COVID-19 rates and deaths in the Black community “a crisis within a crisis.” Although Black
Wisconsinites comprise just 6.7 percent of the state’s population, they account for roughly a
fourth of COVID-19 deaths and nearly a fifth of COVID-19 cases.16 In Milwaukee County, an
analysis found that areas that are “predominantly black are experiencing disproportionately high
numbers of reported cases and concentrations of coronavirus clusters,” adding that “[r]ace is
emerging as [a] key factor in determining who lives and who dies as this virus sweeps through
the county.”17 Indeed, Blacks in Milwaukee are dying at nearly double the rate of their respective
share of the population.18
37.

Overall, according to the World Health Organization, “around 1 in every 5 people

who catch COVID-19 needs hospital treatment.”19 To date, in Wisconsin, 13 percent of cases
have required hospitalization, 3 percent of cases have required intensive care, and 3 percent of
cases have ended in death.20

16

Wis. Dep’t of Health Servs., “COVID-19: Wisconsin Deaths,” available at https://www.dhs.wisconsin.gov/covid19/deaths.htm (last updated June 18, 2020); Wis. Dep’t of Health Servs., “COVID-19: Wisconsin Cases,” available
at https://www.dhs.wisconsin.gov/covid-19/cases.htm (last updated June 18, 2020); U.S. Census Bureau,
“QuickFacts Wisconsin,” available at https://www.census.gov/quickfacts/WI (last accessed June 18, 2020).
17
Joel Rast, et al., Milwaukee’s Coronavirus Racial Divide: A Report on the Early Stages of COVID-19 Spread in
Milwaukee County, UNIVERSITY OF WISCONSIN-MILWAUKEE (Apr. 2020), available at https://uwm.edu/ced/wpcontent/uploads/sites/431/2020/04/COVID-report-final-version.pdf.
18
Compare Milwaukee County, “COVID-19 Dashboard,” available at https://county.milwaukee.gov/EN/COVID19 (last accessed May 12, 2020), with U.S. Census Bureau, “QuickFacts Milwaukee County, Wisconsin,” available
at https://www.census.gov/quickfacts/fact/table/milwaukeecountywisconsin/RHI225218 (last accessed May 12,
2020).
19
World Health Organization, “Getting Your Workplace Ready for COVID-19” (Mar. 3, 2020), available at
https://www.who.int/docs/default-source/coronaviruse/getting-workplace-ready-for-covid-19.pdf.
20
Wis. Dep’t of Health Servs., “COVID-19: Wisconsin Cases,” available at https://www.dhs.wisconsin.gov/covid19/cases.htm (last accessed June 16, 2020).

14
- App. 310 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 16 of 71

38.

According to the CDC, the best way to protect against illness from COVID-19 is

to avoid exposure. As a result, the CDC recommends putting “distance between yourself and
other people outside your home” if COVID-19 is spreading in your community.21
B. February and March in Wisconsin
39.

On February 5, 2020, Wisconsin announced its first known case of COVID-19,

the twelfth confirmed case in the United States.22
40.

During a February 27 Commission meeting, the first at which COVID-19 was

discussed, Defendant Knudson, the Chair of the Commission, dismissed the need to plan for a
COVID-19 outbreak, saying “at worst . . . there would be either long lines or a delay in
reporting” and boasting about the Commission’s “robust procedures” for absentee voting.23
When pressed on how to ensure that every voter would have access to the polls during a
coronavirus outbreak, Defendant Knudson changed the subject.
41.

On March 11, 2020, the World Health Organization declared an international

pandemic. On the same day, municipal clerks in Wisconsin began raising concerns about the
impact on the upcoming election, including polling place closures and poll worker shortages. On
that date, Wisconsin had six confirmed COVID-19 cases.24
42.

On March 12, 2020, Governor Tony Evers declared a health emergency in

response to the virus, authorizing the Department of Health Services to “take all necessary and
appropriate measures to prevent and respond to incidents of COVID-19” and activating the

21

Ctrs. for Disease Control and Prevention, “How to Protect Yourself & Others,” available at
https://www.cdc.gov/coronavirus/2019-ncov/prepare/prevention.html (last accessed May 11, 2020).
22
Bill Miston & Katie Delong, DHS officials confirm 1st case of coronavirus in Wisconsin, patient in ‘home
isolation’, FOX NEWS 6 (Feb. 5, 2020), available at https://fox6now.com/2020/02/05/dhs-officials-confirm-1st-caseof-coronavirus-in-wisconsin/.
23
WisconsinEye, “Wisconsin Elections Commission February 2020 Meeting” (Feb. 27, 2020), available at
https://wiseye.org/2020/02/27/wisconsin-elections-commission-february-2020-meeting/, at 1:46:07 - 1:50:38.
24
Shamane Mills, COVID-19 Cases in Wisconsin Jump from 3 to 6, WIS. PUBLIC RADIO (Mar. 11, 2020), available
at https://bit.ly/2xPVCOZ.

15
- App. 311 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 17 of 71

Wisconsin National Guard.25 Soon after the Governor’s announcement, fearful that nursing
homes would become incubators for infection, the Defendants allowed municipal clerks to move
polling places and directed municipalities not to use the statutory Special Voting Deputy process
that facilitates absentee voting by residents of nursing homes and other care facilities.26
43.

By March 15, 2020, as the number of confirmed COVID-19 cases in Wisconsin

rose to 33,27 Milwaukee city officials stated they would need 1,800 new poll workers to replace
older poll workers at higher risk of serious illness.
44.

On March 17, 2020, the Wisconsin Department of Health Services banned

gatherings of 10 or more people. In response, the Mayor of Green Bay noted that the city would
be “unable to administer a normal election.”28
45.

The next day, multiple Defendants acknowledged that it was not possible for the

state to have a safe and fair election on April 7. Defendant Ann Jacobs said that she “no longer
believe[d] that we are able to fairly and properly administer this election without delay or
postponement, . . . I believe we’re putting people at risk.” Defendant Mark Thomsen echoed that
concern, saying, “We’re going to have an election where no one can vote safely — that’s
absurd,” and Defendant Julie Glancey argued in favor of an election by mail-in ballot only.29

25

Wis. Executive Order No. 72, Relating to a Proclamation Declaring a Health Emergency in Response to the
COVID-19 Coronavirus (Mar. 12, 2020), available at https://bit.ly/3eEZpPR.
26
Meeting of the Wis. Elections Commission (Mar. 12, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/202003/March%2012%20Commission%20Meeting%20Agenda%20and%20Materials.pdf.
27
33 Positive COVID-19 Cases in Wisconsin, FOX NEWS 11 (Mar. 15, 2020), available at https://bit.ly/2Kkde8m.
28
Shawn Johnson, Wisconsin Bans Crowds Of 10 Or Larger; Order Bars and Restaurants Closed, WIS. PUBLIC
RADIO (Mar. 17, 2020), available at https://www.wpr.org/wisconsin-bans-crowds-10-or-larger-order-bars-andrestaurants-closed.
29
Laurel White, State Election Officials Spar Over Possible Postponement Of April 7 Election, WIS. PUBLIC RADIO
(Mar. 18, 2020), available at https://www.wpr.org/state-election-officials-spar-over-possible-postponement-april-7election.

16
- App. 312 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 18 of 71

46.

Defendants also issued a memorandum highlighting shortages of absentee ballot

envelopes, polling locations, poll workers, and cleaning equipment.30 As Defendants encouraged
voters to vote absentee, local clerks across the state estimated a shortage of 600,000 envelopes.
47.

On March 20, 2020, a bipartisan group of mayors from Green Bay, Appleton, and

Neenah urged that the election be delayed. At that point, there were 216 confirmed cases and
three Wisconsinites had died.31 The same day, this Court ordered extended online voter
registration until March 30, 2020. Democratic Nat’l Comm. v. Bostelmann, No. 20-CV-249WMC, 2020 WL 1320819, at *9 (W.D. Wis. Mar. 20, 2020).
48.

On March 22, 2020, citing COVID-19, the Wisconsin Supreme Court suspended

jury trials until at least May 22.
49.

On March 24, 2020, Department of Health Services Secretary-designee Andrea

Palm issued Emergency Order No. 12, the Safer At Home Order, which banned all public and
private gatherings of any number of people among members of different households, closed nonessential businesses, and required that everyone maintain social distancing of at least six feet
from any other person.32 In response, Defendant Wolfe issued a memorandum stating that inperson absentee voting, sometimes known as early voting, must continue.33
50.

On March 25, 2020, the Wisconsin Senate began preparing for virtual sessions to

enable remote voting on legislation. On March 26, 2020, the Wisconsin State Capitol building

30

Wis. Elections Commission, “Update Regarding COVID-19 Election Planning” (Mar. 18, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-03/Com_.%20memo%20re%20COVID19%20Election%20Planning%203.18.20.pdf.
31
Officials: 216 Confirmed Cases of COVID-19 in the State; 3,455 Negative Tests, FOX6 NOW (Mar. 20, 2020),
available at https://fox6now.com/2020/03/20/wisconsin-dhs-206-confirmed-cases-of-covid-19-in-the-state/.
32
Wis. Dep’t of Health Servs., Emergency Order No. 12, Safer at Home Order, available at https://bit.ly/3cObK2D.
33
Wis. Elections Commission, “Emergency Order No. 12 Does Not Eliminate In-Person Absentee Voting - COVID19” (Mar. 24, 2020), available at https://elections.wi.gov/node/6773.

17
- App. 313 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 19 of 71

closed to the public. Assembly Speaker Robin Vos and Senate Majority Leader Scott Fitzgerald
told reporters that they did not expect to change the date of the April 7 election.34
C. Events Leading up to the April 7 Election
51.

On April 2, 2020, after an extensive evidentiary hearing, this Court entered an

injunction (a) ordering that absentee ballots received by April 13, 2020 at 4 p.m. be counted; (b)
extending by one day, to April 3, 2020, the window to request an absentee ballot; and (c)
adjusting the requirement under Wis. Stat. § 6.87(2) that absentee voters have a witness sign
their ballot. Democratic Nat’l Comm. v. Bostelmann, No. 20-CV-249-WMC, 2020 WL 1638374,
*22 (W.D. Wis. Apr. 2, 2020).
52.

With respect to the absentee witness requirement, the Court ordered that

Defendants “accept an unwitnessed ballot that contains a written affirmation or other statement
by an absentee voter that due to the COVID-19 pandemic, he or she was unable to safely obtain a
witness certification despite his or her reasonable efforts to do so, provided that the ballot is
otherwise valid.” Id., at *20.
53.

The next day, April 3, 2020, the Seventh Circuit stayed the portion of this Court’s

decision that adjusted the witness requirement for absentee voters but declined to modify the
District Court’s extension of the absentee ballot deadline. Democratic Nat’l Comm. v.
Bostelmann, Nos. 20-1538, 1539, 1545, 1546, order (7th Cir. April 3, 2020).
54.

Also on April 3, Governor Evers issued an Executive Order calling a special

legislative session so that the Legislature could postpone the April 7 election due to COVID-

34

Will Kenneally, Legislative Leaders Want April Election to Move Forward, PBS WISCONSIN (Mar. 25, 2020),
available at https://pbswisconsin.org/news-item/legislative-leaders-want-april-election-to-move-forward/.

18
- App. 314 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 20 of 71

19.35 The next day, both the Wisconsin Assembly and the Senate adjourned the special session
within seconds, ensuring that the election would go forward as planned.
55.

On April 6, 2020, at 12:46 p.m., just eighteen hours before polls opened,

Governor Evers issued Executive Order No. 74, suspending in-person voting for the April 7
election until June 9, or a different date ordered by the legislature.36 Less than 5 hours later, the
Wisconsin Supreme Court enjoined the Governor’s order, holding that he did not have the power
to change the date of the election.37
56.

Several hours after that, the United States Supreme Court held that all absentee

ballots had to be postmarked by April 7 to be counted, partially overturning this Court’s Order.
Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1208 (Apr. 6, 2020).
57.

By election day, 83 Wisconsinites had died of coronavirus. Wisconsin had 2,440

reported coronavirus cases, and the Safer At Home Order remained operative.38
III.

Widespread Disenfranchisement in the April 7 Election
58.

The fears surrounding the administration of the election were realized. Neil

Albrecht, the Executive Director of the Milwaukee Election Commission, stated that “[i]t was

35

Wis. Executive Order No. 73, Relating to a Special Session of the Legislature to Provide for an All-Mail Spring
Election and Special Election for the 7th Congressional District During the COVID-19 Pandemic (Apr. 3, 2020),
available at https://docs.legis.wisconsin.gov/code/executive_orders/2019_tony_evers/2020-73.pdf.
36
Office of the Governor, “Gov. Evers Suspends In-Person Voting, Calls Legislature into Special Session on April 7
Election” (Apr. 6, 2020), available at https://content.govdelivery.com/accounts/WIGOV/bulletins/2852119; Wis.
Executive Order No. 74, Relating to Suspending In-Person Voting on April 7, 2020, Due to the COVID-19
Pandemic (Apr. 6, 2020), available at
https://content.govdelivery.com/attachments/WIGOV/2020/04/06/file_attachments/1420231/EO074SuspendingInPersonVotingAndSpecialSession.pdf.
37
Zac Schultz, Live: Where Wisconsin’s Election Currently Stands, PBS WISCONSIN (Apr. 6, 2020), available at
https://pbswisconsin.org/news-item/live-where-wisconsins-election-currently-stands/.
38
German Lopez, Wisconsin’s Election Day Is a Public Health Disaster, VOX (Apr. 7, 2020), available at
https://www.vox.com/2020/4/7/21212005/coronavirus-wisconsin-voting-lines-election-primary-court; Wisconsin
Coronavirus Map and Case Count, N.Y. TIMES, available at
https://www.nytimes.com/interactive/2020/us/wisconsin-coronavirus-cases.html (last updated May 11, 2020).

19
- App. 315 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 21 of 71

chaos, and chaos is never good for the administration of an election.”39 MIT Professor Charles
Stewart III, a leading empirical scholar of election administration, has estimated that poll
closings kept more than 16,000 people from casting ballots in Milwaukee alone.40 Absentee
ballots were never sent to over 11,000 voters who requested them,41 and more than 14% of
absentee ballots requested and sent to voters were not received back for counting as of April 8, in
significant part as a result of mail delays.42
59.

Moreover, the Wisconsin Department of Health Services has identified 52 cases

of COVID-19 among poll workers and voters who were at in-person voting locations during the
April 7 election and could have contracted the disease at those locations.43
60.

Defendants’ administration of the April 7 election failed on numerous

dimensions, described in detail below. These failures caused substantial disenfranchisement,
particularly among elderly voters, voters with disabilities, immunocompromised voters, and
voters of color. Fundamentally, Defendants lacked a coherent, effective plan to ensure that each
and every voter had a full and fair opportunity to vote while remaining protected from the threat
presented by COVID-19.
A. Defendants’ Failure to Manage Online Registration and Absentee Ballot Problems
Disenfranchised Voters

39

Daphne Chen, et al., ‘They Should Have Done Something’: Broad Failures Fueled Wisconsin Ballot Crisis,
Investigation Shows, FRONTLINE PBS (Apr. 21, 2020), available at
https://www.pbs.org/wgbh/frontline/article/wisconsin-election-coronavirus-absentee-ballots/.
40
Charles Stewart III, @cstewartiii, Twitter (Apr. 15, 2020, 11:12 p.m.), available at
https://twitter.com/cstewartiii/status/1250623188150751232; Charles Stewart III, Important Lessons from the
Wisconsin Primary, Mischiefs of Action (Apr. 17. 2020), available at
https://www.mischiefsoffaction.com/post/important-lessons-from-the-wisconsin-primary.
41
Wis. Elections Commission, “Absentee Ballot Report - April 7, 2020 Spring Election and Presidential Preference
Primary” (Apr. 6, 2020), available at https://elections.wi.gov/node/6817.
42
Wis. Elections Commission, “Absentee Ballot Report - April 7, 2020 Spring Election and Presidential Preference
Primary” (Apr. 8, 2020), available at https://elections.wi.gov/node/6833.
43
Scott Bauer, 52 Who Worked or Voted in Wisconsin Election Have COVID-19, ABC NEWS (Apr. 29, 2020),
available at https://abcnews.go.com/Health/wireStory/52-worked-voted-wisconsin-election-covid-19-70406317.

20
- App. 316 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 22 of 71

61.

Defendants failed to maintain digital systems sufficient to meet the needs of

Wisconsin voters with respect to online registration and absentee ballot requests.
62.

Wisconsin law requires eligible voters to register in order to cast a ballot. Wis.

Stat. § 6.27. Eligible voters can register in person or by mail until 5:00 p.m. on the third
Wednesday before election day, or online until 11:59 p.m. on the third Wednesday before
election day. Wis. Stat. § 6.28(1). Thus, for the April 7 election, the deadline for registration was
set by statute on March 18, 2020. With respect to online registration, this Court’s Order
subsequently extended the deadline until March 30, 2020. Democratic Nat’l Comm. v.
Bostelmann, No. 20-CV-249-WMC, 2020 WL 1320819, at *9 (W.D. Wis. Mar. 20, 2020).
63.

Those who miss these deadlines can register at the municipal clerk’s office until

close of business on the Friday before election day, Wis. Stat. § 6.29(2)(a), or in person on
election day. See generally Wis. Stat. § 6.55.
64.

Eligible voters who register to vote electronically or by mail must provide a copy

of an “identifying document that establishes proof of residence.” Wis. Stat. § 6.34(2). To do so,
they must not only have access to the document, but be able to upload or photocopy it. The only
exception to this requirement is for individuals registering electronically, who do not have to
provide such documentation if they provide “the number of a current and valid operator’s license
[or] identification card.” Wis. Stat. § 6.34(2m). To vote at polls, eligible voters must present an
approved voter ID. Wis. Stat. § 6.79.
65.

The Wisconsin Division of Motor Vehicles (“DMV”) is responsible for issuing all

driver’s license, state ID, or official voter ID cards to Wisconsin residents. Many people can still
only obtain a qualifying voter ID by actually visiting a DMV office in person, including those
who are applying for a Wisconsin identification card for the first time, or who have not held a

21
- App. 317 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 23 of 71

qualifying Wisconsin ID in recent years. Many of those in this category are voters with
disabilities.
66.

Wisconsin allows voters to vote by absentee ballot without providing an excuse

for why they cannot vote in person. See Wis. Stat. § 6.20. Eligible voters can request an absentee
ballot by mail; in person at the municipal clerk’s office; by signing a statement and requesting to
receive an absentee ballot under special procedures for voters who are indefinitely confined; by
an agent, under special procedures for voters who are hospitalized; by delivery to a special
voting deputy; or by e-mail or fax. Wis. Stat. § 6.86(1)(a).
67.

Defendants administer the digital systems that track voter registration and

absentee balloting. MyVote is the public-facing website that allows eligible voters to review
general information, register to vote, request an absentee ballot, view the contents of their ballot,
view their voting history, and find their polling place. WisVote is Wisconsin’s statewide voter
list and election-management database, accessible to election officials.
68.

When a request for an absentee ballot is made by a voter in the MyVote website,

the system converts it into an email. Next, a municipal elections clerk must review the email to
verify the voter’s identification, manually enter the information into WisVote, and print mailing
labels.44
69.

MyVote has seen increased traffic in the last few years. It has experienced outages

since at least early 2020, which Defendant Wolfe acknowledged in a memorandum on February
18, 2020.45 Defendants failed to take sufficient action to remedy and prevent those outages, and
as a result the outages continued during high-demand periods in the run-up to the April 7

44

Chen, et al., ‘They Should Have Done Something’: Broad Failures Fueled Wisconsin Ballot Crisis, Investigation
Shows.
45
Wis. Elections Commission, “Update for Clerks on MyVote Address Problems” (Feb. 18, 2020), available at
https://elections.wi.gov/node/6688.

22
- App. 318 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 24 of 71

election. During the specific periods of time that voters sought to register to vote or request an
absentee ballot for that election, the MyVote website suffered from outages and was sometimes
erroneously closed to new requests.46
70.

Absentee ballot requests also caused problems for the system.47

71.

An investigation by the Milwaukee Journal Sentinel, FRONTLINE, and

Columbia Journalism Investigations into Wisconsin’s April 7 election named the “[i]nadequate
computer system” as one of the main problems in the election. 48 It found eligible voters in Lodi,
Pewaukee, Marshfield, Shorewood, and Bristol who had trouble requesting absentee ballots
online, either because the system simply crashed or because they had to give up after spending
hours in front of a computer trying to make their request. The investigation also found that—
across eight cities—Wisconsin voters said they requested absentee ballots only to be later
informed that the state’s system had no record of their request.49
72.

Defendants do not appear to have secured the server capacity and bandwidth

necessary to support the surge of online registrations and online absentee ballot requests that was
inevitable for an election conducted under the threat of COVID-19.
73.

Defendants did not take action to divert traffic away from the website.

74.

Defendant Wolfe wrote in a memorandum after the election that the WisVote

system “performed very well but required round the clock monitoring and auditing to handle this
unique and unprecedented user behavior and traffic.”50

46

Chen, et al., ‘They Should Have Done Something’: Broad Failures Fueled Wisconsin Ballot Crisis, Investigation
Shows.
47
Id.
48
Id.
49
Id.
50
Wis. Elections Commission, “Summary of April 7, 2020 Election” (Apr. 18, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/202004/April%207%20Election%20Summary%20and%20Next%20Steps.pdf.

23
- App. 319 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 25 of 71

75.

In the same memorandum, she acknowledged with respect to MyVote that “there

were unique challenges and obstacles for some voters at the election,” while maintaining that
Commission staff had been successful in “accommodating a significant level of voter turnout.”
Id. at 4.
B. Defendants’ Failures to Ensure Distribution of Requested Absentee Ballots
Disenfranchised Voters
76.

Defendants failed to ensure that voters who requested absentee ballots timely

received them, resulting in the disenfranchisement of those, like immunocompromised voters,
unable to vote in person.
77.

Under Wisconsin law, voters can request absentee ballots until 5:00 p.m. on the

fifth day before an election, and in-person requests must be made at the municipal clerk’s office
by the Sunday preceding an election. Wis. Stat. § 6.86(1)(b). Municipal clerks must send an
absentee ballot within one business day of when the request was received. Wis. Stat. § 7.15(cm).
78.

For the April 7 election, the deadline for the receipt of absentee ballot requests

was set by statute as April 2, 2020. With respect to mail, fax, or email absentee ballot requests,
this Court’s Order subsequently extended the deadline to April 3, 2020. Democratic Nat’l Comm.
v. Bostelmann, No. 20-CV-249-WMC, ___ F.Supp.3d ___, 2020 WL 1638374, at *2 (W.D. Wis.
Apr. 2, 2020).
79.

Wisconsin law requires voters to present a copy of their proof of identification

with their application for an absentee ballot. Wis. Stat. § 6.86(1)(ac).

24
- App. 320 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 26 of 71

80.

Approximately 73% of votes ultimately cast in the April 7 election were absentee

ballots;51 by contrast, in the 2016 General Election, just 27% of the votes were cast absentee.52
81.

However, many voters, especially immunocompromised voters, were unable to

participate in the April 7 election as a result of Defendants’ failures to ensure effective and
timely distribution of absentee ballots.
82.

Wisconsin Elections Commission data show that on election day, more than

12,000 requested absentee ballots had not yet been sent to voters. Voters around the state who
had timely requested absentee ballots never received them. One survey found that voters from
almost 100 Wisconsin cities and towns reported not receiving an absentee ballot, despite having
requested one—in most cases at least two weeks in advance of the election.53
83.

Moreover, according to the Commission’s website, 14.5% of 1,284,438 absentee

ballots sent to voters (over 186,000 votes) had not been returned by April 13, 2020.54 In
comparison, in the 2016 general election, only 14,480, or 1.7%, of the 845,243 absentee ballots
sent were reported as having not been received for counting.55 Though it is impossible to know
what proportion of absentee ballots were not returned because voters did not timely receive
them, the disproportionate non-return rate suggests that thousands of additional voters who
timely requested ballots never actually received them. These data do not take into account how

51

Chen, et al., ‘They Should Have Done Something’: Broad Failures Fueled Wisconsin Ballot Crisis, Investigation
Shows.
52
Wis. Elections Commission, “Elections and Voting Statistics,” available at https://elections.wi.gov/electionsvoting/statistics (last accessed May 9, 2020); Wis. Elections Commission, “General Election Voter Registration and
Absentee Statistics 1984-2016.xlsx,” available at
https://elections.wi.gov/sites/elections.wi.gov/files/page/general_election_voter_registration_and_absentee_s_40046
.xlsx (last accessed May 12, 2020).
53
Chen, et al., ‘They Should Have Done Something’: Broad Failures Fueled Wisconsin Ballot Crisis, Investigation
Shows.
54
Wis. Elections Commission, “Absentee Ballot Statistics for April 7” (Apr. 13, 2020), available at
https://elections.wi.gov/node/6765.
55
Wis. Elections Commission, “Absentee Ballot Report” (Nov. 14, 2016), available at
https://elections.wi.gov/node/4414.

25
- App. 321 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 27 of 71

many of the returned ballots were actually counted. One estimate put the number of returned
ballots that were not counted because of mail delays and confusion about deadlines in the tens of
thousands.56
84.

Several problems contributed to this failure to ensure effective distribution of

absentee ballots:
•

First, a shortage of envelopes appears to have delayed the mailing of absentee
ballots. On March 18, for example, Defendants noted that clerks across the state
estimated a shortage of approximately 600,000 envelopes.57 Although Defendants
worked with paper suppliers to address the shortage, it created a backlog that
contributed to delays.58

•

Second, election clerks struggled to keep up with the large volume of absentee
ballot requests, and Defendants did not provide them with additional funding or
staff to help. The Madison City Clerk reported that there was “no way humanly
possible” for officials to mail out ballots at the rate they were receiving requests,
despite working 110 hours a week.59 She suggested that exhausted officials were
more likely to make errors in fulfilling the ballot requests. Indeed, some voters
reported receiving multiple ballots, while one couple reported receiving empty
envelopes without a ballot. Another voter did not receive a ballot until after the
election because it had been mailed without a street name and had been returned
to the clerk’s office as undeliverable.

56

Scott Bauer & Nicholas Riccardi, Parties Mine Wisconsin for Clues to Voting in the Virus Era, AP NEWS (Apr.
14, 2020), available at https://apnews.com/99f183ea43fd558e08393d2b064bb801.
57
Wis. Elections Commission, “Update Regarding COVID-19 Election Planning.”
58
Emily Bazelon, Will Americans Lose Their Right to Vote in the Pandemic?, N.Y. TIMES MAGAZINE (May 5,
2020), available at https://www.nytimes.com/2020/05/05/magazine/voting-by-mail-2020-covid.html.
59
Chen, et al., ‘They Should Have Done Something’: Broad Failures Fueled Wisconsin Ballot Crisis, Investigation
Shows.

26
- App. 322 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 28 of 71

•

Third, mail delivery problems, of which Defendants were on notice, contributed
to this failure. Defendants were aware of “potential delays in mail delivery” by
the United States Postal Service (“USPS”) as early as March 18, and, although
Defendants sought to stay in touch with USPS to learn about delays and
“encouraged clerks to communicate and coordinate with local post offices,” this
response was insufficient.60

85.

The problems turned out to be overwhelming. In Milwaukee, numerous voters

never received an absentee ballot even though their ballots had been issued two weeks before the
election. In the week leading up to the election, Fox Point Village Hall received returns from
USPS of 100 to 150 undelivered absentee ballots per day, with officials making at least seven
trips to the post office to re-mail the undelivered ballots.61 On the morning of the election,
officials received a plastic mail bin containing 175 absentee ballots that appeared to have never
been sent to voters, including several ballots intended for a different municipality.62 The day
after the election, a postal worker discovered three containers of undelivered absentee ballots
intended for voters in Oshkosh and Appleton.63
86.

Defendants failed to ensure a uniform appropriate response to these challenges,

and as a result, voters’ ability to cast a ballot that would be counted varied widely and arbitrarily,
depending on the location of the residential address at which they were registered to vote. For

60

Wis. Elections Commission, “Update Regarding COVID-19 Election Planning.”
Returned to Sender: Postal Officials Investigating Wisconsin Absentee Ballots That Were Never Delivered, WIS.
PUBLIC RADIO (Apr. 9, 2020), available at https://www.wpr.org/returned-sender-postal-officials-investigatingwisconsin-absentee-ballots-were-never-delivered.
62
Jeff Rumage, Post Office Returns Hundreds of Absentee Ballots That Were Supposed to Be Delivered to Fox Point
Voters, MILWAUKEE JOURNAL SENTINEL (Apr. 8, 2020), available at
https://www.jsonline.com/story/communities/northshore/news/fox-point/2020/04/08/wisconsin-election-fox-pointabsentee-ballots-never-made-voters/5119812002/.
63
Returned to Sender: Postal Officials Investigating Wisconsin Absentee Ballots That Were Never Delivered, WIS.
PUBLIC RADIO.
61

27
- App. 323 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 29 of 71

example, to ensure the orderly distribution of absentee ballots to voters who wanted to avoid inperson voting, some municipalities, including Whitefish Bay and Bayside, mailed every
registered voter within the municipality an absentee ballot request form.64 Those municipalities
experienced significantly higher rates of voter participation than did most municipalities that did
not take this step.
87.

All of this makes clear that Defendants failed to ensure that all registered voters

who timely requested absentee ballots received them in time to participate in the April 7 election.
C. Defendants’ Failure to Make Adequate Provisions for Voters to Return Absentee Ballots
Disenfranchised Voters
88.

Wisconsin law provides that absentee ballots must be “delivered to the polling

place no later than 8 p.m. on election day.” Wis. Stat. § 6.87(6). This means that absentee ballots
must be physically received by that time in order to count.
89.

With respect to the April 7 election, this Court’s Order enjoined “the enforcement

of the requirement under Wis. Stat. § 6.87(6) that absentee ballots must be received by 8:00 p.m.
on election day to be counted and extend[ed] the deadline for receipt of absentee ballots to 4:00
p.m. on April 13, 2020.” Democratic Nat’l Comm. v. Bostelmann, No. 20-CV-249-WMC, ___
F.Supp.3d ___, 2020 WL 1638374, at *2 (W.D. Wis. Apr. 2, 2020). On April 6, the U.S.
Supreme Court partially stayed that injunction, requiring that “a voter’s absentee ballot must be
either (i) postmarked by election day, April 7, 2020, and received by April 13, 2020, at 4:00
p.m., or (ii) hand-delivered as provided under state law by April 7, 2020, at 8:00 p.m.”
Republican Nat’l Comm. v. Democratic Nat’l Comm., 140 S. Ct. 1205, 1208 (Apr. 6, 2020).

64

Craig Gilbert, How Two Communities on Milwaukee’s North Shore Achieved Sky-High Levels of Absentee Voting
Despite Coronavirus, Milwaukee Journal Sentinel (Apr. 10, 2020), available at
https://www.jsonline.com/story/news/politics/elections/2020/04/10/wisconsin-absentee-ballot-forms-sent-whitefishbay-bayside-voters/5129125002/.

28
- App. 324 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 30 of 71

90.

More than 100,000 absentee ballots were received in the extended window—

namely, after April 7 and before April 13.65
91.

For many voters, including Plaintiffs Swenson and Nelson, personally delivering

a ballot to the municipal clerk, as anticipated by Wis. Stat. § 6.86(6), was not an option due to
the need to maintain social distance to preserve their health. Defendants had acknowledged that
USPS was experiencing significant delay issues as early as March 18. However, they nonetheless
failed to ensure that the many voters seeking and receiving absentee ballots in the weeks before
the election would be able to return them so that their votes could be counted.
92.

For example, Defendants failed to require that municipalities establish secure

drop boxes so that voters could return absentee ballots while maintaining social distancing and
without relying on USPS. Defendant Wolfe issued a memorandum on March 31 that identified
drop boxes as an option, but it did not require or even recommend that option.66
93.

This failure presented particular difficulties after the Supreme Court’s April 6

decision requiring either that ballots be postmarked by 8 p.m. on April 7 or that they be handdelivered by that time. Republican Nat’l Comm., 140 S. Ct. at 1208.
94.

Most significantly, Defendants failed to take action to ensure that validly cast

absentee ballots without a postmark would be counted. Some voters who responded to this
Court’s decision by placing their ballots in the mail on April 7, before the deadline, were
nonetheless disenfranchised because no postmark appeared on their ballot — a fact entirely
beyond the control of those voters. The Madison City Clerk reported several thousand ballots

65

Richard Pildes, How Many Absentee Ballots in WI Came In on Time Because of the Court Decision to Extend the
Receipt Deadline?, ELECTION LAW BLOG (Apr. 15, 2020), available at https://electionlawblog.org/?p=110746.
66
Wis. Elections Commission, “FAQs: Absentee Ballot Return Options: USPS Coordination and Drop Boxes”
(Mar. 31, 2020), available at https://elections.wi.gov/sites/elections.wi.gov/files/202003/Ballot%20Return%20Options%203.31.2020.pdf.

29
- App. 325 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 31 of 71

missing a postmark, and some ballots bearing two different postmarks, one dated before April 7
and one dated after. Milwaukee, Greenfield, Manitowoc, Fitchburg, and Sister Bay also received
ballots without postmarks. Clerks in Luxembourg and Elm Grove reported ballot envelopes with
postmarks so light that the date on them was unreadable.
95.

Defendants failed to promulgate rules or issue guidance to ensure uniform,

appropriate treatment of ballots without a postmark that arrived on April 8, the day after the
election, be counted, even though the president of the Wisconsin State Association of Letter
Carriers confirmed that ballots received on April 8 had “almost certainly” been mailed by April
7.67
D. Defendants’ Enforcement of Wis. Stat. § 6.87(2)’s Witness Requirement Disenfranchised
Voters at High Risk From COVID-19
96.

As to voters at elevated risk for COVID-19, including elderly and

immunocompromised voters, Wisconsin’s absentee ballot-witnessing requirement effectively
denied citizens the right to vote.
97.

Under Wisconsin law, absentee ballots must be witnessed and signed by another

adult citizen who is not a candidate on the ballot. Wis. Stat. § 6.87(4). For elderly and
immunocompromised voters, including Plaintiff Swenson, in-person voting was not an option
because of the infection risk presented by contact with other people. But absentee voting also
presented a risk to the health to these voters because of the requirement that an adult citizen
witness them sign the ballot.

67

Riley Vetterkind, Elections Commission Deadlocks Over Whether to Count Ballots Without Postmarks, WIS.
STATE JOURNAL (Apr. 11, 2020), available at https://madison.com/wsj/news/local/govt-and-politics/electionscommission-deadlocks-over-whether-to-count-ballots-without-postmarks/article_74e0285c-76d7-5471-a82e144b78609f48.html.

30
- App. 326 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 32 of 71

98.

In Wisconsin, the envelopes in which absentee ballots are returned must include

the following language in the “Certification of Voter” box:
I certify that I exhibited the enclosed ballot unmarked to the witness, that I then in (his)(her)
presence and in the presence of no other person marked the ballot and enclosed and sealed
the same in this envelope in such a manner that no one but myself and any person rendering
assistance under s. 6.87(5), Wis. Stats., if I requested assistance, could know how I voted.
Wis. Stat. § 6.87(2).
The absentee ballot witness is required to certify to the following language:
I, the undersigned witness, subject to the penalties of s. 12.60 (1)(b), Wis. Stats., for false
statements, certify that I am an adult U.S. citizen and that the above statements are true and
the voting procedure was executed as there stated. I am not a candidate for any office on
the enclosed ballot (except in the case of an incumbent municipal clerk). I did not solicit
or advise the elector to vote for or against any candidate or measure.
Id. Defendants have promulgated a form envelope for absentee ballots that contains these
certifications and provides space for the relevant signatures and witness address information.
99.

Defendants failed to take action to ensure that immunocompromised voters could

successfully comply with this requirement. Defendant Wolfe issued a memorandum declaring
that there were “no exemptions in the law for the witness requirement.”68 Although the
memorandum suggested some ways voters might comply with the requirements while
maintaining a physical quarantine, Plaintiff Swenson did not believe that she could plausibly use
them to keep herself safe and cast a ballot.
100.

This Court recognized that the mechanisms were insufficient at least as applied to

certain populations, “in particular those who are immunocompromised or elderly.” Democratic
Nat’l Comm. v. Bostelmann, No. 20-CV-249-WMC, ___ F.Supp.3d ___, 2020 WL 1638374, at
*2- (W.D. Wis. Apr. 2, 2020). This Court’s Order enjoined “the enforcement of Wis. Stat.

68

Wis. Elections Commission, “Absentee Witness Signature Requirement Guidance COVID-19” (Mar. 29, 2020),
available at https://elections.wi.gov/node/6790.

31
- App. 327 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 33 of 71

§ 6.87(2) as to absentee voters who have provided a written affirmation or other statement that
they were unable to safely obtain a witness certification despite reasonable efforts to do so,
provided that the ballots are otherwise valid.” Id.
101.

The following day, April 3, 2020, the Seventh Circuit stayed enforcement of this

aspect of the injunction. Democratic Nat’l Comm. v. Bostelmann, Nos. 20-1538, 1539, 1545,
1546, Order (7th Cir. Apr. 3, 2020).
102.

In response, Defendants adopted a rule that disenfranchised Plaintiff Swenson and

other voters who had complied fully with then-operative law. On April 5, 2020, almost two days
after the Commission’s initial advisory notice on the topic, Defendants concluded that “[e]ach
absentee ballot for this election must have the required witness signature and address in order to
be counted, including ballots that were returned when this Court’s original order was in effect for
approximately 24 hours.”69
103.

Defendants’ action invalidated ballots—like that of Plaintiff Swenson—that

complied at the time they were submitted with this Court’s then-valid order and Commission
guidelines. The only option that Defendants presented for voters who had cast these ballots was
to present a witness to election officials in person—defeating both social distancing and the
entire purpose of absentee voting.
E. Defendants Failed to Safeguard the Availability of In-Person Absentee Voting
104.

Defendants failed to take action to ensure adequate opportunities for in-person

absentee voting (also known as “early voting”) throughout the state. In-person absentee voting
allows voters to apply for and obtain an absentee ballot in person, and then to complete and cast
the ballot immediately. This increasingly popular method of voting is particularly important

69

Wis. Elections Commission, “Updated Absentee Witness Signature Requirement Guidance - COVID-19” (Apr. 5,
2020), available at https://elections.wi.gov/node/6816.

32
- App. 328 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 34 of 71

during the pandemic because it accommodates voters who are unable to obtain a mail-in absentee
ballot for a variety of reasons, such as lack of ready access to the online application system, a
transient mailing address, homelessness, and other difficulties. It also alleviates the burden on
election day voting by spreading out the period of in-person voting and allowing those voters
who prefer to vote in-person—perhaps because they do not trust the mail to deliver or return
their ballot—to do so at uncrowded, safer locations at a more convenient time.
105.

In-person absentee voting can also be conducted on a “drive through” basis,

allowing voters to obtain and cast a ballot while minimizing contact with other people or shared
surfaces.
106.

During the April 7 election period, Defendants failed to take action to ensure

adequate in-person absentee voting opportunities, or to ensure that available opportunities were
properly publicized. For example, all three of the City of Milwaukee’s in-person absentee voting
locations abruptly closed on March 23, 2020, following an announcement the previous day. The
city subsequently reopened one early voting site downtown but made it available only as a drivethrough, thereby limiting it to those voters with access to a car. These voting changes were
poorly publicized, leaving many voters confused or simply unaware of early voting options in
the city. Moreover, the closure of early voting locations outside of downtown disproportionately
affected the ability of residents of low-income and predominantly Black and Latino
neighborhoods to vote.
107.

Similarly, in Green Bay, in-person absentee voting opportunities were severely

limited. In-person absentee voting was confined to a single site that was only open on ten
weekdays leading up to the election. On eight of those ten days, voting was limited to four
midday hours. Capacity was further limited during in order to permit social distancing.

33
- App. 329 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 35 of 71

108.

More broadly, opportunities for in-person absentee voting varied dramatically

across the state in terms of the number of locations, hours, and manner of voting (i.e., drive
through vs. walk in). These options were also generally poorly publicized. Defendants’ actions
and inaction with respect to in-person absentee voting thus deprived voters of a safer alternative
to in-person election day voting and put additional pressure on the mail-in absentee system that
failed so many voters.
109.

For the upcoming August and November elections, Wisconsin law required

municipalities to designate locations for in-person absentee voting by June 11, 2020. Wis. Stat.
§ 6.855(1). Unless this provision is enjoined, Defendants and municipalities will not have the
flexibility necessary to provide sufficient and safe in-person absentee voting opportunities
because of the early cut-off for designating polling locations.
F. Defendants Failed to Ensure An Adequate Number of Election Day Polling Places
110.

Defendants failed to take action to ensure that adequate in-person voting locations

would be available to all voters around the state. As a result, in some jurisdictions a high
proportion of polling places did not open, and voters who sought to vote in-person—whether
because they had not received an absentee ballot or because they had always intended to vote in
person—faced hurdles to casting a ballot.
111.

Wisconsin law requires that “[p]olling places shall be established for each

election at least 30 days before the election.” Wis. Stat. § 5.25(3).
112.

Each of these polling places “shall be accessible to all individuals with

disabilities,” and Defendants are charged with the responsibility to ensure that voting systems at
these polling places allow voters with disabilities to vote privately and independently. Id.
§ 5.25(4)(a).

34
- App. 330 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 36 of 71

113.

Voters with disabilities who require the use of assistive technology available to

them at polling places have no option to avoid in-person voting. Many other voters require inperson voting options if the online registration system fails or they do not receive a requested
absentee ballot on time. Still others vote in person because of the symbolic significance of voting
at a polling place on election day.
114.

Defendants failed to ensure that Wisconsin voters could safely exercise the right

to vote, including by ensuring an adequate numbers of poll workers—referred to as election
inspectors by Wisconsin statute—available to operate the number of polling places that would
enable safe and uncrowded voting.
115.

Almost 60 percent of Wisconsin municipalities reported a shortage of poll

workers ahead of the April 7 election as volunteers sought to protect themselves against COVID19. These staffing shortages were especially acute because many older poll workers were
unwilling to risk their health. According to a survey conducted by Defendants prior to the
election, 111 voting jurisdictions in Wisconsin believed they would not have enough workers to
open even one polling place on election day, and 126 additional jurisdictions thought they did
not have enough workers to open “all desired polling places.”70
116.

These massive anticipated poll worker shortages led to unprecedented reductions

in the number of polling locations in some jurisdictions. Milwaukee faced the most closures of
any city, opening just 5 of its 180 polling sites. While the city usually has 2,000 election

70

Wis. Elections Commission, “Special Teleconference-Only Meeting, Polling Place Supply and Personnel
Shortages Memorandum” (Mar. 31, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-03/Complete%20Packet%203_31.pdf.

35
- App. 331 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 37 of 71

workers, on April 7 it had only 400. One news report noted that some communities with just a
tenth of Milwaukee’s population had more polling sites open.71
117.

Although the Governor eventually mobilized the National Guard to work at the

polls, many municipalities were not aware of that option until after they had announced poll
closures. City of Milwaukee Election Commission Executive Director Neil Albrecht, who made
a request for National Guard assistance months earlier, said that he learned about the Governor’s
decision through media reports.72 Albrecht said that if he had known about the assistance, he
could have opened more polling locations in Milwaukee, but it was “too little too late” right
before the election.73 In any event, according to a survey conducted by Defendants, only 2,400
National Guard members were available to address the 7,000 person shortage in poll workers.74
118.

As a result, the 19,000 Milwaukee voters who voted in person encountered wait

times of up to two-and-a-half hours. Plaintiff McCurtis waited in line to vote at Washington High
School for more than two hours. When the polls were set to close at 8:00 p.m., hundreds of
Milwaukee voters were still waiting in line, Plaintiff McCurtis among them.
119.

Milwaukee had offered drive-up in-person absentee voting in the days leading up

to the election, but on the last day it was possible to vote in that manner, lines of cars stretched
for blocks downtown and the wait lasted hours.75

71

Corrinne Hess & Megan Hart, Wisconsin Polls Close But Hundreds Of Voters Remain In Line, WIS. PUBLIC
RADIO (Apr. 7, 2020), available at https://www.wpr.org/wisconsin-polls-close-hundreds-voters-remain-line.
72
Molly Beck, Gov. Tony Evers to Use National Guard Members to Work the Polls Amid Massive Shortage of
Workers, MILWAUKEE JOURNAL SENTINEL (Apr. 1, 2020), available at
https://www.jsonline.com/story/news/politics/elections/2020/04/01/tony-evers-use-national-guard-members-workpolls-amid-massive-shortage-workers/5102869002/.
73
Id.
74
Marisa Wojcik, State Increases Contact Tracing After In-Person Voting, PBS WISCONSIN (Apr. 10, 2020),
available at https://pbswisconsin.org/news-item/state-increases-contact-tracing-after-in-person-voting/.
75
Aaron Maybin, ‘I Had to Go Do This:’ Some Waited 2 Hours on Final Day of Drive-Thru Voting in Milwaukee,
FOX 6 (Apr. 5, 2020), available at https://fox6now.com/2020/04/05/i-had-to-go-do-this-some-waited-2-hours-onfinal-day-of-drive-thru-voting-in-milwaukee/.

36
- App. 332 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 38 of 71

120.

That Milwaukee was so hard hit by these issues is particularly troubling because

Milwaukee is home to 69.4% of Wisconsin’s Black population76—meaning that Black
Wisconsin voters were disproportionately likely to be affected by polling place closures.
121.

In Green Bay, which opened just two of its 31 polling sites because just 17 of its

270 usual poll workers were able or willing to work,77 voters faced wait times of up to four
hours.78 In Waukesha, which has a population of 70,000, just one polling location out of the
usual 15 was open.
122.

Defendants’ failures to ensure safe access to polling places on election day also

resulted in arbitrary disparities, in which whether a voter had access to safe voting options
depended on where that voter lives. For example, in stark contrast to Milwaukee and Green Bay,
in Madison, 66 out of 92 polling sites were open. Madison also began offering curbside voting as
early as Friday, April 1 to high-risk voters. While the voting process was altered, it nonetheless
proceeded smoothly. Similarly, in some rural counties across Wisconsin, voting went more
smoothly, without the same extended wait times.
123.

Nearly a month before the April 7 election, Defendant Wolfe acknowledged that

poll worker shortages were likely to be a problem, but she did not take action sufficient to
remedy the problem. While she provided several recruiting suggestions and instructed clerks to
contact the Commission if they were experiencing “significant poll worker shortages,” the

76

Wis. Dep’t of Health Servs., “African Americans in Wisconsin: Overview,” available at
https://www.dhs.wisconsin.gov/minority-health/population/afriamer-pop.htm (last revised Sept. 10, 2018).
77
Wisconsin Primary Recap: Voters Forced to Choose Between Their Health and Their Civic Duty, N.Y. TIMES
(Apr. 7, 2020), available at https://www.nytimes.com/2020/04/07/us/politics/wisconsin-primary-election.html.
78
Wisconsin Heads to the Polls Amid Coronavirus Pandemic, WIS. PUBLIC RADIO (Apr. 7, 2020), available at
https://www.wpr.org/wisconsin-heads-polls-amid-coronavirus-pandemic.

37
- App. 333 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 39 of 71

“possible recruitment efforts” that the Commission suggested it might undertake did not solve
the problem.79
124.

Defendants’ failure to take action here had a particularly significant effect

because underlying legal requirements made it extremely unlikely that municipalities could solve
their poll-worker problems on their own. Wisconsin statutes provide that each election official,
including each inspector, must be “a qualified elector of a county in which the municipality
where the official serves is located.” Wis. Stat. § 7.30(2). The county-residence requirement
forbids recruiting inspectors from other parts of the state. This restriction needlessly makes it
more difficult for Defendants to address poll worker shortages, which will recur during the
upcoming elections.
125.

This statute also means that municipalities within the same county can draw from

the same pool of inspectors. Defendants did not attempt to facilitate, encourage, or coordinate
such intra-county poll-worker sharing.
126.

As a result, significant disparities in the availability of polling places and the

concomitant wait to vote persisted even within the same county. For example, while the City of
Milwaukee experienced the numerous problems described above, other cities within Milwaukee
County looked very different. In Wauwatosa, a city which borders Milwaukee with a population
of over 46,000, polling locations were largely empty, and in Germantown, with a population of
just less than 20,000, there were no lines at all during the day of the election.80

79

Wis. Elections Commission, “COVID-19 Frequently Asked Questions (FAQ’s) and Guidance on Procedural
Changes for Care Facility Absentee Voting and Polling Place Relocation” (Mar. 13, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-03/UPDATED%20%20Clerk%20comm%20re%20FAQ%20and%20SVD%20and%20Polling%20Place%20Procs_3_13_20.pdf.
80
Election Day Blog Recap: Milwaukee Releases Tuesday’s Voter Turnout; Late Lines After Polls Closed,
MILWAUKEE JOURNAL SENTINEL (Apr. 7. 2020), available at
https://www.jsonline.com/story/news/politics/2020/04/07/wisconsin-april-7-presidential-primary-election-updatesvoting-pandemic-milwaukee-polling-places/2959757001/.

38
- App. 334 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 40 of 71

127.

Defendants’ failures with respect to polling place locations and poll workers led

to a situation in which voters in some Wisconsin jurisdictions—but not others—were forced to
locate an unfamiliar polling place to cast a ballot in person and, in some cases, to wait in very
long lines to cast a ballot in person, or to forgo voting altogether.
G. Defendants’ Failure to Ensure Safe In-Person Voting Resulted in Widespread Voter
Intimidation
128.

In conducting an election during a pandemic, Defendants failed to ensure that in-

person voting was safe in each jurisdiction around the state. As alleged above, numerous failures
by Defendants resulted in extremely long lines at polling places. In addition, the availability of
personal protective equipment (PPE) for poll workers varied widely around the state. These
failures increased the risks that voters faced of contracting COVID-19 from a poll worker.
129.

Milwaukee was and is the epicenter of Wisconsin’s COVID-19 pandemic, and as

of the April 7 primary election, it accounted for over half of coronavirus cases and 81 percent of
related deaths.81 As a result, the city, which is home to nearly 70 percent of the state’s Black
residents, was one of the most dangerous places to vote. Many Milwaukee voters reported being
afraid to vote in person. Other voters compared voting in person on April 7 to moments in civil
rights history when seeking to cast a ballot meant risking your life.82 Given the disparate racial
impact of COVID-19 on the Black community, these comparisons are especially apt.

81

Ella Nilsen & Li Zhou, How Wisconsin’s Election Disenfranchised Voters, VOX (Apr. 7. 2020), available at
https://www.vox.com/2020/4/7/21212053/wisconsin-election-coronavirus-disenfranchised-voters.
82
Christina A. Cassidy & Gretchen Ehlke, Black Voters Weighed History, Health in Wisconsin Election, AP NEWS
(Apr. 8, 2020), available at https://apnews.com/be402510fea98fd7c37067ca05fd8e1a (“‘We had to be willing to die
to get our vote, and the same thing is happening right now,’ said Thomas, a 33-year-old director of youth ministry at
a Milwaukee church.”); Miela Fetaw & Hunter Woodall, ‘I Could Get the Virus If I Vote’: Wisconsin’s Terrifying
Election Day, THE DAILY BEAST (Apr. 7, 2020), available at https://www.thedailybeast.com/people-are-going-todie-in-this-election-wisconsin-votes-amid-coronavirus-pandemic-1 (“‘Was I scared? Hell yea I’m scared!’ he said.
‘This virus is taking out the black people in this community, but I knew what I had to do. My daddy couldn’t vote
during his time, so I voted for him.’”).

39
- App. 335 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 41 of 71

130.

The health risk presented by these lines during COVID-19 were objectively

intimidating to voters. As a result, some voters were actually deterred from voting, opting to stay
home or to leave a polling place before casting a ballot rather than wait in line and increase the
risk to their physical well-being and the well-being of their families.
131.

Others, like Plaintiff McCurtis, who chose to remain in line to vote, did so in the

face of dangerous voting conditions, risking their health in order to exercise the right to vote.
132.

Numerous voters expressed their fear to reporters and on social media. The

Governor acknowledged that voters were “scared of going to the polls.”83
133.

Nonetheless, after the election, Defendant Wolfe claimed in her summary

memorandum that voters had reported to the Commission “that they felt safe in polling places
and that there were adequate sanitation supplies.” 84
H. Burdens on Voters with Disabilities
134.

The Commission’s failures also severely burdened immunocompromised voters

as well as other voters with disabilities who require assistive technology available only at inperson polling places.
135.

Voters who are immunocompromised are voters with disabilities during the

COVID-19 pandemic. These voters must isolate themselves from other people in order to
minimize the risk that they will contract COVID-19 and experience severe illness or death.
136.

As a result, these voters with disabilities can cast only absentee ballots; in-person

voting is not available to them.

83

Scott Bauer & Steve Peoples, Wisconsin Moves Forward with Election Despite Virus Concerns, AP NEWS (Apr.
6, 2020), available at https://apnews.com/97db30e6564b9b5eedfc300234ea6630.
84
Wis. Elections Commission, “Summary of April 7, 2020 Election” (Apr. 18, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/202004/April%207%20Election%20Summary%20and%20Next%20Steps.pdf.

40
- App. 336 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 42 of 71

137.

Because Defendants failed to ensure that all voters who requested absentee ballots

received them and failed to ensure that absentee voters had access to drop boxes to ensure
delivery of their ballots, many of these voters were disenfranchised, despite making every effort
to cast an effective ballot. They were also disenfranchised by the witness verification
requirement to the extent these immunocompromised voters could not safely secure a witness to
verify their ballot.
138.

Some voters with disabilities, like voters who are blind, must utilize assistive

technology available only at in-person polling locations in order to vote privately and
independently.
139.

Some voters fall into both of these categories—they are immunocompromised and

require the use of assistive technology at an in-person polling place. These voters had no safe
opportunity to vote privately and independently, and they were therefore disenfranchised.
140.

For voters with disabilities who were forced to vote in person, long lines and lack

of curbside voting at some polling locations, particularly in Green Bay, served as additional—
often insurmountable—barriers to their ability to access the ballot.
IV.

Absent Judicial Intervention, These Failures Are Practically Certain to Recur in
August and November
141.

When Defendants administer the August and November elections, the COVID-19

pandemic will be ongoing. As a result, regardless of the precise circumstances of the pandemic
on those election days, the demand for online registration and absentee voting will remain
elevated, and safety measures to protect in-person voters will remain vital. However, as the April
7 election showed, Defendants do not have policies or other measures in place to ensure safe
voting in the upcoming August and November elections.
A. The Ongoing COVID-19 Pandemic
41
- App. 337 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 43 of 71

142.

As of the time of this filing, there have been 23,454 cases reported in Wisconsin

and 712 deaths.85
143.

As of this filing, approximately 279 new cases are diagnosed each day in

Wisconsin, as measured by the seven-day average.86 The rate of COVID-19 confirmed cases in
metropolitan areas continues to grow. And some metropolitan areas are seeing continually
increasing growth rates.87 It is not yet clear whether Wisconsin has reached the peak of this
initial wave of infections.88
144.

It is unlikely that a vaccine will be available until at least 2021,89 and until then,

the country will need to continue to take precautions to minimize the spread of COVID-19.90
145.

Experts predict that there will be multiple peaks in Wisconsin, with their timing

tied directly to the duration of the Safer At Home Order and the availability of testing.91
146.

According to Dr. Anthony Fauci, director of the National Institute of Allergy and

Infectious Diseases, a second round of COVID-19 cases in the United States is “inevitable” in
the fall.92

85

Wis. Dep’t of Health Servs., “Outbreaks in Wisconsin,” available at
https://www.dhs.wisconsin.gov/outbreaks/index.htm (last updated June 17, 2020); Wis. Dep’t of Health Servs.,
“COVID-19: Wisconsin Cases”; Wis. Dep’t of Health Servs., “COVID-19: Wisconsin Deaths.”
86
Wis. Dep’t of Health Servs., “COVID-19: Wisconsin Summary Data,” available at
https://www.dhs.wisconsin.gov/covid-19/data.htm (last accessed June 18, 2020).
87
Univ. of Madison, Wis. “Coronavirus in Wisconsin: How Fast It’s Growing,” available at https://dataviz.it.wisc.edu/wi-metro-growth-rate/ (last accessed May 14, 2020).
88
Wisconsin Sees 4-day Spike in Coronavirus Cases, WISN 12 (May 4, 2020), available at
https://www.wisn.com/article/wisconsin-sees-spike-in-new-coronavirus-cases/32361185.
89
Stephen M. Kissler, et al., Projecting the Transmission Dynamics of SARS-CoV-2 Through the Postpandemic
Period, American Association for the Advancement of Science (Apr. 14, 2020), available at
https://science.sciencemag.org/content/early/2020/04/24/science.abb5793.
90
Lena H. Sun, CDC Director Warns Second Wave of Coronavirus Is Likely to Be Even More Devastating, THE
WASHINGTON POST (Apr. 21, 2020), available at https://www.washingtonpost.com/health/2020/04/21/coronavirussecondwave-cdcdirector/.
91
Wis. Dep’t of Health Servs., “Johns Hopkins Modeling WI COVID-19 - GOAL” (Apr. 24, 2020), available at
https://www.dhs.wisconsin.gov/publications/p02643a.pdf.
92
Nicole Chavez, Another Wave of Coronavirus Will Likely Hit the US in the Fall. Here’s Why and What We Can
Do to Stop It, CNN (May 2, 2020), available at https://www.cnn.com/2020/05/02/health/coronavirus-second-wavefall-season/index.html.

42
- App. 338 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 44 of 71

147.

The Commission is scheduled to conduct two more elections in 2020: the August

11, 2020 partisan primary and the November 3, 2020 general election. On each of these dates, it
is overwhelmingly likely that COVID-19 transmission will continue in Wisconsin, that no
vaccine will exist, and that many voters will accordingly retain an objectively reasonable fear of
the risk to their physical safety presented by traditional in-person voting.
B. Turnout in November Will Exacerbate Problems
148.

If Defendants’ election system was unable to ensure that voters in April were

enfranchised during the COVID-19 pandemic, it will be that much more inadequate in November
absent significant changes. Indeed, “[e]xperts worry that poll worker shortages, long lines and
other delays in processing requests for absentee ballots will only get worse in November, when
there will be more voters.”93
149.

Nearly three million Wisconsin voters cast ballots in the 2016 presidential

election.94 With experts predicting higher than usual voter turnout nationwide this November,95
the number of Wisconsin voters who seek to participate in the presidential election is likely to be
more than twice the 1.5 million voters who participated in the April 7 election.96 As Defendants
note, there are particular challenges in November presidential elections, which “see a greater

93

Sam Levine, ‘We’re going to have a catastrophe’: US faces November election fiasco, The Guardian (June 12,
2020), available at https://www.theguardian.com/us-news/2020/jun/12/us-presidential-election-fiasco-votersuppression.
94
Election 2016: Wisconsin Results, N.Y. TIMES (Aug. 1, 2017), available at
https://www.nytimes.com/elections/2016/results/wisconsin.
95
Susan Milligan, Preparing for a Voter Surge, U.S. NEWS (Sept. 20, 2019), available at
https://www.usnews.com/news/elections/articles/2019-09-20/experts-predict-huge-turnout-in-2020.
96
Live: Wisconsin Supreme Court and Statewide Election Results, N.Y. TIMES, available at
https://www.nytimes.com/interactive/2020/04/07/us/elections/results-wisconsin-spring-elections.html (last accessed
May 9, 2020).

43
- App. 339 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 45 of 71

proportion of inexperienced voters” and voters that are “more likely to have difficulty navigating
the absentee voting process.”97
150.

If the proportion of voters seeking to cast absentee ballots in the November

election is similar to the proportion in April, Defendants’ system would need to be equipped to
distribute and receive back more than twice as many absentee ballots as it did in April, and it
would need to be able to ensure that more than twice as many voters could vote safely in person.
Defendants estimate that if voting patterns from April hold, Wisconsin could receive “more than
1.8 million requests for absentee ballots by mail.”98 If a lower proportion of voters seeks to vote
absentee, then that system would need to be able to ensure that any even larger number of voters
could vote safely, and free from intimidating conditions, in person.
151.

Defendants must equip municipal and county clerks to successfully count this

unprecedented number of absentee ballots.
152.

Larger turnout will also exacerbate the poll worker shortages experienced during

the April 7 election. Across the country, poll worker shortages have continued to frustrate
elections,99 and experts fear that such shortages will only grow worse in the November General
Election—particularly since elderly poll workers who often run elections will fear contracting
COVID-19.100

97

Wis. Elections Commission, “April 7, 2020 Absentee Voting Report” (May 15, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/May%2020%2C%202020.Final_.pdf.
98
Id.
99
See, e.g., AP, Coronavirus fears create shortage of Alaska election workers, Alaska Public Media (June 17,
2020), available at https://www.alaskapublic.org/2020/06/17/coronavirus-fears-create-shortage-of-alaska-electionworkers/; Sam Levine & Suman Naishadham, Georgia primary blighted by long lines and broken voting machines,
The Guardian (June 2, 2020), available at theguardian.com/us-news/2020/jun/09/georgia-election-primary-longlines-broken-voting-machines (“Elections officials across the state consolidated polling locations as they faced poll
worker shortages.”).
100
See Sam Levine, ‘We’re going to have a catastrophe’: US faces November election fiasco, The Guardian (June
12, 2020), available at https://www.theguardian.com/us-news/2020/jun/12/us-presidential-election-fiasco-votersuppression; Carrie Levine, Elderly workers run elections. But COVID-19 will keep many home, Center for Public
Integrity (May 13, 2020), available at https://publicintegrity.org/politics/elections/democracy-2020/elderly-workersrun-elections-but-covid-19-will-keep-many-home/.

44
- App. 340 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 46 of 71

153.

Unless Defendants take swift actions, the numerous irregularities that plagued the

April 7 election will disenfranchise countless more voters during the impending August and
November elections as well.
C. Defendants Have Not Taken Steps Sufficient to Correct the Ongoing Problems
with Wisconsin Elections under COVID-19
154.

While Defendants have announced some actions that they plan to take to improve

upon the administration of the April 7 election, these actions are insufficient to ensure that
subsequent elections during the pandemic will protect voters’ rights under the Constitution and
federal statutes.
155.

First, Defendants have not taken sufficient action to ensure that MyVote will be

able to support the large-scale online registration and at-home absentee voting which will
continue to be necessary during the impending August and November elections. In her April 7
Election Summary Memorandum, Defendant Wolfe wrote on this topic that staff would “work to
augment voter workflows for online voter registration and absentee ballot requests.”101 The
memorandum did not address outages or mention securing additional capacity. In her May 20
CARES Grant Planning Memorandum, Defendant Wolfe again did not make specific mention of
adding additional capacity, although she did acknowledge the need for “software development
and consultation” and “system load testing.102
156.

Absent significant improvement of computer-system infrastructure, Wisconsin

voters will not have adequate access to online absentee ballots or online registration during the
August and November elections.

101

Wis. Elections Commission, “Summary of April 7, 2020 Election” (April 18, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/202004/April%207%20Election%20Summary%20and%20Next%20Steps.pdf.
102
Wis. Elections Commission, “CARES Grant Planning” (May 20, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/May%2020%2C%202020.Final_.pdf.

45
- App. 341 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 47 of 71

157.

Second, Defendants have failed to take sufficient action to ensure that voters who

timely request absentee ballots for subsequent 2020 elections will receive those ballots in time to
participate in those elections. Although the Elections Commission now intends to mail absentee
ballot applications to nearly all registered voters who have not already requested one, the April 7
election exposed failures at almost every juncture in the voting process. These failures will not
be corrected as a result of this one action. For example, on the topic of allowing voters to track
where their absentee ballot is in the process, Defendant Wolfe’s memorandum stated that staff
“hopes to incorporate intelligent mail barcodes into the absentee process and incorporate that
information into the MyVote system,” but offers no concrete commitment or contingency plan.
(emphasis added).103 Similarly, in a May 20 memorandum, Defendants mention intelligent mail
barcodes as a “potential direction,” without any assurances that any system will ultimately be
implemented.104
158.

Third, Defendants have failed to take sufficient action to ensure that all voters

who receive absentee ballots can cast their ballots and have them counted.
159.

The statutory deadline for requesting an absentee ballot is just five days before

election day, Wis. Stat. § 6.86(1)(b), and clerks can wait up to one business day before mailing a
ballot. Wis. Stat. § 7.15(cm). Defendants have acknowledged that postal mail can take up to a
week to transport a ballot both from clerk to voter and voter back to clerk, for a total of two
weeks. As a result, some voters who timely request absentee ballots, receive them, cast their
votes, and timely return them by postal mail will still be disenfranchised. Nonetheless,

103

Id.
Wis. Elections Commission, “April 7, 2020 Absentee Voting Report” (May 15, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/May%2020%2C%202020.Final_.pdf.
104

46
- App. 342 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 48 of 71

Defendants have failed to require or facilitate the availability of secure drop boxes in each
municipality for the socially distant return of absentee ballots.
160.

Even with drop boxes, absent judicial relief ensuring that mailed absentee ballots

postmarked by election day are accepted for counting, some voters who timely request absentee
ballots will inevitably be disenfranchised again.
161.

Defendants have no policy or other measures in place to create any more

workable alternatives for voters at high risk from COVID-19, especially immunocompromised
voters, who cannot safely comply with the witnessing requirements for absentee ballots set forth
in Wis. Stat. § 6.87(2).
162.

Fourth, Defendants have no policy or other measures in place to ensure that

voters statewide have sufficient access to in-person absentee voting opportunities, including both
walk-in early voting and drive-through early voting. In-person absentee voting is essential for
those who are unable, for a variety of reasons, to obtain an absentee ballot by mail or through the
online system. It is also essential in order to spread out in-person voting over a longer period,
thereby reducing the likelihood that election day polling locations will be overwhelmed and
allowing better compliance with safety precautions against spread of coronavirus. Additionally,
Wisconsin law requires municipalities to designate locations for in-person absentee voting by
June 11, 2020. Wis. Stat. § 6.855(1). Unless this provision is enjoined, Defendants and
municipalities will not have the flexibility necessary to provide sufficient and safe in-person
absentee voting opportunities because of the early cut-off for designating polling locations.
163.

Fifth, Defendants, although recognizing the critical shortage of poll workers that

led to widespread polling place closures, have no policy or other measure in place to facilitate
recruitment of poll workers or provide assistance in facilitating the equitable distribution of poll

47
- App. 343 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 49 of 71

workers within counties. Instead, Defendant Wolfe’s memorandum stated that the Commission
would (1) “work with” and “survey” jurisdictions to keep abreast of their shortages; (2) maintain
a ticket for personnel with the State Emergency Operations Center; and (3) develop training for
last-minute poll-worker certification.105
164.

Sixth, Defendants have failed to take adequate action to ensure that in-person

absentee and election day polling places will be safe during the August and November elections,
and that voters are made aware in advance of these changes so that the failures of the April 7
election do not have an intimidating effect on voters in August and November. While Defendant
Wolfe wrote that, for the August and November elections, Commission staff would assist
jurisdictions in finding sanitary supplies and masks and gloves for poll workers, Defendants have
taken no action to require voters or poll workers to wear masks or take other precautions to
ensure that voters feel secure in appearing at polling places.106
165.

Seventh, Defendants have failed to take adequate steps to ensure that voters with

disabilities who require the use of assistive technology to vote privately and independently will
have both the option to vote safely in person and the option to use an at-home accessible voting
option.
166.

Eighth, Defendants have not put forward a plan to ensure that all members of the

voting public have the information they need to register online, request an absentee ballot, and
successfully return that ballot, so that no one at high risk for COVID-19 and thus unable to vote
in person is disenfranchised in August or November. They have not put forward a plan to ensure
that voters on the wrong side of the digital divide have the information they need to register and
request an absentee ballot. Wisconsin voters on the wrong side of the digital divide—who lack

105
106

Wis. Elections Commission, “Summary of April 7, 2020 Election.”
Id.

48
- App. 344 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 50 of 71

internet access or familiarity with online resources—are particularly likely to be disenfranchised
because they will not be able to access MyVote in order to easily register and request an absentee
ballot. Black, Latino, elderly, and rural voters are disproportionately likely to be on the wrong
side of the digital divide.107
167.

Defendants refer only generally to “voter outreach programs.”108 This is

insufficient for the growing demand and need for a comprehensive voter education effort.
168.

As a result of these failures, the harms experienced by the voters of Wisconsin,

and by Plaintiffs in particular, are overwhelmingly likely to recur in the August and November
elections absent relief here.
V.

Plaintiffs’ Injuries

Jill Swenson
169.

Plaintiff Jill Swenson is sixty-one years old and has, among other serious

ailments, early stage chronic obstructive pulmonary disease (“COPD”), an inflammatory lung
disease that causes obstructed airflow from the lungs. Ms. Swenson is in one of the highest-risk
populations for COVID-19.
170.

Ms. Swenson is a regular voter and makes it her usual practice to vote in person

on election day. This year, because of her age and health, Ms. Swenson felt unsafe voting in
person at her polling location or returning an absentee ballot in person at Appleton City Hall.

107

U.S. Census Bureau, “The Digital Divide: Percentage of Households by Broadband Internet Subscription,
Computer Type, Race and Hispanic Origin” (Sept. 11, 2017), available at
https://www.census.gov/library/visualizations/2017/comm/internet.html; Andrew Perrin, Digital Gap Between Rural
and Nonrural America Persists, PEW RESEARCH CENTER (May 31, 2019), available at
https://www.pewresearch.org/fact-tank/2019/05/31/digital-gap-between-rural-and-nonrural-america-persists/;
Andrea Caumont, Who’s not online? 5 factors tied to the digital divide, PEW RESEARCH CENTER (May 31, 2019),
available at https://www.pewresearch.org/fact-tank/2013/11/08/whos-not-online-5-factors-tied-to-the-digitaldivide/.
108
Wis. Elections Commission, “April 7, 2020 Absentee Voting Report” (May 15, 2020), available at
https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/May%2020%2C%202020.Final_.pdf.

49
- App. 345 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 51 of 71

After several unsuccessful attempts to scan in her identification, she successfully requested a
mail-in absentee ballot online at the end of February. It arrived about a week later.
171.

By March 11, Ms. Swenson had begun to self-quarantine. She did not leave her

home or interact with others in person. Ms. Swenson was unable to find anyone who could safely
witness her ballot. Her friends and neighbors were either failing to practice social distancing, still
working at essential businesses, or recently recovered from possible COVID-19.
172.

On March 31, Ms. Swenson contacted the Commission for advice on how to

submit her ballot. The Commission told Ms. Swenson to have someone come to her home and
hand the ballot back-and-forth through a window or door. It also pointed her to a website with
guidance suggesting that voters leave their ballot outside for day before a witness handles the
ballot, and then wait another day before handling the witnessed ballot. Ms. Swenson did not feel
safe inviting anyone over. The Commission also told Ms. Swenson she could bring her absentee
ballot to Appleton City Hall, but she felt unsafe doing so because interacting with staff and other
members of the public could cause her serious illness or death.
173.

When Ms. Swenson learned about the Court’s April 2 order allowing voters to

submit un-witnessed absentee ballots by mail, she completed and mailed her absentee ballot
immediately, with a note stating that she lived alone, feared contracting COVID-19, and could
not find a witness, and that she was submitting an unwitnessed ballot in conformity with the
court order. Later that day, the Seventh Circuit stayed enforcement of that Order. Several days
later, Ms. Swenson learned through news reports that her ballot would be invalidated and that her
vote would not count. She was deeply upset; she cherishes exercising her right to vote.

50
- App. 346 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 52 of 71

174.

Ms. Swenson was not aware of any opportunity to cure the defect with her

absentee ballot and knew that attempting to vote in person after submitting even an invalidated
absentee ballot would be unlawful.
175.

If the witnessing requirement remains in effect during the August and November

elections, Ms. Swenson will not have a safe way to vote—and to ensure her vote is counted—in
Wisconsin’s August and November elections.
Melody McCurtis
176.

Plaintiff Melody McCurtis lives in the Sherman Park neighborhood of

Milwaukee, Wisconsin. She is a lifelong voter who votes in almost every election, large or small.
She lives in a multi-generational household that includes her mother, who has hypertension, high
blood pressure, and an enlarged heart, putting her at increased risk of COVID-19 complications.
As a community organizer, Ms. McCurtis was aware of the disparate impact that COVID-19 had
had on the Black community in Milwaukee. Her polling location at Washington High School is
located in Sherman Park, the epicenter of the COVID-19 crisis in the Black community.
Knowing all this, Ms. McCurtis requested an absentee ballot on March 22.
177.

Ms. McCurtis’s ballot never arrived. On April 6, Ms. McCurtis called the Clerk’s

office, but there was no answer. She called again on April 7, and was told that she had no choice
but to vote in person. Although Ms. McCurtis’s mother was afraid of Ms. McCurtis voting in
person, Ms. McCurtis joined the blocks-long line outside of Washington High School around
6:30 p.m. on election day. She cast her ballot at 9:09 p.m.
178.

During the wait of more than two-and-a-half hours, Ms. McCurtis experienced

intimidation, fear, and frustration. Voters in line were not able to practice social distancing due to
the large number of people in line and the failure of election officials to enforce the practice. The

51
- App. 347 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 53 of 71

polling location did not provide PPE for voters, and it had run out of sanitary pens. Ms. McCurtis
observed seniors and individuals with disabilities waiting in the long line. In addition, there was
a noticeably high police presence, including the National Guard. Yet despite the high police
presence, no one stopped a young woman who spent over an hour dancing along the line of
voters, entering voters’ personal space and creating a health risk for those in line.
179.

As she waited in line, Ms. McCurtis observed a member of the National Guard

approach and speak to a female voter. The woman stepped out of line and left. That National
Guard member then approached Ms. McCurtis and said, “You know this will be a two-hour wait,
right?” The National Guard member appeared to be discouraging voters from remaining in line.
Ms. McCurtis asked him to stop speaking to voters and refrain from discouraging voters from
remaining in line, but she was not able to monitor whether he did so. This experience deeply hurt
Ms. McCurtis, who is a community organizer focused on encouraging Metcalfe Park community
members to vote.
180.

Ms. McCurtis still feels the traumatic impact of being subjected to such an unsafe

voting experience; the heavy police presence and long line of Black voters reminded her of the
violence surrounding earlier generations of Black Americans’ efforts to vote. On April 7, she felt
afraid for her health and physical safety, and the health and physical safety of her community. In
light of her experience in April, Ms. McCurtis reasonably fears that she will not be able to
exercise her right to vote in August and November without exposing herself, and therefore her
mother, to significant health risks.
Maria Nelson
181.

Plaintiff Maria Nelson has breast cancer and is currently undergoing

chemotherapy treatment. She is also a regular voter and enjoys taking her two young children to

52
- App. 348 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 54 of 71

the polls to teach them the importance of voting. Because of highly publicized reports explaining
that immunocompromised individuals are most at risk from the COVID-19 pandemic, Ms.
Nelson felt unsafe voting in person at her polling location on election day. Because of this, on
March 31, she timely emailed the Appleton City Clerk and requested an absentee ballot. She
received a call in response from the Clerk’s office stating that the Clerk’s office would be
sending an absentee ballot by mail. Ms. Nelson agreed, assuming that the Clerk’s office was
accurately representing its ability to send her a timely ballot.
182.

Ms. Nelson’s absentee ballot did not arrive before April 7. Instead, it arrived on

April 8, too late to be used. On election day, Ms. Nelson was not able to vote in person because
she felt too unsafe and was not willing to risk her life by voting in person. As a result, Mrs.
Nelson was disenfranchised.
183.

If Defendants do not remedy the defects in the in-person and absentee voting

systems, Ms. Nelson will not have a safe and reliable way to cast a ballot in the August and
November elections.
Black Leaders Organizing for Communities
184.

Plaintiff BLOC mobilizes Black Wisconsinites to participate at all levels of

government and encourages communities of color to fulfill their potential for electoral impact in
Milwaukee. As part of its work, BLOC educates the Black community in Milwaukee about voter
eligibility rules, voter ID requirements, the importance of voting, and the opportunity for early
voting. BLOC primarily operates as a robust field program. For example, BLOC knocked on
approximately 227,000 doors in Milwaukee in 2018, encouraging Black residents to engage in
civic participation, including voting. Ahead of the April 7 election, BLOC had hired 50
ambassadors to knock on an anticipated 44,000 doors. Each ambassador went through more than

53
- App. 349 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 55 of 71

30 hours of civics training, including training on registering voters and how to vote. Much of that
training became out of date as Defendants’ policies and deadlines shifted again and again in the
days leading up to April 7. Because of the COVID-19 pandemic, BLOC ambassadors have
reduced capacity and are working half of their ordinary hours. BLOC is paying ambassadors for
their full hours.
185.

In light of Defendants’ failures to provide adequate and safe voting opportunities

in the face of the COVID-19 pandemic, BLOC had to uproot its highly effective field program
and divert significant resources to digital outreach to Black Wisconsin voters, including
implementing a texting and phone-banking campaign to educate voters on how to cast mail-in
absentee ballots. This required setting up new technological tools, and training BLOC’s
ambassadors on those tools remotely. While BLOC would inevitably had to have made changes
to its field program in light of COVID-19, Defendants’ policies and practices significantly
increased that burden. As deadlines and absentee ballot requirements shifted, BLOC had to
repeatedly push out additional training and information to its remote staff and ensure that
updated messages were being sent to constituents. BLOC’s staff created graphics and social
media posts for every new deadline and policy change; ordinarily, minimal new content would
be created, and BLOC would be able to reuse any new content. BLOC will be unable to reuse
most of the new content created for April.
186.

BLOC was also unable to fulfill its mission of encouraging Black Wisconsinites

to vote. BLOC had to contact voters multiple times as policies changed. Each call was longer
than usual, as BLOC staff spent time explaining confusing online systems, helping voters scan
identification over the phone, and walked them through changing deadlines. Because of this, and
because BLOC staff had been and continues to work reduced hours, BLOC was unable to meet

54
- App. 350 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 56 of 71

its goals for voter contacts leading up to the April 7 election (but at the same cost to BLOC). But
for Defendants’ failures, much of this work would have been unnecessary. Instead, BLOC would
have focused on traditional get-out-the-vote efforts, speaking to voters about candidates and
issues. BLOC was not able to have those conversations with voters this year and, because of the
numerous barriers facing its constituents, was not able to meet its goals related to getting
significant numbers of the Black community to vote.
187.

BLOC’s organizational planning for the summer and fall are on hold, because

BLOC has no way of knowing what policies or deadlines will be in place for the August and
November elections. Many voters with whom BLOC works did not receive an absentee ballot by
April 7, 2020. Others found the absentee ballot request system confusing and difficult to use.
Many of those voters feared for their health and safety due to the ongoing COVID-19 pandemic,
including because COVID-19 has disproportionately affected the Black community. They were
too afraid to vote in person on April 7. As a result, those voters were disenfranchised and unable
to cast a ballot in the election.
188.

Absent relief here, many voters with whom BLOC works will be similarly

disenfranchised and burdened during subsequent elections. As a result, BLOC will be forced to
continue to divert resources in order to attempt to enfranchise these voters, to counteract the
uncertainty Defendants’ policies and practices are creating, and to reach the increased number of
Black voters facing unsafe voting conditions.
189.

Although BLOC has invested heavily in building community trust in the election

system and building community power through civic engagement, BLOC is now faced with rebuilding that trust after many of the voters with whom BLOC works were disenfranchised due to
Defendants’ failures. This shift in programmatic focus will likely mean generating new

55
- App. 351 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 57 of 71

messaging and outreach campaigns. The lost trust created by Defendants’ failures and the
disenfranchisement of BLOC’s constituents has made it harder for BLOC to achieve its mission.
Disability Rights Wisconsin
190.

Plaintiff DRW’s mission is to address the issues facing, and to ensure the rights

of, all people with disabilities in Wisconsin. DRW has a state and federal mandate to protect and
advocate for the rights of people with disabilities in Wisconsin, including those with
developmental disabilities, mental illness, and traumatic brain injury. As part of this mandate,
DRW oversees self-advocacy training and other programs and services to assist people with
disabilities, including to secure election access, including registering to vote, accessing polling
places, and casting their ballot. DRW also leads the Wisconsin Disability Vote Coalition.
191.

In light of Defendants’ failures to provide adequate and safe voting opportunities

in the face of the COVID-19 pandemic, DRW had to produce numerous resources and trainings
ahead of the April 7 election that it would not have otherwise produced, at the expense of staff
time and DRW’s other programmatic priorities. For example, DRW organized four Zoom
briefings to explain the special circumstances and changing policies around the April 7 election.
As requirements changed, DRW had to update and rewrite resources provided to voters five to
six times, including its popular Election FAQ document. With each update, DRW staff had to
spend time liaising with the Commission to make sure they were conveying accurate
information. Ordinarily, DRW would have to create only a single version of these materials.
DRW also had to attend emergency meetings of the Commission, prepare for at least two
unplanned calls with WEC, and coordinate on an emergency basis with other Wisconsin
organizations to ensure voters were getting accurate information.

56
- App. 352 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 58 of 71

192.

Because of this unplanned and additional work, significant staff time was spent

responding to Defendants’ failures and informing DRW’s constituents about how to vote. This
staff time was diverted from other DRW priorities, such as creating key reference materials for
parents of children with serious disabilities, completing federal grant reporting requirements, and
coordinating Wisconsin’s Mental Health Task Force.
193.

DRW continues to have to divert resources in response to Defendants’ failures

and in anticipation of future disenfranchisement, if policies are not changed. DRW has devoted
significant staff time to organizing Zoom briefings for the May 12 election, and it is currently
coordinating with other Wisconsin groups on a joint voter-education plan for future elections,
and developing a campaign to encourage voters to vote absentee. As a part of campaign
planning, DRW is conducting in-depth research, including interviews, on how other states
provide for accessible absentee voting. None of this work was previously planned, and all of it
takes staff time away from previously planned work and affects DRW’s ability to fulfill its
mission.
194.

Many of the Wisconsinites with disabilities on whose behalf DRW advocates face

significant obstacles to voting as a result of COVID-19. They will either be disenfranchised or
exposed to heightened risk of illness if their legal rights to safely vote are not vindicated. DRW
also brings this suit on their behalf.
CLAIMS FOR RELIEF
Count 1: Violation of Section 11(b) of the Voting Rights Act
(All Plaintiffs)
195.

Plaintiffs reallege and incorporate by reference the allegations contained in the

preceding paragraphs.
196.

Section 11(b) of the Voting Rights Act provides that:
57
- App. 353 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 59 of 71

No person, whether acting under color of law or otherwise, shall intimidate, threaten, or
coerce, or attempt to intimidate, threaten, or coerce any person for voting or attempting to
vote, or intimidate, threaten, or coerce, or attempt to intimidate, threaten, or coerce any
person for urging or aiding any person to vote or attempt to vote, or intimidate, threaten,
or coerce any person for exercising any powers or duties under section 10302(a), 10305,
10306, or 10308(e) of this title or section 1973d or 1973g of Title 42.
52 U.S.C. § 10307(b).
197.

Defendants violated Section 11(b) of the Voting Rights Act by failing to take

objectively reasonable precautions to enable Wisconsin citizens to vote free of fear of
contracting COVID-19. See Hicks v. Knight, Civ. No. 15,727, 10 Race Rel. L. Rep. 1507-09
(E.D. La. 1965) (finding that a city violated federal voting rights law when it failed to take
reasonable measures to protect voter registration group from physical danger).
198.

Defendants did not take objectively reasonable steps to run an absentee-voting

program that guaranteed registered voters who timely requested ballots the ability to reliably and
safely cast their ballots from home. They did not provide municipal clerks with the resources
necessary to timely process an unprecedented volume of absentee ballot requests. They did not
provide a means of complying with the absentee ballot witness requirement that was safe and
feasible for voters at high risk from COVID-19. And they did not ensure that drop boxes would
be available for absentee voters who wanted to ensure timely receipt of their voted ballots.
199.

Defendants did not take objectively reasonable precautions to ensure that every

voter had access to a safe polling site or in-person absentee voting location that allowed for
adequate social distancing practices. They took insufficient steps to ensure, for instance, that
there were enough poll workers in each county to staff an adequate number of polling sites to
forestall long lines and crowds, and they did not facilitate the equitable sharing of poll workers
across jurisdictions within a county. They did not require that poll workers or voters wear masks.

58
- App. 354 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 60 of 71

200.

As a result, many Wisconsin voters—even those who had timely requested

absentee ballots—were forced to choose between risking their physical safety to vote and
abstaining from voting.
201.

Defendants’ failure to take objective reasonable precautions to ensure that each

Wisconsin voter could vote free of fear of contracting COVID-19 intimidated and injured
Plaintiffs.
202.

Plaintiff Swenson was too intimidated by fear of contracting COVID-19 both to

vote in person and to get a witness to sign her absentee ballot. As a result, she was
disenfranchised. Absent relief, she will be intimidated again in subsequent elections during the
pandemic.
203.

Plaintiff McCurtis was intimidated and threatened by the unsafe conditions she

encountered in voting at Washington High School in Milwaukee. Absent relief, she will
anticipate similar conditions at polling places during subsequent elections during the pandemic,
and thus will remain intimidated.
204.

Plaintiff Nelson was too intimidated by fear of contracting COVID-19 to vote in

person, and she did not receive her timely requested absentee ballot. As a result, she was
disenfranchised. Absent relief, she will be intimidated again in subsequent elections during the
pandemic.
205.

Widespread voter intimidation has forced DRW and BLOC to divert resources

from other activities in order to ensure that voters are not afraid to cast ballots in subsequent
elections during the pandemic.
206.

Defendants have not taken sufficient steps to remedy their failure to protect voters

from intimidation during the April election.

59
- App. 355 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 61 of 71

207.

Unless enjoined by the Court, Defendants will continue to violate Section 11(b) of

the Voting Rights Act.
Count 2: Violation of the Equal Protection Clause of the Fourteenth Amendment
to the U.S. Constitution
(Plaintiff McCurtis, Organizational Plaintiffs)
208.

Plaintiffs reallege and incorporate by reference the allegations contained in the

preceding paragraphs.
209.

The Fourteenth Amendment prohibits Wisconsin from “deny[ing] to any person

within its jurisdiction the equal protection of the laws.” U.S. Const. Amend. XIV, § 1.
210.

“Having once granted the right to vote on equal terms, [a state] may not, by later

arbitrary and disparate treatment, value one person’s vote over that of another.” Bush v. Gore,
531 U.S. 98, 104-105 (2000). Defendants cannot “arbitrarily deny” Wisconsinites “the right to
vote depending on where they live.” League of Women Voters of Ohio v. Brunner, 548 F.3d 463,
476 (6th Cir. 2008).
211.

Defendants’ administration of the April 7 election arbitrarily advantaged voters in

some jurisdictions and disadvantaged those who resided in others, including especially voters in
Milwaukee.
212.

Defendants failed to take sufficient action to remedy known poll worker

shortages. They also failed to facilitate the equitable sharing of poll workers within counties,
leading to situations in which municipalities in the same county had radically different staffing
levels and thus provided radically different experiences for voters.
213.

Defendants’ arbitrary and disparate administration of the April election injured

Plaintiff McCurtis by subjecting her, as a resident of the City of Milwaukee, to a voting system

60
- App. 356 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 62 of 71

more dysfunctional than that experienced by Wisconsinites in many jurisdictions—who voted
without waiting in line for more than two and a half hours.
214.

Defendants’ arbitrary and disparate administration of the April election has forced

the Organizational Plaintiffs to divert resources from other activities in order to ensure that
voters in Milwaukee, Green Bay, and other municipalities that experienced severe problems in
April are enfranchised in subsequent elections during the pandemic.
215.

Defendants’ actions, taken under color of law, deprive Plaintiffs of rights,

privileges, or immunities secured to them by the Constitution of the United States, in violation of
42 U.S.C. § 1983.
216.

Defendants’ actions and failures to act have subjected Plaintiffs to arbitrary

disparities in their ability to have their votes counted depending on where they live.
217.

Unless enjoined by the Court, Defendants will continue to violate the Equal

Protection Clause.
Count 3: Violation of the First and Fourteenth Amendments
to the U.S. Constitution
(All Plaintiffs)
218.

Plaintiffs reallege and incorporate by reference the allegations contained in the

preceding paragraphs.
219.

United States citizens’ voting rights are protected by the First and Fourteenth

Amendments to the U.S. Constitution. See Anderson v. Celebrezze, 460 U.S. 780 (1983); Burdick
v. Takushi, 504 U.S. 428 (1992).
220.

Defendants’ actions unduly burdened Plaintiffs Swenson, McCurtis, and Nelson’s

constitutionally protected voting rights by forcing them to choose between exercising their rights
to vote and their personal safety.
61
- App. 357 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 63 of 71

221.

As a result, Defendants’ actions imposed a severe—and sometimes impossible—

burden on Plaintiffs’ right to vote.
222.

Defendants’ administration of the April election in a manner that imposed severe

burdens on voters has forced the Organizational Plaintiffs to divert resources from other
activities in order to ensure that voters are nonetheless enfranchised in subsequent elections
during the pandemic.
223.

Defendants have no countervailing legitimate governmental purpose in forcing

individuals to choose between the right to vote and their safety.
224.

Unless enjoined by the Court, Defendants will continue to violate the First and

Fourteenth Amendments.
Count 4: Violation of the Due Process Clause of the Fourteenth Amendment
to the U.S. Constitution
(Procedural Due Process)
(Plaintiffs Swenson and Nelson, Organizational Plaintiffs)
225.

Plaintiffs reallege and incorporate by reference the allegations contained in the

preceding paragraphs.
226.

The Due Process Clause of the Fourteenth Amendment prohibits the Defendants

from denying any person of a protected property or liberty interest without fair process. See U.S.
Const. Amend. XIV, § 1. At the core of these procedural protections is the right to adequate
notice with respect to any deprivation of a protected interest, and a fair opportunity to be heard
on the matter at a meaningful time and in meaningful manner. See Mathews v. Eldridge, 424
U.S. 319 (1976).
227.

All eligible Wisconsin voters have a fundamental right to vote protected by the

U.S. Constitution and Wisconsin law. Wis. Stat. § 6.02. All eligible Wisconsin voters also have a
right to request and receive an absentee ballot for any reason, Wis. Stat. § 6.85, et seq., and to
62
- App. 358 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 64 of 71

have their properly cast absentee ballots counted, Wis. Stat. §§ 6.88, 7.52. Each of these rights is
a protected liberty or property interest that triggers the fundamental procedural protections of the
Due Process Clause.
228.

Defendants violated Plaintiffs’ procedural rights under the Due Process Clause

with respect to the right to obtain an absentee ballot. Defendants violated this right by failing to
provide: adequate notice of the procedures by which individuals might cure any errors in a
request for an absentee ballot; adequate notice that an absentee ballot would not be delivered to
the voter in time to cast the ballot; clear, timely, and effective procedures by which to exercise
the right to vote in the event an absentee ballot did not arrive in sufficient time before election
day; and clear, timely, and effective procedures by which a voter could seek redress in the event
of an erroneous deprivation of the right to obtain an absentee ballot. Defendants further violated
these rights by failing to adopt constitutionally adequate rules, directives, or similar guidance on
these matters statewide.
229.

Defendants also violated Plaintiffs’ procedural rights under the Due Process

Clause with respect to the right to have absentee ballots counted. Defendants violated this right
by failing to provide timely notice that an absentee ballot had been rejected before election
results are certified, including with respect to absentee ballots rejected on the grounds that the
ballot allegedly lacked necessary signatures or other details, or because of alleged problems with
the postmark or other evidence that the ballot was timely cast. Wis. Stat. §§ 6.88, 7.52.
Defendants also failed to provide voters a constitutionally adequate opportunity to be heard on
the validity of their ballots before they were excluded from the certified election results. Id. In
order to afford constitutionally adequate notice and a timely opportunity to be heard, state laws

63
- App. 359 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 65 of 71

that currently forbid canvassing of absentee ballots prior to election day should be enjoined. See
Wis. Stat. §§ 6.88, 7.51–.52.
230.

Defendants further violated Plaintiffs’ procedural rights under the Due Process

Clause by failing to provide timely, meaningful, and effective notice of changes in voting
protocols, procedures, and requirements precipitated by the coronavirus pandemic. Defendants’
failure to communicate effective notice of such changes to the public created widespread
confusion in the April 7 election about how eligible voters could or could not exercise their
fundamental right to vote. This failure resulted in Plaintiffs, like Plaintiffs Swenson and Nelson,
losing their fundamental right to vote and other protected interests, including the right to obtain
and cast an absentee ballot rather than incur the health risk of going to a polling place on election
day. Defendants have not cured those failures and have a continuing obligation under the Due
Process Clause to provide effective, timely notice to voters with respect to the protocols,
procedures, and other requirements they must satisfy in order to exercise their fundamental right
to vote either in person or absentee. Defendants have also violated these requirements by failing
to implement rules, directives, or similar guidance with respect to such matters statewide.
231.

Defendants’ heavy reliance on websites, particularly MyVote Wisconsin, as a

means of providing notice to voters failed to satisfy the requirements of procedural due process
with respect to the large number of Wisconsin residents who do not have ready access such
means of communication, including those who lack necessary technical skills, those with
disabilities, and those who simply do not have ready access to computers or the internet. This
failure disproportionately affects low-income, disabled, elderly, and minority voters, and forces
the Organizational Plaintiffs to expend significant additional resources to carry out voter

64
- App. 360 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 66 of 71

education, voter outreach, and get-out-the-vote activities with respect to the populations that they
each serve.
232.

Defendants are not taking adequate steps to cure these violations of procedural

due process in the August and November elections.
233.

Unless enjoined by the Court, Defendants will continue to violate procedural

rights guaranteed by the Due Process Clause.
Count 5: Violation of the Americans with Disabilities Act
(Plaintiffs Swenson and Nelson, Organizational Plaintiffs)
234.

Plaintiffs reallege and incorporate by reference the allegations contained in the

preceding paragraphs.
235.

Under Title II of the ADA, state and local governments must not impose

requirements on participation in public services, programs, or activities, including voting, that
prevent individuals with disabilities from fully and equally enjoying that participation, and must
make reasonable modifications in policies, practices, or procedures when necessary to avoid
discrimination on the basis of disability. 42 U.S.C. § 12132. “Title II of the ADA requires [such
entities] to ensure that people with disabilities have a full and equal opportunity to vote. The
ADA’s provisions apply to all aspects of voting, including voter registration, site selection, and
the casting of ballots, whether on Election Day or during an early voting process.”109
236.

Immunocompromised individuals and those who suffer a significant medical

vulnerability that would place them at high risk of serious bodily injury or death should they
leave the confines of their home, or should they interact with a non-member of their household,
have a disability within the meaning of the ADA.

109

U.S. Dep’t of Justice, “The Americans with Disabilities Act and Other Federal Laws Protecting the Rights of
Voters with Disabilities,” available at https://www.justice.gov/file/69411/download (last accessed June 18, 2020).

65
- App. 361 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 67 of 71

237.

Defendants have failed to safeguard these individuals’ right to participate in our

democracy in at least three ways.
238.

First, through the conduct described above, Defendants have failed to ensure that

such individuals who request absentee ballots receive them, as necessary to allow them to vote,
and to count their ballots if they are able to mail them back. Defendants must maintain a voting
process that ensures those with such disabilities can register for, receive, vote, and have counted
their absentee ballots.
239.

Second, Defendants have failed to provide reasonable accommodations to voters

with disabilities from the in-person witness requirements for absentee voting, Wis. Stat.
§ 6.87(2). Many Wisconsin voters with disabilities live alone and cannot safely arrange for an inperson witness. Defendants have failed to accommodate these voters by, for example, replacing
the witness verification requirement with a self-certification requirement. In so doing,
Defendants have violated the ADA by denying these voters the right to participate in
Wisconsin’s voting process by reason of their disability.
240.

Third, blind individuals and others who require the use of assistive technology

available only in person to vote privately and independently also have a disability within the
meaning of the ADA. By failing to guarantee safe access to in-person voting for these voters,
Defendants have violated the ADA.
241.

Defendants are not taking adequate steps to avoid these violations of the ADA.

242.

Unless the requested relief is granted, Plaintiffs Swenson and Nelson and those

similarly situated will suffer irreparable harm in that they will be discriminated against and
denied equal access to participation in voting in violation of the ADA.

66
- App. 362 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 68 of 71

PRAYER FOR RELIEF
WHEREFORE, Plaintiffs pray that the Court:
A. Declare that administering an election during the COVID-19 pandemic in the manner that
Defendants administered the April 7, 2020 election violates Section 11(b) of the Voting
Rights Act, the First and Fourteenth Amendments of the U.S. Constitution, and the
Americans with Disabilities Act;
B. Order Defendants, for the August and November 2020 elections, to:
1. Take all appropriate actions to ensure that in-person voting, whether exercised by
casting an absentee ballot or by casting a ballot on election day, can be safely conducted;
2. Require that accessible voting machines be available at all in-person absentee voting
locations;
3. Take all appropriate actions to ensure an adequate number of poll workers to
administer safe polling places;
4. Ensure that each registered voter in Wisconsin receives an absentee ballot request form
and that all residents of care facilities have adequate opportunities to register to vote and
request absentee ballots;
5. Ensure that individuals with print disabilities have an accessible means of receiving,
marking, and submitting absentee ballots privately and independently;
6. Take all appropriate actions to ensure that all voters who request and are qualified to
receive an absentee ballot in fact receive such absentee ballot, and that any voter whose
request for an absentee ballot is rejected or not processed for any reason be notified and
given the opportunity to cure any defect in a timely manner;

67
- App. 363 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 69 of 71

7. Take all appropriate actions to upgrade electronic voter registration systems so they
can process the anticipated elevated number of online registrations and absentee ballot
requests;
8. Take all appropriate actions to coordinate with, and ensure that municipalities
coordinate with, the United States Postal Service to ensure the timely delivery and return
of, and counting of, absentee ballots;
9. Ensure that secure drop boxes for in-person return of absentee ballots are available to
every voter and increase in-person absentee voting opportunities that are safe and
accessible, including, for instance, drive-through voting; and
10. Engage in a public education campaign to apprise the public on: how to request, vote,
and return absentee ballots; the locations and times for in-person absentee voting; all
early voting opportunities in each community; the provisions being made for safe inperson voting; and any changes in election day polling locations.
C. Enjoin the enforcement of:
1. Wis. Stat. § 7.30(2) with respect to the requirement that each election official be an
elector of the county in which the municipality is located;
2. Wis. Stat. § 6.87(2) during the pendency of the COVID-19 pandemic for all voters
who are immunocompromised or otherwise at high risk from COVID-19, or who are
actively infected with COVID-19, who cannot safely secure an in-person witness;
3. Wis. Stat. § 6.855(1) with respect to the requirement that all in-person absentee voting
locations for the November general election must have already been designated;
4. Wis. Stat § 6.87(6) and require that absentee ballots postmarked by election day or not
bearing a postmark but received within a week of election day be counted; and

68
- App. 364 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 70 of 71

5. Wis. Stat. §§ 6.88, 7.51-.52 with respect to the requirement that absentee ballots not be
counted before election day.
D. Award Plaintiffs their reasonable costs and attorneys’ fees incurred in bringing this action
pursuant to 42 U.S.C. § 1988(b), 28 U.S.C. § 1920, and other applicable laws; and
E. Grant such other relief as the Court deems just and proper.
Dated: June 23, 2020
By: /s/ Rachel E. Goodman
Rachel E. Goodman
THE PROTECT DEMOCRACY PROJECT
115 Broadway, 5th Fl.
New York, NY 10006
(202) 997-0599
rachel.goodman@protectdemocracy.org

Anton Metlitsky
Leah Godesky
Yaira Dubin
O’MELVENY & MYERS LLP
7 Times Square
New York, NY 10036
(212) 326-2000
ametlitsky@omm.com
lgodesky@omm.com
ydubin@omm.com

Laurence M. Schwartztol
THE PROTECT DEMOCRACY PROJECT
15 Main St., Suite 312
Watertown, MA 02472
(202) 856-9191
larry.schwartztol@protectdemocracy.org

Molly M. Lens
O’MELVENY & MYERS LLP
1999 Avenue of the Stars, Suite 800
Los Angeles, CA 90067
(310) 553-6700
mlens@omm.com

Jamila Benkato*
Farbod Kaycee Faraji*
Cameron Kistler
THE PROTECT DEMOCRACY PROJECT
2020 Pennsylvania Ave. NW, Suite # 163
Washington, D.C. 20006
(202) 579-4582
jamila.benkato@protectdemocracy.org
farbod.faraji@protectdemocracy.org
cameron.kistler@protectdemocracy.org
*Admitted to practice in California, not
D.C.; practice consistent with D.C. App. R.
49(c)(3).

Jason Zarrow
O’MELVENY & MYERS LLP
400 S. Hope Street, 18th Floor
Los Angeles, CA 90071
(213) 430-6000
jzarrow@omm.com
Jonathan Manes
RODERICK & SOLANGE MACARTHUR
JUSTICE CENTER
160 E Grand Ave, Sixth Floor
Chicago, IL 60611
(312) 503-0012
jonathan.manes@law.northwestern.edu
69

- App. 365 -

Case: 3:20-cv-00459-wmc Document #: 37 Filed: 06/23/20 Page 71 of 71

Douglas M. Poland
State Bar No. 1055189
RATHJE WOODWARD LLC
10 E Doty Street
Suite 507
Madison, WI 53703
(608) 960-7430
dpoland@rathjewoodward.com
Jeffrey A. Mandell
State Bar No. 1100406
STAFFORD ROSENBAUM LLP
222 West Washington Avenue
P.O. Box 1784
Madison, WI 53701-1784
(608) 256-0226
jmandell@staffordlaw.com
Counsel for Plaintiffs

70
- App. 366 -

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 1 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 1

Page 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
DEMOCRATIC NATIONAL COMMITTEE) Civil Action No.
And DEMOCRATIC PARTY OF ) 3:20-cv-249-wmc
WISCONSIN,
)
)
Plaintiffs,
)
)
v.
)
)
MARGE BOSTELMANN, JULIE M. )
GLANCEY, ANN S. JACOBS, DEAN )
KNUDSON, ROBERT F. SPINDELL, )
JR., and MARK L. THOMSEN, in )
their official capacities as )
Wisconsin Elections
)
Commissioners,
)
)
Defendants,
)
)
and
)
)
WISCONSIN LEGISLATURE,
)
REPUBLICAN NATIONAL
)
COMMITTEE, and REPUBLICAN )
PARTY OF WISCONSIN,
)
)
Intervening Defendants.)
-----------------------------)
July 7, 2020
11:04 A.M. (Central)
VIDEOTAPED DEPOSITION TAKEN REMOTELY VIA
ZOOM VIDEOCONFERENCE OF ROBERT SPINDELL
____________________________________________________
DIGITAL EVIDENCE GROUP
1730 M Street, NW, Suite 812
Washington, D.C. 20036
(202) 232-0646

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

A P P E A R A N C E S (Continued):
O'MELVENY & MYERS
Attorneys for Swenson plaintiffs
1999 Avenue of the Stars
8th Floor
Los Angeles, California 90067
BY: MOLLY LENS, ESQ.
mlens@omm.com
TROUTMAN PEPPER LLP
Attorneys for intervenor defendant, Wisconsin
legislature
227 W. Monroe Street
Suite 3900
Chicago, Illinois 60606
BY: ROBERT BROWNE, ESQ.
robert.browne@troutman.com
THE PROTECT DEMOCRACY PROJECT
Attorneys for the Swenson plaintiffs
2020 Pennsylvania Avenue, N.W.
Suite #163
Washington, DC 20006
BY: SARA CHIMENE-WEISS, ESQ.
sara.chimene-weiss@protectdemocracy.org

Page 2
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

Page 4

A P P E A R A N C E S:

1

PERKINS COIE LLP
Attorneys for Plaintiffs Democratic National
Committee and Democratic Party of Wisconsin.
700 Thirteenth Street, N.W.
Suite 800
Washington, DC 20005-3960
BY: JOHN DEVANEY, ESQ.
JDevaney@perkinscoie.com
AND
PERKINS COIE LLP
33 East Main Street
Suite 201
Madison, Wisconsin 53703-3095
BY: MICHELLE M. UMBERGER, ESQ.
MUMberger@perkinscoie.com

A P P E A R A N C E S (Continued):

2
3
4
5
6
7
8

LAWTON & CATES, S.C.
Attorneys for the Witness
345 W. Washington Avenue
Suite 201
P. O. Box 2965
Madison, Wisconsin 53701-2965
BY: DANIEL BACH, ESQ.
DBach@lawtoncates.com

9
10

A L S O P R E S E N T:

11
12

MACARTHUR JUSTICE CENTER
Attorneys for Plaintiffs Joe Swenson and others
375 East Chicago Avenue
Chicago, Illinois 60611
BY: JONATHAN MANES, ESQ.
jonathan.manes@law.northwestern.edu

13

HALLING & CAYO
Attorneys for the Edwards Plaintiffs
320 East Buffalo Street
Suite 700
Milwaukee, Wisconsin 53202
BY: STACIE ROSENZWEIG, ESQ.
SHR@hallingcayo.com

18

ANDY MORTENSEN, VIDEOGRAPHER

14
15
16
17
19
20
21
22

1 (Pages 1 to 4)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 367 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 2 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 5
1
2

WITNESS

INDEX
EXAMINATION BY

Page 7
1

PAGE

2

3
4

3

ROBERT SPINDELL

4

5
6
7
8
9
10

5

MR. DELANEY
9
MR. MANES
94
MR. BROWNE
154
EXHIBITS
PAGE

6
7
8
9

11
12
13
14
15
16
17
18
19
20
21
22

Exhibit 1 No Bates numbers, Notice of 10
Deposition
Exhibit 11 No Bates numbers,
38
Supplemental Production
Exhibit 8 No Bates numbers, E-mail 76
dated 4/8/20 from Jackson
to Kehoe
Exhibit 4 No Bates numbers, April 7, 77
2020 Election Summary
Report
Exhibit 3 No Bates numbers, 7th
79
Circuit Order
Exhibit 2 No Bates numbers,
89
Preliminary Injunction
Order

10
11
12
13
14
15
16
17
18
19
20
21
22

THE VIDEOGRAPHER: This begins the
media of the videotaped deposition of Robert
Spindell, Jr., taken by the counsel for the
plaintiffs in the matter of Democratic
National Committee and Democratic Party of
Wisconsin versus Marge Bostelmann, et al., in
the court -- U.S. District Court for the
Western District of Wisconsin, Case No.
3:20-CV-249-wmc.
This deposition is being conducted by
Zoom and recorded in Irving, Texas, on
July 7, 2020. The time on the video screen
is 11:04 a.m., Central Standard Time.
My name is Andy Mortensen. I'm the
legal videographer from Digital Evidence
Group. The court reporter is Eileen Mulvenna
in association with Digital Evidence Group.
All parties for this deposition are
appearing remotely and have agreed to the
witness being sworn in remotely.
Due to the nature of remote reporting,
please pause briefly before speaking to

Page 6
1
2
3
4
5
6
7

Page 8

(Continued)
EXHIBITS
Exhibit 12 No Bates numbers, Some 117
Facts about Your Right to
Vote in Winconsin
Exhibit 13 No Bates numbers,
124
Photograph
Exhibit 14 No Bates numbers,
125
Photograph

1

ensure all parties are heard completely.

2

Will counsel please introduce

3
4

themselves for the record.
MR. DEVANEY: John Devaney for the

5

plaintiffs, Democratic National Committee and

6

Democratic Party of Wisconsin.

7
8

MR. MANES: This is Jonathan Manes for
the plaintiffs Joe Swenson and others.
MS. ROSENZWEIG: Stacie Rosenzweig

8

9

9

10

10

11

11

12

12

13

13

14

Perkins Coie on behalf of the DNC and

15

Democratic Party of Wisconsin plaintiffs.

14
15
16
17
18

from Halling Cayo for the Edwards plaintiffs.
MR. BACH: Daniel Bach on behalf of
Commissioner Spindell.
MS. UMBERGER: Michelle Umberger from

16

MR. BROWNE: Robert Browne --

17

MS. LENS: Good morning --

18

MR. BROWNE: Whoops. Sorry, go ahead.
MS. LENS: Good morning. Molly Lens

19

19

20

20

from O'Melveny & Myers on behalf of Swenson

21

21

plaintiffs.

22

22

MR. BROWNE: This is Robert Brown,

2 (Pages 5 to 8)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 368 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 3 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 9

Page 11

1

Jr., on behalf of the intervenor defendant,

1

2

Wisconsin legislature.

2

MS. CHIMENE-WEISS: Sara Chimene-Weiss

3

3

4

with Protect Democracy here on behalf of the

4

5

Swenson plaintiffs.

5

6

THE VIDEOGRAPHER: Thank you.

6

7

Will the court reporter please swear

7

8

in the witness.
or how should I do that?

13

9
10

THE REPORTER: Yes, please raise your

11
12

8

THE WITNESS: Should I raise my hand

9
10

hand.

11

ROBERT SPINDELL,

13

having been duly sworn by Eileen Mulvenna,

14

15

a Notary Public of the State of New York,

15

16

was examined and testified as follows:

16

17

EXAMINATION

17

18

BY MR. DELANEY:

18

20

Q.

Q. And you are appearing today pursuant
to this notice; is that correct?
A. That's correct.
Q. You are a commissioner with the
Wisconsin Elections Commission; is that right?
A. Yes.
Q. How long have you been on the
commission?
A. Since October 2019.
Q. Could you describe for me your
responsibilities as a commissioner?

12

14

19

Good morning, Commissioner Spindell.

I'm John Devaney.

19
20

21

A.

Good morning.

21

22

Q.

I'm going to be starting off your

22

A. Yes. I'm part of a commission that
consists of six appointees, individuals. The
majority leader and minority leader of the Senate.
The majority leader appoints one. The minority
leader of the Senate appoints one. The speaker of
the House appoints one. The minority leader of
House or Assembly appoints the other.
For the other two who are designated
to be clerks, the names are given to the Governor
both by the majority and minority of the legislature

Page 10
1

3
4
5

Page 12

questioning.

1

Have you been deposed before?

2

2

A.

Yes.

3

Q.

So you probably know the rules.

4

Pretty straightforward.

5

6

As Andy said in his introduction,

6

7

please allow me to finish my questions before you

7

8

answer so that we're not talking over each other and

8

9

have a clean transcript. And if I ask you any

9

10

questions that you don't you understand, let me know

10

11

and I'll do my best to rephrase. If you would like

11

12

to take a break at any point, please let me or your

12

13

counsel know and I'll be sure to honor that.

13

14

A.

16

19
20
21
22

14

put up the deposition notice.
of Deposition, marked for identification.)
BY MR. DEVANEY:
Q.
A.

Yes.

17
18
19

And, Commissioner Spindell, have you

seen this notice before?

15
16

(Exhibit 1, No Bates numbers, Notice

17
18

Okay.
MR. DEVANEY: Andy, could you please

15

Robert Spindell

20
21
22

and the Governor picks I believe from a list of
three.
As a commissioner, I see our
responsibility as overseeing the election process
and basically doing what the -- what the laws tell
us. I believe -- it says, "The Election Commission
should" -- let me get it here so I can make it
clear.
It says, "The Election Commission
powers and duties, general authority: The Elections
Commission shall have the responsibility for the
administration of Section 5, 10 and 12 and other
laws relating to elections and election campaigns
under the laws within the campaign finances." And
then it gets into some more of the details.
So I believe it's our duty as
commissioners to discuss and come up with good
solutions that satisfies all sides of the issue; but
the main thing is make sure that we follow the
Federal law, State law or any court decisions that
are in effect at the time.
Q. Is part of your responsibility helping

3 (Pages 9 to 12)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 369 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 4 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 13

Page 15

1

to ensure that local election officials have the

1

municipalities and so forth. But if you're

2

resources they need to conduct elections?

2

referring to the City of Milwaukee, I was actually
horrified by the fact -- especially after being

3

A.

Yes, absolutely.

3

4

Q.

What types of resources would that be?

4

election -- the City of Milwaukee Election

5

A.

Well, the resources that we give to

5

Commissioner for 20 years, that there are only five

6

the various election officials -- and this state is

6

locations. And I do not believe that we have any

7

sort of unusual. As you all know by now, there are

7

power to do anything about that.

8

1850 of them. Many states -- most states do it by

8

9

county, in which case there would have been 72, but

9

10

we have 1850.
And we do that by providing a lot of

11

Q.

Mr. Spindell, I just want to ask you

to respond to my questions if you could --

10

A.

11

Q.

Sure.
-- not stray beyond them.

12

instruction. We have a great staff. I think

12

13

it's -- maybe it's more than this -- 32 employees

13

have some responsibility or supervisory authority

14

with five consultants, so a staff of 37 that helps

14

for ensuring that localities have sufficient numbers

15

with any questions that the clerks may have. It

15

of poll workers and polling places?

16

provides training for any matters that the clerks

16

17

have. It clarifies any laws or changes in laws and

17

the law's set up, all this detail is left to the

18

court decisions that are presently in effect.

18

municipalities to choose what polling places they

19

want, to go out and try and get, you know, poll

In terms of grant money that we get

19

Do you as a commissioner feel that you

A.

Well, it's -- the way as I understand

20

from HAVA, CARE grant, whatever, we try and give as

20

workers and so forth. We as a commission certainly

21

much as possible to the clerks to help them in their

21

give them suggestions, advice and whatever in terms

22

duties and carry out what they need to carry out.

22

of how to get them.

Page 14

Page 16

1

And basically, it's our job to help them in any way

1

2

that we possibly can.

2

last election where we did provide some guidance I

3

believe to the various municipalities in terms of

3

Q.

Does that include helping them to

Because that was a problem during this

4

acquire the sufficient supplies necessary to conduct

4

how to get it, such as asking the political parties,

5

election day voting?

5

Republican, Democratic for paid election judges,

6

more of those. There are various groups out there.

$500,000, and I spent a lot of time with all our

7

And also, we learned about the National Guard and

8

many meetings that we've had, but to purchase such

8

what a great job they did.

9

items as sanitizer, masks, gloves, tape. I believe

9

6
7

A.

Yes, absolutely. We appropriated

So I think we try as much as possible

10

during the last April election, we had some 22

10

to help all the various municipalities and help give

11

different policies, memos and training. We had all

11

them advice, but I think it's based simply up to

12

sorts of training and everything to make sure that

12

them to decide precisely what they're going to do.
Q.

But in the end, Commissioner Spindell,

the in-person absentee voting and the election day

13

14

voting is as safe as possible and certainly safer

14

is it correct that it's the Commission that has the

15

than going to the grocery store or Walmart.

15

ultimate authority to administer the elections in

16

Wisconsin?

13

16

Q.

And do your responsibilities as a

A.

Well, as it says, that we have

17

commissioner and a commission also include ensuring

17

18

that cities and towns and counties have a sufficient

18

administered the election laws 5, 10 and 12, those

19

number of polling locations?

19

laws relating to election and election campaign.

20

I'm not sure that there are laws that says that the

not we actually have the authority to do anything, I

21

various municipalities must have X number of polling

believe it's left up primarily to the various

22

places, must have X number of people.

20
21
22

A.

Well, that's a question -- whether or

4 (Pages 13 to 16)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 370 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 5 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 17

Page 19

I don't think -- I don't believe that

1

1

A.

Well, I think we had to make sure that

2

we have power to do any sort of enforcement to say,

2

the election would be held as safely as possible for

3

okay, you need another 20 polling individuals or you

3

all the voters, which I believe that we did by

4

should open additional polling places. I do not

4

providing the resources and also for providing the

5

think that we have that authority.

5

various items as we just discussed and instructions

6

in terms of how to have a safe election or in-person

6

Q.

Commissioner Spindell, turning to the

7

April election of this year, I'm going to be asking

7

voting and for those places that actually had

8

you quite a few questions about that.

8

in-person absentee voting.

9

A.

Sure.

10

Q.

Would you agree that COVID had

11
12

9

significant effects on that election?
MR. BACH: I'm going to object to the

10

Q.

And was also one of the effects a

significant increase in voting by mail?

11

A.

Yes.

12

Q.

And also was another effect an

increase in online registrations to vote?

13

extent that you're asking him his personal

13

14

opinion. I don't see that that's relevant to

14

15

anything. It's beyond the topic areas that

15

16

we've discussed.

16

cases that have been diagnosed in Wisconsin over the

17

past month?
A.

Yes.

Q.

What is your understanding of the

17

MR. DEVANEY: Well, Dan, the topics

A.

Yes.

Q.

Are you aware of the number of COVID

18

include a discussion of the April election,

18

19

so I have to disagree with your suggestion

19

20

that it's beyond the topics.

20

general trajectory of COVID over the last month in
Wisconsin?

21

MR. BACH: Well, but his opinion --

21

22

his opinions about cause and effect and so

22

MR. BACH: John, I'm going to make the

Page 18
1
2
3
4
5
6
7

Page 20

forth, I'm struggling to find how that's
relevant to anything having to do with the
litigation.
MR. DEVANEY: Well, your objection is
noted. I don't think it's a basis for
instructing him not to answer, so I will ask
him to answer.

10
11
12
13
14
15
16
17
18
19
20
21
22

BY MR. DEVANEY:
Q. Commissioner Spindell, would you agree
that COVID had a significant effect on the April
election?
THE WITNESS: Well, am I allowed to
answer that?
MR. BACH: Yeah, you're allowed to
answer it.
THE WITNESS: Okay, sure.
Yes, I think it had an effect on the
election.
BY MR. DEVANEY:
Q. What effects did it have, in your
opinion?

same objection here. And I do think that

2

this is outside the scope of the topic area.

3

And, once again, his knowledge of this --

4

there's public reporting on the number of

5

cases and so forth that I don't think we need

6

to get into it with this witness.
MR. DEVANEY: I'll happily ask it a

7

8
9

1

8

different way.

9

BY MR. DEVANEY:

10

Q.

You did say you're tracking the number

11

of COVID cases. Is the trajectory of COVID a

12

factor, Commissioner Spindell, for you in planning

13

for the November election of this year?

14

A.

Well, I think in order to track it,

15

you need to look at the number of cases, also the

16

number of hospitalizations and the number of deaths.

17

I might add here, if I could, that

18

I've spent extensive time looking at this subject

19

from the standpoint of trying to have a safe

20

election. I've spent probably 15 to 20 hours over

21

the telephone with a friend of mine, who is an M.D.

22

with a master's degree from Harvard in public health

5 (Pages 17 to 20)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 371 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 6 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 21

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

and works at a large hospital chain both
administratively in the COVIS [sic] clinic and
trying to pay attention to what is happening as we
move along.
Things have changed considerably since
April and before in terms of being able to treat the
virus, in the number of hospitalizations, the fact
that the number of people now that are testing for
it appear to be younger people where there's very
little chance of serious effects.
And so I would look at the August and
certainly at the November elections as something
that nobody knows, but we're in a much better spot
in terms of handling the virus than we were at the
April election.
Q. And how does your view of the
trajectory of COVID affect your views on how to
conduct the November election?
A. Well, I think in terms of trying to
keep track of everything out there, it appears -especially from the latest Alabama/Texas cases that
the Supreme Court of the United States is not

Page 23
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

their abilities and how they're able to vote.
Q. And that mailing you just described,
Commissioner Spindell, if I understand correctly,
that is -- that went to or is going to approximately
2.7 million registered voters; is that correct?
A. That's right, yes.
Q. And you voted to approve that mailing,
correct?
A. Yes.
Q. I take it you wouldn't have voted in
favor of that if you didn't believe voting by mail
was a safe and secure method for voting; correct?
A. Not necessarily, no.
Q. So you do not believe that voting by
mail is safe and secure; is that correct?
A. Well, I think there's -- again, you
know, I want to go to what the legislature talks
about, and I think we've got to again pay to -- pay
attention to what they say about it. And they say
they find voting a constitutional right, the
vigorous exercise which we strongly encourage.
Voting by absentee ballot is a privilege exercise

Page 22

Page 24

1

accepting that COVIS pandemic as a reason to change

1

2

the election laws. So I don't see that there's a

2

3

need at this point in time to change the laws that

3

4

were currently on the books that were brought about

4

5

by the legislature, signed into law by the governor.

5

6

Q.

Do you see any need to change the

6

7

guidance the commission issues for elections in

7

8

light of the trajectory of COVID in Wisconsin?

8

9

A.

Robert Spindell

Well, I think that we are taking it

9

10

into consideration considerably by the fact that we

10

11

are sending out an absentee ballot application to

11

12

almost every single registered voter in the state at

12

13

great expense and telling them the three ways they

13

14

can vote; you can vote in person, you can vote in

14

15

person absentee or you can vote by absentee ballot,

15

16

and making it extremely easy for them if they want

16

17

to vote by absentee ballot to go to their computer

17

18

in just a couple minutes and actually request a

18

19

ballot or fill out the application and send it in.

19

20

That goes to the Wisconsin Election Commission.

20

21

So I think we are, you know, doing

21

22

well in terms of keeping people informed in terms of

22

wholly outside the traditional safeguards of the
polling place. Legislature finds that the privilege
of voting by absentee ballot must be carefully
regulated to protect the potential for fraud or
abuse and protect overzealous solicitation of
absentee electors that may prefer not to participate
in the election, prevent undue influence on an
absentee elector to vote for or against the
candidate.
I think that's very clear in terms of
what the legislature says and their concerns about
voting absentee.
Also, I might -- as I'm sure you're
aware with the error program during the last
election in 2018, I believe there was 43 referrals
to district attorneys reflecting the probability
that somebody voted twice.
So I mean, there's all sorts of
problems with absentee ballots and we need, in my
opinion as Election Commission, to make sure that
all the safeguards possible are in place; but it's
not the same thing or same security, in my opinion,

6 (Pages 21 to 24)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 372 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 7 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 25
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

as going to the polling place on election day,
showing your photo ID and voting.
Q. Commissioner Spindell, the April
election that just occurred, my understanding is
that the number of votes cast by mail was
approximately 1.2 million.
Do I have that right?
A. I think that's about right, sure.
Q. And we are now -- I guess we're
three months from that election. And are you aware
of any reports of voting fraud relating to mail
voting in the April election of this year?
A. Well, it seems -- as I understand that
the Election Commission is still looking into it.
As I understand it, there's been some complaints
made to the Election Commission in that regard that
possibly are still under investigation.
But, you know, with this in general -MR. BACH: Commissioner Spindell, I'm
sorry, I really want you to limit your
answers to the questions.
THE WITNESS: Sure.

Page 27
1

A.

Sure.

2

Q.

-- do you have a view on the volume of

3
4

mail ballots that are likely to be cast?
A.

Well, I think what's going to happen,

5

people are going to make the decision as they get

6

closer in terms of what's happening with the virus.

7

So that's a few months off, three or four months

8

off, but I don't think we know.
I think the political parties, both

9
10

the Republican Party and Democratic Party, are going

11

to try and make sure everybody votes one way or

12

another. I will suspect they will contact every

13

single voter and say are you going to vote absentee

14

in person or in person and try and push that.
So I would think that with the

15
16

application that we have sent out for people, we're

17

certainly making them aware of one of the methods of

18

voting.

19

Q.

And given that you've sent that

20

application out to 2.7 million registered voters,

21

would you agree that the volume of voting by mail is

22

likely to be higher than it was in April?

Page 26
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

BY MR. DEVANEY:
Q. I want to follow up on that.
Do you personally know of any
occurrences of voting fraud in the April election
with the 1.2 million mail ballots that were cast?
A. I do not personally know of any fraud
at this point.
Q. And no incidents have been brought to
your attention; isn't that right?
A. Well, I think there have been some
incidents that have brought to the Election
Commission in terms of complaints that I have
briefly read, but there hasn't been an evaluation I
don't believe by the Election Commission staff in
terms of the validity.
Q. And is it correct that the volume of
mail voting for the April election was by far and
away the largest volume in Wisconsin's history?
A. Oh, absolutely.
Q. Commissioner Spindell, as you look
forward to the -- or toward anyway the November
election --

Page 28
1

A.

Well, I would suspect that we're going

2

to have -- the November election is always much

3

higher than an off election, such as an April

4

election, so certainly the number of absentee

5

ballots that we will receive back will be greater

6

than they were this time.
MR. DEVANEY: Andy, could you pull up

7
8

Exhibit 13, please, and also cue the video.

9

Q.

Commissioner Spindell, I'd like to

10

show you a video of a statement you made in a recent

11

Commission meeting at which the mailers we've talked

12

about were discussed --

13

A.

Yes.

14

Q.

-- and ask you a couple of questions

15

about that.

16

A.

18
19

Sure.
(Video is played.)

17

BY MR. DEVANEY:
Q.

Commissioner Spindell, responding to

20

that, the words you said, "there has been rumors out

21

there."

22

What rumors were you referring to?

7 (Pages 25 to 28)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 373 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 8 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 29

1
2

A.

Page 31

Well, I would just as a general

1

statement, I would suspect from --

2

3

Q.

I really would like to you --

3

4

A.

I'd say the rumors --

4

5

Q.

Mr. Spindell, I don't want general

5

6

statements, I'd like you to answer my questions.

6

7

MR. BACH: Ask him exactly what the

7

8

question was again.

9

Q.

10
11

8

The words you used, "there have been

rumors out there," what rumors are you referring to?
A.

I'm referring to rumors that have been

9
10
11

12

out there for ages, times among the overwhelming

12

13

majority of Republicans that there's, obviously,

13

14

voter fraud in Wisconsin or there's voter fraud with

14

15

mailings and things along this line. I think in the

15

16

past, not necessarily with this election, but the

16

17

items that I mentioned in there about harvesting,

17

18

voter harvesting, that's a hot button issue for

18

19

Republicans and one that in many states is illegal.

19

20

Some states it's very limited. And, of course, here

20

21

in Wisconsin, it's actually legal. And that's a

21

22

great concern to just about every Republican I know.

22

obvious problem in not only Wisconsin, but
throughout the country in the point of view of
Republicans.
Q. Mr. Spindell, when you spoke of
projects, you were speaking of low income projects
in Wisconsin, weren't you?
A. No, I don't think I was. I was
speaking of apartments. I was speaking of housing.
I don't think there are any projects. I don't know
of any projects that we actually -- if you want to
use a terminology of projects, I don't believe that
we have projects in Milwaukee.
Q. When you used the term "projects,"
Commissioner Spindell, you were suggesting that
there are projects in Wisconsin where there's ballot
harvesting happening or at least rumors of that; is
that correct?
A. Well, I think projects can include
anything. It can include apartments. It can
include middle-income housing. It can include -- it
can include any types of possible situations where
there's a large number of people that are together.

Page 30
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

So the perception out there, the perception is
extremely important.
Q. And you spoke in those words about
that concern being especially in the various
projects.
Do you recall saying that?
A. Yes. And basically, I'm not sure
there are any projects in Wisconsin, in Milwaukee.
Can you expand on that?
Q. What projects were you referring to?
A. I'm not really referring to projects
and so forth. There's all sorts of rumors out there
about possible vote fraud, and it's just something
that's extremely difficult to prove because you
really can't do anything until after the election is
over and there's neither the will nor the money to
go investigate that. But there has been rumors that
I heard, you know, in some of the senior housing
that we have a lot of in Milwaukee, in various
apartments and houses. People Helping People are
trying to find people that need their ballot at the
last minute delivered to the clerk. And this is an

Robert Spindell

Page 32
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

Q. And -A. I don't think -- I don't think that
necessarily relates to just low-income housing. I
think it's -- and I don't think it's mistake of
harvesting by any means, it's just restricted to
low-income housing. I think in some places like
nursing homes, things along this line, ballot
harvesting there it could be -- it could be a
potential problem.
Q. And, Commissioner Spindell, when you
spoke of rumors about ballot harvesting at projects,
did you have any specific examples about ballot
harvesting that has actually occurred in mind?
A. Well, there was -MR. BACH: Objection.
John, can we confine your question to
allegations or statements or whatever made to
the Commissioner in his official capacity?
That's how we framed -MR. DEVANEY: That's fine. That's
fair, Dan. Sure.
MR. BACH: Okay.

8 (Pages 29 to 32)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 374 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 9 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 33

2

Page 35

THE WITNESS: Could you repeat the

1

1

question, please.

2

3
4
5

3

BY MR. DEVANEY:
Q.

4

In the capacity as commissioner, when

5

6

you spoke about concerns about ballot harvesting and

6

7

rumors about ballot harvesting at projects, did you

7

8

have any specific incidence of ballot harvesting in

8

9

mind?

10

A.

9

Well, Urban Milwaukee had an article

10

11

where a few hundred ballots were picked up -- I'm

11

12

not saying that it was necessarily illegal because

12

13

in Wisconsin at this point in time, it is legal for

13

14

people to collect multiple ballots. But there were

14

15

several attempts and successful attempts to collect

15

16

numerous ballots and one organization that's

16

17

mentioned in the Urban Wisconsin, it was well over a

17

18

hundred.

18

19

There was even a state legislator who

19

20

was said I'll come pick up your ballots if you -- if

20

21

you have a hard time getting them to the clerk.

21

22

So I -- and I also got a letter from

22

allows it. I think that's a pretty big stretch.
Q. My question to you is, you're not
suggesting anything you've described is illegal;
correct?
A. No, because apparently at this point
in time -Q. I just want a no.
Second, you learned about what you
just described through a newspaper article; is that
correct?
A. Yes.
Q. And the other sources other than
newspaper articles?
A. They had it on ISN, WTMJ about helping
people getting their particular ballots to the clerk
on time. So it's a major story in Milwaukee here
on -- it's a matter of great interest in Wisconsin
and Milwaukee and it's on the TV and it's in the
newspapers and so forth.
Q. When you in your statement that we
heard spoke of a hot button issue for Republicans,
were you referring to absentee voting or a

Page 34
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

the -- I think it was one of the disability groups,
Legal Women Voters, indicating that with ballot
harvesting, there will be 29 organizations that are
going to be participating -- helping people picking
up their ballots and helping people get those to -maybe 39, 29 or 39 -- helping -- those organizations
will help people get ballots to the clerks.
Q. Two follow-up questions related to
that. You're not suggesting that anything you just
described is unlawful; correct?
A. No, I think it boils down to an
interpretation of what the law says. I think the
law in my opinion is pretty clear that it's up to
the voter to both mail and to deliver it to the
clerk.
One of our democratic commissioners,
Ann Jacobs, thinks -- she believes that that's
correct in terms of the voter must mail it, but it
says -- it doesn't say the -- it says the voter must
mail and she thinks it should say the voter should
mail and the voter should deliver and, therefore,
since that word was left out, she believes that that

Robert Spindell

Page 36
1
2
3
4
5

collection or both?
A.

Both.

Q.

Why is absentee voting a hot button

for Republicans?
A.

Because Republicans believe sort of

6

what President Trump was saying. That provides all

7

sorts of opportunities of voting fraud. And that's

8

probably why the legislature and it was a Republican

9

legislature that wrote these rules indicated that

10

they are -- we must do everything possible to

11

prevent fraud or abuse. And I think it's just

12

something that Republicans believe there's been --

13

you know, you go back even to this last 2018

14

election, there was some -- even though it was

15

minor, there was 43 referrals. As far as I know,

16

nothing has been done by the district attorneys that

17

we have knowledge of. There's no prosecution of

18

anybody that does any sort of vote fraud. And

19

that's something whether or not it's legitimate,

20

Republicans believe it. And Wisconsin has close to

21

half the population.

22

Q.

Commissioner Spindell, those referrals

9 (Pages 33 to 36)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 375 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 10 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 37

Page 39

1

that you mentioned in 2018, nothing happened because

1

2

it was determined that those referrals were

2

3

groundless, they're baseless; isn't that correct?

3

4

A.

No, I don't think that's -- I don't

4

5

think that's true. This came from Eric and there

5

6

are many more than 43 and I don't know the exact

6

7

number, but our staff, which is a pretty

7

8

sophisticated staff in Wisconsin, lawyers and so

8

9

forth, went through and came out with I believe 43

9

10

or 48 that they felt were adequate enough and had

10

11

enough proof behind them to refer to the particular

11

12

district attorneys whether it be in the State of

12

13

Wisconsin or some other states, and this referred

13

14

basically to people voting more than once.

14

15

Q.

And it was determined by those

15

16

district attorneys not to take any action based on

16

17

what was referred; correct?

17

18
19

A.

Well, in our last meeting, the

18

attorney had told us that --

19

20

MR. BACH: Bob, do not -- object.

20

21

Bob, you can't go into discussions

21

22

that you had with counsel.

22

sponsored by Patriotic Veterans" -- I'm not going to
read the whole thing, but do you see that?
A. Yes.
Q. Do you recognize this document?
A. Yes.
Q. Who is Scott who you're referring to?
A. Senator Scott Fitzgerald.
Q. And Senator Fitzgerald is the senator
who appointed you to your position; is that correct?
A. That's correct.
Q. I'm just curious, how often do you
interact with Senator Fitzgerald?
A. Well, not very often. This is -- I
think basically in this time frame, especially with
the pandemic, this is about it.
Prior to the pandemic, I had gone to a
lot of Republican events and if he's there, I'll
probably say hello to him or -- like I do anybody
else.
So these are -- these -- very rarely
do we communicate because I basically -- I don't
think there's really many matters that I don't agree

Page 38
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

THE WITNESS: Okay. Sorry, please
repeat the question again.
BY MR. DEVANEY:
Q. That's okay. I don't want to get into
attorney-client issues.
A. Okay.
MR. DEVANEY: Andy, could you please
pull up Exhibit 11.
(Exhibit 11, No Bates numbers,
Supplemental Production, marked for
identification.)
Q. Commissioner Spindell, this is a
production of documents we received in the last few
days. It's titled "Spindell Supplemental
Production," and there are about 14 pages in here.
And I just want to ask you a few -A. Sure.
Q. -- questions about some of these
documents.
A. Uh-huh.
Q. So the first page, you'll see it says,
"Scott, this is a heads-up on a newspaper ad below

Robert Spindell

Page 40
1

with him or what his philosophy process would be

2

or -- what his philosophy would be.

3

Q.

The second paragraph of this document,

4

it's dated May 20, 2020, I'll just read into the

5

record and I'll ask you about it.
It said, "Talked to Dean. Said okay

6
7

with you to allow absentee application to go back to

8

WEC because of problems. Is this okay or do you

9

wish to still push for decentralization? Bob."
Who is Dean?

10
11

A.

Dean Knudson is the other political

12

Republican appointee and was at the time chairman of

13

the Wisconsin Election Commission.

14

Q.

And when you said -- when you wrote,

15

"Said okay with you to allow absentee application to

16

go back to WEC because of problems," what are you

17

referring to?

18

A.

Well, Senator Fitzgerald was very

19

concerned that all the applications go back to the

20

Wisconsin Election Commission. We did express that

21

concern. And I told him I thought it was much more

22

efficient and pointed out why -- that all the

10 (Pages 37 to 40)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 376 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 11 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 41

Page 43

1

responses go directly to the Wisconsin Election

1

2

Commission because of the huge burden it would put

2

3

on all the -- on the clerks. And so that was a

3

4

discussion that I had with Dean prior to -- I don't

4

5

know if that's 20 May, then we probably had a

5

6

meeting on 20 May or 21 May or something along that

6

the Republicans are working on in terms of whether

7

line.

7

or not there should be a mailing, whether we should

8

go along with the -- having a mailing of the

9

absentee ballots. And I don't know if, you know,

8
9

Q.

The issue of where absentee

applications would go is an issue within the
authority of the WEC; correct?

A.

Andrew Hitt is the chairman of the

Republican Party of Wisconsin.
Q.

And what are you referring to when you

say, "Per Hitt, we are moving ahead"?
A.

Well, that involves some strategy that

10

it's appropriate in my role as a Wisconsin Election

Well, we're saying that it is. I

11

Commission to get into the strategy of what the

would -- you know, nobody is saying that it isn't.

12

Republican Party of Wisconsin was doing, especially

13

since I'm involved with the Republican Party of

14

Wisconsin.

If the legislature said that all

15

Q.

Well --

16

applications shall go back to the clerks, I would

16

A.

I'd like my counsel to answer that.

17

think that would be very clear. I don't believe

17

If he thinks that that's a problem for me to answer

18

that it says that.

18

it --

10
11
12
13
14
15

19

A.
Q.

It's not within the authority of the

legislature, is it?
A.

Q.

So my question for you is, why were

MR. BACH: I think the questions that

19

20

you asking the Senator about whether he was okay

20

are posed are questions that have been posed

21

with the plan on where these applications would go?

21

to you in your official capacity on the

22

Elections Commission.

22

A.

He expressed his concern to me of the

Page 42

Page 44

1

applications going back directly to the Wisconsin

1

2

Election Commission and -- rather than the

2

3

decentralized process that we have in Wisconsin

3

4

where everything should be going to the clerks, and

4

you in discussions with the Republican Party about

5

my response to this was to have all this go back to

5

whether to have this mailing that talked about

6

the clerks is going to be an undue response -- you

6

relating to absentee voting?

7

know, burden of proof on them. And I believe from

7

8

my standpoint looking at it, that this is a much

8

to decide whether or not we wanted to go ahead and

9

more efficient way to go and this is, obviously, the

9

do that, and there were different opinions on it.

Q.

So, Commissioner Spindell, why were

A.

Well, the Republican Party was trying

10

Some people thought that we should. Other people

11

thought that we shouldn't. And we came to the

12

conclusion that the -- you know, Senator Fitzgerald

Well, I'd like to know as many views

13

probably was never really in favor of doing a

14

as possible on the various issues that are before

14

mailing. And it's -- and then from the Republican

15

us. And that was a concern that he had and I tried

15

Party standpoint, we thought that we'd be able to

16

to answer his concern.

16

reach a lot of people that maybe we wouldn't reach

17

if the parties were going to do their own mailings.

10
11
12
13

17

way we're going.

THE WITNESS: Okay. Fine.
BY MR. DEVANEY:

Q.

I'm confused. Why were you concerned

about getting the Senator's view on that topic?
A.

Q.

Down below that, there's an item that

18

says, "Per Hitt, we are moving ahead with mailing to

18

The other alternative to sending out

19

all registered voters."

19

the absentee ballot applications would have been for

20

each of the parties. There's plans in Wisconsin and

Do you see that?

20
21

A.

Yes.

21

Madison for those clerks to send out absentee ballot

22

Q.

Who is Hitt?

22

applications, there are plans, Republicans could

11 (Pages 41 to 44)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 377 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 12 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 45

Page 47

1

have sent absentee ballot applications with letters

1

organization for some time, and the ad pretty much

2

to all people that they knew about, as could the

2

speaks for itself.

3

Democrats, and we thought that us to try -- if

3

4

everybody was doing it, make sure that everybody has

4

5

an opportunity to receive one of these absentee

5

6

ballot applications.

6

THE VIDEOGRAPHER: Sure.
THE WITNESS: Fact 2.

In your capacity as Commissioner, who

7

8

did you speak with at the Republican Party about

8

Q.

On April 7 --

9

this strategy?

9

A.

Should I read it? How would you like

7

10

Q.

MR. DEVANEY: Andy, could you focus on
titled Fact 2.

A.

I spoke with Andrew Hitt, Mark

10

BY MR. DEVANEY:

me to do that?

11

Jefferson. I was part of the strategy. I was part

11

Q.

12

of deciding what the strategy should be.

12

questions.

13

A.

13
14
15
16
17

Q.

Did you participate in meetings with

those individuals to discuss the strategy?
A.

Sure.
MR. DEVANEY: If there's a way to make

14
15

that a little smaller, move it to the left so

meetings, so if you want to include telephone calls

16

it's not blocked by the video, that would be

and whatever, yes.

17

great. There's probably a way for me to

And when you voted in support of this

18

19

absentee ballot initiative as a commissioner, part

19

20

of your reasons for supporting that were because it

20

21

was in the Republican Party's interest; is that

21

1.2 million Badgers voted by mail, a record number.

22

correct?

22

This completely overwhelmed our election system

18

Q.

Well, you know, we can't have live

I'll read it to you and then ask you

manage the video, but I'm not up to that.
BY MR. DEVANEY:
Q.

It says, "On April 7, more than

Page 46
1

A.

4
5

Yes.
MR. DEVANEY: Next page, please, Andy.

2
3

Page 48

And continue on, please.

creating many problems. One, ballots not sent to

2

voters on time."

The next document that appears within

4

comment "This completely overwhelmed our election

5

system."

6

your production, Commissioner Spindell, is titled

6

7

"Some Facts about Your Right to Vote in Wisconsin,"

7

8

which hopefully you can see.

8

9

A.

Yes.

10

Q.

And first let me just pull back and

11
12

9

ask you to describe what this document is.
A.

I want to ask you first about your

3

BY MR. DEVANEY:
Q.

1

This document is a newspaper ad that

What did you have in mind when you
wrote that?
A.

I don't think there's any question

about this. As you pointed out earlier, this is by

10

far and away the most mail and absentee ballots we

11

have ever had. And we have had news media in

12

various production of documents in terms of looking

13

was put I believe in 27 different newspapers

13

at it from the standpoint of the Milwaukee Election

14

throughout the State of Wisconsin, including Madison

14

Commission -- or the Wisconsin Election Commission,

15

papers, Milwaukee paper, some market courier in

15

this was a very tough situation on our many 1850

16

Wisconsin, and talking about what it says here in

16

clerks in being able to handle this.

17

terms of trying to promote the idea that it's still

17

18

safe to vote in person -- or in person, absentee.

18

documents further down this frustration that one of

19

the clerks had, and I don't think that that's an

19

So this organization decided that it

You'll see also in some of the

20

was worthwhile to -- which I happen to be in

20

isolated situation. It appeared because of the

21

Milwaukee where it's a national organization, but

21

pandemic, all of a sudden, all these various clerks

22

Milwaukee had been chairman of this particular

22

got overwhelmed by these requests. They had a lot

12 (Pages 45 to 48)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 378 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 13 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 49

Page 51

1

of work to do. And they did the best possible job

1

A.

Yes.

2

that they could do, but it was not -- we were not

2

Q.

Okay. Feel free, if you would, to

3

set up for it.

3

Places like Oregon, Washington spent

4

4

read that into the record.
A.

On page 6, it shows a number of dates

years developing an all mail-type situation. And in

5

ballots were sent. And I know there's a discussion

a very few weeks, while the Wisconsin Elections

6

in terms of how long it takes for a ballot or

7

Commission where the clerks did a remarkable job,

7

absentee ballot to get through the mail service to

8

the fact of the matter was the system was

8

someone. And my -- I do several mailings every year

9

overwhelmed, in my opinion.

9

and, generally, my experience is that it takes two

5
6

10

Q.

11

A.

12
13
14

days. If I mail it today, which should be Tuesday,

It was not an efficient operation as I

11

it would most likely get there on Thursday. Some

12

will be longer than that. Very rarely will get

13

there in one day.

would have liked to have seen.
Q.

And then you say, as I read before,

"Ballots not sent to voters on time."
A.

So if that's the case and election was

14

Can you explain that comment?

15
16

And --

10

Well, I think there's some charts that

15

on the 7th of -- on the 7th. So on the 6th, also

16

there's no mail service on the 6th. It's possible

17

show when ballots were mailed by some of the clerks,

17

that ballots that were mailed -- let's see, 7,

18

which could be a day or two off, the request for

18

Monday, you have to go back to the 4th for any

19

ballots were not mailed so there would be any

19

chance of those ballots being sent or being received

20

possible way for those people to receive the ballots

20

on time by the -- by the voter on Friday or

21

on time and to get them back, especially if they're

21

Saturday. So there's some there, but as the

22

mailed on the same day as the election, which some

22

interrogatory points out, this is just what the

Page 50

Page 52

1

were. And there was all sorts of reports of people

1

2

not -- a lot of ballots were not returned, and some

2

clerks let us know in terms of what happens.

3

of that is because people didn't have it until the

3

number of ballots that were not returned -- a couple

4

appropriate -- appropriate time.

4

hundred thousand, something like that. I don't have
that right in front of me.

I think there was also substantial

5

It was pretty tough -- for the

5

6

November, August election, especially for the

6

7

November, a lot of time to do all this stuff. We

7

because of this rush, rush situation and because of

8

were very much restricted in terms of all this

8

these clerks having to work 80 hours a week or more,

9

happening.

9

some, like City Mall Election Commission overnight

I mean, you know, middle of March is

10

So I think it's pretty clear that

10

doing this stuff, I don't see how see anybody can
say that the system was [inaudible] at all.

11

when we started learning about the pandemic. And to

11

12

go from the middle of March to August 7th and do

12

13

this was completely remarkable, but it did overwhelm

13

that document in front of me. Could I ask you to

14

our system.

14

just do the math for me. If you take April 4th as

15

Q.

15

kind of the drop-dead date when a ballot would no
longer arrive on time, carry the number of ballots

The number of ballots not sent to

Q.

Commissioner Spindell, I don't have

16

voters on time, are you able to quantify that for me

16

17

in your role as a commissioner?

17

from April 4 through April 7, what is the

18

approximate number that --

18
19
20
21
22

A.

Yes, I believe there's a report here

on the -- would you like me to look it up? It's on

19

MR. BACH: I'm going to object. He's

the deposition questions that you had. Let's see, I

20

speculating in terms of how long the mail is

have it right here, I think.

21

going to take there. We answered the

22

interrogatories. So the data that we have in

Q.

Are these answers to interrogatories?

13 (Pages 49 to 52)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 379 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 14 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 53

Page 55
A.

Well, there's several different ones

1

the interrogatory is the best data that the

1

2

commission has.

2

that seem to stand out. One is in Fox Point where

3

it appears that the ballots were going back and

4

forth or whatever. I still don't understand what
happened there, but some potential ballots were not

3
4

BY MR. DEVANEY:
Q.

We can stand by the interrogatory, but

5

your point, Commissioner, is that if it was not

5

6

mailed before April 4th, there's little chance it

6

delivered. There's apparently 1600 ballots, some

7

would have arrived on time to be counted; correct?

7

tubs of ballots that were not delivered up in

8

Appleton around that area. There's apparently some

9

tubs of ballots somehow ended up in Chicago, in

8
9

A.

Let me make sure I got the dates

right. Seems to me that April 4th was a Saturday.

Wisconsin.

10

That would be -- the next day that items could be

10

11

mailed would be on Monday. And so basically I'd say

11

12

it's pretty difficult if something wasn't mailed by

12

some ballots that could have been into the system on

13

that time to arrive.

13

election day that were not -- you know, that were

14

delivered late or whatever. I don't -- I'm

But also, as the interrogatory points

14

So there were -- there's certainly

15

out, that we don't know if these are accurate

15

really -- the Election Commission staff was involved

16

day-by-day numbers because sometimes they're so

16

in that. I'm just giving you some hearsay in terms

17

busy --

17

of what I heard about it.
Q.

In your role as commissioner, did you

18

MR. BACH: Bob, you don't have to

18

19

elaborate on the interrogatory. Just listen

19

investigate what happened in Fox Point, Appleton and

20

to his question and then answer that. The

20

Chicago with the tubs of ballots that weren't

21

interrogatory is what we already sent them.

21

delivered?

22

A.

THE WITNESS: Okay.

22

Page 54
1
2
3

Page 56

BY MR. DEVANEY:
Q.

1

Commissioner Spindell, number 2 says,

2

"Ballots not returned on time."

3

Do you see that?

4

4

5

A.

Yes.

5

6

Q.

Does that refer to problems with post

6

7
8
9

office delivery?
A.

7

I think what it refers to is certainly

8

problem with the post office delivery and also

9

10

problems with people sending back, you know, either

10

11

after the election day or on the election day but

11

12

maybe they didn't get stamped because they missed

12

13

some mail pickup at their home or something along

13

14

that line. So I would suspect that that would be

14

15

ballots not returned on time.

15

16

Q.

In your capacity as commissioner, has

16

17

it come to your attention that there were problems

17

18

within the post office with delivering ballots on a

18

19

timely basis?

19

20

A.

Yes.

20

21

Q.

Can you describe for me what you know

21

22

about that topic?

No, the only information that I

22

received was either a conference call that we had,
the Wisconsin Election Commission and the postal
department, or it was a meeting that I attended by
Zoom, the City of Milwaukee Election Commission
where they had a representative of the post office
talk about it. I did not make any personal calls to
any postal officials. In my opinion, that was -the staff was doing a good job of that and keeping
us informed.
Q. Did you direct the staff or did any
other commissioner direct the staff to determine
whether the ballots at issue in Fox Point, Appleton
and Chicago, and I guess Milwaukee, were actually
ultimately delivered and counted?
A. I believe that -- I don't have the end
result of that knowledge. I believe that Wisconsin
election staff would have -- I just don't know the
answer to that question.
Q. So you don't know if those ballots
were counted?
A. I think in news reports, maybe they're
indicated that they were not counted. I'm sorry, I

14 (Pages 53 to 56)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 380 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 15 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 57

Page 59
1

hopefully, they'll be in much better shape for the

2

Q.

Do you know the volume --

2

August and November elections and know what to do

3

A.

I think probably some were and some

3

with this.

1

just don't know the answer to that question.

Q.

Commissioner Spindell, I take it in

4

weren't. I would suspect that might be a good

4

5

answer.

5

your role as commissioner, that the fact that the

6

Q.

But you're just speculating?

6

post office lost what sounds like thousands of

7

A.

That's right.

7

ballots is unacceptable performance in your view?

8

Q.

Do you know the volume of ballots at

8

9

issue in those locations?

9

A.

This is, obviously, a concern. We

want to make sure that every ballot is cast and

Well, I think -- I sort of remember

10

that's why a lot people are fearful of having

11

hearing something like 1600 in Appleton and several

11

mail-in ballots because they're afraid their ballot

12

hundred in Fox Point. And the ones that ended up in

12

will not be cast -- it wouldn't be counted.

13

Chicago, I don't know the precise number of those.

13

14

And the ones that are floating around in some of

14

your capacity as commissioner worked with the post

15

these post offices, I'm not sure that we even know

15

office since the April election to take steps to

16

now how many there were.

16

ensure that similar problems that you describe won't

17

occur in November?

10

17

A.

Q.

In your role as commissioner, did you

Q.

Commissioner Spindell, have you in

A.

I have not personally. As you may

18

ever learn what occurred at the post office that led

18

19

to these problems?

19

know, I'm -- this is not my full-time job. It's not

20

even a part-time job. It's a commission role. But
the very efficient staff has been working in that
regard.

20

A.

Well, I think from what the staff told

21

us, the post office was very unapologetic and really

21

22

did not clearly indicate what might have happened at

22

Page 58

Page 60
Q.

Had the commissioners other than

1

the post office. What -- generally the way the

1

2

system works is all the Wisconsin substations either

2

yourself, if you know, done any coordination with

3

send their mail to Milwaukee or Minneapolis where

3

the post office to ensure these problems don't occur

4

it's processed and then it's back to the various

4

in November?

5

municipalities for delivery.

5

A.

I don't believe that in our

6

discussions that we've had on -- during our

municipalities were taking a shortcut and trying to

7

meetings, which is really the only time we really

8

do what they needed to do with the ballots at the

8

talk to each other, that any voter said that they

9

post office. Election Commission -- or clerk drops

9

have gotten involved in this personally. I think

6
7

It appears that some of the

off a bunch of ballots at one of these smaller post

10

we're leaving that up to the staff, which is well

11

offices saying, hey, we're not going to send it all

11

equipped, to spend the time and effort and knowledge

12

the way in, we'll process it here and deliver it. I

12

to get what they need to get from the post office to

believe a lot of that has happened.

13

try and help the post office do what they need to

14

do.

10

13
14

I remember listening to the postal

Q.

Thank you.

people when they were asked about some sort of stamp

15

16

that said April whatever, and they indicated, well,

16

17

that stamp certainly wouldn't be used by anybody in

17

sentence of Fact 2 says, "These problems would only

18

the post office. So I think it's still an open

18

multiply and create more chaos and endless lawsuits

question in terms of what happened.

19

in November."

15

19
20
21
22

I'm sure the post offices, they're

20

over- -- obviously overwhelmed, too, just like the

21

election officials and clerks are overwhelmed and,

22

Back to this document, the last

What did you mean by that statement?
A.

Well, if -- you know, this gets back

to several items. Obviously, on the mailings that

15 (Pages 57 to 60)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 381 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 16 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 61

Page 63

1

we're doing of the 2.7 mailing, there's a number of

1

2

people that obviously have moved or whatever. Also,

2

3

as you're aware of the lawsuit where there's

3

4

approximately 130,000 voters that we do not know

4

5

anything about at this point in time, that those

5

6

people there can -- or whomever can request absentee

6

7

ballots, we do have, you know, some safeguards in

7

8

there in terms of voter ID must be required;

8

9

however, if you put forth that voter ID prior to

9

10

your bringing in or asking for an absentee ballot,

10

11

you do not have to return photo ID.

11

So I think there's -- we don't know

12

12

13

who all these ballots are being sent to at this

13

14

point, and it's certainly not the same as somebody

14

15

walking into the polling place and there's a fill-in

15

16

list and the latest up-to-date information about who

16

17

should be there, who's registered and who's not and

17

18

so forth.

18

19
20

Q.

19
20

One follow-up question I have is, when

21
22

Commissioner Spindell, thank you for

that.
you speak of these problems are going to multiply,

21
22

steps to ensure that will help; correct?
A. No, our staff has been instructed to
try and get with the post office and work out good
policies and procedures. I can't -- I can't do all
the work of 37 people that are in our headquarters
in Wisconsin that are paid good salaries and so
forth and so on. I have -- you know, I try and
spend as much time as I can on this stuff, but I
still work.
Q. I understand.
But you don't know what steps your
staff has taken with the post office to plan for
November; is that correct?
A. Well, sure. What they're doing is
they're still trying to determine what may have been
some of the problems that happened and how the
coordination between the clerks and the postal
office and so forth and so on can be handled in a
more efficient manner. And this -- all of a sudden,
we have 1850 clerks out there with -- each one's got
to have a post office. 1850 branches of post office
had to be the wild, wild west in terms of what was

Page 62

Page 64

1

do you expect the problems that were experienced

1

2

with the mail and the post office that we just

2

3

discussed to multiply in November given this

3

4

potential significant increase in mail ballots?

4

5

A.

Well, I would hope that -- again, you

5

6

know, they were only given a few weeks' notice.

6

7

Probably they didn't even think about it as we did.

7

8

But I would hope within these, what, April to

8

9

November, it's more than six -- what, seven, nine

9

10

months, they should have an opportunity basically to

10

11

work out their policies and procedures with the

11

12

particular clerks and the Election Commission and

12

13

try to get a well-tuned system in place. So I

13

14

just -- I just don't -- I would hope that they would

14

15

do that and they're basically a business, I would

15

16

hope that any business would take what they have

16

17

done and learn from it and try and get some good

17

18

procedures in place. You know, with a quick

18

19

turnaround between -- with a pandemic, it's amazing

19

20

that they did as well as they did.

20

21
22

Q.

Sir, you're hoping the post office

will do that, but you're personally not taking any

Robert Spindell

21
22

going on.
I think now it should be under control
because I would suspect, and no reason not to
believe, that the post office would take this very
seriously as long as the postmasters of all -masters and mistresses of all the various post
offices through the state to make sure that
everything is handled as efficiently as possible. I
don't see -- I don't see why something like that
would not happen.
Q. By the way, Commissioner Spindell, do
you know how many days the post office says a
Wisconsin voter should plan for mailing his or her
ballot in advance of the election?
A. I think for years, it takes -- they're
saying to be sure, it takes seven days. From my
experience, various mailings that I've done, it
could. I've gotten a piece of mail three months
later; but the overwhelming huge majority, and I
guess the post office could tell you, I think it's
99 percent or something or more, gets there within
the two days especially if it's going, you know,

16 (Pages 61 to 64)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 382 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 17 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 65
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

within Milwaukee or something along that line.
Q. Commissioner Spindell, just a few more
questions on -A. Sure.
Q. -- this particular issue.
You're aware, I take it, that
Judge Conley in his current preliminary injunction
order relating to the April election extended the
deadline for receiving ballots from April 7 to
April 13; correct?
A. Yes.
Q. And that's something the Commission
totally supported; correct?
A. Well, I think -- I think that that was
supported if, in fact, the ballot had a postmark on
it as was required the Supreme Court.
Q. And are you aware that that extension
resulted in just under 80,000 additional ballots
being counted that otherwise would not have been?
A. I think that could be the number. I'm
not sure of the exact -- exact number.
Q. Do you agree that was a fair,

Page 67
1

acceptable ballot. It was left up to the local

2

canvassers for the particular municipalities.

3

Q.

And you've been involved in the issue

4

of intelligent bar codes for the upcoming election;

5

is that correct?

6

A.

Yes, the staff has kept us up to date

7

in terms of what that means, and we have gone along

8

with having that in place I believe for the -- I

9

know for the November election probably where I

10

guess we'll be testing it, for the August election

11

also.

12

Q.

Is it your understanding that those

13

bar codes provide for a vast majority of ballots

14

what is the equivalent of a postmark?

15
16
17

A.

I think that's to be determined. I

don't know the answer to that.
Q.

Okay. Commissioner Spindell, as you

18

look ahead to the November election and think about

19

the fact that, as you said earlier, the volume of

20

vote by mail is going to very probably exceed what

21

was experienced in April, do you see some potential

22

merit in recommending extension of the ballot

Page 66
1

equitable result?
MR. BACH: Well, I object to asking

2
3

Page 68

his personal opinion on relevance grounds.

in April so that voters aren't disfranchised?
A.

No, I think we ran into all sorts

4

problems when we changed after 8 p.m. on Tuesday.

Well, I'll ask you in your role as a

5

And before we allowed -- before the law was changed,

6

commissioner, are you -- do you believe that was the

6

we did allow the ballots to be accepted up until

7

right result?

7

close of business on that Friday after the election.

8

A.

8

And we just had -- by extending the after 8 p.m., we

9

had all these additional problems with the post

5

9

Q.

receipt deadline in a similar way to what happened

2
3

But answer it again.

4

1

That was -- we had a lot of problems

because what was the -- what constituted a postmark.

10

And I think everybody agreed that if a ballot was

10

office. And I would be -- I think what needs to be

11

postmarked after that date -- for example, if the

11

done, especially since we have so much time, is that

12

election was on the 7th and it was postmarked on the

12

the political parties get after all their nonvoters,

13

8th or further would not be counted. It was all up

13

get them to fill out the absentee ballot, which is

14

in the air whether if there's no little mark through

14

going to be available in plenty of time, drop it in

15

it, if there's no postmark on it or whatever, and I

15

the mail, give it to the postman and get it in

16

believe probably in most of the places or back and

16

instead of this last minute stuff that they need to

17

forth, some did, some didn't count those ballots.

17

wait till the very last second in terms of turning

18

And we all know had there been a very close election

18

their mail in. I think if we follow the law in this

19

there would have been a multitude of lawsuits

19

and have it in by 8 p.m. on election night, that

20

looking at every one of those things.

20

everybody will be much better off.

21
22

So it was very unclear in terms of
what constituted an acceptable ballot or not

21
22

Q.

Commissioner Spindell, do you agree

that there is value for some voters in waiting till

17 (Pages 65 to 68)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 383 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 18 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 69

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

the last week of the election so they can have more
information to inform their vote?
MR. BACH: I'm going to interpose the
same objection, John, to questions about what
his personal belief is. I don't see how
that's in any way relevant to the issues in
the lawsuit.
BY MR. DEVANEY:
Q. Well, as Commissioner, can you see the
merit in allowing voters to have until the last week
of the election to cast their vote by mail so that
they're informed on late breaking news and
developments?
A. Well -MR. BACH: It's really the same
question posed in a slightly different
fashion. His personal views on the matter
simply aren't relevant to the lawsuit.
MR. DEVANEY: Dan, it's really -- I'm
asking more about his views as a
commissioner, whether -- he testified that he
thinks people should mail their ballots in

Page 71
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

segregate what he thinks and what he talks
about in the Republican circles versus what
he does in his role as a commissioner.
MR. DEVANEY: Fair enough. I will ask
that last question and I'll try to keep your
answer in mind.
THE WITNESS: Yes, I think there's a
theory out there that the more information
people have, it can make a difference. And
oftentimes it can make a difference because
it's got some scandal that comes out the last
few days of the election. But what we are
able to do by having three types of voting,
by having absentee by mail, absentee in
person and absentee at the polling place,
that if somebody really is concerned about
this and wants to wait, they can -- certainly
they'll get their ballots sometime after
September 1st, you know, when ballots are
determined and printed up and so forth and so
on and if they mail them by that Friday, give
it to the postman on Friday, it should get

Page 70
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

early to avoid any chance of getting bounced,
and I'm asking him in his role as a
commissioner, doesn't he see the merit in
waiting until later so that a voter can take
advantage of late breaking developments, and
that's a commission sort of policy question
that I'm asking him.
MR. BACH: I just want to have a
standing objection to questions about his
opinions. It's hard for him to take his hat
off whether he's a commissioner or doing his
work on behalf of the Republican Party and so
forth. It's hard to delineate the two in
terms of policies and so forth. Those are
reflected in their public meetings and
discussions and so forth.
So I think what they discuss in the
public sessions and so forth is fair game,
but I just would like to have a continuing
objection to questions seeking his personal
views on the matter because I think it's very
hard for somebody in Bob's position to

Robert Spindell

Page 72
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

there. Or if they still want to wait, they
can do at least two weeks, it can be six
weeks in Milwaukee, two weeks early voting,
early in-person absentee voting, or actually
go to the polling place on election day.
I think some of us we're thinking of
this stuff 24 hours a day, politics and this
and that, it's not what everybody is
thinking. So in Wisconsin, we give people a
huge chance in terms of how to vote and
making sure they're able to vote.
MR. DEVANEY: Andy, if you could
scroll down this document I think to the next
page.
BY MR. DEVANEY:
Q. I want to just briefly ask you about
this e-mail. It looks like it was from Vincent
Cinowitz, if I'm pronouncing that correctly?
A. Yes.
Q. It sounds like you probably know
Mr. Cinowitz from the tone of this e-mail; is that
correct?

18 (Pages 69 to 72)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 384 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 19 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 73

Page 75
to in-person vote.

1

A.

Yes, I do.

1

2

Q.

And he's -- I'm paraphrasing here, but

2

3

he is saying that he's had three ballots issued to

3

to page 8 of this document, Andy.

4

him but doesn't have any -- hasn't received any of

4

Q.

5

them.

5

Is that a fair summary?

6

MR. DEVANEY: And if we could go down
Do you know Mr. McCumber, the author

of this document?

6

A.

Yes.

Q.

It sounds like he might be an election

7

A.

That's I think what it says, yeah.

7

8

Q.

And did you look into this and

8

determine why he hadn't received the three ballots

9

A.

10

clerk --

No. As a matter of fact, the first

11

Q.

And --

12

time I saw it is when I was going through my e-mails

12

A.

-- part time. You know, for a very

13

looking for discovery-type information. I had not

13

small area.

14

seen that until, you know, a couple days ago.

14

Q.

9
10
11

that had been issued to him?
A.

15

Q.

So do you know if he voted?

15

16

A.

No, I do not. I think I probably

16

17

should call him up. I'll call him up and see what

17

18

the situation is. That's a good point.

18

19

Q.

If we go to the next document, please.

19

official; is that right?
Yes, he's a municipality -- municipal

And this e-mail from him is dated

May 23, 2020.
Did you speak to him about the
concerns he raises in this communication?
A.

No, I have not had a chance to do

that.
Q.

The third paragraph -- third paragraph

20

Down below, you'll see this is an e-mail from Mary

20

21

Ann Russom, or Russom?

21

of the letter, it says, "Thousands of ballots did

22

not get sent out or were trapped in the Fox Valley

22

A.

Yes.

Page 74
1

Q.

Page 76

She says, "What advice do you have for

1

postal system, and how many more were not returned
in time to be counted?"

2

voters who have not received the absentee ballot

2

3

they requested?" And that was sent on April 6, the

3

4

day before the election.

4

And you respond, "I would call City of

5

5

So I take it you didn't follow up with
him to learn more about what he was referring to?
A.

No, I thought the letter was pretty

Milwaukee Election Commission. They can look up

6

self-explanatory. I will probably -- the next time

your status. If problems, I'll turn you over to

7

I see him I'll probably talk to him. I probably

8

Jess Ripp, who took my place on the City of

8

should have sent this in to Megan. Just been pretty

9

Milwaukee Election Commission."

9

busy doing stuff and I didn't get around to it.

6
7

10
11
12
13

Did you ever speak with Ms. Russom?

10

I'll send it in to Megan for a response

Yes, they did get the ballot and they

11

or administrative --

A.
did vote.
Q.

12

Do you know -- because she sent this

13

Q.

Okay. How are you holding up in terms

of a break? Are you doing okay?
A.

Yes, I'm fine.

14

e-mail on April 6th, do you know when she received

14

15

the ballot?

15

MR. DEVANEY: Just for people to get a

16

A.

16

sense of where I am, I probably have between
15 and 25 minutes left of questions.

Well, her e-mail to me was on April 6

17

at two o'clock in the afternoon, so if -- I don't

17

18

know, maybe she got -- I don't really know. I

18

19

guess -- I guess they indicated to me they received

19

the exhibit number. It's request for

20

it. Whether or not they went in person to vote or

20

production, response number eight, document

21

whether they delivered it to the clerk, I do not

21

474.

22

know the answer to that. I would assume they went

22

Andy, please pull up -- I don't have

(Exhibit 8, No Bates numbers, E-mail

19 (Pages 73 to 76)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 385 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 20 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 77
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

dated 4/8/20 from Jackson to Kehoe, marked
for identification.)
MR. DEVANEY: That's pretty good,
Andy.
BY MR. DEVANEY:
Q. First, this was in your production so
I assume you've seen this e-mail before,
Commissioner; is that correct?
A. No, I think they mixed it up with
somebody else's.
Q. So you've not previously seen this
e-mail?
A. No.
Q. Okay. Then I won't ask you about it.
All right.
MR. DEVANEY: Andy, if you could pull
up Exhibit 4.
(Exhibit 4, No Bates numbers, April 7,
2020 Election Summary Report, marked for
identification.)
Q. You'll see, Commissioner, this is an
April 7, 2020, election summary report.

Page 79
MR. DEVANEY: So we'll move on from

1
2

this one.

3

Dave, what I might do, without any

4

objection from you, rather than slow things

5

down, when my co-counsel asks some questions,

6

I'll figure out the document I want to ask

7

about and come back with him just to ask

8

about that one document.
MR. BACH: That's fine.

9
10

MR. DEVANEY: Thanks.

11

If I could, Andy, ask you to pull up

12

Exhibit 3.
(Exhibit 3, No Bates numbers, 7th

13
14
15
16

Circuit Order, marked for identification.)
BY MR. DEVANEY:
Q.

Commissioner Spindell, I want to ask

17

you a couple of questions about the absentee ballot

18

witness certification requirement.
Are you familiar with that

19
20

requirement?

21

A.

Yes.

22

Q.

Generally, what is your understanding

Page 78
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

A. Uh-huh.
Q. I assume you've seen this document
before; correct?
A. Yes.
Q. And the Commission approved this
document?
A. Yes, they approved it four to two.
Q. And which way did you vote?
A. I voted to approve it.
MR. DEVANEY: Andy, please go to
page 9. Sorry, page 15. That's page 11. So
you got to go four pages more. If you go to
the next page, please, Andy.
Give me one second here, Commissioner.
I want to read something and then ask you a
question.
THE WITNESS: Could you raise the type
size? I can't read it. Okay, thank you.
MR. DEVANEY: I'm having a little
trouble with the pagination. I'm going to
come back to this document.
THE WITNESS: Sure.

Page 80
1
2

of the requirement?
A.

The requirement is for somebody that

3

is filling out an absentee ballot, that they need a

4

witness to watch them fill out the ballot, put the

5

ballot in the envelope and seal it --

6

Q.

Do you agree that --

7

A.

-- then they would sign it.

Q.

And in your capacity as a

8
9

commissioner, do you agree that for some individuals

10

who are immunocompromised or have COVID itself, that

11

it can be challenging to have a witness for an

12

absentee ballot?

13

A.

Well, if they're in a position that

14

you talked about, they would not -- they would not

15

be required to have the voter ID; but, no, I would

16

suspect that anybody could -- that people should not

17

have a problem in terms of finding a witness. I

18

know there are many organizations that are out

19

there, political associations and various

20

associations that help people, have all sorts of

21

ways that they can find a witness, whether it be

22

when you go to the pharmacy to pick up something,

20 (Pages 77 to 80)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 386 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 21 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 81
1

Page 83

your caregiver, mailman, whatever.
So I don't really buy the fact that

2

1

commissioner, that if someone has COVID, that they

2

should interact with a witness and they're required
to interact with a witness to have their absentee
ballot signed?

3

it's impossible for people to do. I think a very

3

4

small percentage, like, what, 600 or something like

4

5

that, did not have the -- it was not filled out

5

6

properly with that signature.

6

don't see a reason for changing the law, I guess

7

that should be my answer.

7

Q.

So, Commissioner Spindell, is it your

8

testimony that the person who has COVID should be

8

9

expected to leave his or her home to go find a

9

10
11
12

witness if they live alone?

A.

MR. DEVANEY: Andy, please go to
page 4 of this document.
THE WITNESS: I can't read it. Can

10

MR. BACH: John, I'm going to object
to the form of the question.

11
12

Yes. Until the law is changed. I

you -BY MR. DEVANEY:

13

MR. DEVANEY: I don't see the

13

14

objection. Are you instructing him not to

14

please read as much of this document as you'd like.

15

answer?

15

I'm just going to ask you about a small portion of

16

it, but this is an order from the United States

16

MR. BACH: I'm not instructing him not

Q.

By the way, Commissioner Spindell,

17

to answer, but once again, what he believes

17

Court of Appeals for the Seventh Circuit that

18

in terms of this isn't relative to any of the

18

affirmed in part and reversed in part Judge Conley's

19

issues in this dispute.

19

preliminary injunction. You probably have seen this

20

before, I take it.

20

MR. DEVANEY: I'm asking as a

21

commissioner. He's -- I'm going to get to

21

22

some policies of the Commission. I'm laying

22

And you'll see here that the -- sorry,
the Court is talking about the concept of

Page 82
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

a foundation for those policies.
BY MR. DEVANEY:
Q. You can -- your counsel is not
instructing you not to answer.
A. Can you please repeat the question.
Q. Is it your view as a commissioner that
a person living alone who has COVID should be
expected to leave his or her apartment to find a
witness to sign an absentee ballot?
A. I don't necessarily agree that
somebody has to leave their apartment -- his or her
apartment to find a witness. I don't -- I think if
people have to get help, they have to survive,
something along that line, I think that they can
find a way of doing that. And I think the Election
Commission even agreed to do a video chat or
something like that.
And, also, I think it's been very
clear since the April election, that the
transmission of the virus by touching things is
really not valid any more.
Q. And so is it your view as a

Page 84
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

indefinitely confined.
Are you familiar with that concept?
A. Yes.
Q. What is your understanding of it?
A. Indefinite confinement refers to
the -- it's up to the individual voter to decide if
because of age, sickness, so forth and so on, they
classify themselves as that, they do not have to
submit voter ID. And as long as they vote each
election, they will automatically be sent an
absentee ballot.
However, in the City of Milwaukee,
there was never more than 5,000 of them. About
50,000 for the last election and now there's 200,000
of them. So it looks like to me all of a sudden we
have a lot of people saying they were confined.
Q. Have you evaluated whether that was
related to COVID?
A. No, I have not. I think the State
Supreme Court was concerned about the orders that
the clerk of Dane County provided to say if you
can't do the ballot -- the voter ID, then just say

21 (Pages 81 to 84)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 387 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 22 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 85
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

you're indefinitely confined.
Q. For the signature requirement,
Commissioner Spindell, is it -- I'm asking you this
in your capacity as a commissioner -- is it
permissible for a voter to declare indefinite
confinement, not obtain a witness signature because
of the concerns about COVID infection?
A. I should know the answer to that
question, but I really don't know what the law says
on that.
Q. Do you know if the Commission has
provided guidance on what a person in that situation
should do with respect to declaring definite
confinement?
A. Well, I think after the problem was
brought out there may be some people who really
would not qualify to be indefinite confined, wrote a
letter -- or I'm not quite sure, they wrote a
letter, they provided a letter sample to all the
clerks to send to their people on that list to say,
"Are you really confined? If you are not, please
let us know and we'll take you off the list."

Page 87
1

want to keep the law as is. If there's a court

2

order that we need to do something about, then, of

3

course, we will follow that; but I think at this

4

point, the point of view is that the law should be

5

followed. And with the Alabama cases recently and

6

the Texas cases recently where the Supreme Court of

7

the United States said COVID was not a reason to

8

change all the election laws, I would suspect that

9

will be our stance.
Q.

10

Okay. And in this decision by the

11

Seventh Circuit, about halfway down this paragraph

12

that's in front of us, there's a sentence that says,

13

"So, too, do we have every reason to believe the

14

commission in keeping with forward-leaning action it

15

has taken thus far to accommodate" --

16

(Telephone interruption.)

17

THE WITNESS: Let me just turn off the
telephone. Just a second. Sorry about that.

18
19

BY MR. DEVANEY:

20

Q.

No problem.

21

A.

I'm sorry, repeat the question again.

22

Q.

So I was going to ask you a question

Page 86
1

Q.

Page 88

Does the Commission intend to issue

1

about this, the Seventh Circuit's statement here

2

guidance for the November election with respect to

2

where they say, "So, too, do we have every reason to

3

whether a COVID-related condition or susceptibility

3

believe the commission in keeping with the

4

to COVID qualifies as indefinitely confined?

4

forward-leaning action it has taken far to

Well, you know, thinking back, we did

5

accommodate voter's interests while also striving to

6

discuss that issue and we wanted to classify it the

6

ensure their safety will continue to consider yet

7

same way as somebody that was hospitalized. And the

7

other ways for voters to satisfy statutory signature

8

idea was that should somebody be told to be

8

requirement (if possible, for example, by

9

quarantined and so forth and so on, that the

9

maintaining the statutory present requirements but

5

A.

not requiring the witness' physical signature)."

handling of the ballot so forth and so on could be

10

11

handled the same way as somebody who was actually in

11

12

the hospital. And I'm not sure whether -- whether

12

A.

I do see that.

that passed or didn't pass. I sort of think it did

13

Q.

That language was written in early

pass.

14

April. My question is, has the Commission taken any

15

action since then consistent with what the court was
suggesting here to consider other alternatives for
voters to meet the statutory signature requirement?

10

13
14
15

Q.

My question for you now though is,

Do you see that?

16

does the Commission have plans, to your knowledge,

16

17

to issue any guidance before the November election

17

18

with respect to whether a COVID-related condition

18

A.

Not to my knowledge.

can give rise to indefinitely confined status?

19

Q.

Do you know --

20

A.

I don't have knowledge, so I would say

Q.

Do you know if the Commission has any

19
20

A.

I don't know. I just -- I don't know

21

the answer to that. I would suspect that we would

21

22

probably keep the law -- you know, we would probably

22

no.

22 (Pages 85 to 88)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 388 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 23 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 89
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

plans to follow up on what the court suggested that
it do here?
A. I would suspect that many items will
come before the Commission and this could well be
one of them.
Q. But you're not aware of any specific
plans to consider alternative ways for voters to
satisfy the statutory signature requirement?
A. Not at this point.
MR. DEVANEY: Andy, last or second
last exhibit, I don't have a number. It's
the preliminary injunction order dated
April 2nd.
(Exhibit 2, No Bates numbers,
Preliminary Injunction Order, marked for
identification.)
Q. If you could turn to the end of this
document, page 49, Commissioner Spindell, the top
paragraph of this -THE WITNESS: Could you raise the type
so I can read. Okay.
Q. You're, of course, free to read the

Page 91
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

THE WITNESS: So what you're saying is
if somebody is in quarantine with COVIS, that
we can register him saying that they're
indefinitely confined?
BY MR. DEVANEY:
Q. And thereby be exempted -A. It's something that is up entirely to
the individual voter, and they sign qualifying
that -- they sign something -- or maybe not even
sign something -- saying that they consider
themselves to be indefinitely confined. So it's
really up to the voter. There's no real guidance
other than what the voter thinks on that.
Q. And is the Commission planning to
issue any guidance on whether a COVID-related
condition can serve as an exception that fits into
this indefinitely confined status for the purposes
of photo ID?
A. You know, I don't know. But
there's -- again, there's 29 local parties and
29 organizations out there to help people meet that
requirement. And so, again, at this point in time,

Page 90
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

page before this if you want for context, but this
is a discussion of the photo ID requirement.
A. Yes.
Q. And am I right that there's also an
indefinitely confined exception for the photo ID
requirement?
A. Yes.
Q. And the guidance from the Commission
quoted in this order is as follows: "The
designation of indefinitely confined status is for
each individual voter to make based upon their
current circumstances. It does not require
permanent or total inability to travel outside of
the residence."
My question for you is, with respect
to that photo ID requirement, if someone has a
COVID-related condition, is it permissible for them
to declare indefinite confinement for purposes of
the photo ID?
MR. BACH: Are you asking him to
interpret the guidance that they've given?
MR. DEVANEY: Yes, I am.

Page 92
1

I'm sure that at one time it will be on our agenda,

2

but we have not revisited that.

3

And, again, looks to me like the

4

various court cases that are coming up are saying

5

that COVIS is not an excuse to change the law.

6

Q.

So I guess the short answer is you're

7

not aware of any plans on the Commission's part to

8

clarify whether a COVID condition can fit within

9

this exception; is that correct?

10

A.

I'm not aware; but I'm sure there's

11

probably -- the last one that you mentioned, this

12

one and 25 more items that are not planned yet or

13

not on our agenda that are going to come before us.

14

We've had, I don't know, since February, 25

15

meetings. So I would suspect that these will be

16

items on our agenda.

17

Q.

I don't mean to beat this in the

18

ground, but you're not aware of this being on any

19

current agenda; is that correct?

20

A.

Yes. I might say right now there is

21

no current agenda. We get the notification of an

22

agenda when the meeting is going to be called 24, 48

23 (Pages 89 to 92)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 389 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 24 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 93

1
2
3

Page 95

hours in advance.
Q.

1

Commissioner Spindell, thank you.

2

Those are my only questions.

3

MR. DEVANEY: Dan, I will reserve that

4

4

5

one document if I can find it while my

5

6

co-counsel asks some questions. Thanks.

6

MR. BACH: Can we take a five- or

7
8

8

MR. DEVANEY: Sure. What's your
preference on length?
me, unless somebody else wants more.

11
12

MR. MANES: That's fine. Who else is

13

9
10

MR. BACH: Five minutes is fine with

11
12

7

ten-minute break here.

9
10

13

14

intending to ask questions? I have some.

14

15

I'm not sure if someone from DNC is asking

15

16

questions. I might have missed that at the

16

17

beginning.

17

MR. DEVANEY: No one else from the DNC

18
19

is asking questions.

21

it up after the break.

20
21

MR. BROWNE: The legislature is going

22

18
19

MR. MANES: Okay. I'm happy to pick

20

22

exactly the number that it had, but the text
messages that were introduced at the
beginning of the deposition, are you willing
to stipulate to the authenticity of those? I
believe they're disclosed in discovery. I
just want to make sure that -MR. BACH: They were part of the
document production that we gave that was
responsive to the request for production, so
they're coming from us on behalf of the
Commission.
MR. MANES: Okay, great. I just
wanted to make that clear. I might have just
missed that. Terrific. Thank you.
BY MR. MANES:
Q. Okay. So, Mr. Spindell, I want to
start -- bring you back to a conversation you were
having with Mr. Devaney about the health risks of
COVID.
So you do believe that COVID poses a
health risk to Wisconsin citizens; correct?
A. Yes --

Page 94
1

3

Page 96

to have a few limited questions at the end.

1

MR. DEVANEY: Thank you. 12:50 I

2

2

guess is when we'll return.

3

4

MR. BACH: 12:50 is fine.

4

5

THE VIDEOGRAPHER: The time is 12:45,

5

6

and we're off the record.

6

7

(Recess from the record.)

7

8

THE VIDEOGRAPHER: The time is

8

9

12:51 p.m. We're back on the record.

9

10

10

11

EXAMINATION

11

12

BY MR. MANES:

12

13

Q.

Thank you.

13

So, Mr. Spindell, my name is Jonathan

14

14

15

Manes, M-A-N-E-S. I'm one of the attorneys for the

15

16

Swenson plaintiffs. And thank you for making the

16

17

time today, appreciate it.

17

18
19

A.

Sure, uh-huh.

18

MR. MANES: So just off the top, I'd

Robert Spindell

19

20

like to ask Mr. Bach, you know, with respect

20

21

to the exhibit that was entered by my

21

22

colleague of text messages, I don't remember

22

MR. BACH: I'm going to have the same
series of objections regarding the relevance
of his opinions on this.
MR. MANES: Sure.
MR. BACH: You know, what he does on
behalf of the Commission in his function as a
Commissioner for the Wisconsin Elections
Commission seems to me fair game. What he
thinks about things in his personal opinion
just isn't relevant.
MR. MANES: My understanding is that
one of the topics for the conversation in the
deposition here is that -- are the factors
that the Commission considers for the
upcoming -- is considering with respect to
the upcoming elections and the voting
procedures in the upcoming elections, and it
strikes me that the Commissioner's views with
respect to the health risks of COVID are one
of the important factors. So I'm asking
these questions to be clear to understand,
you know, that factor.

24 (Pages 93 to 96)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 390 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 25 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 97
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

MR. BACH: I think it would help if
you preface it in that fashion and say as a
Commissioner did you consider -MR. MANES: Absolutely. I'm very
happy to do so.
BY MR. MANES:
Q. So in your role as the Commissioner,
and in that capacity, do you believe that COVID
poses a health risk to Wisconsin citizens?
A. Yes.
Q. And do you agree that public health
measures are appropriate to prevent the spread of
COVID?
A. Yes.
Q. So, for example, are you aware -maybe I should ask you a little bit about -- a
little bit more about something you were talking
with Mr. Devaney before.
So you mentioned to Mr. Devaney that
you've spoken for 15 to 20 hours with a friend who
is a public health professional; is that correct?
A. Yes, a doctor in public health.

Page 99
1

visual meetings and now they're getting into live

2

visual. And then also I'm regional vice president

3

for the Metropolitan Chicago Ski Council, it will

4

apply also to those. And also guidance for the

5

Republican convention that's coming up this coming

6

Saturday.
So I think it's extremely important

7
8

that procedures that he has outlined and talked

9

about be followed. And things have changed from the

10

first time that I talked to him to recently. Some

11

things have become more important and things have

12

changed considerably since the virus first started.

13
14
15

Q.

So what are some of the measures that

have become more important that you just referenced?
A.

Well, I think it's getting clearer and

16

clearer that touching something is probably not

17

going to give you the virus. Also, I think the most

18

astonishing item, which was hard for me to believe

19

initially, were the CDC said masks were not

20

important. I've been over to Asia many times,

21

everybody wears a mask over there. I thought that

22

was the first thing that people should do. And

Page 98

Page 100

A doctor in public health.

1

the -- initially it wasn't and then it came out and

Uh-huh.

2

he actually sent me a study that shows how important

Q.

Do you know the name of that friend?

3

it is that masks be worn.

A.

Yes.

4

5

Q.

What's that person's name?

5

talking about that anybody should follow is social

6

A.

Dr. Don Lee.

6

distancing, wearing masks, and also that the three

7

Q.

And where does he practice?

7

questions, which is more important than anything, do

8

A.

He works for Ascension, which is a

8

you have -- do you have a fever, do you have a

9

cough, are you short of breath.

1

Q.

2

A.

3
4

9

hospital chain, I don't know if -- national or

So the three main things that he is

So there's been several different

10

local, and he works -- while he works at several of

10

11

the hospitals that employ him, he primarily is at

11

medicines and I'm not too good at pronouncing what

12

St. Mary's which is a hospital here in Milwaukee.

12

they are actually are, but there have been several

13

new medicines that have come out that reduce the

14

consequences of getting that. And he does see cases

15

now where one started with older-type people, now it

16

seems to be much younger-type people that are really
not having much of an effect.

13

Q.

And in your discussions with him over

14
15
16

Terrific.

those 15 to 20 hours, what topics have you covered?
A.

Well, I was talking to him in terms

17

of -- you know, in terms of the virus itself and, of

17

18

course, his advice is the best thing is not get it.

18

And also they've done such things with

19

But then in terms of what are important items to do.

19

the ventilators, that they've learned how to make

20

And I was also asking him this not only for the

20

the adjustment on those things that make it much

21

Election Commission that it would make safe-type

21

more successful and provide a much better chance of

22

environments, but also for my ski club which has had

22

survival should you be put on a ventilator. So some

25 (Pages 97 to 100)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 391 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 26 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 101
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

of these things are good common sense things and
I -- you know, so...
Q. Got you. Got you.
Let me ask you a few follow-up
questions on that.
A. Yeah.
Q. So are you aware that people who are
not showing symptoms can also be spreading the
coronavirus?
MR. BACH: Counsel, I'm going to
object. He's not an expert on that.
MR. MANES: I'm sorry, I'll rephrase.
I'll rephrase the question.
MR. BACH: I think topic areas is what
factors did the Commission consider. In your
role as a Commissioner, did you consider X, Y
or Z?
MR. MANES: I can rephrase the
question, absolutely.
BY MR. MANES:
Q. So in considering how in-person voting
in particular should be configured, have you

Page 103
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

that the risk of transmission is higher in enclosed
spaces like polling places than it would be
outdoors?
A. Well, I think also outdoors appears to
be a better situation than a very crowded indoor
situation; but, again, there are precautions that
can be taken to make the environment as safe as
possible.
Q. So would you say that it's more
important to take precautions indoors in a place
like a polling place than it would be out of doors?
MR. BACH: Counsel, once again, I'm
going to object. He is not an expert on the
transmission of the coronavirus. We haven't
tendered him as an expert.
MR. MANES: Correct. Absolutely.
MR. BACH: His opinions in that regard
are irrelevant. What factors the Commission
considered are within the scope of the topic
area as we've discussed.
MR. MANES: So I'll move on and maybe
we'll come back to this where it will be

Page 102
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

considered the fact that the virus can spread -- be
spread even by people who are not displaying any
symptoms?
A. Yes.
Q. And in considering decisions in your
capacity as a Commissioner, you're aware that the
coronavirus spreads primarily through droplets that
come out of a person's mouth and reach another
person?
A. Yes.
Q. And you just said that you have been
informed that mask wearing is an important
precaution to prevent the spread of coronavirus?
A. Yes, especially if you can add social
distance. And certainly should be worn -- should be
worn in public and, you know -- so I would -- you
know, obviously that has now become a very, very
important item. I have thought since day one it
should have been.
Q. Perfect.
And then, again, with respect to your
role as a Commissioner, is it your understanding

Page 104
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

clearer, the relevance will be clearer.
BY MR. MANES:
Q.

So the Commission itself hasn't met in

person for several months; correct?
A.

Yes, that's correct.

Q.

And that's in order to protect against

the spread of coronavirus?
A.

Yeah, it's that and also it's we're

not permitted by Governor order -- government orders
not to meet in person.
Q.

And I'm curious, how did you vote in

the spring election?
MR. BACH: Objection.
You do not have to answer that
question.
THE WITNESS: Okay.
MR. BACH: I mean, how did he vote, do
you mean -THE WITNESS: Oh, you mean what method
did I vote?
MR. MANES: I'm so sorry, I didn't
mean for whom. I meant the method, the

26 (Pages 101 to 104)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 392 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 27 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 105
1

Page 107

method by which he voted.

1

Q.

Do you believe that the Elections

2

MR. BACH: Okay. That's fair.

2

Commission -- the Wisconsin Elections Commission

3

MR. MANES: I'm so sorry. The

3

could have played a role in minimizing the risk of

4

question was ambiguous and I apologize. I

4

transmission in Milwaukee?

5

certainly don't want to probe your -- who you

5

6

vote for, that's clearly outside the scope

6

a regret that I have is not making a big deal about

7

here.

7

it in media as soon as I learned about the situation

8

rather than -- but beyond -- beyond that, I don't

9

think there's anything that the Election

THE WITNESS: I voted in-person

8
9
10

absentee.
BY MR. MANES:

A.

Well, I'll tell you, my -- if there's

10

Commission -- Wisconsin Election Commission could do

So you voted in-person absentee.

11

about it other than, you know, public pressure on

12

Are you familiar with the reporting

12

that. It was completely unnecessary.

13

that some people likely became infected with COVID

13

14

as a result of voting in person in the April 2020

14

served for more than 20 years on the Milwaukee

15

election?

15

Elections Commission?

11

Q.

Q.

You served -- I think you said you

16

A.

Yes.

16

A.

A little bit less.

17

Q.

Do you -- in your capacity as a

17

Q.

A little bit less than 20 years on the

18

Commissioner, are there steps that you think could

18

Milwaukee -- and when did you stop serving on the

19

have been taken to avoid the transmission of the

19

Milwaukee Elections Commission?

20

virus in the April 2020 election?

20

A.

In order for me to take the position

21

A.

Yes.

21

on the Wisconsin Election Commission, I had to

22

Q.

What are some of the steps that you

22

resign from the City of Milwaukee Election

Page 106
1
2

Page 108

think could have been taken?
A.

1

Well, I think the -- if we take a look

2

Commission.
Q.

And in that capacity, when you were

at the state as a whole, there are really no

3

serving on the Milwaukee Elections Commission, did

problems outside of Green Bay and Milwaukee.

4

you interact with the Wisconsin Elections

5

Milwaukee as far as I'm concerned is a horror show

5

Commission?

6

where they are taking 20,000 people, making them

6

7

wait two and a half hours or longer in line, trying

7

accountability board and the Wisconsin election

8

to get them to social distance, not talk to each

8

board before that.

9

other, and then go into this voting center to vote.

9

3
4

A.

A little bit in the government

Q.

And if the Wisconsin Elections

10

That's something that in my experience as a City of

10

Commission had issued guidance or directives with

11

Milwaukee Election Commissioner for 20 years, and

11

respect to matters about election administration in

12

this being every single election 30 to 40 polling

12

Milwaukee during that time, would you have taken

13

places per election, that was something that was

13

that seriously as a member of the Wisconsin

14

completely unnecessary and it was just a shame. I'm

14

Elections Commission?

15

so sick about it. It's horrific.

15

16

And I think some people according to

A.

Yes. So we as members of the Election

16

Commission and also in terms of the commission

17

the City of Milwaukee Election Commission -- I'm

17

itself are required to follow the directives, at

18

sorry, City of Milwaukee Health Department might

18

least when I was there, the directives of the

19

have contracted COVIS there or they can't guarantee

19

Wisconsin Election Commission, GAB, whatever it is.

20

it. There are some people that actually had it. I

20

But apparently -- apparently being there I'm told

21

frankly am surprised the way they had it set up

21

now that basically the Election Commission, the

22

there weren't more.

22

clerks, can do whatever they want.

27 (Pages 105 to 108)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 393 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 28 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 109
1
2
3

Q.

Page 111

I'm sorry, I missed the Elections

Commission -A.

Well, what -- apparently there are

1

choices that we give them; they can vote by absentee

2

ballot, they can vote in person where there will

3

probably be fewer people around, or they can vote in

4

some directives that we can give and it's pretty

4

person on election day. We give everybody that

5

well laid out in the statutes and various opinions

5

choice to make -- make it able for everybody to vote

6

and things along this line. Whether or not the

6

if they want to, sure.

7

Wisconsin Election Commission -- at least I was told

7

8

the Wisconsin Election Commission cannot make the

8

designated drop boxes where people can deposit their

9

clerks or Milwaukee Election Commission -- we can

9

absentee ballots before election day would also

Q.

And would you agree that having

say some policies are this, it takes two -- that you

10

reduce the number of people voting in person at the

can have X number -- we follow the law, have X

11

polls on election day?

12

number of weeks of early voting, but in terms of

12

13

instructing them and say you must have more polling

13

everybody -- you must remember I don't think

14

places, that apparently is nothing that we could

14

there's any -- everybody in the United States as far

15

have done about from my understanding.

15

as I know gets mail delivered. Any person that gets

16

mail delivery also has mail pickup. So if they can

10
11

I think the only way to maybe to have

16

A.

No, I don't think so. I think that

17

done something like that if I had said what a bad

17

put the ballot in the mailbox by Saturday, the

18

idea it was in the media, which I should have done.

18

chances are, I don't know, 99.99 percent that that

19

ballot will be sent to the clerk and arrive in time
to be counted.

19

Q.

All right. So let me ask you a few

20

other questions about the risk of infection at the

20

21

polls. As a Commissioner, is it your view that

21

22

absentee voting by mail can help reduce the risk of

22

So I think trying to take a little -little bit look at the -- at the drop boxes there

Page 110

Page 112
1

has to be some precautions that are set up for that.

Well, I guess what you're saying is if

2

From this election, again, because we just had a few

3

fewer people go to the polls will that mean that

3

weeks, there's all sorts of ways that they did it,

4

maybe less people will get it. You know, again, if

4

some had library slots, some set up something at the

5

the appropriate precautions are taken, and the

5

clerk's office. So I think there has to be some

6

Wisconsin Election Commission has worked very, very

6

sort of controls on that.

7

hard to do that including $500,000 of supplies that

7

8

have been ordered already, you know, who knows.

8

Commission has done nothing about or guidance as far

9

Somebody can -- if they're going to the drugstore or

9

as I know in terms of what is the correct way of

1
2

coronavirus infection at the polls?
A.

It's a policy that the Election

10

going to the supermarket, whatever, chances are

10

doing something like that. It seems to me that the

11

probably greater there of getting the -- catching

11

mail service can do it and we're asking for problems

12

the virus than they will be at a well-run polling

12

with the drop box, but some places do have them,

13

place.

13

some states do have them and maybe procedures can be

14

set up for that. I don't know if there's any

So it's really a question -- it's

14
15

really a very hard question to answer. You know, I

15

precaution -- any procedures for that or any -- in

16

don't know.

16

terms of legislation about drop boxes.

17

Q.

17

18

But if a person -- I'll ask the

question differently.

Q.

You said that if a person -- if I

18

understood you correctly, you just said that if a

19

If a person is concerned about the

19

person drops their ballot in the mail on Saturday,

20

health risk of voting in person, should they be able

20

it will arrive by Tuesday 99.99 percent of the time.

21

to vote by absentee ballot?

21

How do you know that?

22

A.

Well, yeah, that's one of the three

22

A.

Well, I don't know what the -- I

28 (Pages 109 to 112)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 394 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 29 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 113

Page 115

1

would -- you know, it's probably like Trump saying

1

to make sure that the polling places will be as safe

2

that 99.99 percent of the virus are not serious.

2

as possible. And I think I also have a little

3

It's just something that it seems to be a statistic

3

paragraph in there in terms of what I thought about

4

when we're talking about millions of ballots that --

4

the City of Milwaukee situation.

5

I don't know if it's 99.99, but I would suspect from

5

6

what I see and know and whatever that 99 percent of

6

7

them -- I just -- I'm speculating.

7

8

Q.

Sure.

8

9

A.

I don't know.

9

MR. BACH: And don't speculate, Bob.

10
11
12
13

BY MR. MANES:
Q.

It's fine. I don't want you to

Got it.
And who placed this ad in the

newspaper?
A.

This is done by a group that's called

Patriotic Veterans. It's a national organization,

10

Wisconsin Chapter, but it was placed by that

11

particular organization.

12

speculate.

Q.

13

Q.

And so they --

A.

I think there's -- I think there's a

14

Does Wisconsin law currently permit

14

website in the information in terms of the

15

people to drop their absentee ballots off at the

15

organization and --

16

clerk's office, is that your understanding?

16

17

A.

Yes, well -- or really what it says

Q.

Thank you. Thank you.
And so they arranged for this

17

18

that on -- you can drop it off at the clerk's office

18

19

or on election day it should be dropped off at your

19

20

polling places.

20

to do with the placement of the ad or, you know,

And would you agree that dropping off

21

anything along that line. All I was, I was in it

a ballot at the clerk's office is a more certain way

22

and participated in the writing of it.

21
22

Q.

advertisement to be published in the 27 newspapers?
A.

Yes. All I did was -- I had nothing

Page 114

Page 116

1

to ensure it arrives on time than dropping it in a

1

2

mailbox?

2

3

A.

Yes, because you know it actually was

3

Q.

Got you.
Did anyone at the Wisconsin Election

Commission review this before it was published?

4

physically given to somebody. So you would have

4

A.

No.

5

reason to believe that my ballot has been received

5

Q.

And you said that you were involved

6

by the clerk and it will be counted.

6

MR. MANES: Okay. Let me ask Andy to

7
8
9
10
11

pull up the Swenson Exhibit A, please.

14
15
16
17

8

BY MR. MANES:
Q.

9

So this document is an advertisement

that I believe you placed in newspapers.

12
13

7

A.

11

Say it again.

Q.

You said that you were involved with

drafting it; correct?
A.

Yes.

Q.

And it is -- at the bottom of the

12

advertisement, it identifies you as the author; is

Yes, I did not place it, but, yes, I

13

that correct?

14

And can you describe the document

briefly?
A.

A.

Do you recognize this document?
do recognize the document.
Q.

10

with drafting it; correct?

15

A.

Yes, that I'm the one that indicated

that it was from me, that's correct.
THE VIDEOGRAPHER: Mr. Manes, excuse

16

It's a newspaper ad that I believe was

17

18

put in 27 Wisconsin newspapers, including Milwaukee

18

19

and Wisconsin, talking about the ability still think

19

20

about doing in-person absentee voting and in terms

20

21

of doing in-person voting and that the Election

21

22

Commission had gone to extraordinary circumstances

22

me.
MR. MANES: Yes.
THE VIDEOGRAPHER: Did you want to
mark this as an exhibit?
MR. MANES: Oh, yes, I do want to mark
this as an exhibit. Thank you.

29 (Pages 113 to 116)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 395 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 30 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 117

Robert Spindell
Page 119

Q.

I see.

1

Can you mark this as an exhibit. I'm

1

2

not sure what exhibit number we're on at this

2

3

point.

3

the Elections Commission created 20 public health

4

documents. Are you referring to documents that were

5

published by the Elections Commission itself?

THE VIDEOGRAPHER: I'm going to mark

4
5

this Exhibit 12.

But what you say -- you say here that

A.

Yes, and those were -- I mean, the

6

MR. MANES: Thank you.

6

7

(Exhibit 12, No Bates numbers, Some

7

staff did not come up with the public health

8

Facts about Your Right to Vote in Winconsin,

8

thoughts and procedures. This was done by the

9

marked for identification.)

9

Wisconsin Public Health Department and then from

10
11

BY MR. MANES:
Q.

10

So I'd like to focus you on Item A

11

their guidance we -Q.

I understand. I'm mindful of the

12

underneath the sentence "here is what happened."

12

clock and I just want to make sure that we're not

13

And I'll read that for you and then ask a few

13

going too far beyond the questions I'm asking.

14

questions about it.

14

A.

Sure.

Q.

So I understand that others were

15

A.

Okay.

15

16

Q.

It reads, "At my request, and with the

16

involved and had input into these documents, but is

17

support of all my fellow commissioners, the

17

it true that these documents were published by the

18

Wisconsin Elections Commission created 20 public

18

Elections Commission?

19

health documents for 1,852 municipal clerks in

19

A.

Yes.

20

Wisconsin."

20

Q.

And when you refer to public health

Mr. Spindell, is that statement true,

21
22

to the best of your knowledge?

21

documents here, do you mean documents that provided

22

guidance or directives to municipal clerks on public

Page 118
1

A.

Page 120

Yes. Yes, it is. Initially the staff

1

health matters?

2

did not want to get -- in my opinion, the staff did

2

3

not want to get involved with it. During one of our

3

4

meetings, we as commissioners talked about how

4

5

important it was that we provide this type of

5

was of use to the municipal clerks for the Elections

6

support, being the Wisconsin Election Commission, to

6

Commission to issue these public health documents?

7

all 1850, and it passed unanimously. As did the

7

8

request for $500,000 be spent now, also passed

8

the City of Milwaukee and Madison, some of those

9

unanimously. We all feel like I believe very

9

have their own health departments, but a lot of

A.

Yes, for these -- for these elections,

sure.
Q.

Do you think -- do you think that it

A.

Absolutely. And, you know, some --

10

these smaller counties and municipalities do not.

11

And this is taking the expertise of the Wisconsin

Wisconsin Elections Commission's authority to issue

12

Public Health Department and providing this

these 20 public health documents?

13

information along with this -- not only did we do

Well, the way that this was done, the

14

that, but as you can see from the rest of the

20 public health documents were done with the

15

paragraph, we supplied a lot of items to go along

16

coordination of the Wisconsin State Public Health

16

with this.

17

Department. We asked the Governor, as I understand

17

18

it, to provide a public health official to us to

18

19

help us carry out these objectives and that person

19

clerks by and large followed the guidance contained

20

was extremely helpful to us in making sure, using

20

in these 20 public health documents?

that expertise, that we provided the safest possible

21

in terms of voting places on election day.

22

10
11
12
13
14
15

21
22

concerned about this.
Q.

A.

And so you believe it was within the

Q.

Got it.
And do you believe that the municipal

A.

Yes. I've not heard that nobody did,

that anybody did not follow this guidance.

30 (Pages 117 to 120)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 396 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 31 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 121
Q.

Page 123

Okay. And do you think that it's

1

2

appropriate for the Elections Commission to continue

2

3

to issue these kinds of documents in advance of the

3

4

November 2020 election?

4

1

5

A.

Absolutely.

5

6

Q.

Okay. And do you think that issuing

6

7

these kinds of documents is consistent with the role

7

8

of the Elections Commission as envisioned by the

8

9

legislature in this State of Wisconsin?

9

10

A.

Yes.

10

11

Q.

Okay. I'd like to move on to item B

11

12

in the same portion of the advertisement. So I'll

12

13

read that to you and then, again, ask you a few

13

14

questions about that.

14

15

A.

Sure.

15

16

Q.

"The Wisconsin Election Commission

16

17

acquired and provided 8,000 liters of hand

17

18

sanitizer, latex gloves, 23,000 masks and 500,000

18

19

alcohol wipes, along with 10,000 signs for social

19

20

distancing and other supplies for the 2,000 plus

20

21

Wisconsin polling places."

21

22

So is that statement true, to the best

22

some states they don't do that.
Q. So providing -- so you would agree
then that providing these kinds of supplies is
consistent with the authorities of the Wisconsin
Elections Commission under state law and the
relevant federal laws?
A. Well, you know, I'm sure when the law
was written, they didn't say that we should supply
various supplies -- I don't know what the state law
says, if anything, on that, but I think this is a
very appropriate item to do that. If not us, then
whom?
Q. So do you think it's appropriate for
the Elections Commission to continue acquiring and
providing supplies for the November 2020 election?
A. Yes, and we're doing that as a matter
of fact. It's already being done.
Q. And were some of these supplies meant
to equip poll workers to protect themselves and
others at the -- while working at the polls?
A. Yes.
MR. MANES: Okay. So I'd like to

Page 122
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

of your knowledge?
A. Yes.
Q. And is it correct to say that the
Wisconsin Election Commission acquired and
distributed the supplies described in that paragraph
in order to mitigate the spread of coronavirus at
the polls?
A. We, again, wanted to make the polling
places as safe as possible and, you know, to do the
best that we could. I might also add that the
clerks also added their own touches to this, too, to
provide additional items along this line; but this
is what we provided, sure.
Q. Sure.
And do you think that this is an
appropriate role for the Elections Commission to
acquire and provide supplies to municipal clerks?
A. Yes, and I think the money from the
CARES Grant that we used in order to do this, the
500,000, and the money that we used from other
grants, this is more than appropriate and this is a
very important item that we did. And I understand

Robert Spindell

Page 124
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

introduce -- is it possible to pull up two
exhibits at the same time? It's two
photographs. Exhibits C and D. Swenson
Exhibits C and D.
THE VIDEOGRAPHER: Yes, we can.
BY MR. DEVANEY:
Q. Do you recognize the person in the
photograph on the left?
A. I do.
Q. Who is that in the photograph on the
left?
A. That's Speaker Robin Vos.
MR. MANES: Okay. I'd like to
introduce that photograph on the left as -- I
guess it's Exhibit 13.
(Exhibit 13, No Bates numbers,
Photograph, marked for identification.)
BY MR. MANES:
Q. And in the photograph on the right, do
you see Speaker Vos in the photograph on the right
as well?
A. Yes, it looks like he's the gentleman

31 (Pages 121 to 124)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 397 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 32 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 125
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

on the left part of the picture.
MR. MANES: I'd like to mark that as
Exhibit No. 14, the photograph on the right
as Exhibit No. 14.
(Exhibit 14, No Bates numbers,
Photograph, marked for identification.)
THE WITNESS: Are they in a garage or
what?
BY MR. MANES:
Q. I mean, do you know where this
photograph -- what Mr. Vos was doing when these
photographs were taken?
A. Well, he was acting as a paid poll
worker, paid election judge.
Q. And can you describe the personal
protective equipment that he's wearing?
MR. BACH: Well, Counsel, I think that
the photograph speaks for itself. I don't
think he's an expert either in what kind of
particular gear he's wearing or why this is
even relevant to the issues in this lawsuit
and this person's testimony.

Page 127
1

wearing gloves.
And they're wearing -- the two people

2
3

on the left have eye protection as well; is that

4

correct?

5

A.

6

shield.

7

Q.

And these measures are -- are these --

A.

I don't know if they're eye

8
9

Yes, and the man on the right has a

protection, they're glasses or something.

10

Q.

Glasses. Terrific.

11

A.

Whatever. But that's an important --

12

that's an important part of this is to wear some

13

sort of glasses or goggles or something along that

14

line.

15

Q.

Okay. And so in your capacity as a

16

Commissioner of the Elections Commission, is it your

17

view that for in-person voting, it's appropriate for

18

people working at the polls to wear the kinds of

19

protective equipment that are depicted in this

20

photograph?

21
22

A.

Well, again, I'm giving you my

personal view on that in my discussions with

Page 126
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

MR. MANES: Sure. I mean, it's
relevant because it's illustrating, I think,
visually the kinds of personal protective
equipment that the Commission may think are
appropriate in the upcoming elections, and -MR. BACH: Why not ask him that
question, what do you think is appropriate
for the Commission to issue to the clerks,
not what, you know, Mr. Vos is wearing in
this -MR. MANES: Sure. So maybe I can
focus on the photograph on the right then,
Exhibit 14.
BY MR. MANES:
Q. Are all three of the people pictured
there wearing masks?
A. Yes.
Q. And they're all wearing gloves too as
well; is that true?
A. Well, the -- most likely, the
third gentleman you cannot see.
Q. Correct. You can see two of them

Page 128
1

Dr. Lee. I do not think that it's necessary for

2

them to have their protective covering on.

3

Protective covering like that would be necessary

4

should we ever allow special voting deputies into a

5

nursing home or something along that line.
But this situation, I think the -- I

6
7

think the masks are very important. There's

8

questions in terms of whether or not the gloves are

9

a good idea or not. And, you know, so it can't hurt

10

anything, but it's probably not necessary for the

11

protective coverings that they have on there.

12

Q.

14

don't have any more questions on this topic.
(Pause.)

15
16
17

Okay. Very helpful. Thank you.
Just give me a second to make sure I

13

BY MR. MANES:
Q.

One thing that I'm not sure that we

18

covered explicitly, in your view as a member of the

19

Elections Commission, do you believe that requiring

20

people to stay 6 feet apart inside polling places is

21

a measure that can help prevent the spread of

22

coronavirus in polling places?

32 (Pages 125 to 128)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 398 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 33 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 129

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

A. Yes, I think social distancing is one
of the very important items that people must cover.
I think -- interesting to note there, that picture,
maybe those people aren't 6 feet apart.
MR. MANES: Okay. I think that we can
take down the exhibits that are currently
displayed and move on to a different set of
questions.
BY MR. MANES:
Q. Looking forward to -- looking ahead to
the November general election. So I think your
testimony previously was that you anticipate that
there will be significantly more voters in the
November general election than there were in the
April spring primary; is that correct?
A. Yes, there always are.
Q. Do you have a sense for how many
people typically vote in a presidential year in a
general election?
A. You know, I may be way off. Is it
3 million? I'm sorry, I don't have the exact
number.

Page 131
1

larger-than-usual proportion of people voting

2

absentee and complications with voting in

3

person. So some of this has already been

4

covered, so I can go through it more quickly.

5

So I'll do my best here not to waste anyone's

6
7
8
9

time.
BY MR. MANES:
Q.

So you're aware that in the spring

2020 election, the proportion of people who voted by

10

mail and absentee ballot was upwards of 60 percent;

11

correct?

12
13
14
15

A.

Yes.

Q.

And is your -- what is your sense for

the usual proportion of mail and absentee voting?
A.

Well, you know, I probably should know

16

that. I know in the City of Milwaukee over the many

17

years there's probably -- if you stay away from the

18

in-person absentee voting, there are about 5,000

19

confined and then about another 5 to 10,000 others.

20

So if that's the same percentage throughout the

21

state, and then I think it went up to close to

22

100,000 absentee ballots, most of which -- in the

Page 130
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

That's fine.
My understanding is that it's roughly
3 million over the last several cycles.
And is it your understanding that
approximately one and a half million Wisconsin
citizens voted in the April election, roughly
speaking?
A. I think that's probably true.
Q. And I'd like to ask you about the
distribution of -- the methods by which people voted
in the spring election.
MR. BROWNE: Counsel, isn't this a
question better put to the 30(b)(6) designee
here who has the facts and figures at hand if
they aren't already -- I'm sure they're
already publicly available. Why we need to
take up Commissioner's time with these
questions -MR. MANES: Sure. So I guess the
point I'm driving at is his views and the
facts he's taken into consideration of the
preparation for what might be a

Robert Spindell

Page 132

Q.

1

City of Milwaukee, most of which were mail-in. So I

2

don't really have those numbers in front of me. I

3

think that would be something that Megan Wolf can

4

answer the question better.

5

Q.

Is it fair to say though that as a

6

member of the Commission, you anticipate the

7

proportion of people voting by mail and absentee

8

will be higher in November than the previous

9

presidential cycles?
I can't hear you, you seemed to have

10
11

cut out.
MR. MANES: I seem to have lost the

12
13

connection here.
THE VIDEOGRAPHER: Counsel, I think he

14
15

disattached his speaker or his headset.
MS. CHIMENE-WEISS: Yes, I can't hear

16
17

him.
MR. BACH: Mr. Spindell, can you hear

18
19
20

us?
THE VIDEOGRAPHER: Mr. Spindell?

21

Should we go off the record?

22

MR. MANES: Yeah, I think so.

33 (Pages 129 to 132)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 399 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 34 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 133
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

THE VIDEOGRAPHER: The time is
1:35 p.m. We're going off the record.
(Recess from the record.)
THE VIDEOGRAPHER: The time is
1:39 p.m. We're going back on the record.
BY MR. MANES:
Q. So let's reset here.
Earlier in your testimony, you
testified that there are three ways for people to
vote in Wisconsin. First, in-person on election
day; second, in-person absentee; and third is
absentee by mail.
A. Yes.
Q. And is it true that all three of those
options are available to Wisconsin citizens by law?
A. As far as I know, yes.
Q. And as a member of the Elections
Commission, do you believe that all three of those
are equally important -- are equally important in
general?
A. Well, I think as I said before, I
think the best way of voting is in-person. So if

Page 135
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

the Commission should do.
Q. And you're obligated to carry out
those duties on behalf of all Wisconsinites across
the state; correct?
A. Sure, yes.
Q. And that, of course, includes people
who live in Milwaukee; correct?
A. Yes. I even more so -- I'm more
interested in that than anything, I shouldn't be,
but I am.
Q. Do you live in the City of Milwaukee?
A. Yes, I do.
Q. And there are about 294,000 registered
voters in Milwaukee; is that correct?
A. That sounds about right.
Q. And that's the largest municipality in
the state; correct?
A. Yes.
Q. So when you take actions as members of
the Elections Commission, are you required to
consider the impact of those actions on all citizens
in Milwaukee?

Page 134

Page 136
MR. BACH: Counsel, I object to the

1

you want me to rank the three, I think voting in

1

2

person is most important, voting in person absentee,

2

form of the question. I'm not sure what that

3

and then third is by mail for many reasons that we

3

means.

4

discussed before.

4

5

Q.

Do you think that the Elections

5

MR. MANES: Okay. Maybe I'll just
phrase it differently.
BY MR. MANES:

6

Commission in advance of the November 2020 general

6

7

election should be focusing its resources on certain

7

8

methods of voting over others?

8

the Elections Commission, do you consider the impact

9

that those actions will have on citizens in

9

A.

No, I don't believe it's the job of

Q.

When you make decisions as a member of

10

the Election Commission to pick or recommend one way

10

Milwaukee?

11

of voting over the other. That's the job of the

11

A.

Yes, I try to.

12

political parties.

12

Q.

And you serve as the Commissioner of

13

Q.

Okay. I'm just mindful of the clock.

13

the Elections Commission; correct?

14

I don't want to waste time on issues that have been

14

A.

Say that again.

15

covered.

15

Q.

You serve as the Commissioner of the

So I'd like to turn to some questions

16

16

Milwaukee Elections Commission; correct?
A.

Well, I'm Wisconsin Election

17

about the problems in Milwaukee that have been

17

18

discussed earlier in this deposition.

18

Commission now. I did serve as a City of Milwaukee

19

Election Commissioner.

So as a member of the Elections

19
20

Commission, you administer and enforce the Wisconsin

20

21

elections law; correct?

21

22

A.

Yes, as the -- what the statute says

22

Q.

Right.
And would you say that you're familiar

with the voting processes that are specific to

34 (Pages 133 to 136)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 400 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 35 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 137

Page 139
1

locations?

2

A.

Yes.

2

A.

Yes.

3

Q.

And in that position as a commissioner

3

Q.

And you're aware also that many voters

1

Milwaukee?

4

of the Milwaukee Elections Commission and now as a

4

had to wait in long lines in order to vote in person

5

commissioner of the Wisconsin Elections Commission,

5

on election day?

6

did you learn about the challenges with election

6

7

administration in the City of Milwaukee?

7

8
9
10
11

A.

14

8

question.
Q.

9

Sure. Sure. Maybe I could ask you an

open-ended question.
What is the biggest challenge with

12
13

I'm sorry, I don't understand the

election administration in Milwaukee?
A.

10

Yes, and I'm still seeing those lines

Q.

And you're aware that some people had

to wait in line upwards of two hours in order to
cast a ballot?

11

A.

Yeah, and even longer than that.

12

Q.

And in your view, is that acceptable

13

Well, I want to go back before the

A.

now on TV on national television.

14

or unacceptable?
A.

Totally unacceptable.
MR. BACH: Counsel, I'll object to the

15

April election. My concern was that the -- every

15

16

resident in the Milwaukee -- this is basically Mayor

16

relevance of this. The Wisconsin Election

17

Barrett's philosophy, every resident in Milwaukee

17

Commission doesn't determine how many polling

18

who is eligible to vote should be able to vote. And

18

places are open in any municipality including

19

I wanted to make it as -- you know, for people to

19

the City of Milwaukee. That's governed by

20

vote, I wanted good customer service in all the

20

the City of Milwaukee.

21

polling places. And up until this election, I think

21

MR. MANES: That's fine.

22

we had a very, very good system that developed over

22

MR. BACH: I think we have the wrong

Page 138

Page 140

the time that I was there where for the 2016, 2018

1

witness here if you want to get into what was

election, very few people had to wait over five or

2

going on with the polling places in

3

ten minutes to vote. And maybe if they had to

3

Milwaukee.

4

vote -- wait more than 10 or 15 minutes to register,

4

5

they were -- profusely apologized.

5

1
2

And then I'd drive around to these

6

MR. MANES: So are you directing the
witness not to answer or --

6

MR. BACH: I'm not directing him not

7

polling places and hear on the radio all these

7

to answer, but I think you said yourself you

8

places like Wauwatosa, an hour and a half, Chibugan

8

want to be mindful of the time and this is

9

and all this, and we had a very good system to allow

9

10

people to make -- allow people to vote. Excellent

10

11

system. I'm very proud of it.

11

12

Q.

And part of that system was -- in the

stuff that goes beyond the purview of
his role as an Elections Commissioner.
MR. MANES: With respect, we think the

12

Elections Commission has an obligation to

13

City of Milwaukee was having a large number of

13

show that voting is equally accessible

14

polling places; is that correct?

14

statewide and there were problems in

15

Milwaukee, so I think it's worth probing on

15

A.

I think that certainly -- certainly

16

helped, yes.

16

17

Q.

17

And in a typical election, is it your

18

understanding that there were about 180 polling

18

19

places in Milwaukee?

19

this just a little bit more.
BY MR. MANES:
Q.

So are you also aware that Milwaukee

had problems processing absentee ballot requests?

20

A.

Yeah, I think 180, 185, yes.

20

A.

Yes.

21

Q.

Okay. And you're aware that in the

21

Q.

Do you think that it's important to

22

spring election, Milwaukee only opened five polling

22

ensure that Milwaukee voters are treated the same as

35 (Pages 137 to 140)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 401 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 36 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 141

1
2

Robert Spindell
Page 143

voters in other areas of the state in terms of their

1

that we do not have any right to do that. I was

ability to exercise the right to vote?

2

absolutely flabbergasted when I learned I believe
the Friday before the election that they were only

Well, again, I'm a little bit

3

4

prejudice along that line. I like it to be treated

4

going to have five polling places. I was not -- if

5

better.

5

I had known this -- you know, we didn't know that

6

Q.

Okay. And about -- with respect to

6

until five days before -- the Friday before.

7

your work on the Wisconsin Elections Commission, can

7

8

you estimate what proportion of your time is spent

8

identify any actions you've undertaken in your

9

working to ensure that Milwaukee voters are treated

9

official role as a member of the Wisconsin Elections

3

10
11

A.

the same as other Wisconsin voters?
A.

You mean as -- could you -- I'm sorry,

Q.

Okay. I just wanted to -- can you

10

Commission to ensure that Milwaukee voters are

11

treated the same as other Wisconsin voters in terms

12

I don't understand the question. You mean how much

12

of the number of poll workers available to staff

13

do we -- how much time do we spend in our open

13

polling places?

14

meetings talking about Milwaukee? Is that what --

14

15

Q.

I wouldn't put it that way.
I'd say in your -- your work on the

16

A.

Well, in polling workers, that was the

15

initial excuse to not have many, but we ended up

16

with more and more. And I know personally some poll

17

Milwaukee Elections Commission, have you focused in

17

workers who were planning to work, but when they

18

particular on ensuring that Milwaukee voters are

18

heard that there were five places instead of the

19

treated the same as other Wisconsin voters?

19

normal 180, they were -- some with underlying health

20

conditions or whatever said, no, I'm not going to
work in that and I can't say that I blame them.

20

A.

No, and I wanted to -- I suggested

21

that we do an investigation in Green Bay and the

21

22

City of Milwaukee on the April elections and it was

22

The National Guard was actually

Page 142
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

a 3/3 split, the Republicans wanted the
investigation, the Democrats did not, the
commissioners.
Q. Have you conducted any independent
research relevant to ensuring that Milwaukee voters
are treated the same way as other Wisconsin voters?
A. No, I just -- you know, people talk to
me, give me comments, things along this line in
terms of the problems that they had on election day
and how disappointed they were that the system was
set up the way it was.
Q. So I'm just going to ask you a series
of quick questions here.
A. Sure.
Q. Can you identify any actions that
you've undertaken in your official role as a member
of the Elections Commission since the spring
election to ensure that Milwaukee voters are treated
the same way as other Wisconsin voters in terms of
the number of polling places that are open on
election day?
A. Well, I think it's been determined

Page 144
1

brought about and they provided tremendous help to

2

everybody. And I think the way it ended up there

3

were many more poll workers than were needed for

4

these five places. There was no excuse from the

5

beginning why they only needed five places in my

6

opinion.

7

Q.

Do you -- are you aware of any actions

8

that the Commission has taken specifically to

9

increase the number of poll workers available to

10
11

staff polling places in Milwaukee?
MR. BACH: Once again, Counsel, that's

12

not something that the Wisconsin Election

13

Commission is in charge of, has authority

14

over.

15

MR. MANES: I mean, I know that's your

16

position, but if the witness can answer the

17

question, please.

18

THE WITNESS: Yes, we did make

19

recommendations when the -- we were told that

20

they were short on poll workers. We -- as

21

you know, the way in Wisconsin that paid poll

22

workers are supposed to be gotten, so to

36 (Pages 141 to 144)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 402 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 37 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 145
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

speak, is by the political party. So it was
equal number of Republicans, equal number of
Democrats.
Republicans for some time had a policy
to recruit people to be paid poll workers and
it was my suggestion, I think we recommended
it to clerks along with the various groups,
church groups or masons or whatever, to
approach these people to see if we could get
more workers. And we, as a Republican party,
did provide more people to do that. The
Democratic Party was not interested in
participating in that.
And then, of course, we recommended
strongly that the National Guard be utilized
also to make sure that we would have more
poll workers. And I think at the end, it
appeared we had enough poll workers.
BY MR. MANES:
Q. Were any of the actions you just
described taken in your capacity as a member of the
Wisconsin Election Commission?

Page 147
1

Commission to ensure that Milwaukee voters are

2

treated the same way as other Wisconsin voters in

3

terms of their ability to obtain and cast absentee

4

votes by mail?

5

A.

Yes, we as a Commission allocated

6

money based on the number of registered voters or

7

the eligible citizenry to be voters in all the

8

municipalities. So we provided, I don't know the

9

precise amount of money, but a huge amount of money

10

to the City of Milwaukee to do this. Also, because

11

the City of Milwaukee does have a paid full-time

12

year-round election staff, I'm sure knowing what

13

they know now that they will get things going the

14

way they need to get going to process the ballots

15

efficiently. And I'm sure the mayor of Milwaukee

16

and city council is more than happy to provide

17

additional funds to make sure that the -- it goes

18

smoothly. But we as commissioners basically did

19

provide these funds to the City of Milwaukee.

20

Q.

Okay. I have about three minutes left

21

and then I'll turn it over to my colleagues from the

22

legislature. Last topic.

Page 146
1

A.

Page 148

Well, yes. We discussed and I

So are you aware that the City of

1

2

recommended and I'm sure the other commissioners

2

Milwaukee has the largest number of African-American

3

recommended that we provide the guidance that I just

3

voters in Wisconsin?

4

mentioned to all the clerks because we wanted to do

4

A.

Yes, I certainly am.

5

everything we possibly could to give them

5

Q.

And you're aware that a significant

6

suggestions in terms of how to get enough help. And

6

majority of black voters in Wisconsin live in the

7

also I know the staff of the Elections Commission is

7

City of Milwaukee; correct?

8

working very hard to try and get the National Guard

8

A.

Yes.

9

to participate and I think they made their official

9

Q.

Are you aware of any specific

10

determination the Wednesday before -- Tuesday night

10

challenges that black voters faced in the April 2020

11

or Wednesday before the election.

11

spring election?

12

Q.

One more question along the same

12

A.

Yes.
MR. BACH: Are you asking him in his

13

lines. Can you identify any actions that you've

13

14

undertaken in your official role on the Wisconsin

14

15

Elections Commission to ensure that Milwaukee voters

15

16

are treated the same as other Wisconsin voters in

16

17

terms of their opportunity to obtain and cast

17

Wisconsin Elections Commission, are you aware of

18

absentee ballots by mail?

18

any --

19

A.

20

Q.

21
22

capacity as -BY MR. MANES:
Q.

In your capacity as a member of the

I'm sorry, repeat your question.

19

A.

Yes.

Sure.

20

Q.

-- specific challenges?

21

A.

Yes, I am.

22

Q.

Can you briefly describe those

Can you identify any actions you've
taken in your official role on the Elections

37 (Pages 145 to 148)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 403 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 38 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.
Page 149

1
2

Page 151

specific challenges?
A.

Robert Spindell

A.

1

Well, one was the closing up on the

Well, you know, we're making -- we're

2

making it available. These three ways of -- making

3

Sunday -- and I can't remember what Sunday it was --

3

things available, City of Milwaukee determines

4

but a week or two prior to the -- or three weeks

4

whether or not they're going to make it extremely

5

prior to the election of the in-person absentee

5

difficult for Black voters to get to the polls, so I

6

voting. And especially the one on Capital Court

6

would think that from what I've read or heard that

7

area in the City of Milwaukee which is primarily

7

they're going to have a hundred plus, maybe even 150

8

utilized by our African-American population and

8

or so polling places open in the City of Milwaukee

9

throughout the elections always have the most people

9

for these upcoming elections. So I would suspect

voting there absentee. That was closed up. I'm not

10

that that will make things much easier for Black

quite sure why it was closed up. I was there voting

11

voters than trying to have to go long distances on

12

absentee, as I already said before, on Friday and

12

public transportation to stand in line for two hours

13

there was hardly anybody there. But in any case

13

and all this other good stuff. And I think that was

14

that was closed up.

14

a population that was really hurt by the -- by the

15

way the election was set up in April in Milwaukee.

10
11

15

Also, the -- I hear this both from the

Q.

Okay. And last question, or maybe

16

Democrats and the Blacks, that they do not typically

16

17

like mail-in voting, absentee ballots because

17

last couple questions, have you -- have you spoken

18

they're not sure that their ballot will be counted

18

with members of the Black community or the Latino

19

and, therefore, they love voting and -- if they like

19

community in Milwaukee about the voting challenges

20

the candidate, they love voting and they like to be

20

that they faced?

21

in-person absentee voting. So when you took the

21

22

absentee voting away, that caused many of these

22

A.

Of the actual people that have filed

challenges to -- to the City of Milwaukee or the

Page 150
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

lines to do it.
And when you reduce a lot of these
high schools that they used, two or three of them
were in the black area, and it provided more -- much
more difficult time for the African-American voters
to vote as well as other people. I hear a lot of
complaints from white people as well, Hispanics,
that these were problematic. And I think there's no
question, but it did by this -- by having these five
polling places greatly reduced the Black turnout.
That's just my estimate from what people tell me.
Q. And in your position as a member of
the Elections Commission, do you think it's
important to ensure that Black voters in Milwaukee
aren't treated any differently than other voters in
Milwaukee or elsewhere in the state?
A. Absolutely. And that's always been my
point of view, that they should be treated equally
or better.
Q. And do you agree -- do you agree that
they should -- it should be no harder for them to
vote than it is for white voters?

Page 152
1

complaints that are coming in, no, I have not

2

personally talked with any of those people about

3

that.

4

Q.

Okay.

5

A.

I know, you have my exhibit there,

6

they were deathly afraid that if they didn't tell me

7

about them that the Wisconsin Elections Commission

8

might not pay attention to them or not even follow

9

through. I think that was an unnecessary concern,

10

but that's a concern they -- they want their voices

11

heard, and I believe that their voices should be

12

heard.

13

Q.

And in your capacity as a member of

14

the Elections Commission, have you spoken with

15

any -- any other community leaders or

16

representatives of the Black community expressing

17

concerns about voting opportunities in Milwaukee?

18

A.

Yeah, I've had -- I've had

19

conversations with people that have called me up or

20

spoken to me. You know, obviously with the pandemic

21

the way it is, my being able to get around as I

22

normally get around in the Black community is

38 (Pages 149 to 152)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 404 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 39 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 153

Page 155
had with legislative leader and the Republican
party.

1

limited where I used to be a regular attendee at

1

2

brainstorming, which is the community leaders of

2

3

each -- every month and unfortunately that meeting

3

4

had to be canceled. I'm sure I would have had a lot

4

5

of -- a lot of feedback there or other events that I

5

6

might -- might have gone to.

6

had with the legislative leader and the Republican

7

party, did they ever direct the Wisconsin Election
Commission as to how to act at any point?

So it has been limited, but it's

7
8

pretty clear in the media and everything else from

8

9

what I hear, it was not -- you know, it was not --

9

Do you remember that?
A.

Yes.

Q.

However, in those communications you

A.

No.

Q.

Okay. Commissioner Spindell, at the

10

they were not treated -- the Black community was not

10

11

treated as they should have been, in my opinion.

11

end of the day, the Wisconsin Election Commission is

12

an independent body and makes its own

13

determinations; is that correct?

MR. MANES: That's all I've got for

12
13

now.

A.

Well, it's a bipartisan -- bipartisan

14

I understand that the legislature has

14

15

questions, brief questions, and if there's

15

organization that does make its -- by a floor vote,

16

time, we might need to just ask a couple to

16

makes its rulings.

17

clarify after that; but other than that, I'm

17

18

done.

18

determinations independent of any other body; is

19

that correct?

20

A.

Thank you very much, Mr. Spindell. I

19
20

really appreciate it.
THE WITNESS: Okay.

21
22

EXAMINATION

Q.

Okay. But it makes its own

Yes. Well, I don't know -- yeah, I

21

think you're basically right except the courts are

22

involved.

Page 154
1
2

Page 156

BY MR. BROWNE:
Q.

1

Mr. Spindell, good afternoon. My name

about an ad that was placed in the newspaper.

is Robert Browne, and I represent the Wisconsin

3

4

legislature in the case. I only have a few

4

5

questions for you today, and, again, echoing the

5

6

other parties, I appreciate your time today.

6

Commissioner Spindell, the Wisconsin

Okay. Commissioner Spindell, there

was also some discussion today you gave testimony

3

7

Q.

2

Do you remember that?
A.

Yes.

Q.

That ad that was placed in the

7

newspaper, that was done apart from and not

8

Election Commission is made up of multiple

8

involving the Wisconsin Elections Commission; is

9

commissioners; is that correct?

9

that correct?

10

A.

I'm sorry, you faded out --

10

11

Q.

Sorry.

11

The Wisconsin Election Commission is

12
13

made up of multiple commissioners; is that correct?

14

A.

15

Q.

16

A.

Yes.

Q.

And they had -- the Wisconsin Election

12

Commission had no -- no part in that ad; is that

13

correct?

Yes.

14

A.

That's correct.

In fact, it's six commissioners;

15

Q.

And, in fact, you put at the end of

right?

16

that ad that you were acting not as part of the

17

A.

Yes.

17

Wisconsin Election Commission and that the Wisconsin

18

Q.

And each commissioner has an

18

Election Commission did not have any part in that

19

ad; is that correct?

19

independent vote; is that correct?

20

A.

Yes.

20

21

Q.

Okay. Earlier, if you recall,

21

22

Mr. Devaney asked you about some communications you

22

A.

Yes.

Q.

Okay. And my last question,

Commissioner, there was some pictures shown to you

39 (Pages 153 to 156)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 405 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 40 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 157
1

involving some of the legislative leaders.

2

Do you remember that?

3

A.

Yes.

4

Q.

And counsel asked you about the

Page 159
1
2
3
4
5

5

protective equipment that was -- the individuals in

6

the picture were wearing.

6
7

Do you remember that?

7

8

8

A.

Uh-huh, yes.

9

Q.

Do you even have any idea whether that

10

equipment, the PPE, the personal protective

9
10

11

equipment, that the people in the photograph were

11

12

wearing was even provided by WEC, by the Wisconsin

13

Elections Commission?

14

A.

I have -- I have no idea if it was. A

15

lot of -- a lot of equipment was provided by the

16

local municipality and several of them provided

17

their own stuff and then we supplemented whatever we

18

could. But I would suspect that we probably did not

19

provide the wrap-around even though -- and I don't

20

know whose mask it was and gloves. No, I just don't

21

know.

22

MR. BROWNE: I have nothing further.

12
13
14
15
16
17
18
19
20
21
22

STATE OF NEW YORK
)
ss:
COUNTY OF WESTCHESTER

)

I, EILEEN MULVENNA, CSR/RMR/CRR,
Certified Court Reporter, Registered Merit Reporter,
Certified Realtime Reporter, and Notary Public in
and for the State of New York, do hereby certify:
That I reported the taking of the
deposition of the witness, ROBERT SPINDELL,
commencing on the 7th day of July, 2020, at the
hour of 11:04 a.m. (Central);
That prior to being examined, the witness
was duly sworn by me to testify to the truth, the
whole truth, and nothing but the truth;
That I thereafter transcribed my said
shorthand notes into typewriting and that the
typewritten transcript of said deposition is a
complete, true and accurate transcription of my
said shorthand notes taken down at said time.
I further certify that I am not a relative
or employee of an attorney or counsel of any of the
parties, nor a relative or employee of any attorney
or counsel involved in said action, nor a person
financially interested in the action.
IN WITNESS WHEREOF, I have hereunto
set my signature this 7th day of July, 2020.
_____________________________________
EILEEN MULVENNA, CSR/RMR/CRR

Page 158
1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19

Again, Commissioner Spindell, thank you for
your time.
MR. DEVANEY: This is John Devaney. I
mentioned before I might have a follow-up
question, I don't. I'm done as well.
Thanks, Commissioner Spindell.
MR. MANES: Likewise, I'm done.
THE WITNESS: So does that mean I am
done?
MR. MANES: I think you are, right on
time.
THE WITNESS: Thank you very much.
MR. DEVANEY: Dan, thanks for your
cooperation with this.
MR. BACH: Thank you, guys.
Appreciate it.
THE VIDEOGRAPHER: The time is
2:07 p.m. Central, and this concludes the
deposition of Robert Spindell, Jr.

Page 160
1

Robert Spindell, c/o

2

345 W. Washington Ave., Suite 201, P.O. Box 2965

LAWTON & CATES, S.C.
Madison, WI 53701
3
4

5

22

Deponent: Robert Spindell

6
7

Please be advised that the transcript in the above

8

referenced matter is now complete and ready for signature.

9

The deponent may come to this office to sign the transcript,

10

a copy may be purchased for the witness to review and sign,

11

or the deponent and/or counsel may waive the option of

12

signing. Please advise us of the option selected.

13

Please forward the errata sheet and the original signed

14

signature page to counsel noticing the deposition, noting the

15

applicable time period allowed for such by the governing

16

Rules of Procedure. If you have any questions, please do

17

not hesitate to call our office at (202)-232-0646.

18
19
20

Sincerely,
Digital Evidence Group

20
21

Case: Democratic National Committee v. Marge Bostlemann, et al.
Date of deposition: July 7, 2020

21

Copyright 2020 Digital Evidence Group
Copying is forbidden, including electronically, absent

22

express written consent.

40 (Pages 157 to 160)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 406 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 413 Filed: 07/08/20 Page 41 of 41
7/7/2020

Democratic National Committee v. Marge Bostlemann, et al.

Robert Spindell

Page 161
1

2

Digital Evidence Group, L.L.C.
1730 M Street, NW, Suite 812
Washington, D.C. 20036
(202) 232-0646

3
4

5

SIGNATURE PAGE
Case: Democratic National Committee v. Marge Bostlemann, et al.
Witness Name: Robert Spindell
Deposition Date: July 7, 2020

6
7

8

I do hereby acknowledge that I have read
and examined the foregoing pages
of the transcript of my deposition and that:

9
10

11

12

13

14

(Check appropriate box):
( ) The same is a true, correct and
complete transcription of the answers given by
me to the questions therein recorded.
( ) Except for the changes noted in the
attached Errata Sheet, the same is a true,
correct and complete transcription of the
answers given by me to the questions therein
recorded.

15
16
17

_____________
DATE

_________________________
WITNESS SIGNATURE

18
19
20
21
22

_____________
DATE

__________________________
NOTARY

Page 162
1

Digital Evidence Group, LLC

2

1730 M Street, NW, Suite 812

3

Washington, D.C. 20036

4

(202)232-0646

5

ERRATA SHEET

6
7
8
9

Case: Democratic National Committee v. Marge Bostlemann, et al.
Witness Name: Robert Spindell

10

Deposition Date: July 7, 2020

11

Page No. Line No.

Change

12
13
14
15
16
17
18
19
20
21

___________________________

22

Signature

_____________

Date

41 (Pages 161 to 162)
www.DigitalEvidenceGroup.com

Digital Evidence Group C'rt 2020

- App. 407 -

202-232-6046

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 1 of 11

Wisconsin Elections Commission
212 East Washington Avenue | Third Floor | P.O. Box 7984 | Madison, WI 53707-7984
(608) 266-8005 | elections@wi.gov | elections.wi.gov

_____________________________________________________________________________________________________

DATE:

For the April 18, 2020 Commission Meeting

TO:

Members, Wisconsin Elections Commission

FROM:

Meagan Wolfe, Administrator
Wisconsin Elections Commission

SUBJECT:

Summary of April 7, 2020 Election

The April 7 Presidential Preference and Spring Election was by all definitions unprecedented.
Wisconsin was the only state thus far to conduct a statewide election in the midst of a COVID-19
pandemic “stay at home” order. Wisconsin is also the most decentralized state for election
administration, meaning that 1,850 municipal election officials and 72 county election officials had to
adapt to significant changes from court rulings, public health guidance, and voter behavior shifts
towards vote by mail. This summary is a very high-level overview and only captures the major efforts
WEC staff responded to and implemented for the April 7, 2020 election. This summary does not account
for the many remarkable accomplishments and successes of Wisconsin’s local election officials all of
whom overcame unforeseen obstacles and ensured polls were open in each city, town, and village in the
state.
The summary identifies of areas of impact, provides a discussion of each, and outlines next steps related
to efforts and initiatives of WEC staff. The summary in each section will provide information on the
area of focus followed by discussion of some of the high-level lessons learned, and finally next steps for
improvements which WEC staff are working on for the remaining elections in the 2020 cycle.
Background
Ballots for the April 7, 2020 Spring election became available, by statute on February 20. Shortly
thereafter in-person absentee voting and voter registration within municipal clerk’s offices began. The
Governor issued his first executive order related to COVID-19 on March 12, well after the election had
already begun.
Election Preparations
This section describes undertakings prior to election day to support local election jurisdictions in their
preparations for election day.
Sanitation Supplies and Personal Protective Equipment (PPE)
Summary: Because of the nationwide shortage of sanitation supplies and PPE, local election officials
relayed to WEC in early March that they were unable to procure supplies needed for in-person voting.
Wisconsin Elections Commissioners
Dean Knudson, chair | Marge Bostelmann | Julie M. Glancey | Ann S. Jacobs | Robert Spindell | Mark L. Thomsen
_________________________________________________________________________________________________________
Administrator
- App. 408
Meagan
Wolfe

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 2 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 2

WEC staff then sent a survey to all local election officials asking them to detail their need for supplies to
support safe, in-person voting. The local election officials were able to work with their county health
departments and through their own procurement channels while WEC simultaneously looked for
opportunities to purchase supplies for distribution to local election officials. WEC experienced the same
difficulty in finding or procuring supplies either in the state or around the nation. A ticket for supplies
was also entered into the State Emergency Operations Center (SEOC) based on clerk needs. Ultimately,
WEC worked with SEOC and state procurement to send the supplies needed to all polling places in
Wisconsin. Wisconsin’s 72 county clerks played a key role in distributing supplies to more than 2,000
polling places. Supplies that were distributed include:










Over 8,000-liter bottles of liquid 70% ethyl alcohol solution that was used as a hand and surface
sanitizer. The solution was sourced from a local distillery as all other state and national supply
chain options were exhausted
Over 10,000 16oz plastic spray bottles and printed labels for the bottles for the liquid alcohol
solution
500,000 isopropyl alcohol wipes for use on voting equipment and electronic touchscreens.
Surgical masks for poll workers
Latex gloves for poll workers
1.5 million ballpoint pens so that each voter would have their own to sign the poll book and mark
their ballot
~2,000 rolls of painter’s tape to facilitate social distancing
10,000+ social distancing and public health signs

Discussion: The National Guard helped with the packaging and distribution of supplies from the
stockpile in Madison to regional facilities around the state. The counties then drove to the regional
facilities, or coordinated pick up in vehicles large enough, to bring the supplies back to the county office
for distribution to the municipalities and/or each polling place. WEC did not know until all the
individual procurements were complete and the distribution and packaging was complete how many of
each supply would be provided to each polling place. Some of the items were found by the SEOC in the
day before distribution so the exact make up of the supplies were unknown until they arrived at the
polls. Jurisdictions reported having adequate supplies for election day to accomplish practices
prescribed in elections specific public health guidance. Voters have also reported to our office that they
felt safe in polling places and that there were adequate sanitation supplies. Some jurisdictions reported
having excess supplies which we are now in the process of redistributing to the 7th Congressional
District for their May 12 election.
Next Steps: With the benefit of time that was not available before the April 7 election, WEC staff can
begin to assist jurisdictions with finding the needed supplies for the August and November statewide
elections. State and local election officials will be able to better gauge the amount of supplies they may
need, based on their experience in April. WEC staff is also hopeful that with additional time, there will
be the opportunity to procure more traditional sanitation supplies and to provide them to the jurisdictions

- App. 409 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 3 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 3

well in advance of the election so that they have time to incorporate the supplies fully into their election
day plans and pre-election in-person processes.
WisVote Database
Summary: The WisVote database is the system used by almost 3,000 local election officials to
administer elections. While WisVote and the WEC do not issue ballots, the clerks use WisVote to
record when they send and receive absentee ballots, to enter voter registrations, and to record voter
participation. The system was built by the WEC team and launched in 2016. The system was built
based on the way Wisconsin conducts elections, which involves mostly voting in-person at the polls and
registering to vote at the polls on election day. By mail voting and registration options are certainly
accounted for in the system, but most municipalities had never received a large volume of absentee
requests for a specific election prior to this election. Clerk activity in WisVote prior to the election was
much higher than any prior election because clerks were all entering and issuing record numbers of
absentee requests at the same time. The system performed very well but required round the clock
monitoring and auditing to handle this unique and unprecedented user behavior and traffic.
Discussion: The system required a number of updates to accommodate extended deadlines for absentee
requests and online voter registration. These extensions meant changing automation in the system to
assign voter records and requests to new deadlines and elections. WEC staff also monitored capacity of
the system to ensure memory space. Multiple increases of memory were needed to keep pace with
absentee requests and attached photo ID’s. WEC staff also created two significant new processes to
assist local election officials with the new volume of absentee requests. One change was to create an
absentee ballot request report that documents when a voter submits a request that includes a photo ID.
This change was significant because it allowed WisVote to capture and store photo files of photo ID.
This process is usually completed by email. Photo files are very large, therefore the storage and
capacity in WisVote had to be significantly adjusted. WEC staff also created “poll book” reports or
pages so that jurisdictions with consolidated polling places could use the WisVote system to check in
voters, produce and print an individual poll book page for them, and record new registrations and
participation in real time on election day. Again, these were not processes that had been conceptualized
previously and required significant development and testing.
Next Steps: With additional time, WEC staff will be able to work with local election officials to build
additional absentee by mail functionalities. These features will include a new module in the system for
“pending” absentee requests which will dramatically reduce any manual data entry and can be entered
into the system by the clerk approving the request information and the photo ID. Also, WEC staff will
continue to explore the use of WisVote at the polls on election day. Again, this process can save
jurisdictions significant time when using consolidated polling places. The WisVote poll book report
ensures voters are given the correct ballot and requires no additional data entry needed after election
day. However, security and other risk factors will need to be considered to ensure the correct balance of
security and efficiency exists. Additional changes to WisVote to accommodate a higher volume of
absentee by mail are outlined in the CARES Act grant memo.

- App. 410 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 4 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 4

MyVote Website
Summary: MyVote is the public facing website where voters can interact with their records and their
data in the WisVote system. On the MyVote website, voters can request an absentee ballot, track when
their ballot was sent and received by their clerk, register to vote online, find their polling place, view a
sample ballot, view their voting history, and more. The site was built by WEC staff with extensive
usability studies conducted with hundreds of voters to learn how they use the site. Based on historical
data, most voters went to MyVote to find their polling place or to view a sample ballot. Site analytics
show this to be true in February 2020, where traffic to the polling place look up tool reached a new
record high. Features like requesting an absentee ballot were previously used by voters, but never at the
rate they were utilized in the lead up to the April 2020 election. Deadlines for online voter registration
and for absentee requests were extended multiple times by court actions prior to this election and
deadlines for ballots to be returned and witness requirements were also changed. Deadlines and dates
are all currently hardcoded in the MyVote system and in the data exchange with the WisVote database.
Therefore, each change required extensive development and testing to avoid unintended consequences.
WEC staff also engaged in extensive load testing prior to the election and up to election day to ensure
that the site could handle record breaking traffic. Increasing capacity as it was needed required around
the clock monitoring of the site. Certainly there were unique challenges and obstacles for some voters at
the election, but the work of WEC program and IT staff in maintaining and modifying MyVote, as well
as the performance of the website itself, was a key factor in accommodating a significant level of voter
turnout, second only to the record turnout for the 2016 Spring Election and Presidential Primary.
Discussion: Usability has always been a foundational principle for WEC staff and is a critical part of
website development to make sure that voters are able to navigate the site successfully. Because
changes to workflows and deadlines had to be made very quickly and because of the prohibitions on
gatherings where usability sessions are usually conducted, WEC staff was unable to usability test most
changes prior to implementation. There was also the need for more messaging on the site for emergency
notices than had ever been needed before. Load testing is also a critical component to success and,
fortunately, WEC staff was able to adjust load testing plans to accommodate the extremely high volume
of site traffic coupled with new user behavior and needs.
Next Steps: WEC plans to conduct extensive usability studies on the MyVote site to account for new
voter behavior patterns. Traditionally, voters used the site to facilitate in-person voting. New voter
needs drive traffic to the site for all electronic and by-mail transactions. WEC staff will work to
augment voter workflows for online voter registration and absentee ballot requests. With the increased
demand on by-mail voting there is also an increased need for voters to have transparency into the
process. Voters have expressed a strong desire to be able to track their absentee ballots like they would
any other important package. Utilizing the CARES Act grant, WEC staff hopes to incorporate
intelligent mail barcodes into the absentee process and incorporate that information into the MyVote
system. WEC staff will also be conducting usability tests on site messaging to ensure voters see and can
understand important notices if they are needed in future emergencies.

- App. 411 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 5 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 5

Envelopes and Postage
Summary: In all previous elections, the majority of Wisconsin voters cast their ballots in-person at the
polls on election day. Some voters typically cast an in-person absentee ballot but less than 10% of
voters typically vote using an absentee ballot by mail. In the April 7, 2020 election more than 80% of
voters who participated did so by casting an absentee ballot by mail. Unofficial and incomplete data
indicate the total absentee voting, including in-person absentee voting, ballooned to 1.27 million
absentee ballots being issued by municipal clerks. Clerks had already purchased absentee ballots and
absentee ballot envelopes based on historic need. Therefore, clerks had only prepared and budgeted for
10-15% absentee by mail, including costs for by mail ballot envelopes and required postage. This
significant and unplanned shift meant that clerks quickly ran out of the required outer “election mail”
transmission envelopes, and the return “certificate” envelopes required by statute for the absentee
process. Further, shortages in the paper supply chain were reported by local election officials meaning
they were unable to purchase additional supplies. WEC staff was able to work with paper and print
vendors in the state to source enough paper stock and have envelopes printed. The SEOC also played a
key role in the procurement and distribution of the envelopes to municipalities.
Discussion: The current envelope process is very reliant on specific paper stock and experienced print
vendors to be able to meet the USPS approved standards. Other states who vote primarily by mail have
a simplified return envelope with an inner security or certificate envelope. This process requires clerks
to use three envelopes but makes the process much less reliant on specific stock and printers. Budgets in
local election offices should also be considered, when changes to the by mail process are developed.
Current law and processes will require jurisdictions to cover significant increases in vote by mail costs
while still maintaining the need to expend the same amount of funds historically spent on polling places
and in-person voting processes.
Next Steps: As outlined in the CARES Act grant memo, WEC staff is exploring ways to absorb
unbudgeted postage and envelope costs using federal grant funds. WEC staff is also exploring new
designs and options for absentee envelopes that may be more readily available and allow for less
dependence on specific stock and experienced print vendors. Furthermore, the envelope redesign will
allow WEC staff to work with local election officials on developing a usable, efficient absentee
certificate and envelope process that can be used for the August and November 2020 elections.
Poll Workers
Summary: In a large election there are between 20,000-30,000 poll workers needed statewide. With the
COVID-19 crisis, many poll workers in a more vulnerable health demographic were unable to serve in
that role for the April 7 election. In recent statewide surveys, it has been reported that the majority of
poll workers are over the age of 60. Many are also over the age of 70 or 80. At the start of the crisis,
clerks began reporting to WEC they had a shortage of poll workers and that many clerks were unable to
serve in-person processes because they were also in a vulnerable demographic. WEC then sent a survey
to all municipal clerks asking them to identify their poll worker shortages. Based on the survey,
municipalities reported a shortage of more than 7,000 poll workers. 111 jurisdictions described their
shortages as critical, defined as not being able to staff any polling places. 126 jurisdictions described

- App. 412 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 6 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 6

their need as severe, meaning they could not fully staff all polling places. Based on this need, WEC
immediately put in a ticket for poll worker personnel at the SEOC.
Discussion: Because clerks need time to train poll workers, WEC immediately urged state decision
makers to exercise authority to assign state personnel as poll workers to fill critical gaps. WEC staff
also put out numerous press releases and held press events to encourage Wisconsinites who were able to
serve as poll workers. Recruitment materials were also created for local election officials including draft
press releases and draft recruitment letters that clerks could send to other municipal and county
employees, school districts, and private industry. WEC also created a “become a poll worker” feature
on the MyVote website where residents could contact their clerk to become a poll worker. This new
feature was used by local election officials and by partners of the SEOC such as the United Way for
recruitment efforts. Municipal clerks have a statutory role to train poll workers and historically WEC
has not produced or prescribed poll worker training. Because of the anticipation of new, first time poll
workers, WEC staff quickly produced a full curriculum of online, video-based poll worker training that
local jurisdictions could use to train new poll workers remotely with limited notice. Ultimately in the
days prior to the election the Governor authorized the National Guard to serve in plain clothes as citizen
poll workers in their home communities. That process is described in a section below. State employees
were also encouraged to volunteer in their local communities as poll workers.
Next Steps: As with all initiatives relevant to the April 7 election, time was very limited. Ideally, poll
workers should be recruited and trained months before a major election. In preparation for the August
and November elections WEC will continue to provide recruitment tools to local officials and work with
state partners to recruit poll workers well in advance of the election. WEC staff will also continue to
refine the training program for poll workers so that it can be used by local election officials to train new
poll workers remotely. The exposure of National Guard members and other individuals to the election
process may serve as a catalyst to increasing the pool of poll workers for future elections.
Guidance and Communications for Clerks
Summary: In every election communicating to 1,850 local election officials and 72 counties can be a
challenge. Because of the unprecedented health crisis and continual changes resulting from court
decisions communication with WEC local election partners was critical leading up to the April 7
election. Throughout the process, the deadlines for absentee voting and voter registration changed. The
requirements for witness signatures and absentee ballot return deadlines and terms changed multiple
times, requiring WEC staff to communicate new changes which occurred within 24 hours. All
traditional in-person voting practices had to be re-visited and re-constructed in light of the COVID-19
crisis. Between March 12 and April 7 WEC staff sent more than 50 communications and guidance
documents to clerks. In the weeks prior to a typical election WEC staff, in keeping with a
communications policy developed with the clerks, send an average of 10 communications and attempt to
avoid issuing new communications to clerks within the week prior to the election. Many of the
communications created were developed with a public health official assigned to our agency for a very
brief time to review documents from a public health prospective. WEC staff created more than 20
election specific public health documents, an entirely new perspective for the agency, using the high

- App. 413 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 7 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 7

level guidance provided by the public health official which can be found here
https://elections.wi.gov/covid-19. WEC staff also held numerous webinars in the weeks leading to the
election to present this guidance and answer clerk questions. Many webinars were held live up to three
times in a day so that clerks would all have training opportunities that met their schedule.
Discussion: WEC staff received very positive responses from our local election partners about the
communications during this crisis. While the volume of information was difficult to keep pace with, all
matters communicated were of a critical nature. The recently instituted RAVE alert system was also
used on multiple occasions to alert clerks on their phone and emails if there was a critical
communication that needed their attention. Opportunities to provide information during live webinars
were also an important option. While the recordings of the webinars were also posted, live webinars, at
various times throughout the day allowed clerks to be able to directly participate and ask questions. The
WEC was assigned a public health official to help structure guidance for only 24 hours in the week
before the election. A more extended time period may have allowed for more consolidated guidance to
be produced at the beginning of the planning process.
Next Steps: WEC staff will continue to work to develop training materials for local election officials on
how to incorporate public health practices into election processes. With additional time before the
August and November election, the guidance can be woven into existing training programs. Additional
time will also allow clerks to continually train poll workers on these practices. WEC staff will also
continue to work with clerks to fine tune communications protocols based on the April 7 experience to
ensure that the most useful information is being brought to their attention at the correct time.
Election Day Summary
On Election Day, April 7, 2020 polling places in all 1850 jurisdictions opened and issued ballots to their
voters. While in-person turnout made up less than 20% of voters who participated, the effort on the part
of local election officials to ensure polling places in every community were able to operate was
remarkable.
Polling Place Consolidation
Summary: Some jurisdictions chose to consolidate their polling places, a process by which multiple
wards are combined into the same polling place. In 2020, jurisdictions reported consolidation was
required due to the unknown in-person turnout and shortage of poll workers. Other jurisdictions
consolidated because their original polling places became unavailable due to the evolving health crisis.
WEC issued guidance to jurisdictions regarding consolidation and ensuring that the correct ballots were
issued to the correct voter and on using the newly developed WisVote process to check in voters and
print individual poll book pages. In larger jurisdictions that chose significant consolidations, long voter
lines were reported throughout election day.
Discussion: In most elections, polling place consolidations and location changes occur at least 30 days
before an election. This allows time to provide notice to voters. There are also emergency provisions in
the law to change polling places on election day. Because of the evolving health crisis and other factors

- App. 414 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 8 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 8

jurisdictions made changes to their election day polling place plans after March 7. The first COVID-19
executive order was issued on March 11 changing many jurisdictions’ election day plans. The
Commission’s decision to authorize municipal clerks to consolidate or relocate polling places within 30
days of the election greatly simplified this process.
Next Steps: With the experience of April 7, WEC hopes to help create data models and reports that
municipalities can use in determining polling place locations. Data models could include looking at
historical turnout for wards in relationship to geographical information to inform consolidation
decisions. It remains to be seen whether the in-person voting rate will reflect the numbers seen in April
2020 or if new patterns of voter behavior will emerge depending on the evolving public health crisis and
voter’s new exposure to absentee by mail. WEC also anticipates providing additional guidance on the
statutory process for moving polling places and providing notice. Additional work will also be done to
explore expanded use of WisVote by consolidated jurisdictions. In consolidated jurisdictions using
WisVote or Badger Book electronic poll books, there were no reports of voters receiving the wrong
ballot. These tools also ensure new voter registrations are assigned to the correct districts and wards in
real time.
National Guard as Poll Workers
Summary: Starting in March and with the emerging crisis WEC staff worked with local election officials
to understand their need for poll workers, as is outlined above. WEC put in a ticket at the SEOC and
had had many conversations about the need for poll worker personnel including the possibility of using
the Wisconsin National Guard (WING). On April 2, 2020 WEC was notified that the National Guard
would be activated to serve as poll workers in their local counties of residence. On that same day, WEC
staff began working with municipal and county election officials to ensure their previous requests for
personnel were still accurate. On Friday, April 4 WING put out a call for Service Members (SM) to
serve as poll workers in their county of residence. On Saturday, April 5 WEC and WING personnel
held a conference call with all 72 county clerks and large municipalities to discuss deployment plans.
WEC staff also continued to develop online poll worker and election public health training for the SM to
complete. Nearly 2,500 Wisconsin National Guard Service Members were put on active duty on April
6 to begin the intake and health screening process. On the afternoon of April 6, the SM completed the
WEC-created training on poll worker duties, voter registration, chief inspector training, and election
public health training. On Monday, April 6 the requested number of SM reported to county clerks to be
deployed to municipalities in need to do polling place specific training. In some counties, there was a
reserve number of SM who stayed with the County on Monday for additional training and to be on
standby in case there were un-forecasted shortages on Election Day. The WING service members
served in regular poll worker roles, in plain clothes and most in their home municipality or county of
residence.
Discussion: Municipalities who used WING personnel report the experience as a very positive one that
helped them to be successful on election day. Many jurisdictions are hopeful that the service members
will continue to serve as volunteer poll workers in their home communities in the future. Some
jurisdictions stated that additional time would have been useful to know how many service members

- App. 415 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 9 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 9

would be assigned to them sooner. Jurisdictions also expressed that it would have been helpful to train
the service members earlier in the process. Only the Governor has the authority to activate the state’s
National Guard. Once the order was made and the call was made by WING for volunteers, WING was
able to provide the number of requested volunteers in each county to WEC and subsequently to county
and municipal election officials. Municipal, county and state election officials all wish to express their
gratitude for the WING personnel who served their community on election day. The National Guard
organized and facilitated its largest ever statewide activation but its Service Members served in the
capacity of civilian poll workers under the supervision of municipal clerks and chief election inspectors.
Next Steps: WEC will continue to work with local election officials to identify poll worker shortages for
the remaining 2020 elections. WEC has already conducted a survey with clerks in the 7th Congressional
District. Currently jurisdictions in that area are citing a shortage of fewer than 30 poll workers, as
compared to over 500 SM who served as poll workers for the Spring Election in those jurisdictions.
WEC will continue to survey jurisdictions through this year and maintain a ticket for personnel with the
SEOC. WEC will also continue to develop and augment training that can be used for last minute poll
worker certification and training.
Post-Election Summary
There were additional election related changes that applied to the week following election day which
required continued effort on the part of local election officials and support by WEC. Some of the main
areas of focus include:
Postmarks and Postal Issues
Summary: As was previously mentioned, in previous elections less than 10% of voters cast their ballot
using a by-mail absentee ballot. The current law also says that all absentee ballots must be received by
8:00pm on Election Day to be counted, there are no postmark requirements or exceptions for late
arriving ballots in the law. Multiple Court actions prior to April 7 resulted in a requirement that by mail
ballots must either be received by 8:00 pm on election day or be postmarked no later than April 7 and
returned to the clerk by April 13th to be counted. Starting on April 8, municipalities began reporting
irregular or illegible postmarks on ballot return envelopes. Some voters also reported not receiving their
absentee ballots by Election Day. Some voters had been issued ballots more than 10 days prior to the
election but never received them. WEC asked clerks to report their postmark and mailing issues to the
USPS and the WEC.
Discussion: WEC worked with local election officials to understand and collect postmark examples and
postal issues. WEC then worked with USPS personnel at the local, state, regional, and national level to
get information about the postmark process. Ultimately, USPS provided information that each postal
branch made best attempts to postmark ballots on election day, but in the case of missing or illegible
postmarks there was no way to determine what date the ballot was marked. WEC staff also sent a letter
to local, state, regional, and national USPS representatives asking for them to provide additional
information on ballots that were not received and on outgoing ballots that were returned to
municipalities without explanation. A response has not yet been received.

- App. 416 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 10 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 10

Next Steps: As outlined in the WEC staff memo on the 2020 CARES Act grant, WEC staff hopes to use
the federal funds to build Intelligent barcodes into the absentee ballot system. Barcodes will allow
voters and clerks to track their ballot through the entire process. It will also provide very important
information about if and when ballots are received by voters. The current WisVote process and tracker
on MyVote relies on the data that each clerk enters into the system regarding when they send the ballot
and when they receive the voted ballot back. Barcodes would also provide a definitive answer of when
each ballot was received by the postal service, voter, and clerk should postmarks ever be part of the
process in future elections.
Results Reporting
Summary: Under current state law, on election night municipalities produce an unofficial results set,
which they send to county election officials. The county election official then posts the unofficial
results, by municipality and reporting unit on the county website. The Associated Press and other media
outlets then aggregate the unofficial results that the public sees on election night. The results are then
certified through the canvass process at the municipal, county, and state level before the results are
official- usually a month after the election. Court decisions in the days prior to the April election barred
local election officials from creating an official tally of results or releasing the unofficial results to the
public until 4 pm on April 13th.
Discussion: To accommodate the new procedure, the WEC created new guidance for local election
officials to ensure that jurisdictions could suspend voting equipment as open between Election Day and
April 13th without producing a results set. Security procedures and chain of custody procedures were
also put into place. On election night WEC sent a RAVE alert to all local election officials reminding
them that it would be a violation of the court order to release the unofficial results before 4 pm on April
13th.
Next Steps: The extended tally period allowed WEC and local election officials to see the benefit of
being able to carefully process ballots and results sets without the pressure of an end-of-the-night
deadline. While the extended period was only ordered by the court for the April 7 election, it helps to
reinforce the message that accurate and secure elections and tallies take time to produce. Lessons
learned from the extended period will also be applied to future guidance and updates to results reporting
systems and reports used by local election officials.
Conclusion
The Wisconsin Elections Commission spent significant time and attention over the past 3 years focusing
on election security challenges related to foreign interference in campaigns and elections. While that
effort sharpened the ability of the WEC and local election officials to develop contingency plans and
train for adjusting to fast-moving developments, the rapid onset of the COVID-19 worldwide pandemic
quickly and dramatically shifted the focus of emergency planning and responses. Two months prior to
the election there were only emerging hints of the impact of the public health impacts on the election.
One month before the election it was considered unlikely that over one million absentee ballots would
be issued. One week before the election there was no guarantee that all polling places in Wisconsin

- App. 417 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 11 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 11

would be adequately staffed. The normal intensive work of both the WEC and local election officials
prior to an election were impacted significantly, swiftly and repeatedly by circumstances beyond our
control. Multiple lawsuits and court decisions required frequent Commission meetings and decisions
and adjustments by election officials and voters.
Throughout the public health crisis and election preparations, the WEC staff and clerks overcame
numerous challenges in order to serve Wisconsin voters, recognizing their roles as administrators of an
election with parameters and characteristics beyond their control. This report reflects an initial attempt
to document the issues which arose, steps taken to address those issues, and lessons learned to improve
future processes. This report should also acknowledge that the changes and additional responsibilities
needed due to COVID-19 were in addition to the high volume of work it normally takes all Wisconsin
election officials to conduct a statewide election. As with each initiative of the WEC and local election
officials, the ultimate focus is on the experience of each individual voter and their ability and
opportunities to participate in democracy.
While the election was certainly imperfect in some respects, there can be no doubt that WEC staff and
its many partners made extraordinary efforts to assist in the administration of the Spring Election and
Presidential Primary. County and municipal clerks across the state showed amazing flexibility and
dedication to ensure resources could be used in the most efficient manner, while considering the health
and safety and voters and election officials. The WEC appreciates the assistance and cooperation of its
partner agencies at the federal and state levels, the Wisconsin National Guard and State Emergency
Operations Center, county and municipal clerks, poll workers and voters who made the election a reality
in the face of uncertainty. With these partners the WEC will continue to evaluate lessons learned and to
research and implement additional measures to improve the administration of future elections.

- App. 418 -

Case: 3:20-cv-00249-wmc Document #: 458-21 Filed: 07/21/20 Page 1 of 3

EXHIBIT 21

108913552

- App. 419 -

Special Teleconference Meeting | Wisconsin Elections Commission
Page 1 of 2
Case: 3:20-cv-00249-wmc Document #: 458-21 Filed: 07/21/20 Page 2 of 3

WISCONSIN ELECTIONS COMMISSION
Administering Wisconsin's Election Laws

Home »Node

Special Teleconference Meeting
Time: April 18, 2020 - 1:30pm
Location:
Due to the COVID-19 pandemic, this meeting is being held via teleconference only. Members of the public and media
may attend by telephone. Please see the online meeting and call-in information below. All public participants’
phones/microphones will be muted during the meeting. Members of the public wishing to communicate to the
Commissioners should email elections@wi.gov with “Message to Commissioners” in the subject line. Those messages
will be provided to the Commission members.
Commission Meeting

Meeting Recordings:
https://atttrials.zoom.us/rec/share/vpx2KKnMzV9LY4nnzBn9ZaV9ONnfeaa81yRLqadZyEvJ0LGiNFl5m2JdLzuO5e_Q
https://wiseye.org/2020/04/18/wisconsin-elections-commission-special-teleconference-meeting-3/

AGENDA – OPEN AND CLOSED SESSION
A. Call to Order
B. Administrator’s Report of Appropriate Meeting Notice
C. Discussion of April 7 Spring Election and Presidential Preference Primary
D. Discussion of Milwaukee and Green Bay Polling Place Consolidation
E. Discussion of Zignego litigation
F. Discussion of federal CARE grant
G. Closed Session
1. Litigation Update - 19.85 (1) (g) The Commission may confer with legal counsel concerning litigation strategy.
H. Adjourn
The Elections Commission will convene in open session but may move to closed session under Wis. Stat. § 19.851. This
meeting is not noticed for the Commission to return to open session following the closed session.
Attachment

Size

Agenda-Open-Closed Meeting Notice 4-18-2020.pdf 111.82 KB

- App. 420 https://elections.wi.gov/node/6857

7/17/2020

Special Teleconference Meeting | Wisconsin Elections Commission
Page 2 of 2
Case: 3:20-cv-00249-wmc Document #: 458-21 Filed: 07/21/20 Page 3 of 3

Attachment

Size

April 7 Election Summary and Next Steps.pdf

168.94 KB

Ballot Data as of April 17 2020.pdf

63.64 KB

ERIC Data as of April 17 2020.pdf

67.13 KB

CARES ACT.pdf

151 KB

CARES Act Disbursement Req ltr.pdf

90.78 KB

Wisconsin Elections Commission | 212 East Washington Avenue, Third Floor P.O. Box 7984 | Madison, Wisconsin 537077984
tele (608) 266-8005 | fax (608) 267-0500 | tty 1-800-947-3529 | e-mail elections@wi.gov
Toll-Free Voter Help Line: 1-866-VOTE-WIS

- App. 421 https://elections.wi.gov/node/6857

7/17/2020

Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 1 of 7

EXHIBIT 22

108913552

- App. 422 -

CORRECTED Polling Place Listing for April 7 | City of Mad
Page 1 of 6
Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 2 of 7

Coronavirus (COVID-19)
City Services (/coronavirus)
Public Health (https://www.publichealthmdc.com/coronavirus)
Get Alerts (/health-safety/coronavirus/updates)
Español (/es/health-safety/coronavirus)

Hmoob (/hmn/health-safety/coronavirus)

Home (/) / News & Updates (/news) / CORRECTED Polling Place Listing for April 7

CORRECTED Polling Place Listing for April
7
Wednesday, April 1, 2020 - 10:16am
The City of Madison has changed many polling locations due to COVID-19. Below is a
list of all polling places for the April 7 Spring Election and Presidential Preference
Primary.
City of Madison voters are also able to use the polling place data map created by the
City of Madison Planning Division. The map can be found at https://bit.ly/3dIjOTJ 
(https://bit.ly/3dIjOTJ).
All polling places have also been updated on the MyVote Wisconsin website. By
visiting myvote.wi.gov  (http://myvote.wi.gov), voters can confirm their polling
place and view a sample ballot.
1

Fire Station #14 3201 Dairy Drive

2, 123
Glendale Elementary, 1201 Tompkins Drive
3, 4, 7
City Church, 4909 E Buckeye Road
5, 6, 9, 128, 130, 132, 133 Elvehjem Elementary, 5106 Academy Drive
- App. 423 https://www.cityofmadison.com/news/corrected-polling-place-listing-for-april-7

7/17/2020

CORRECTED Polling Place Listing for April 7 | City of Mad
Page 2 of 6
Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 3 of 7

8, 129, 131, 134
Fire Station #13, 6350 Town Center Drive
10, 11, 17 Kennedy Elementary, 221 Meadowlark Drive
12
New Beginnings Church, 602 Acewood Boulevard
3, 14
LaFollette High School, 700 Pflaum Road
15
YMCA, 711 Cottage Grove Rd
16, 24, 142 Whitehorse Middle School, 218 Schenk Street
18, 21
Hy-Vee, 3801 E Washington Avenue
19, 20
East Madison Community Center, 8 Straubel Court
22, 136, 39 Hawthorne Library, 2707 E Washington Ave
23
Fire Station #11, 4011 Morgan Way
25, 26, 126, 145
Sandburg Elementary, 4114 Donald Drive
27, 28, 29 East High School, 2222 E Washington Ave
30
Sherman Middle School, 1610 Ruskin Street
31, 32
Lakeview Library, 2845 N Sherman Ave
33, 34, 152 Warner Park Shelter, 1625 Northport Drive
35, 36
Mendota Elementary, 4002 School Road
37
Lindbergh Elementary, 4500 Kennedy Road
38, 112, 118, 135
Blackhawk Middle School, 1402 Wyoming Way
40
Olbrich Gardens, 3330 Atwood Ave
41
OʼKeeffe Middle School, 510 S Thornton Ave
42
Wil-Mar Neighborhood Center, 504 S. Brearly Street
43, 52
Madison Municipal Building, 215 MLK Jr Blvd
44
Tenney Park Pavilion, 402 N Thornton Avenue
45
Lapham Elementary, 1045 E Dayton Street
46
Gates of Heaven, 302 E Gorham Street
49, 50
Madison Senior Center, 330 W Mifflin Street
51, 53
Central Library, 201 W Mifflin Street
54, 67
UW Welcome Center, 21 N Park Street
55, 58
Union South, 1308 W Dayton Street
56, 66
Union South – Room 2, 1308 W Dayton Street
47, 48, 57 UW Memorial Library, 728 State Street
59, 60
Eagle Heights Community Center, 611 Eagle Hts
61, 63
West High School, 30 Ash Street

- App. 424 https://www.cityofmadison.com/news/corrected-polling-place-listing-for-april-7

7/17/2020

CORRECTED Polling Place Listing for April 7 | City of Mad
Page 3 of 6
Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 4 of 7

62, 68
Trinity United Methodist Church. 1123 Vilas Avenue
64
Hoyt School, 3802 Regent Street
65
Wingra School, 718 Gilmore St
69, 72
Catholic Multicultural Center, 1862 Beld Street
70, 113
Bridge – Lake Point – Waunona, 1917 Lake Point Dr
71, 139, 146
Badger Rock Neighborhood Center, 501 E Badger Road
73
Village on Park, 2300 S Park Street
74, 75
Leopold Elementary, 2602 Post Road
76, 78
Thoreau Elementary, 3870 Nakoma Road
77, 93, 94 Toki Middle School, 5606 Russett Road
79
Sequoya Library, 4340 Tokay Blvd
80, 81
Midvale Elementary, 502 Caromar Drive
82
Midtown Police District, 4020 Mineral Point Road
83
Covenant Presbyterian Church, 326 S Segoe Road
84
Mount Olive Lutheran Church, 110 N Whitney Way
85
Wellspring United Methodist, 5702 South Hill Drive
86
Asbury United Methodist, 6101 University Avenue
87, 89
John Muir Elementary School, 6602 Inner Drive
88
Alicia Ashman Library, 733 N High Point Road
90, 104, 117, 141, 91 Falk Elementary, 6323 Woodington Way
92, 95, 97, 148
Meadowridge Library, 5726 Raymond Road
96, 99, 98, 144
Chavez Elementary, 3502 Maple Grove Drive
100, 101, 102, 119, 121 Elver Park Shelter, 1250 McKenna Boulevard
103, 114, 115, 116
West Police District, 1710 McKenna Boulevard
105, 107, 127, 150
Fire Station #12, 400 South Point Road
106, 125, 137, 140, 147, 151, 111, 122, 124, 138, 143
Blackhawk Church, 9620
Brader Wy
108, 149
Lussier Community Education Center, 55 S Gammon Rd
109
High Point Church, 7702 Old Sauk Road
110, 120
Attic Angel Association, 640 Junction Rd

Contacts
- App. 425 https://www.cityofmadison.com/news/corrected-polling-place-listing-for-april-7

7/17/2020

CORRECTED Polling Place Listing for April 7 | City of Mad
Page 4 of 6
Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 5 of 7

• Maribeth Witzel-Behl, (608) 266-4601, clerk@cityofmadison.com
(mailto:clerk@cityofmadison.com)

 Agency: Clerk's Office (/clerk)
 Category: City Hall (/city-hall)
 Tags: COVID-19 (/tags/covid-19)
Share
Was this page helpful to you? * required

Yes

No

Why or why not?

SUBMIT

City-County Building
210 Martin Luther King Jr. Blvd
Madison, WI 53703
Madison Municipal Building
215 Martin Luther King Jr. Blvd
Madison, WI 53703
Monday – Friday, 8:00 am – 4:30 pm
WI Relay Service (/civil-rights/programs/disability-rights-services-program/assistivecommunication/wisconsin-relay)

Connect with Us

- App. 426 https://www.cityofmadison.com/news/corrected-polling-place-listing-for-april-7

7/17/2020

CORRECTED Polling Place Listing for April 7 | City of Mad
Page 5 of 6
Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 6 of 7

(https://www.facebook.com/cityofmadison)

(http://twitter.com/cityofmadison)

(https://www.instagram.com/cityofmadisonwi)
(https://www.youtube.com/cityofmadison)

(https://my.cityofmadison.com)

Contact Directory (/contact)
Report a Problem (/reportaproblem)
All Social Media (/outreach)

Services
Make a Payment (/epayment)
Apply for a Job (/jobs)
Property Lookup (/assessor/property)
Refuse & Recycling (https://www.cityofmadison.com/streets/refuse/collectionlookup.cfm)
Metro Transit (/metro)
Parking Garages & Lots (/parking-utility/garages-lots)

City Hall
Mayor's Office (/mayor)
Common Council (/council)
Meeting Schedule (/clerk/meeting-schedule)

2020 Census  (https://my2020census.gov/)
Complete your form to help shape our city's future!

- App. 427 https://www.cityofmadison.com/news/corrected-polling-place-listing-for-april-7

7/17/2020

CORRECTED Polling Place Listing for April 7 | City of Mad
Page 6 of 6
Case: 3:20-cv-00249-wmc Document #: 458-22 Filed: 07/21/20 Page 7 of 7

(/)

Our Madison – Inclusive, Innovative, & Thriving
Copyright © 1995 - 2020 City of Madison, WI
Contact Webmaster (/form/website-contact-form)
Accessibility (/policy/accessibility)
Web Policies (/policy)

(https://www.govtech.com/dc/digital-cities/Digital-Cities-Survey-2019--WinnersAnnounced.html)

- App. 428 https://www.cityofmadison.com/news/corrected-polling-place-listing-for-april-7

7/17/2020

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 1 of 8

EXHIBIT 18

108913552

- App. 429 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 2 of 8

No Detectable Surge in SARS-CoV-2 Transmission due to the April 7, 2020 Wisconsin
Election
Kathy Leung, Ph.D. and Joseph T. Wu, Ph.D., WHO Collaborating Centre for Infectious
Disease Epidemiology and Control, School of Public Health, Li Ka Shing Faculty of Medicine,
The University of Hong Kong, Hong Kong Special Administration Region, China
Kuang Xu, Ph.D., and Lawrence M. Wein, Ph.D. (corresponding author), Graduate School of
Business, Stanford University, Stanford, CA
Abstract: We analyze confirmed cases and new hospitalizations in Wisconsin in the weeks
surrounding the April 7, 2020 election, and find no evidence of a surge in SARS-CoV-2
transmission.
The April 7, 2020 Wisconsin election produced a large natural experiment to help
understand the transmission risks of the severe acute respiratory syndrome coronavirus 2
(SARS-CoV-2). Up to 300,000 people voted in person [1-2] and waiting times in Milwaukee
averaged 1.5-2 hr [3]. Poll workers had surgical masks and latex gloves, hand sanitizer was
made available to voters, isopropyl alcohol wipes were used to clean voting equipment, and
painting tape and signs were used to facilitate social distancing [2].
Wisconsin tracks cases confirmed by testing (Fig. 1A) and throughout April 2020 have
restricted testing to frontline workers and those hospitalized with serious illness [4]. We
used a deconvolution-based method to reconstruct the SARS-CoV-2 epidemic curve by
dates of infections rather than dates of reporting by health authorities, and then used two
different methods [5]-[6] to estimate the instantaneous reproduction number 𝑅" , which is
the average number of secondary cases generated by one primary case with the time of
infection on day 𝑡, from March 25 (the start of the safer-at-home order) through April 18
(see the Supplementary Appendix).
As seen in Fig. 1B, there is no detectable spike in 𝑅" on April 7. The number of SARS-CoV-2
tests performed in Wisconsin has been relatively stable throughout April [7] (Fig. 1C),
suggesting that reduced testing capacity in the days after April 7, which could have
censored some of the April 7 infections, did not occur. Moreover, new SARS-CoV-2
hospitalizations in Wisconsin have steadily declined throughout April (Fig. 1D), from a high
of 101 on April 3 to a low of 14 on April 18 [7], suggesting that daily new hospitalizations
are much less than testing capacity.
The lengths of the incubation period and the reporting delay imply that April 7 infections
would not be reported until April 17 on average, with most cases being reported during
April 11-22. Taken together, there is no evidence to date that there was a surge of
infections due to the April 7, 2020 election in Wisconsin, which has a relatively low level of
SARS-CoV-2 transmission in the US.

- App. 430 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 3 of 8

Finally, the Wisconsin Department of Health Services announced on April 22 that 19 people
who either voted in person or worked at the polls on April 7 have tested positive for SARSCoV-2, although several of these people also experienced non-voting exposures [8]. This
fact is not inconsistent with our population-level analysis, because 19 cases is small relative
to the total number of confirmed cases in Wisconsin. To put this information into
perspective, if we assume that the SARS-CoV-2 fatality rate among symptomatic patients
who were physically capable of voting in person on April 7 (e.g., not including nursing
home residents) is 1% (using the fatality rate of known cases for people aged <60 [9]), then
we would expect 0.19 deaths out of 300,000 people, which is the fatality risk of driving an
automobile approximately 50 miles [10]. However, in addition to the individual risk of
voting on April 7, there is the community risk: how many downstream cases will these 19
original cases generate? According to Fig. 1B, the reproduction number in Wisconsin has
been hovering near the value of one for all of April. If this value was much larger than one
(as it was in, say, January) then these 19 cases would cause a lot of downstream damage,
and if this value was clearly smaller than one then they would cause minimal damage. But a
value near one, coupled with the small number of cases, means that it is very difficult to
reliably predict the amount of downstream damage.
Taken together, it appears that voting in Wisconsin on April 7 was a low-risk activity.

- App. 431 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 4 of 8

A

B

C

D

Figure 1. SARS-CoV-2 Dynamics Surrounding the April 7, 2020 Election in Wisconsin.
Panel A shows the number of daily confirmed SARS-CoV2 cases in Wisconsin from March
15 to April 19. Panel B shows the estimated instantaneous reproduction number 𝑅" (along
with 95% confidence intervals) each day from March 25 (the start of the safer-at-homeorder in Wisconsin) to April 18 using two different methods. Panel C shows the number of
SARS-CoV-2 tests performed each day from March 15 to April 18. Panel D shows the
number of new SARS-CoV-2 hospitalizations in Wisconsin on each day from March 30 to
April 18. In generating the curve in Panel C, a possible mis-entry in the original data set [4]
led to the cumulative test count on March 29 being smaller than the day prior; in response,
we replaced the March 29 cumulative case count by the average value between March 28
and 30.

- App. 432 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 5 of 8

1. 2020 spring election and presidential preference vote ballot status as of April 17, 2020.
Accessed at https://elections.wi.gov/sites/elections.wi.gov/files/202004/Ballot%20Data%20as%20of%20April%2017%202020.pdf
2. Wisconsin Election Commission. Summary of April 7, 2020 election. Accessed at
https://elections.wi.gov/sites/elections.wi.gov/files/202004/April%207%20Election%20Summary%20and%20Next%20Steps.pdf
3. Spicuzza M. ‘A very sad situation for voters’: Milwaukeeans brave wait times as long as
2 ½ hours, top election official says. Milwaukee Journal Sentinel, April 7, 2020.
4. Wisconsin Department of Health Services. Coronavirus Disease 2019 (COVID-19)
Situation Report. Publication P-02624, March 25, 2020.
5. Wallinga J, Teunis P. Different epidemic curves for severe acute respiratory syndrome
reveal similar impacts of control measures. Am J Epidemiology 2004;160:509-516.
6. Cori A, Ferguson NM, Fraser C, Cauchemez S. A new framework and software to
estimate time-varying reproduction numbers during epidemics. Am J Epidemiol.
2013;178:1505-12.
7. Wisconsin COVID-19 Historical Cases by State Boundary as of April 19. Accessed at
https://data.dhsgis.wi.gov/datasets/wisconsin-covid-19-historical-cases-stateboundary
8. Stracqualursi V, Phillip A. 19 coronavirus cases connected to Wisconsin primary
election, state health official says. cnn.com, April 22, 2020. Accessed at
https://www.cnn.com/2020/04/22/politics/wisconsin-april-7-election-coronaviruscases/index.html
9. Verity R, Dorigatti I, Winskill P et al. Estimates of the severity of coronavirus disease
2019: a model-based analysis. Lancet 2020;395:published online on March 30, 2020.
10. National Safety Board. Injury facts. Accessed on April 22, 2020 at
https://injuryfacts.nsc.org/motor-vehicle/historical-fatality-trends/deaths-and-rates/

- App. 433 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 6 of 8

- App. 434 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 7 of 8

SUPPLEMENTARY APPENDIX
The instantaneous reproductive number 𝑅" was defined as the average number of
secondary cases generated by one primary case with the time of infection on day 𝑡. If 𝑅" >
1 the epidemic is expanding at time 𝑡, whereas 𝑅" < 1 indicates that the epidemic size is
shrinking at time 𝑡.
Since the epidemic curve of Wisconsin is based on the dates of test confirmation, we use a
deconvolution-based method to reconstruct the SARS-CoV-2 epidemic curve by dates of
infection [1-2]. Let 𝑓)*+,-.")/* be the probability density function (pdf) of the incubation
period, and 𝑓/*01"2+/*3)45.")/* be the pdf of the time between symptom onset and test
confirmation. We assume 𝑓)*+,-.")/* and 𝑓/*01"2+/*3)45.")/* are independent such that the
pdf of the time between infection and confirmation is
"

𝑓)*31+")/*2+/*3)45.")/* (𝑡) = 9 𝑓/*01"2+/*3)45.")/* (𝑡 − 𝑢)𝑓)*+,-.")/* (𝑢)𝑑𝑢
=

We use 𝑓)*31+")/*2+/*3)45.")/* to deconvolute the time series of the daily number of
confirmed cases to reconstruct an epidemic curve of daily number of new infections. We
assume the incubation period distribution is gamma with mean and SD of 5.2 and 2.3 days
[3]. We assume that the distribution of the time between symptom onset and confirmation
is gamma with mean and standard deviation (SD) of 4.3 and 3.2 days, based on 186 cases
reported in Jan-Feb 2020 in Beijing [4]. With the epidemic curve by dates of infection in
hand, we applied two different methods -- developed by Wallinga and Teunis [5] and by
Cori et al. [6] -- to estimate 𝑅" using the R package EpiEstim. We assume the generation
time distribution is approximately the same as the serial interval distribution, which was

- App. 435 -

Case: 3:20-cv-00249-wmc Document #: 458-18 Filed: 07/21/20 Page 8 of 8

inferred to be gamma with mean 5.4 and SD 4.7 days from the dates of symptom onset of
56 infector-infectee pairs from mainland China [4].

1. Goldstein E, Dushoff J, Ma J et al. Reconstructing influenza incidence by deconvolution of
daily mortality time series. PNAS 2009;106:21825-29.
2. Wu JT, Ho A, Ma ESK et al. Estimating infection attack rates and severity in real time
during an influenza pandemic: analysis of serial cross-sectional serologic surveillance
data. PLOS Medicine 2011;8,10:e1001103.
3. Li Q, Guan X, Wu P et al. Early transmission dynamics in Wuhan, China, of novel
coronavirus-infected pneumonia. N Engl J Med 2020;382:1199-1207.
4. Leung K, Wu JT, Leung GM. First-wave COVID-19 transmissibility and severity in China
outside Hubei after control measures, and second-wave scenario planning: a modelling
impact assessment. Lancet 2020;395:published online April 8.
5. Wallinga J, Teunis P. Different epidemic curves for severe acute respiratory syndrome
reveal similar impacts of control measures. Am J Epidemiology 2004;160:509-516.
6. Cori A, Ferguson NM, Fraser C, Cauchemez S. A new framework and software to
estimate time-varying reproduction numbers during epidemics. Am J Epidemiol.
2013;178:1505-12.

- App. 436 -

Case: 3:20-cv-00249-wmc Document #: 458-25 Filed: 07/21/20 Page 1 of 3

EXHIBIT 25

108913552

- App. 437 -

Absentee Ballot Report - May 12, 2020 Special Election for Congressional District 7 | Wi... Page 1 of 2
Case: 3:20-cv-00249-wmc Document #: 458-25 Filed: 07/21/20 Page 2 of 3

WISCONSIN ELECTIONS COMMISSION
Administering Wisconsin's Election Laws

Home »Node

Absentee Ballot Report - May 12, 2020
Special Election for Congressional District 7
Date: Mon, 05/18/2020 - 07:30

Absentee Counts by County - 2020 Special Election Representative in
Congress District 7
Please note that the numbers in this report are unofficial, and are based on
data entered into the statewide voter system by clerks. The column Absentee
Ballots Reported Returned does not reflect whether the ballots were
counted. Official reports on how many ballots were counted are not due
from clerks until 30 days after the election May 12. Users of this report
should exercise caution when drawing conclusions and making
comparisons to election results.

County Name

AbsenteeApplicationsBallotsSentBallotsReturned

ASHLAND COUNTY

2465

2451

2115

BARRON COUNTY

6411

6330

5159

BAYFIELD COUNTY

3778

3582

3244

BURNETT COUNTY

2088

2054

1650

CHIPPEWA COUNTY 3463

3378

2863

CLARK COUNTY

2266

2115

1856

DOUGLAS COUNTY

6951

6894

5512

EAU CLAIRE COUNTY 1

0

0

FLORENCE COUNTY 930

845

780

FOREST COUNTY

1436

1409

1168

IRON COUNTY

1457

1440

1258

JACKSON COUNTY

200

199

148

- App. 438 https://elections.wi.gov/node/6906

7/17/2020

Absentee Ballot Report - May 12, 2020 Special Election for Congressional District 7 | Wi... Page 2 of 2
Case: 3:20-cv-00249-wmc Document #: 458-25 Filed: 07/21/20 Page 3 of 3

JUNEAU COUNTY

746

727

577

LANGLADE COUNTY 2876

2860

2507

LINCOLN COUNTY

4471

3140

MARATHON COUNTY25161

24832

21218

MONROE COUNTY

429

408

298

ONEIDA COUNTY

8765

8726

7152

POLK COUNTY

4714

4539

3813

PRICE COUNTY

2432

2373

1914

RUSK COUNTY

1555

1452

975

ST. CROIX COUNTY

13535

13428

11047

SAWYER COUNTY

3120

3075

2646

TAYLOR COUNTY

2374

2326

2076

VILAS COUNTY

5413

5354

4708

WASHBURN COUNTY 2592

2553

2122

WOOD COUNTY

4766

4725

4061

TOTAL

114424

112546

94007

4500

Wisconsin Elections Commission | 212 East Washington Avenue, Third Floor P.O. Box 7984 |
Madison, Wisconsin 53707-7984
tele (608) 266-8005 | fax (608) 267-0500 | tty 1-800-947-3529 | e-mail elections@wi.gov
Toll-Free Voter Help Line: 1-866-VOTE-WIS

- App. 439 https://elections.wi.gov/node/6906

7/17/2020

Case: 3:20-cv-00249-wmc Document #: 458-26 Filed: 07/21/20 Page 1 of 3

EXHIBIT 26

108913552

- App. 440 -

May 1, 2020 Voter Registration Statistics | Wisconsin Elections Commission
Page 1 of 2
Case: 3:20-cv-00249-wmc Document #: 458-26 Filed: 07/21/20 Page 2 of 3

WISCONSIN ELECTIONS COMMISSION
Administering Wisconsin's Election Laws

Home »Node

May 1, 2020 Voter Registration Statistics
Date: Fri, 05/01/2020 - 00:00
File(s)
Attachment

Size

RegisteredVotersByCounty_05-01-2020.xlsx

7.06 KB

RegisteredVotersByMunicipality_05-01-2020.xlsx

130.63 KB

RegisteredVotersByWard_05-01-2020.xlsx

226.7 KB

RegisteredVotersByStateAssemblyDistrict_05-01-2020.xlsx 7.98 KB
RegisteredVotersByStateSenateDistrict_05-01-2020.xlsx

6.04 KB

RegisteredVotersByCongressionalDistrict_05-01-2020.xlsx

5.24 KB

RegisteredVotersByAgeGroup_05-01-2020.xlsx

5.11 KB

The State of Wisconsin had 3,397,693 active registered voters on May 1, 2020.
Wisconsin does not collect information on the gender, race or political party
affiliation of registered voters.

Wisconsin Elections Commission | 212 East Washington Avenue, Third Floor P.O. Box 7984 |
Madison, Wisconsin 53707-7984
tele (608) 266-8005 | fax (608) 267-0500 | tty 1-800-947-3529 | e-mail elections@wi.gov

- App. 441 https://elections.wi.gov/node/6886

7/17/2020

May 1, 2020 Voter Registration Statistics | Wisconsin Elections Commission
Page 2 of 2
Case: 3:20-cv-00249-wmc Document #: 458-26 Filed: 07/21/20 Page 3 of 3
Toll-Free Voter Help Line: 1-866-VOTE-WIS

- App. 442 https://elections.wi.gov/node/6886

7/17/2020

Case: 3:20-cv-00249-wmc Document #: 458-27 Filed: 07/21/20 Page 1 of 4

EXHIBIT 27

108913552

- App. 443 -

More Than 69,000 Absentee Ballots Already Returned for May 12 Special Election | Wis... Page 1 of 3
Case: 3:20-cv-00249-wmc Document #: 458-27 Filed: 07/21/20 Page 2 of 4

WISCONSIN ELECTIONS COMMISSION
Administering Wisconsin's Election Laws

Home »Node

More Than 69,000 Absentee Ballots Already
Returned for May 12 Special Election
Date: Fri, 05/08/2020 - 15:45
MADISON, WI – More than 69,000 voters in Wisconsin’s 7th Congressional District have
already returned their absentee ballots for the Special Election on May 12, according to the
Wisconsin Elections Commission.
As of Friday morning, 110,921 absentee ballot applications have been reported received by
municipal clerks in the district, which covers all of 21 Northern Wisconsin counties and
portions of another five. Those clerks also report sending 107,644 ballots and receiving
69,472 back.
It’s important to note that these numbers do not include absentee ballot requests that
have not yet been entered into the state system by clerks, meaning the actual numbers are
higher. Because of the rural nature of the 7th CD, there may also be some delays in data
entry in the state’s system because many small-town clerks rely on their county clerks for
this task.
Daily absentee ballot reports, including county-by-county numbers, are being posted here:
https://elections.wi.gov/publications/statistics/absentee.
Meagan Wolfe, Wisconsin’s chief elections official, urged voters to return their absentee
ballots as soon as possible to ensure they are received by the deadline of 8 p.m. on
Tuesday, May 12.

- App. 444 https://elections.wi.gov/node/6897

7/17/2020

More Than 69,000 Absentee Ballots Already Returned for May 12 Special Election | Wis... Page 2 of 3
Case: 3:20-cv-00249-wmc Document #: 458-27 Filed: 07/21/20 Page 3 of 4
“We want everyone’s vote to count,” Wolfe said. “If you are concerned the post office may
not get your ballot to your clerk’s office in time, please make arrangements to drop your
ballot off at your clerk’s office or at the polling place on Election Day.” Wisconsin law
allows voters to have another person deliver their absentee ballot to the clerk’s office or
polling place as an alternative to mailing.
Wolfe also encouraged voters who have not already returned their absentee ballots to
make sure the return envelope is signed and properly witnessed. Witnesses are required to
sign the envelope and provide an address, and if either is missing, the ballot cannot be
counted.
Voters heading to the polls on Tuesday are encouraged to double-check their polling place
location at https://MyVote.wi.gov or by contacting their municipal clerk’s office. While no
large-scale polling place reductions are planned, some clerks with multiple polling places
may be consolidating them simply because this is a special election and they anticipate a
lower voter turnout.
The Wisconsin Elections Commission, working with the State Emergency Operations
Center, has distributed personal protective equipment (PPE) and sanitizing supplies to all
clerks in the district. Voters should follow instructions at the polling place to practice safe
social distancing.
Wisconsin National Guard members will be deployed to some polling places in the district
where clerks have identified shortages. As they also did in April, these National Guard
members will serve as community members at polling places in their home counties in
plain clothes. Approximately 250 Guard members have been activated, though about 125
will be initially assigned to polling places, with the remainder in reserve or supporting
roles in the event of last-minute shortages.
Wolfe said it is difficult to know what these absentee ballot reports might indicate about
turnout in the May 12 Special Election. “We normally estimate turnout by looking at
recent similar elections, but in this case, there are few good comparisons available,” she
said.
Congressional District 7 has approximately 420,500 registered voters, meaning somewhat
more than 25% of registered voters have requested absentee ballots so far. For April 7,
approximately 1.23 million requests were made by the state’s 3.38 million registered
voters, or 36%.

Attachment

Size

- App. 445 https://elections.wi.gov/node/6897

7/17/2020

More Than 69,000 Absentee Ballots Already Returned for May 12 Special Election | Wis... Page 3 of 3
Case: 3:20-cv-00249-wmc Document #: 458-27 Filed: 07/21/20 Page 4 of 4

Attachment

Size

NR Elections - WEC Releases Absentee Numbers for CD7 Special ElectionCOVID-19 05-08-2020.pdf

160.16
KB

For more information, contact
Reid Magney, public information officer, 608-267-7887, or reid.magney@wi.gov.

Wisconsin Elections Commission | 212 East Washington Avenue, Third Floor P.O. Box 7984 |
Madison, Wisconsin 53707-7984
tele (608) 266-8005 | fax (608) 267-0500 | tty 1-800-947-3529 | e-mail elections@wi.gov
Toll-Free Voter Help Line: 1-866-VOTE-WIS

- App. 446 https://elections.wi.gov/node/6897

7/17/2020

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 1 of 15

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Plaintiffs,

v.

Case No. 20- CV-249

MARGE BOSTELMANN, et al.,
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
REPUBLICAN PARTY OF WISCONSIN AND
WISCONSIN STATE LEGISLATURE,
Intervening Defendants
SYLVIA GEAR, et al.,
Plaintiffs,

v.

Case No. 20- CV-278

DEAN KNUDSON, et al
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
REPUBLICAN PARTY OF WISCONSIN AND
WISCONSIN STATE LEGISLATURE,
Intervening Defendants.
WEC DEFENDANTS’ STATUS REPORT

1
- App. 447 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 2 of 15

Defendants Dean Knudson, Julie M. Glancey, Robert F. Spindell, Jr., Mark L.
Thomsen, Ann S. Jacobs and Marge Bostelmann, by their undersigned counsel and
pursuant to this Court’s Order of June 10, 2020, submit the following statement:
I.

Measures the WEC is Taking or Anticipates Taking to Prepare
for the August and November 2020 Elections.

Given the COVID-19 crisis, and in addition to normal election preparations,
the Wisconsin Elections Commission (“WEC”) and its staff have taken, or plan to
take the following measures to prepare for the August and November Elections:
a. Comprehensive Reports: “Summary of April 7, 2020 Election” and
“April 7, 2020 Absentee Voting Report.” Following the April 7, 2020
Spring Election, WEC staff compiled a report 1 for the Commission that
captured the major efforts the WEC staff responded to and
implemented for the April 7, 2020 Election. The report identified areas
of impact, provided a discussion of each, and outlined next steps
related to efforts and initiatives of WEC staff to improve election
administration for the 2020 Fall elections. The report was presented
and accepted by the Commission at its April 18, 2020 meeting. The
report is attached as Exhibit A. The Commission also directed staff to
compile a report 2 outlining absentee voting issues identified during the
April 7, 2020 election and provide recommendations on how to improve
absentee voting processes moving forward given the anticipated shift

https://elections.wi.gov/sites/elections.wi.gov/files/202004/April%207%20Election%20Summary%20and%20Next%20Steps.pdf
2
https://elections.wi.gov/node/6908
1

2
- App. 448 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 3 of 15

to by-mail absentee voting that will occur at the 2020 Fall elections.
The Commission adopted the report at its May 20, 2020 meeting. The
report is attached as Exhibit B.
b. Absentee Ballot Mailers. On May 27, 2020, the WEC directed staff to
spend federal CARES Act grant money (approximately $2.25 million)
to develop, print and send an informational mailing to approximately
2.7 million registered voters in Wisconsin that provides information
about the options for voting at the 2020 General Election. The mailer
will be sent to registered voters who do not have an active absentee
ballot request on file and who are not on the Electronic Registration
Information Center (ERIC) Movers List. The informational mailing
also includes a paper absentee ballot request form for voters that
choose to request an absentee ballot using a paper form. The paper
form can be returned to the WEC or the voter’s municipal clerk to
request an absentee ballot. Due to the anticipated high volume of
absentee ballot requests for the 2020 General Election, WEC staff and
contractors will be assisting with data entry of the requests into the
statewide voter registration system (WisVote). Municipal clerks would
still be required to review the request and take action by either
approving the request and sending the ballot, following up with the
voter to obtain additional information, or denying the request if
applicable. WEC staff would also be available to follow-up with

3
- App. 449 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 4 of 15

absentee voters that submitted an incomplete application, including a
lack of photo ID if required. The intent is to shift some of the data
entry volume away from municipal clerks so they can focus on final
review of the application and getting absentee ballots out to voters as
soon as practicable after receiving the request. The informational
mailer was sent to the printer on June 22, 2020 to begin the printing
and proofing process. The informational mailing is scheduled to be
sent on or about September 1, 2020 to the targeted group of registered
voters. A sample of that mailer and paper absentee ballot request form
is attached as Exhibit C.
c. Sanitation and PPE Supplies 3. The WEC has directed staff to spend
federal CARES Act grant money ($500,000) to secure and distribute
sanitation supplies and other materials to all 72 counties across the
state, who in turn will distribute these supplies to municipalities in
their respective counties. Similar to the distribution of supplies
coordinated between the WEC, the State Emergency Operations
Center, the Wisconsin National Guard and County Clerks for the April
election, based on a needs survey conducted in mid-June, the WEC
anticipates providing municipalities with the following supplies
(subject to availability) for the upcoming Fall elections: disinfecting
solution (surface and hand sanitizer), empty spray bottles for use with

https://elections.wi.gov/sites/elections.wi.gov/files/202005/Clerk%20Comm%20re%20May%2027%20Commission%20Meeting.pdf
3

4
- App. 450 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 5 of 15

disinfecting solution, paper towels, disinfecting wipes such as Clorox
wipes, hand sanitizer (normal gel based), procedural masks, latex
gloves, painters tape (social distancing markers, signage). Isopropyl
wipes (for equipment cleaning) and one-time use writing utensils are
also possible supplies that could be available and distributed if
requested. Municipalities are also instructed to use any leftover
supplies from the April election for the August and November
elections.
d. Funding to Municipal Clerks (Subgrants) 4, 5. The WEC has directed
staff to spend federal CARES Act grant money (up to $4.1 million) to
provide subgrants to municipalities to help pay for increased election
costs due to the COVID-19 pandemic. A municipality is eligible to
receive a base grant amount of $200 plus an additional amount of
$1.10 per registered voter in their municipality. Allowable uses for the
subgrant to municipalities include: additional ballot supplies, printing
and postage for higher levels of absentee voting, additional cleaning
supplies, cleaning services and protective equipment, additional
staffing for processing higher levels of absentee ballots, additional
mailings for public communication related to changes in procedures or
other pandemic related issues, additional absentee ballot drop boxes,

https://elections.wi.gov/sites/elections.wi.gov/files/202005/Clerk%20Comm%20re%20May%2027%20Commission%20Meeting.pdf
5
https://elections.wi.gov/WEC-CARES-subgrant
4

5
- App. 451 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 6 of 15

additional space leasing to process higher volumes of absentee ballots
or spread out operations, and acquisition of additional equipment
necessary to process a higher volume of absentee ballots. This
subgrant opened on June 17, 2020 and municipalities have until
September 1, 2020 to submit a subgrant agreement to the WEC
requesting the funds.
e. Intelligent Mail Barcodes 6. The WEC has directed staff to spend
federal CARES Act grant money (up to $400,000) on WEC staff
development costs for Intelligent Mail Barcodes (IMBs) and other
absentee process improvements. IMBs will allow clerks and voters to
track an absentee ballot once it leaves the municipal clerk’s office and
enters the mail stream of US Postal Service. IMBs are scanned by US
Postal Service processing centers while the ballot is en route to the
voter. Users of the WisVote system (clerks, staff) will have access to
the status and location of the ballot in WisVote and their voters will
have access to this US Postal Service-informed information on the
MyVoteWI website. Use of IMBs will not change the preparation of
absentee ballots in any significant way, but they will allow for more
precise population of tracking information in WisVote/MyVoteWI.
WEC staff have also conducted training webinars for clerks on IMBs 7.

https://elections.wi.gov/sites/elections.wi.gov/files/202005/Clerk%20Comm%20re%20May%2027%20Commission%20Meeting.pdf
7
https://elections.wi.gov/node/6926
6

6
- App. 452 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 7 of 15

f. Clerk Advisory Committee for Vote by Mail. Following the April 7
Spring Election, WEC formed a new Clerk Advisory Committee
dedicated to Vote by Mail to provide direction and feedback from clerks
on WEC staff proposals regarding Vote by Mail 8.
g. HAVA Elections Security Subgrant to Counties 9. The WEC has
directed staff to spend federal Help America Vote Act (HAVA) security
funds (up to $3.9 million) by offering a subgrant to assist counties with
improvement of their overall election security posture as they prepare
for the 2020 Fall elections. The subgrant funds are being provided to
assist counties with conducting assessments of their systems,
remediation of discovered issues and other overall improvements to
election security at the county level. The HAVA election security
subgrant to counties provides a maximum allocation of a $35,000 base
grant per county, plus an additional amount of $.30 per voting-age
person in the county based on 2019 voting-age population
demographics estimated by the Wisconsin Department of
Administration. Counties will complete an application outlining
individual security needs based on its assessment, and the Commission
will approve subgrants up to the allowable amount per the approved
formula.

8
9

https://elections.wi.gov/sites/elections.wi.gov/files/2020-05/May%2020%2C%202020.Final_.pdf
https://elections.wi.gov/sites/elections.wi.gov/files/2020-06/Open%20Session%206.10.2020.Final_.pdf

7
- App. 453 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 8 of 15

h. HAVA Elections Security Subgrant – Reopened to Municipalities 10. In
2019, the WEC offered a HAVA election security subgrant to
municipalities to obtain up to date, secure hardware, professional IT
support to help manage their systems and to ensure that clerks attend
security training offered by the WEC and other partners. Not all
municipalities applied for the subgrant in 2019. The WEC has
authorized the reopening of this grant program in 2020 to
municipalities that did not take advantage of it in 2019. The WEC has
directed staff to spend HAVA security funds (up to $2.1 million) to
assist municipalities in meeting basic security standards prior to the
2020 Fall elections. Municipalities are eligible to receive up to $1,200
to address either baseline security needs, or if those standards are
already met, advanced security needs as outlined in the agreement.
i. Changes to MyVote 11. In conjunction with the introduction of
Intelligent Mail Barcodes described above, and changes to WisVote
described below, WEC staff introduced several upgrades to the MyVote
Wisconsin website to improve the quality and quantity of information
available to voters. Changes were applied to the absentee request
process and to the absentee tracking process. For the request process,
a more-user friendly interface and menu options were developed
through extensive usability testing conducted with the general public.

10
11

https://elections.wi.gov/sites/elections.wi.gov/files/2020-06/Open%20Session%206.10.2020.Final_.pdf
https://elections.wi.gov/sites/elections.wi.gov/files/2020-06/Open%20Session%206.10.2020.Final_.pdf

8
- App. 454 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 9 of 15

These changes were specifically designed to reduce the most common
user errors, such as submitting a personal photograph instead of a
photo ID. Changes to the tracking process added information and
linked MyVote tracking to US Postal Service mail tracking data. This
will enable voters to more precisely observe the status of their
absentee request and know when a ballot has been mailed to them.
j. Changes to WisVote 12. WEC staff are making changes to the WisVote
system to meet the needs of clerks experiencing a large increase in the
demand for absentee ballots. The WisVote system was originally
designed to offer multiple methods for managing absentee ballot
requests and ballot records meant to meet the needs of all sizes of
communities in Wisconsin. While helpful, multiple methods can create
confusion among clerks and their staff. WEC staff intend to work with
clerks to identify which method of processing absentee ballot requests,
ballot records, and absentee address labels is best in managing high
volumes of requests, and train exclusively on this method. WEC staff
also intend to implement additional tracing procedures and audit tools
in WisVote to enable early detection of issues that could occur during
the high volume of absentee ballot request processing. Such tools will
allow technical staff greater insight into the internal WisVote
processes that go beyond the current audit logs and reports to allow

12

https://elections.wi.gov/sites/elections.wi.gov/files/2020-06/Open%20Session%206.10.2020.Final_.pdf

9
- App. 455 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 10 of 15

near real-time monitoring of system performance. Enhanced
monitoring will allow WEC staff to identify potential issues and
address all issues more quickly if necessary. WEC staff are also
exploring ways to provide clerks and voter more immediate feedback
from the system to provide users confidence they have successfully
navigated a process, or if there is an issue that needs attention before
the process can be completed. Finally, additional reports are planned
so clerks can more efficiently manage and audit absentee ballot
requests and ballots entering and leaving their office. The increased
reports will help provide clerks more confidence that all requests have
been processed and all absentee ballots have been sent to voters with
valid requests on file. WEC staff are hopeful that these improvements
in WisVote will provide clerks the tools they need to monitor their
absentee data more closely and help identify and resolve potential
issues that occur.
k. Usability Testing. WEC staff continue to conduct usability testing on
items presented to clerks and the general public, to ensure clear
messaging and understanding by intended audiences. For example,
usability testing was used during the development of the voter
information mailing that will be sent out in September, to insure
voters would understand the information and instructions being
provided to cast a ballot at the General election.

10
- App. 456 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 11 of 15

l. Poll Worker Recruitment/Training/National Guard Assistance 13, 14.
The WEC staff continue to urge counties and municipalities to solicit
election inspectors for the upcoming 2020 Fall elections. While
Wisconsin National Guard members may be available to assist with
staffing polling locations in the Fall, that is not currently confirmed.
WEC staff will continue to monitor the impact of COVID-19 on polling
place staffing leading up to those elections. WEC staff has compiled
training protocols for Wisconsin National Guard members that are
ordered to serve as election inspectors on election day. Should
Wisconsin National Guard members be needed to serve as election
inspectors during the 2020 Fall elections, appropriate training will be
provided to those members called to serve 15. WEC staff has also
created recruitment tools that can be used by local election officials to
reach out to groups in their community to encourage them to serve as
poll workers. Outreach tools include template news releases, letters,
and social media posts that can be used by local election officials as
well as suggestions for community groups they may wish to work with.
WEC will also continue to promote the need for poll workers through
our MyVote website widget, through earned and social media, and by

https://elections.wi.gov/node/6766
https://elections.wi.gov/sites/elections.wi.gov/files/2020-03/3.20.20%20Letter%20to%20Governor.pdf
15
https://elections.wi.gov/COVID-19/training-for-poll-workers
13
14

11
- App. 457 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 12 of 15

encouraging state employees and working with state leadership to
promote the efforts.
m. Voter Outreach Videos, Guides, and Survey. To help educate voters on
unfamiliar aspects of voting, WEC is working with their advertising
agency to produce videos, web content, social media content, earned
media plans, and other outreach documents and tools. These
educational resources will be made available to local election officials,
voter groups, and the general public to explain the mechanics of how to
vote by absentee ballot and on how state and local election officials
ensure that voting by absentee ballot is secure. WEC will also
continue to focus on earned media strategies such as press releases,
news conferences, and public appearances to educate the public about
the process, deadlines, and requirements of absentee voting. WEC is
also working to conduct a second, statewide survey of Wisconsin voters
to learn more about where they obtain their election administration
information, what sources they trust, and what additional information
about the voting process they are seeking. Based on the data collected
in this survey, additional voter tools will be created to provide the type
of information voters are seeking through the channels they utilize and
trust.

12
- App. 458 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 13 of 15

n. Public Health Guidance 16. For the April 2020 Election, WEC staff
worked with public health officials to produce over 20 public health
guidance documents for clerks, poll workers, and the public. WEC will
continue to work with public health officials to ensure that the
guidance is kept current and to create additional guidance as needed.
WEC staff also plans to post public health information about elections
specifically for the public. Public outreach documents and the voter
mailer both reference the elections.wi.gov/covid-19 webpage, therefore,
work is being conducted on that webpage to present elections public
health information to voters in a approachable and useful format.
o. Local Election Official and Election Inspector Training 17. WEC staff
continue to provide training opportunities to both local election officials
and election inspectors in advance of the August and November
elections. A webinar series has been developed that will provide
training on administrative elections procedures and training on the
use and functionality of elections IT applications used to manage
elections in Wisconsin. The goal of these trainings is to increase and
maintain the consistency of how elections are administered across
jurisdictions and provide access to elections training required by law.
Training subject matter is varied with presentations developed for
local election officials, such as issuing and managing absentee ballots,

16
17

https://elections.wi.gov/covid-19
https://elections.wi.gov/clerks/education-training/webinars

13
- App. 459 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 14 of 15

to election inspector focused training on subjects such as managing the
poll book on election day. Training specific to conducting elections
during the current public health crisis will be developed and COVID-19
related material will be added to existing trainings to supplement
those programs. The training offered by WEC is provided through
online learning platforms and is available at no cost to local election
officials and election inspectors. Most agency training programs use
live webinars that are recorded and posted to the agency website for
viewing at any time by trainees who could not participate live. The
agency also maintains on online learning center which houses training
on agency elections administration IT applications and elections
security procedures.
II.

WEC Statement on Whether Any Additional Requested Relief
Would Improve the Administration of the August and
November 2020 Elections.

Among the relief sought in the Second Amended Complaint is a request that
this Court order WEC to develop and implement plans to coordinate available state,
local, and private resources to ensure that all voters throughout the State are able
to cast early in-person absentee ballots and to vote in-person on election day in a
safe and secure manner. [Dkt. No. 198-1, p. 39, ¶ G]. To the extent that this relief
comports with measures identified in Section I, supra, the WEC believes it will
improve the administration of the remaining 2020 Elections. Otherwise, the WEC
takes no position on whether the additional relief would be helpful.

14
- App. 460 -

Case: 3:20-cv-00249-wmc Document #: 227 Filed: 06/25/20 Page 15 of 15

III.

WEC Statement on Whether It Has the Statutory Authority to
Provide Any of the Relief Requested by Plaintiffs.

The WEC has the statutory authority to administer Wisconsin’s election
statutes. Wis. Stat. § 5.05 (1). Therefore, the WEC has the authority to implement
the measures described in Section I. The WEC does not have the authority to waive
or adjust Wisconsin’s statutory election requirements, including deadlines.

Dated: June 25, 2020

LAWTON & CATES, S.C.
Electronically signed by Daniel S. Lenz
Dixon R. Gahnz, SBN: 1024367
Daniel S. Lenz, SBN: 1082058
Daniel P. Bach, SBN: 1005751
Terrence M. Polich, SBN: 1031375
345 W. Washington Avenue, Suite 201
P.O. Box 2965
Madison, WI 53701-2965
Phone: (608) 282-6200
Fax: (608) 282-6252
dgahnz@lawtoncates.com
dlenz@lawtoncates.com
dbach@lawtoncates.com
tpolich@lawtoncates.com

15
- App. 461 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 1 of 11

Wisconsin Elections Commission
212 East Washington Avenue | Third Floor | P.O. Box 7984 | Madison, WI 53707-7984
(608) 266-8005 | elections@wi.gov | elections.wi.gov

_____________________________________________________________________________________________________

DATE:

For the April 18, 2020 Commission Meeting

TO:

Members, Wisconsin Elections Commission

FROM:

Meagan Wolfe, Administrator
Wisconsin Elections Commission

SUBJECT:

Summary of April 7, 2020 Election

The April 7 Presidential Preference and Spring Election was by all definitions unprecedented.
Wisconsin was the only state thus far to conduct a statewide election in the midst of a COVID-19
pandemic “stay at home” order. Wisconsin is also the most decentralized state for election
administration, meaning that 1,850 municipal election officials and 72 county election officials had to
adapt to significant changes from court rulings, public health guidance, and voter behavior shifts
towards vote by mail. This summary is a very high-level overview and only captures the major efforts
WEC staff responded to and implemented for the April 7, 2020 election. This summary does not account
for the many remarkable accomplishments and successes of Wisconsin’s local election officials all of
whom overcame unforeseen obstacles and ensured polls were open in each city, town, and village in the
state.
The summary identifies of areas of impact, provides a discussion of each, and outlines next steps related
to efforts and initiatives of WEC staff. The summary in each section will provide information on the
area of focus followed by discussion of some of the high-level lessons learned, and finally next steps for
improvements which WEC staff are working on for the remaining elections in the 2020 cycle.
Background
Ballots for the April 7, 2020 Spring election became available, by statute on February 20. Shortly
thereafter in-person absentee voting and voter registration within municipal clerk’s offices began. The
Governor issued his first executive order related to COVID-19 on March 12, well after the election had
already begun.
Election Preparations
This section describes undertakings prior to election day to support local election jurisdictions in their
preparations for election day.
Sanitation Supplies and Personal Protective Equipment (PPE)
Summary: Because of the nationwide shortage of sanitation supplies and PPE, local election officials
relayed to WEC in early March that they were unable to procure supplies needed for in-person voting.
Wisconsin Elections Commissioners
Dean Knudson, chair | Marge Bostelmann | Julie M. Glancey | Ann S. Jacobs | Robert Spindell | Mark L. Thomsen
_________________________________________________________________________________________________________
Administrator
- App. 462
Meagan
Wolfe

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 2 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 2

WEC staff then sent a survey to all local election officials asking them to detail their need for supplies to
support safe, in-person voting. The local election officials were able to work with their county health
departments and through their own procurement channels while WEC simultaneously looked for
opportunities to purchase supplies for distribution to local election officials. WEC experienced the same
difficulty in finding or procuring supplies either in the state or around the nation. A ticket for supplies
was also entered into the State Emergency Operations Center (SEOC) based on clerk needs. Ultimately,
WEC worked with SEOC and state procurement to send the supplies needed to all polling places in
Wisconsin. Wisconsin’s 72 county clerks played a key role in distributing supplies to more than 2,000
polling places. Supplies that were distributed include:










Over 8,000-liter bottles of liquid 70% ethyl alcohol solution that was used as a hand and surface
sanitizer. The solution was sourced from a local distillery as all other state and national supply
chain options were exhausted
Over 10,000 16oz plastic spray bottles and printed labels for the bottles for the liquid alcohol
solution
500,000 isopropyl alcohol wipes for use on voting equipment and electronic touchscreens.
Surgical masks for poll workers
Latex gloves for poll workers
1.5 million ballpoint pens so that each voter would have their own to sign the poll book and mark
their ballot
~2,000 rolls of painter’s tape to facilitate social distancing
10,000+ social distancing and public health signs

Discussion: The National Guard helped with the packaging and distribution of supplies from the
stockpile in Madison to regional facilities around the state. The counties then drove to the regional
facilities, or coordinated pick up in vehicles large enough, to bring the supplies back to the county office
for distribution to the municipalities and/or each polling place. WEC did not know until all the
individual procurements were complete and the distribution and packaging was complete how many of
each supply would be provided to each polling place. Some of the items were found by the SEOC in the
day before distribution so the exact make up of the supplies were unknown until they arrived at the
polls. Jurisdictions reported having adequate supplies for election day to accomplish practices
prescribed in elections specific public health guidance. Voters have also reported to our office that they
felt safe in polling places and that there were adequate sanitation supplies. Some jurisdictions reported
having excess supplies which we are now in the process of redistributing to the 7th Congressional
District for their May 12 election.
Next Steps: With the benefit of time that was not available before the April 7 election, WEC staff can
begin to assist jurisdictions with finding the needed supplies for the August and November statewide
elections. State and local election officials will be able to better gauge the amount of supplies they may
need, based on their experience in April. WEC staff is also hopeful that with additional time, there will
be the opportunity to procure more traditional sanitation supplies and to provide them to the jurisdictions

- App. 463 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 3 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 3

well in advance of the election so that they have time to incorporate the supplies fully into their election
day plans and pre-election in-person processes.
WisVote Database
Summary: The WisVote database is the system used by almost 3,000 local election officials to
administer elections. While WisVote and the WEC do not issue ballots, the clerks use WisVote to
record when they send and receive absentee ballots, to enter voter registrations, and to record voter
participation. The system was built by the WEC team and launched in 2016. The system was built
based on the way Wisconsin conducts elections, which involves mostly voting in-person at the polls and
registering to vote at the polls on election day. By mail voting and registration options are certainly
accounted for in the system, but most municipalities had never received a large volume of absentee
requests for a specific election prior to this election. Clerk activity in WisVote prior to the election was
much higher than any prior election because clerks were all entering and issuing record numbers of
absentee requests at the same time. The system performed very well but required round the clock
monitoring and auditing to handle this unique and unprecedented user behavior and traffic.
Discussion: The system required a number of updates to accommodate extended deadlines for absentee
requests and online voter registration. These extensions meant changing automation in the system to
assign voter records and requests to new deadlines and elections. WEC staff also monitored capacity of
the system to ensure memory space. Multiple increases of memory were needed to keep pace with
absentee requests and attached photo ID’s. WEC staff also created two significant new processes to
assist local election officials with the new volume of absentee requests. One change was to create an
absentee ballot request report that documents when a voter submits a request that includes a photo ID.
This change was significant because it allowed WisVote to capture and store photo files of photo ID.
This process is usually completed by email. Photo files are very large, therefore the storage and
capacity in WisVote had to be significantly adjusted. WEC staff also created “poll book” reports or
pages so that jurisdictions with consolidated polling places could use the WisVote system to check in
voters, produce and print an individual poll book page for them, and record new registrations and
participation in real time on election day. Again, these were not processes that had been conceptualized
previously and required significant development and testing.
Next Steps: With additional time, WEC staff will be able to work with local election officials to build
additional absentee by mail functionalities. These features will include a new module in the system for
“pending” absentee requests which will dramatically reduce any manual data entry and can be entered
into the system by the clerk approving the request information and the photo ID. Also, WEC staff will
continue to explore the use of WisVote at the polls on election day. Again, this process can save
jurisdictions significant time when using consolidated polling places. The WisVote poll book report
ensures voters are given the correct ballot and requires no additional data entry needed after election
day. However, security and other risk factors will need to be considered to ensure the correct balance of
security and efficiency exists. Additional changes to WisVote to accommodate a higher volume of
absentee by mail are outlined in the CARES Act grant memo.

- App. 464 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 4 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 4

MyVote Website
Summary: MyVote is the public facing website where voters can interact with their records and their
data in the WisVote system. On the MyVote website, voters can request an absentee ballot, track when
their ballot was sent and received by their clerk, register to vote online, find their polling place, view a
sample ballot, view their voting history, and more. The site was built by WEC staff with extensive
usability studies conducted with hundreds of voters to learn how they use the site. Based on historical
data, most voters went to MyVote to find their polling place or to view a sample ballot. Site analytics
show this to be true in February 2020, where traffic to the polling place look up tool reached a new
record high. Features like requesting an absentee ballot were previously used by voters, but never at the
rate they were utilized in the lead up to the April 2020 election. Deadlines for online voter registration
and for absentee requests were extended multiple times by court actions prior to this election and
deadlines for ballots to be returned and witness requirements were also changed. Deadlines and dates
are all currently hardcoded in the MyVote system and in the data exchange with the WisVote database.
Therefore, each change required extensive development and testing to avoid unintended consequences.
WEC staff also engaged in extensive load testing prior to the election and up to election day to ensure
that the site could handle record breaking traffic. Increasing capacity as it was needed required around
the clock monitoring of the site. Certainly there were unique challenges and obstacles for some voters at
the election, but the work of WEC program and IT staff in maintaining and modifying MyVote, as well
as the performance of the website itself, was a key factor in accommodating a significant level of voter
turnout, second only to the record turnout for the 2016 Spring Election and Presidential Primary.
Discussion: Usability has always been a foundational principle for WEC staff and is a critical part of
website development to make sure that voters are able to navigate the site successfully. Because
changes to workflows and deadlines had to be made very quickly and because of the prohibitions on
gatherings where usability sessions are usually conducted, WEC staff was unable to usability test most
changes prior to implementation. There was also the need for more messaging on the site for emergency
notices than had ever been needed before. Load testing is also a critical component to success and,
fortunately, WEC staff was able to adjust load testing plans to accommodate the extremely high volume
of site traffic coupled with new user behavior and needs.
Next Steps: WEC plans to conduct extensive usability studies on the MyVote site to account for new
voter behavior patterns. Traditionally, voters used the site to facilitate in-person voting. New voter
needs drive traffic to the site for all electronic and by-mail transactions. WEC staff will work to
augment voter workflows for online voter registration and absentee ballot requests. With the increased
demand on by-mail voting there is also an increased need for voters to have transparency into the
process. Voters have expressed a strong desire to be able to track their absentee ballots like they would
any other important package. Utilizing the CARES Act grant, WEC staff hopes to incorporate
intelligent mail barcodes into the absentee process and incorporate that information into the MyVote
system. WEC staff will also be conducting usability tests on site messaging to ensure voters see and can
understand important notices if they are needed in future emergencies.

- App. 465 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 5 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 5

Envelopes and Postage
Summary: In all previous elections, the majority of Wisconsin voters cast their ballots in-person at the
polls on election day. Some voters typically cast an in-person absentee ballot but less than 10% of
voters typically vote using an absentee ballot by mail. In the April 7, 2020 election more than 80% of
voters who participated did so by casting an absentee ballot by mail. Unofficial and incomplete data
indicate the total absentee voting, including in-person absentee voting, ballooned to 1.27 million
absentee ballots being issued by municipal clerks. Clerks had already purchased absentee ballots and
absentee ballot envelopes based on historic need. Therefore, clerks had only prepared and budgeted for
10-15% absentee by mail, including costs for by mail ballot envelopes and required postage. This
significant and unplanned shift meant that clerks quickly ran out of the required outer “election mail”
transmission envelopes, and the return “certificate” envelopes required by statute for the absentee
process. Further, shortages in the paper supply chain were reported by local election officials meaning
they were unable to purchase additional supplies. WEC staff was able to work with paper and print
vendors in the state to source enough paper stock and have envelopes printed. The SEOC also played a
key role in the procurement and distribution of the envelopes to municipalities.
Discussion: The current envelope process is very reliant on specific paper stock and experienced print
vendors to be able to meet the USPS approved standards. Other states who vote primarily by mail have
a simplified return envelope with an inner security or certificate envelope. This process requires clerks
to use three envelopes but makes the process much less reliant on specific stock and printers. Budgets in
local election offices should also be considered, when changes to the by mail process are developed.
Current law and processes will require jurisdictions to cover significant increases in vote by mail costs
while still maintaining the need to expend the same amount of funds historically spent on polling places
and in-person voting processes.
Next Steps: As outlined in the CARES Act grant memo, WEC staff is exploring ways to absorb
unbudgeted postage and envelope costs using federal grant funds. WEC staff is also exploring new
designs and options for absentee envelopes that may be more readily available and allow for less
dependence on specific stock and experienced print vendors. Furthermore, the envelope redesign will
allow WEC staff to work with local election officials on developing a usable, efficient absentee
certificate and envelope process that can be used for the August and November 2020 elections.
Poll Workers
Summary: In a large election there are between 20,000-30,000 poll workers needed statewide. With the
COVID-19 crisis, many poll workers in a more vulnerable health demographic were unable to serve in
that role for the April 7 election. In recent statewide surveys, it has been reported that the majority of
poll workers are over the age of 60. Many are also over the age of 70 or 80. At the start of the crisis,
clerks began reporting to WEC they had a shortage of poll workers and that many clerks were unable to
serve in-person processes because they were also in a vulnerable demographic. WEC then sent a survey
to all municipal clerks asking them to identify their poll worker shortages. Based on the survey,
municipalities reported a shortage of more than 7,000 poll workers. 111 jurisdictions described their
shortages as critical, defined as not being able to staff any polling places. 126 jurisdictions described

- App. 466 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 6 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 6

their need as severe, meaning they could not fully staff all polling places. Based on this need, WEC
immediately put in a ticket for poll worker personnel at the SEOC.
Discussion: Because clerks need time to train poll workers, WEC immediately urged state decision
makers to exercise authority to assign state personnel as poll workers to fill critical gaps. WEC staff
also put out numerous press releases and held press events to encourage Wisconsinites who were able to
serve as poll workers. Recruitment materials were also created for local election officials including draft
press releases and draft recruitment letters that clerks could send to other municipal and county
employees, school districts, and private industry. WEC also created a “become a poll worker” feature
on the MyVote website where residents could contact their clerk to become a poll worker. This new
feature was used by local election officials and by partners of the SEOC such as the United Way for
recruitment efforts. Municipal clerks have a statutory role to train poll workers and historically WEC
has not produced or prescribed poll worker training. Because of the anticipation of new, first time poll
workers, WEC staff quickly produced a full curriculum of online, video-based poll worker training that
local jurisdictions could use to train new poll workers remotely with limited notice. Ultimately in the
days prior to the election the Governor authorized the National Guard to serve in plain clothes as citizen
poll workers in their home communities. That process is described in a section below. State employees
were also encouraged to volunteer in their local communities as poll workers.
Next Steps: As with all initiatives relevant to the April 7 election, time was very limited. Ideally, poll
workers should be recruited and trained months before a major election. In preparation for the August
and November elections WEC will continue to provide recruitment tools to local officials and work with
state partners to recruit poll workers well in advance of the election. WEC staff will also continue to
refine the training program for poll workers so that it can be used by local election officials to train new
poll workers remotely. The exposure of National Guard members and other individuals to the election
process may serve as a catalyst to increasing the pool of poll workers for future elections.
Guidance and Communications for Clerks
Summary: In every election communicating to 1,850 local election officials and 72 counties can be a
challenge. Because of the unprecedented health crisis and continual changes resulting from court
decisions communication with WEC local election partners was critical leading up to the April 7
election. Throughout the process, the deadlines for absentee voting and voter registration changed. The
requirements for witness signatures and absentee ballot return deadlines and terms changed multiple
times, requiring WEC staff to communicate new changes which occurred within 24 hours. All
traditional in-person voting practices had to be re-visited and re-constructed in light of the COVID-19
crisis. Between March 12 and April 7 WEC staff sent more than 50 communications and guidance
documents to clerks. In the weeks prior to a typical election WEC staff, in keeping with a
communications policy developed with the clerks, send an average of 10 communications and attempt to
avoid issuing new communications to clerks within the week prior to the election. Many of the
communications created were developed with a public health official assigned to our agency for a very
brief time to review documents from a public health prospective. WEC staff created more than 20
election specific public health documents, an entirely new perspective for the agency, using the high

- App. 467 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 7 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 7

level guidance provided by the public health official which can be found here
https://elections.wi.gov/covid-19. WEC staff also held numerous webinars in the weeks leading to the
election to present this guidance and answer clerk questions. Many webinars were held live up to three
times in a day so that clerks would all have training opportunities that met their schedule.
Discussion: WEC staff received very positive responses from our local election partners about the
communications during this crisis. While the volume of information was difficult to keep pace with, all
matters communicated were of a critical nature. The recently instituted RAVE alert system was also
used on multiple occasions to alert clerks on their phone and emails if there was a critical
communication that needed their attention. Opportunities to provide information during live webinars
were also an important option. While the recordings of the webinars were also posted, live webinars, at
various times throughout the day allowed clerks to be able to directly participate and ask questions. The
WEC was assigned a public health official to help structure guidance for only 24 hours in the week
before the election. A more extended time period may have allowed for more consolidated guidance to
be produced at the beginning of the planning process.
Next Steps: WEC staff will continue to work to develop training materials for local election officials on
how to incorporate public health practices into election processes. With additional time before the
August and November election, the guidance can be woven into existing training programs. Additional
time will also allow clerks to continually train poll workers on these practices. WEC staff will also
continue to work with clerks to fine tune communications protocols based on the April 7 experience to
ensure that the most useful information is being brought to their attention at the correct time.
Election Day Summary
On Election Day, April 7, 2020 polling places in all 1850 jurisdictions opened and issued ballots to their
voters. While in-person turnout made up less than 20% of voters who participated, the effort on the part
of local election officials to ensure polling places in every community were able to operate was
remarkable.
Polling Place Consolidation
Summary: Some jurisdictions chose to consolidate their polling places, a process by which multiple
wards are combined into the same polling place. In 2020, jurisdictions reported consolidation was
required due to the unknown in-person turnout and shortage of poll workers. Other jurisdictions
consolidated because their original polling places became unavailable due to the evolving health crisis.
WEC issued guidance to jurisdictions regarding consolidation and ensuring that the correct ballots were
issued to the correct voter and on using the newly developed WisVote process to check in voters and
print individual poll book pages. In larger jurisdictions that chose significant consolidations, long voter
lines were reported throughout election day.
Discussion: In most elections, polling place consolidations and location changes occur at least 30 days
before an election. This allows time to provide notice to voters. There are also emergency provisions in
the law to change polling places on election day. Because of the evolving health crisis and other factors

- App. 468 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 8 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 8

jurisdictions made changes to their election day polling place plans after March 7. The first COVID-19
executive order was issued on March 11 changing many jurisdictions’ election day plans. The
Commission’s decision to authorize municipal clerks to consolidate or relocate polling places within 30
days of the election greatly simplified this process.
Next Steps: With the experience of April 7, WEC hopes to help create data models and reports that
municipalities can use in determining polling place locations. Data models could include looking at
historical turnout for wards in relationship to geographical information to inform consolidation
decisions. It remains to be seen whether the in-person voting rate will reflect the numbers seen in April
2020 or if new patterns of voter behavior will emerge depending on the evolving public health crisis and
voter’s new exposure to absentee by mail. WEC also anticipates providing additional guidance on the
statutory process for moving polling places and providing notice. Additional work will also be done to
explore expanded use of WisVote by consolidated jurisdictions. In consolidated jurisdictions using
WisVote or Badger Book electronic poll books, there were no reports of voters receiving the wrong
ballot. These tools also ensure new voter registrations are assigned to the correct districts and wards in
real time.
National Guard as Poll Workers
Summary: Starting in March and with the emerging crisis WEC staff worked with local election officials
to understand their need for poll workers, as is outlined above. WEC put in a ticket at the SEOC and
had had many conversations about the need for poll worker personnel including the possibility of using
the Wisconsin National Guard (WING). On April 2, 2020 WEC was notified that the National Guard
would be activated to serve as poll workers in their local counties of residence. On that same day, WEC
staff began working with municipal and county election officials to ensure their previous requests for
personnel were still accurate. On Friday, April 4 WING put out a call for Service Members (SM) to
serve as poll workers in their county of residence. On Saturday, April 5 WEC and WING personnel
held a conference call with all 72 county clerks and large municipalities to discuss deployment plans.
WEC staff also continued to develop online poll worker and election public health training for the SM to
complete. Nearly 2,500 Wisconsin National Guard Service Members were put on active duty on April
6 to begin the intake and health screening process. On the afternoon of April 6, the SM completed the
WEC-created training on poll worker duties, voter registration, chief inspector training, and election
public health training. On Monday, April 6 the requested number of SM reported to county clerks to be
deployed to municipalities in need to do polling place specific training. In some counties, there was a
reserve number of SM who stayed with the County on Monday for additional training and to be on
standby in case there were un-forecasted shortages on Election Day. The WING service members
served in regular poll worker roles, in plain clothes and most in their home municipality or county of
residence.
Discussion: Municipalities who used WING personnel report the experience as a very positive one that
helped them to be successful on election day. Many jurisdictions are hopeful that the service members
will continue to serve as volunteer poll workers in their home communities in the future. Some
jurisdictions stated that additional time would have been useful to know how many service members

- App. 469 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 9 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 9

would be assigned to them sooner. Jurisdictions also expressed that it would have been helpful to train
the service members earlier in the process. Only the Governor has the authority to activate the state’s
National Guard. Once the order was made and the call was made by WING for volunteers, WING was
able to provide the number of requested volunteers in each county to WEC and subsequently to county
and municipal election officials. Municipal, county and state election officials all wish to express their
gratitude for the WING personnel who served their community on election day. The National Guard
organized and facilitated its largest ever statewide activation but its Service Members served in the
capacity of civilian poll workers under the supervision of municipal clerks and chief election inspectors.
Next Steps: WEC will continue to work with local election officials to identify poll worker shortages for
the remaining 2020 elections. WEC has already conducted a survey with clerks in the 7th Congressional
District. Currently jurisdictions in that area are citing a shortage of fewer than 30 poll workers, as
compared to over 500 SM who served as poll workers for the Spring Election in those jurisdictions.
WEC will continue to survey jurisdictions through this year and maintain a ticket for personnel with the
SEOC. WEC will also continue to develop and augment training that can be used for last minute poll
worker certification and training.
Post-Election Summary
There were additional election related changes that applied to the week following election day which
required continued effort on the part of local election officials and support by WEC. Some of the main
areas of focus include:
Postmarks and Postal Issues
Summary: As was previously mentioned, in previous elections less than 10% of voters cast their ballot
using a by-mail absentee ballot. The current law also says that all absentee ballots must be received by
8:00pm on Election Day to be counted, there are no postmark requirements or exceptions for late
arriving ballots in the law. Multiple Court actions prior to April 7 resulted in a requirement that by mail
ballots must either be received by 8:00 pm on election day or be postmarked no later than April 7 and
returned to the clerk by April 13th to be counted. Starting on April 8, municipalities began reporting
irregular or illegible postmarks on ballot return envelopes. Some voters also reported not receiving their
absentee ballots by Election Day. Some voters had been issued ballots more than 10 days prior to the
election but never received them. WEC asked clerks to report their postmark and mailing issues to the
USPS and the WEC.
Discussion: WEC worked with local election officials to understand and collect postmark examples and
postal issues. WEC then worked with USPS personnel at the local, state, regional, and national level to
get information about the postmark process. Ultimately, USPS provided information that each postal
branch made best attempts to postmark ballots on election day, but in the case of missing or illegible
postmarks there was no way to determine what date the ballot was marked. WEC staff also sent a letter
to local, state, regional, and national USPS representatives asking for them to provide additional
information on ballots that were not received and on outgoing ballots that were returned to
municipalities without explanation. A response has not yet been received.

- App. 470 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 10 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 10

Next Steps: As outlined in the WEC staff memo on the 2020 CARES Act grant, WEC staff hopes to use
the federal funds to build Intelligent barcodes into the absentee ballot system. Barcodes will allow
voters and clerks to track their ballot through the entire process. It will also provide very important
information about if and when ballots are received by voters. The current WisVote process and tracker
on MyVote relies on the data that each clerk enters into the system regarding when they send the ballot
and when they receive the voted ballot back. Barcodes would also provide a definitive answer of when
each ballot was received by the postal service, voter, and clerk should postmarks ever be part of the
process in future elections.
Results Reporting
Summary: Under current state law, on election night municipalities produce an unofficial results set,
which they send to county election officials. The county election official then posts the unofficial
results, by municipality and reporting unit on the county website. The Associated Press and other media
outlets then aggregate the unofficial results that the public sees on election night. The results are then
certified through the canvass process at the municipal, county, and state level before the results are
official- usually a month after the election. Court decisions in the days prior to the April election barred
local election officials from creating an official tally of results or releasing the unofficial results to the
public until 4 pm on April 13th.
Discussion: To accommodate the new procedure, the WEC created new guidance for local election
officials to ensure that jurisdictions could suspend voting equipment as open between Election Day and
April 13th without producing a results set. Security procedures and chain of custody procedures were
also put into place. On election night WEC sent a RAVE alert to all local election officials reminding
them that it would be a violation of the court order to release the unofficial results before 4 pm on April
13th.
Next Steps: The extended tally period allowed WEC and local election officials to see the benefit of
being able to carefully process ballots and results sets without the pressure of an end-of-the-night
deadline. While the extended period was only ordered by the court for the April 7 election, it helps to
reinforce the message that accurate and secure elections and tallies take time to produce. Lessons
learned from the extended period will also be applied to future guidance and updates to results reporting
systems and reports used by local election officials.
Conclusion
The Wisconsin Elections Commission spent significant time and attention over the past 3 years focusing
on election security challenges related to foreign interference in campaigns and elections. While that
effort sharpened the ability of the WEC and local election officials to develop contingency plans and
train for adjusting to fast-moving developments, the rapid onset of the COVID-19 worldwide pandemic
quickly and dramatically shifted the focus of emergency planning and responses. Two months prior to
the election there were only emerging hints of the impact of the public health impacts on the election.
One month before the election it was considered unlikely that over one million absentee ballots would
be issued. One week before the election there was no guarantee that all polling places in Wisconsin

- App. 471 -

Case: 3:20-cv-00249-wmc Document #: 227-1 Filed: 06/25/20 Page 11 of 11

Summary of April 7, 2020 Election
For the April 18, 2020 Commission Meeting
Page 11

would be adequately staffed. The normal intensive work of both the WEC and local election officials
prior to an election were impacted significantly, swiftly and repeatedly by circumstances beyond our
control. Multiple lawsuits and court decisions required frequent Commission meetings and decisions
and adjustments by election officials and voters.
Throughout the public health crisis and election preparations, the WEC staff and clerks overcame
numerous challenges in order to serve Wisconsin voters, recognizing their roles as administrators of an
election with parameters and characteristics beyond their control. This report reflects an initial attempt
to document the issues which arose, steps taken to address those issues, and lessons learned to improve
future processes. This report should also acknowledge that the changes and additional responsibilities
needed due to COVID-19 were in addition to the high volume of work it normally takes all Wisconsin
election officials to conduct a statewide election. As with each initiative of the WEC and local election
officials, the ultimate focus is on the experience of each individual voter and their ability and
opportunities to participate in democracy.
While the election was certainly imperfect in some respects, there can be no doubt that WEC staff and
its many partners made extraordinary efforts to assist in the administration of the Spring Election and
Presidential Primary. County and municipal clerks across the state showed amazing flexibility and
dedication to ensure resources could be used in the most efficient manner, while considering the health
and safety and voters and election officials. The WEC appreciates the assistance and cooperation of its
partner agencies at the federal and state levels, the Wisconsin National Guard and State Emergency
Operations Center, county and municipal clerks, poll workers and voters who made the election a reality
in the face of uncertainty. With these partners the WEC will continue to evaluate lessons learned and to
research and implement additional measures to improve the administration of future elections.

- App. 472 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 1 of 24

April 7, 2020
Absentee Voting Report
May 15, 2020

Wisconsin Elections Commissioners
Dean Knudson, chair | Marge Bostelmann | Julie M. Glancey | Ann S. Jacobs | Robert Spindell | Mark L. Thomsen
_________________________________________________________________________________________________________
Administrator
- App. 473
Meagan
Wolfe

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 2 of 24
April 7, 2020 Absentee Ballot Report
Page 2

TABLE OF CONTENTS
SECTION

PAGE

EXECUTIVE SUMMARY

3

FACTS: Absentee Voting Data

3

FINDINGS: Absentee Performance During the April 2020 Primary

8

General Assessment

8

Case Studies

13

RECOMMENDATIONS: Proposed Courses of Action

21

CONCLUSION

24

Supplemental Absentee Voting Data 2016-2020

- App.
Page474
2 -

Exhibit A

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 3 of 24
April 7, 2020 Absentee Ballot Report
Page 3

I. Executive Summary
Absentee voting in the April 2020 election reached unprecedented levels but Wisconsin voters, local
election officials and election administration systems largely adapted to the demand and managed the
volume successfully. At a macro level, the processes to request, receive, return, and review absentee
ballots proceeded normally and without inconsistencies. At a local level, the extraordinary volume
placed enormous stress on election officials, elections systems, and the United States Postal Service
(“USPS”).
Absentee voting remains a largely manual, labor-intensive process administered by each individual
jurisdiction across the state. While voters can request a ballot and upload a photo ID on their smart
phone in just a few minutes, behind the scenes clerks must still manually verify the IDs, stuff and seal
envelopes by hand, apply postage, carry boxes of envelopes to the post office, and physically check off
each request. These manual processes have worked well in the past, but they are not easy to scale up
without advance warning or extensive preparation. When mail volume is up to ten times higher than
anticipated, clerks must complete the same tasks without the benefit of having more staff, additional
supplies or more hours to meet statutory deadlines.
Despite these challenges, clerks across the state did what was necessary to complete the task. Many
jurisdictions hired and trained temporary staff, developed new procedures, and worked long nights and
weekends to meet voter needs. The Wisconsin Elections Commission (“WEC” or “Commission”)
likewise hired temporary staff, rapidly expanded technical systems, and worked around the clock to keep
up with demand. The data in this report affirms that these efforts were successful, while still revealing
opportunities for improvement and important lessons learned.
WEC staff, Wisconsin clerks, and the USPS are working together to make improvements to the absentee
voting process and prepare for continued high vote-by-mail volume for the remainder of 2020 and
beyond. Process improvements in development will revise the absentee ballot request application, ballot
mailing, ballot tracking, and overall quality control. Every step in the process, from the application
form, to the envelope, to the tracking tools, is under examination and being evaluated for potential
improvements. The tools now in development will provide voters, clerks, and WEC staff with a simpler
process and improved communication.
II. Facts: Absentee Voting Data
The April 2020 election broke absentee voting records in Wisconsin while maintaining relatively high
turnout for a spring election. Indeed, the April 2020 election produced several state records, including:
•
•
•
•

Most by mail ballots ever cast in any Wisconsin election
Most absentee ballots ever cast in any Wisconsin election
Second most total ballots ever cast in a Wisconsin Spring Election
Most in-person absentee ballots in a Wisconsin Spring Election.

The total number of absentee ballots cast by mail easily surpassed the previous record set in April 2016.

- App.
Page475
3 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 4 of 24
April 7, 2020 Absentee Ballot Report
Page 4

Table 1.

Total Ballots Cast by Mail
964433

1000000
800000
600000
400000
200000

170614

0

While the COVID-19 pandemic produced an exceptional shift to vote-by-mail, it is not clear that the
crisis influenced overall participation. The total ballots cast in the Spring Election and Presidential
Preference Vote were not markedly different from previous spring elections. While voter participation
for this election was consistent with historic turnout numbers for similar elections, it is also impossible
to determine how many voters were unable to cast a ballot for this election due to concerns and
complications related to the COVID-19 pandemic. As demonstrated by the chart below, total ballots
cast for this election were comparable to the 2008 Spring Election and Presidential Preference Vote and
trailed only the same election in 2016 where both major political parties had competitive presidential
primaries on the ballot in Wisconsin.
Table 2.

Spring Elections Total Ballots Cast
2500000
2000000
1500000

2113544
1555263

1511639

1000000
500000
0

- App.
Page476
4 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 5 of 24
April 7, 2020 Absentee Ballot Report
Page 5

Absentee ballots cast for the April 2020 election also represented a far greater percentage of the ballots
cast than is typical. More than three-quarters of the ballots cast were absentee and more than 60% were
delivered by mail. Historically, over 80% of ballots in Wisconsin are cast in person on election day and
only 6% are cast as by mail absentee ballots. Wisconsin has seen a steady rise in absentee voting
percentages in recent years, but those gains could be attributed to an increase in in-person absentee
voting, commonly referred to as early voting. For this election, almost 75% of all ballots cast were by
absentee voters with over 60% issued and returned by mail. For this election, Wisconsin local election
officials saw increases in both in-person absentee voting and absentee by mail, which created resource
issues for a system primarily designed to support polling place voting on election day. Some smaller
staffs were nearly overwhelmed by the demand and many had to recruit assistance from other municipal
departments or secure temporary staff.
Table 3.
2020 Spring Election and Presidential Preference

Ballots Cast
Absentee

Ballots Cast on
Election Day

1,157,599
74%

397,664
26%

As compared with earlier elections, the 2020 shift to voting by mail is distinct, with barely one quarter
of voters choosing to cast a ballot on election day. In person voting on election day was still required
for this election and each municipality had to dedicate resources to securing, staffing and supplying
polling places, while also processing the increased volume of absentee voting. Almost 400,000 voters
cast their ballot at a Wisconsin polling place on election day and each municipality operated at least one
polling place. The combination of increased by mail absentee voting and continued support of in person
voting has resulted in many local election officials reporting that their 2020 municipal postal budgets
have already been exhausted or are on pace for shortages.

- App.
Page477
5 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 6 of 24
April 7, 2020 Absentee Ballot Report
Page 6

Table 4.

Voting Method
100.0%
90.0%

25.6%

80.0%
70.0%

72.7%

60.0%

88.8%

89.9%

50.0%

78.3%

89.1%

87.9%
61.8%

40.0%
30.0%

4.8%

20.0%
10.0%
0.0%

8.1%

4/5/2016

6.2%

22.5%

11/8/2016

6.9%
4.3%

5.3%
5.6%

15.5%

5.4%
6.7%

12.6%

4/4/2017

4/3/2018

11/6/2018

4/2/2019

4/7/2020

In Person Absentee

By Mail Absentee

Election Day

Nearly 1.3 million absentee ballots were delivered to voters for the April election, either by mail or in
person at local clerks’ offices. While almost 90 percent of ballots were returned and counted,
approximately 1 in 10 ballots were either not returned to the clerk or were returned but rejected. Almost
121,000 absentee ballots were issued by local election officials, but not returned by voters. This report
will provide information about several factors that contributed to the number of unreturned ballots.
Table 5.
April 7, 2020 - Absentee Ballots
Total Absentee Ballots Sent 1
Absentee Ballots Returned and Counted
Absentee Ballots Returned and Rejected – After 4/13
Absentee Ballots Returned and Rejected - Other
Absentee Ballots Not Returned
1

Absentee Ballot
Count
1,303,985
1,159,800
2,659
20,537
120,989

% of Ballots
100.00%
88.94%
0.20%
1.57%
9.28%

An additional 21,301 absentee ballot records were created by clerks but deactivated for administrative reasons (e.g.
clerk error, voter error, voter request, ineligible voter, etc.). This represents approximately 1.6% of the total absentee
ballot records. Since 2016, the median rate of administrative cancellations is approximately 2.3% of the total absentee
ballot records created, with a range of 1.1% (November 2018) to 4.0% (April 2016).

- App.
Page478
6 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 7 of 24
April 7, 2020 Absentee Ballot Report
Page 7

The figures above are largely consistent with the percentage of ballots rejected or not returned in recent
April elections. Both the ballot rejection and unreturned ballot rates were consistent with or lower than
the previous rates. This comparison does not seek to downplay the concerns and experiences reported
by voters who had difficulty receiving or returning their ballot or voters who could not meet the witness
requirement due to COVID-19 concerns. It does demonstrate the Wisconsin vote by mail system for the
April 7, 2020 election performed consistently with its performance in previous comparable elections, but
there are still several opportunities for improvements. The State is currently pursuing multiple
initiatives that will improve the by mail absentee process prior to the fall 2020 elections.
Table 6.

Table 7.
Absentee Ballots Rejected

Absentee Ballots Not Returned

20.0%

20.0%

15.0%

15.0%

10.0%

10.0%

5.0%

2.5%

0.0%

2.0%

2.3%

1.5%

1.8%

5.0%

18.9%

11.4%

10.9%

9.3%

5.4%

0.0%

Likewise, most ballots were returned prior to Election Day, but nearly 7% arrived in the window
between Election Day and the court ordered deadline of 4:00 p.m. on 4/13/2020. Over 1.1 million of the
absentee ballots that were issued for this election were returned in accordance with current Wisconsin
state law that requires ballots to be received by 8:00 PM on Election Day in order to be counted. Judge
Conley’s extension of the ballot return deadline to 4:00 PM on April 13, 2020 resulted in an additional
79,054 ballots being counted for this election. Local election officials have also reported 2,659 ballots
that were returned after the April 13 deadline that were not counted due to their late arrival.
Table 8.
April 2020 Absentee Ballot Return Dates

Absentee Ballot
Count

% of Ballots

Total Absentee Ballots Returned
Ballots returned before 4/8/2020
Ballots returned between 4/8/2020 and 4/13/2020
Ballots returned after 4/13/2020

1,182,996
1,101,324
79,054
2,659

100.00%
93.09%
6.68%
0.22%

Additional historical data is attached to this report as Exhibit A - Absentee Voting Data.

- App.
Page479
7 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 8 of 24
April 7, 2020 Absentee Ballot Report
Page 8

III. Findings: Absentee Performance During the April 2020 Primary
A. General Assessment
Wisconsin voters demonstrated an unprecedented commitment to the democratic process in the April
2020 election. In the midst of a COVID-19 pandemic and rapidly changing voting rules and protocols,
nearly 1.2 million voters cast an absentee ballot in the Spring Election and Presidential Preference
Primary. This section assesses the performance of the absentee voting process during the April 2020
election and examines the experiences of voters, election officials, and election systems. The
assessment will consider both a broad overview and examine specific case studies from across the state.
1.

The Absentee Process in Wisconsin

The Wisconsin Legislature has determined that the vigorous exercise of our constitutional right to vote
should be strongly encouraged. The Legislature also recognizes that it is difficult for some individuals
to get to their polling place on Election Day. In order to meet this need, the Legislature has established
the privilege of absentee voting as an extension of the right to vote on Election Day. The Legislature
recognized that the privilege of voting absentee is exercised wholly outside the traditional safeguards of
the polling place. It has determined that the privilege of absentee voting must be carefully regulated to
prevent the potential for fraud or abuse, overzealous solicitation of absent electors who may prefer not to
participate in an election, and undue influence on an absentee elector to vote for or against a candidate
or referendum. Wis. Stat. § 6.84(1).
Any qualified elector who is unable or unwilling to appear at the polling place on Election Day may vote
by absentee ballot. Wis. Stat. § 6.85. Registered electors wishing to vote absentee must submit an
absentee ballot request in writing to the municipal clerk. The request is made to the municipal clerk in
writing or electronically using the Application for Absentee Ballot (EL-121), or a letter requesting an
absentee ballot which provides the information required on the application form. The written request
should include the elector’s: 1. Name 2. Residential address 3. Mailing address, if different than
residential address 4. Signature 5. Proof of identification, if necessary. Military and Overseas electors
may also use the Federal Postcard Application (FPCA), which is a combination registration form and
absentee ballot request. Voters may also apply for and vote an absentee ballot in person at the municipal
clerk’s office. Wis. Stat. § 6.86.
Municipal clerks prepare official absentee ballots for delivery to electors requesting them. An absentee
ballot must be sent to any voter with an absentee application on file, no later than 47 days before a
federal election, and no later than 21 days before a primary or other election. Otherwise, the municipal
clerk shall send or transmit an official absentee ballot within one business day of the time the elector's
request for such a ballot is received. Wis. Stat. § 7.15(1)(cm).
The municipal clerk or the clerk’s designee is required to enter absentee applications and ballot
information into the WisVote system maintained by the Commission within 48 hours after mailing or
receiving an in-person absentee ballot application. Wis. Stat. § 6.33(5). Or, in the case where the

- App.
Page480
8 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 9 of 24
April 7, 2020 Absentee Ballot Report
Page 9

municipality relies on the county or another municipality, the clerk shall submit the information to the
clerk’s WisVote provider, and the provider shall enter the absentee information into the WisVote system
within 24 hours. Wis. Stat. § 6.33(5).
2015 Wisconsin Act 261 charged the Government Accountability Board (G.A.B.), and later the
Wisconsin Elections Commission, with developing a subscription service that would allow the public to
access absentee ballot data that is tracked in WisVote. Given the implementation of the absentee
subscription service available in BADGER Voters as well as increase in absentee voting and the
growing public interest in obtaining absentee ballot data, it is important that clerks are able to timely and
accurately enter absentee ballot data into WisVote including entry of absentee applications, issuance of
ballots, and recording ballot statuses. The WEC staff plays an important role in assisting clerks with
entering and tracking absentee ballots in the WisVote system.
a.

Support Provided by the WEC

Commission staff do not process or send absentee ballots to voters in Wisconsin; all requests are
required to be fulfilled by a local municipal clerk. However, Commission staff provide a range of both
technical and direct support to municipalities for the absentee request process. The Commission
provides access to and maintains the WisVote system and the MyVote website, along with technical
support and training related to these products.
The WisVote system is the primary administrative means of tracking and supporting the absentee
process in Wisconsin. Along with voter registration records, WisVote allows clerks to track absentee
requests for single and multiple elections, create records for issued ballots, and record the final
disposition of ballots. Centralized absentee tracking allows Commission staff to monitor and support
clerk compliance with Federal and State UOCAVA requirements. It also allows Commission staff to
gather and submit federally required absentee information to the U.S. Elections Administration
Commission on behalf of all Wisconsin clerks.
WisVote has several built-in reports and report-building functions to further support clerks in the
entering and tracking of absentee applications and ballot records. Commission development will also
create new reports based on clerk feedback and needs, such as the recent Photo ID Not on File report
created to assist clerks in finding and entering any absentee applications missed due to the large influx
of requests. This report was created, tested, and deployed in less than one week.
The MyVote Wisconsin website is another integral piece of the absentee voting process. MyVote is a
public-facing website that provides a central location for voters to submit an absentee ballot request
regardless of where they reside in the state. All requests submitted via MyVote are then transmitted to
the municipal clerk via an email notification that includes a copy of the photo ID file, if required, and a
PDF version of the absentee request that includes election information, delivery method, and separate
mailing address, if provided. MyVote reduces the number of misdirected absentee requests and speeds
the absentee process by providing a standard email to assist in organizing emailed requests and

- App.
Page481
9 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 10 of 24
April 7, 2020 Absentee Ballot Report
Page 10

automatically assigning them to the correct jurisdiction based on the voter’s address. When a photo ID
is not required, the MyVote site will create the tracking record in WisVote automatically while still
sending the notification, removing the data-entry requirement for these requests. Voters who do not use
the MyVote site may send absentee requests to the incorrect jurisdiction, or even the Elections
Commission directly, which leads to requests being delayed or even unfulfilled if the misdirected
request is received after a statutory deadline.
Commission staff maintains and develops extensive training materials to update clerks on changes to
WisVote and MyVote while also allowing new clerks to obtain the necessary training to use these
systems effectively. All clerks and their support staff are given access to an elections training site
referred to as The Learning Center (“TLC”). The site includes interactive training modules covering the
various functions of WisVote and links to all training webinars produced by Commission training staff.
Commission staff also publish and update a user manual for WisVote which includes detailed
instructions on using the various functions and features of WisVote. Along with these existing
materials, Commission training staff produce and record several training webinars during each election
cycle to review topics of concern, preview/review recent updates to WisVote and solicit clerk feedback.
b.

Processes at Individual Communities

The absentee request and fulfillment process will include many of the same processes regardless of
municipal size or circumstances. Requests must be reviewed to determine type and period of request, if
the voter is currently registered, within the jurisdiction, and if an acceptable photo ID
was required/provided. All municipalities must mail/email/fax any ballot requests themselves and have
a supply of envelopes and ballots to do so. Based on request volume and municipality size, clerks may
use WisVote to generate mailing labels while other municipalities will opt for hand-written labels. If a
clerk is a self-provider, has WisVote access and tracks their own information, they would also enter the
necessary information into WisVote. In municipalities where the clerk is not a WisVote user, they will
contract with another municipality or county to enter this information on their behalf while reviewing
and fulfilling any absentee requests directly.
For a more detailed accounting of how various municipalities handled the absentee process, please
see the Case Studies section below.
2. Voting for April 2020
The April 7 Spring Election and Presidential Preference Vote was by all definitions unprecedented.
Wisconsin was the only state thus far to conduct a statewide election during a COVID-19 pandemic stay
at home order. Wisconsin is also the most decentralized state for election administration, meaning that
1,850 municipal election officials and 72 county election officials had to adapt to significant changes
from court rulings, public health guidance and voter behavior shifts towards vote by mail.
The surge in absentee voting was first felt on the MyVote Wisconsin website. On the MyVote website,
voters can request an absentee ballot, track when their ballot was sent and received by their clerk,

- App.
Page 482
10 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 11 of 24
April 7, 2020 Absentee Ballot Report
Page 11

register to vote online, find their polling place, view a sample ballot, view their voting history, and more.
The site was built and updated regularly by WEC staff with extensive usability studies conducted with
hundreds of voters to learn how they use the site.
Based on historical data, most voters went to MyVote to find their polling place or to view a sample
ballot. Site analytics show this to be true in February 2020, where traffic to the polling place look up
tool reached a new record high. Features like requesting an absentee ballot were previously used by
voters, but never at the rate they were utilized in the lead up to the April 2020 election. As a result, the
look up tools garnered more attention from developers prior to the COVID-19 pandemic.
To accommodate the rapidly evolving environment, WEC staff were required to make more than a
dozen changes to the MyVote system in the 60 days prior to the election. Deadlines for online voter
registration and for absentee requests were extended multiple times by court actions prior to this election
and deadlines for ballots to be returned and witness requirements were also changed initially, but then
changed back. Because this information is hardcoded in the MyVote system, each change required
extensive reprogramming and testing to avoid unintended consequences.
The other statewide system supporting the absentee process is WisVote. The WisVote database is the
system used by almost 3,000 local election officials to administer elections. While WisVote and the
WEC do not issue ballots, the clerks use WisVote to record when they send and receive absentee ballots,
generate an absentee ballot log, enter voter registrations, and record voter participation. The system was
built by the WEC team and launched in 2016.
WisVote was built based on the way Wisconsin conducts elections, which involves mostly voting inperson at the polls and registering to vote at the polls on election day. By mail voting and registration
options are accounted for in the system, but most municipalities had never received a large volume of
absentee requests for a specific election prior to this election. Clerk activity in WisVote prior to the
election was much higher than any prior election because clerks were all entering and issuing record
numbers of absentee requests at the same time. The system performed very well but required around the
clock monitoring and auditing to handle this unique and unprecedented user behavior and traffic.
Like MyVote, WisVote required several updates to accommodate extended deadlines for absentee
requests and online voter registration. These extensions meant changing automation in the system to
assign voter records and allow requests to new deadlines and elections. WEC staff also monitored
capacity of the system to ensure adequate memory space. Multiple increases of memory were needed to
keep pace with absentee requests and attached copies of photo ID’s. WEC staff also created two
significant new processes to assist local election officials with the new volume of absentee requests.
One change was to create an absentee ballot request report that documents when a voter submits a
request that includes a photo ID. This change was significant because it allowed WisVote to view photo
ID files within the system. This process is usually completed by email. Photo files are very large,
therefore the storage and capacity in WisVote had to be significantly adjusted.

- App.
Page 483
11 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 12 of 24
April 7, 2020 Absentee Ballot Report
Page 12

WEC staff also created “poll book” reports or pages so that jurisdictions with consolidated polling
places could use the WisVote system to check in voters, produce and print an individual poll book page
for them, and record new registrations and participation in real time on election day. These were not
processes that had been conceptualized previously and required significant development and testing
completed in one week.
As the enormous quantity of absentee ballots began entering the mail system, voters began asking more
questions and expressing concerns about ballot deliveries. With nearly six times more ballots in
circulation, the number of complaints and concerns increased by a similar amount. Some voters also
reported not receiving their absentee ballots while others reported that their completed ballots were not
returned to the clerk in a timely fashion. Starting on April 8, municipalities began reporting irregular or
illegible postmarks on ballot return envelopes. WEC staff asked clerks to report their postmark and
mailing issues to the USPS and the WEC for investigation. Findings from that research is discussed in
the Case Studies section below.
WEC staff also worked with local election officials to understand and collect postmark examples and
postal issues. WEC then worked with USPS personnel at the local, state, regional, and national level to
get information about the postmark process. Ultimately, USPS provided information that each postal
branch made best attempts to postmark ballots on election day, but in the case of missing or illegible
postmarks there was no way to determine what date the ballot was marked. WEC staff also sent a letter
to local, state, regional, and national USPS representatives asking for them to provide additional
information on ballots that were not received and on outgoing ballots that were returned to
municipalities without explanation. A response has not yet been received.
Finally, any report on the April 2020 election must include mention of the tremendous support received
from partners not typically involved in the elections process. In addition to our regular law enforcement
partners, the WEC received exceptional support from the State Emergency Operations Center,
Wisconsin Emergency Management, the Wisconsin National Guard, the Wisconsin Department of
Health Services, and the federal Cybersecurity and Infrastructure Security Agency. These agencies,
working closely with Wisconsin’s 72 county clerks, played a key role in distributing personal protective
equipment, sanitization supplies, and even poll workers to more than 2,000 polling places across the
State.
3. Other 2020 Elections
Looking ahead to the remainder of 2020, the WEC staff anticipate continued high demand for by mail
absentee voting, even if the COVID-19 pandemic begins to subside. November elections generally see
high turnout, particularly in presidential election years. The last three presidential general elections all
saw more than 3 million ballots cast. If voting patterns from April hold true, the state could see more
than 1.8 million requests for absentee ballots by mail. This kind of volume would present terrific
challenges for Wisconsin election officials at all levels.

- App.
Page 484
12 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 13 of 24
April 7, 2020 Absentee Ballot Report
Page 13

Table 9.

Total Ballots Cast: Spring to Fall
3500000

?

3000000
2500000
2000000
1500000
1000000
500000
0

November presidential elections also tend to see a greater proportion of inexperienced voters. That is,
voters who vote infrequently or are voting for the first time. These less-experienced voters are more
likely to have difficulty navigating the absentee voting process. As a result, the clarification of the
process may help voters in November.
B. Specific Case Studies
The absentee voting experiences of voters and election officials were as varied as the 1,850 jurisdictions
in the state. Nearly every community experienced unprecedented absentee request volume, and many
hired temporary staff to cope with demand. Many small and medium size jurisdictions learned to use
WisVote absentee batch processing tools for the first time, having never previously needed any
automation assistance to manage their workload. Larger cities, while used to higher volumes, were
forced to work around the clock and conduct much larger batch mailings then previously experienced.
For all jurisdictions, the statutory requirement to mail ballots within 24 hours of receiving a request
presented a significant challenge.
This section examines specific challenges, problems, complaints, and solutions reported by municipal,
county, and state election staff.
1. Meeting Overwhelming Demand
The most fundamental challenge faced by election officials was simply meeting the unprecedented
demand. In addition to keeping up with the requests for mailed absentee ballots, clerks continued to
service voters in their office wishing to participate through in-person absentee voting. On top of that,
clerks were tasked with providing polling places with equipment on election day to meet appropriate

- App.
Page 485
13 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 14 of 24
April 7, 2020 Absentee Ballot Report
Page 14

CDC guidelines, not to mention the challenge of recruiting and training new election inspectors taking
the place of long-serving election inspectors, many of whom chose not serve due to their risk category to
COVID-19. While meeting the requirements above, clerks had to remain in communication with the
WEC on updates and changes applied by all levels of the legal system. Most critically, hundreds of
Wisconsin clerks had to complete all the tasks above while working alone and part time.
The increase in demand appeared consistent across the state, with large, medium and small jurisdictions
all showing similar patterns.
Table 10.

Madison, WI
100000
80000
60000
40000
20000
0

Oshkosh, WI
15000
10000
5000

Apr-2018

Apr-2019

0

Apr-2020

Apr-2018

Hudson, WI

Plymouth, WI

3000

2000

2000

1000

1000
Apr-2018

Apr-2019

0

Apr-2020

Apr-2018

Spooner, WI

Apr-2018

Apr-2019

Apr-2019

Apr-2020

Absentee Ballots

Absentee Ballots

400
300
200
100
0

Apr-2020

Absentee Ballots

Absentee Ballots

0

Apr-2019

Homestead, WI

Apr-2020

80
60
40
20
0

Absentee Ballots

Apr-2018

Apr-2019

Apr-2020

Absentee Ballots

Rapidly changing guidance further complicated the environment for clerks. Multiple decisions in the
weeks leading up to election day required clerks to communicate new deadlines and requirements
impacting voters who may have received conflicting information made no longer relevant by late hour
court decisions. No city, village, or town was able to avoid these extraordinary challenges presented in

- App.
Page 486
14 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 15 of 24
April 7, 2020 Absentee Ballot Report
Page 15

addition to the increased demand for absentee voting – and their efforts navigating all the situations
presented by the pandemic should not be overlooked.
For elections prior to the April 7 election, the City of Racine managed ballot requests received by email
with just one election staffer who printed and distributed the requests to four additional staff members
for entry into WisVote and for the records to be filed according to public records statutes. Once the
pandemic hit and absentee request volume grew exponentially, the city quickly adapted by recruiting 2030 additional city staff members to process absentee ballot requests from printing the request to sending
the ballot out the door. Staff are still catching up on filing these documents appropriately.
Some communities, like the Village of Cottage Grove (Dane County), were fortunate to have hired and
trained new elections staff just before the pandemic crisis began. Staff were able to manage the demand
for absentee ballots by printing off every email notification of an absentee ballot request, whether it
required photo ID or not. A staff of three processed each request individually, ensuring the steps of
entering the request, issuing the ballot, printing the label, and applying it to the ballot occurred for every
printed email. High school students were brought in to assist with the manual work of stuffing
envelopes with ballots, while the clerk staff managed work in the voter registration system and fielded
calls from voters with limited experience with absentee voting and navigating MyVote. Clerk staff
found some success when directing voters to using smartphones (when available) to upload a copy of
their photo to complete the absentee ballot request process.
Even the smallest of jurisdictions were not immune from the increased demand. While they did not
have to contend with thousands of requests, individual town clerks often worked alone and with limited
resources. In the Town of Washington in Shawano County, a part-time clerk went from managing eight
absentee ballot requests in February to processing 312 in April. Many clerks were in a similar position
of putting in extra hours to scale up their election’s operations with no additional compensation, all
while balancing a separate full-time job.
To provide clerks adequate time to complete all their election responsibilities, WEC is committed to
reducing the administrative burden of data entry required by the current absentee ballot request process.
Proposed adjustments to the system include generating a pending absentee request in WisVote that can
be approved or denied once photo ID is reviewed. Additionally, WEC hopes to assist clerks with
common issues with absentee ballot requests, such as “selfies” submitted as photo ID, by
communicating that information back to the voter through MyVote or available email or phone contact
information. Finally, the staff recommends conducting voter outreach programs as described in the
CARES Grant memorandum associated with this Commission meeting.
2. Concerns about Mail Service
Clerks in some parts of the state encountered issues with absentee ballots reaching voters or being
returned to their offices. In some cases, voters expected to receive a ballot when a request was not
submitted or not completed. These issues are discussed further under Voter Experience & Education
below. After ruling out cases of voter error, there remained cases that could not be explained or could

- App.
Page 487
15 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 16 of 24
April 7, 2020 Absentee Ballot Report
Page 16

not be explained definitively. For example, the City of Oshkosh and other Fox Valley communities all
reported voters complaining that their ballots were arriving late or not arriving at all. WEC staff
investigated each complaint received where enough information was available to identify the voter.
On the morning of April 8, 2020, WEC staff received a telephone call from a Political and Election Mail
Coordinator at the Great Lakes Regional office of the USPS in Chicago. The USPS official reported
that the post office had located “three tubs” of absentee ballots for the Appleton/Oshkosh area and that
the ballots were being processed. The official was unable to confirm how many ballots were in the three
tubs but stated that “it could be quite a lot” as they were large two-handled tubs. In a follow up
communication, the USPS indicated that there were approximately 1,600 ballots in the batch.
WEC staff attempted to follow up with the USPS to further identify the ballots and determine what
happened but did not receive any further information about these ballots. Written inquiries to the USPS
did not produce any specific information about these ballots. Wisconsin’s two U.S. Senators have asked
the USPS Inspector General to investigate, but WEC staff have been unable to learn anything about the
status of the inquiry.
The WEC also investigated reports from the City of Oshkosh suggesting that ballot requests were
received but not fulfilled. While many of the cases involved incomplete requests (e.g. no photo ID
provided) other records appeared complete. WEC staff researched several dozen Oshkosh area ballot
requests that were entirely valid, including those of Assembly Representative Gordon Hintz and his
spouse. The ballot records in question were generated as part of a batch on March 24, and analysis of
the ballots associated with it showed that a large part of the batch was not returned by voters. Of the
first quarter of records generated, more than 90% were returned. Of the remaining three-quarters of
records, less than 1% were returned. This suggests that something happened to the ballots in the latter
portion of the batch.
WEC and Oshkosh staff could find no evidence of a technical failure. The Oshkosh batch was produced
very quickly by the system (two minutes and seven seconds), did not include any unexpected
applications, and occurred during normal operating hours when no system maintenance was underway.
Furthermore, the City of Oshkosh Clerk reports with confidence that the ballots were mailed to voters.
Thus, in this case, there is no evidence of a system error and no evidence of a printing problem. Instead,
one of two events are possible: either a user did not apply the mailing labels to ballot envelopes, or these
ballots were bundled together and collectively encountered an issue in the mailing process.
As with the larger cities, smaller municipalities also reported issues with ballots reaching residents or
being returned to the clerk in a timely fashion. The Village of Fox Point was among them and
experienced an unusual chain of events that garnered some media attention. For two weeks, absentee
ballots that were supposed to be mailed to Fox Point residents were repeatedly returned to the Fox Point
Village Hall by the post office before reaching voters.
The village reported receiving anywhere from 20 to 50 of these returned absentee ballots per day two
weeks ahead of the election. The problem continued to grow as election day neared. In the week prior

- App.
Page 488
16 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 17 of 24
April 7, 2020 Absentee Ballot Report
Page 17

to the election, 100 to 150 ballots per day were returned to the village. On the morning of Election Day,
Fox Point Village Hall received a plastic mail bin with 175 ballots. In each case, the returned ballots
were unopened, unmarked and had not been received by voters. The postage was not cancelled, and no
explanation was provided.
Each time they received a batch of absentee ballots, village officials immediately drove the ballots back
to the nearest post office. They asked post office supervisors what was wrong with the ballots, but they
did not receive any explanation. Fox Point Village Clerk Kelly Meyer reports it is unclear how many
voters were affected by the undelivered ballots. Residents who did not receive an absentee ballot in the
mail were advised to vote in person at their polling place on Election Day. Residents who called village
hall inquiring about their absentee ballot on Election Day could retrieve their ballot from village hall if
the ballot still un-sent and the resident could confirm their identity with a photo ID.
Statewide, the volume of absentee requests received remained high in the week prior to April 7th. Clerks
received over 60,000 requests alone on the Friday before election day. Even if all these requests were
mailed on Saturday, it is unknown how long those ballots took to reach voters. Current capabilities do
not permit election officials to monitor the movement of ballots in the mail system. Thus, the next data
point available to election officials is the date the completed ballot is returned to them.
Table 11.

Absentee Ballot Requests Received
90000
80000
70000
60000
50000
40000
30000
20000
10000
0

80593

79921
66482

Process Request
1 day
Mail to Voter
2-3 days
Complete Ballot
0 days
Mail to Clerk
2-3 days
--------------------------------------Turn around time > 5-7 days
under optimal conditions

62172

8970

3262

1849

351

The absence of information about ballots in the mail system is a significant concern for voters, clerks,
and Commission staff. To improve visibility of these ballots, WEC staff are working to incorporate
Intelligent Mail Bar Codes (IMBs) as a tracking tool for future absentee mailings. The IMB is a 65-bar
USPS barcode that allows internal tracking information to be shared with the mailer and or recipient.

- App.
Page 489
17 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 18 of 24
April 7, 2020 Absentee Ballot Report
Page 18

Although still dependent on the postal service, the IMB allows greater visibility of individual pieces in
the mail stream. IMBs and tracking tools are discussed further in the Recommendations section below.
3. Process Improvements
The enormous volume of absentee requests for the April 2020 election magnified the effect of typically
small concerns that ordinarily presented minor issues. Complex process flows that were a minor
annoyance in prior elections became major headaches for April. Counties faced a particularly difficult
challenge of attempting to complete the data entry for multiple relier communities where the absentee
voting rates had previously been low. This data entry provides these voters with the opportunity to track
their ballot on MyVote.
For example, in Shawano County, the clerk’s office typically has three staffers but operated with just
two as a result of the pandemic. This reduced staff of just two people was responsible for entering the
absentee information for 25 municipalities. The Shawano County staff encountered problems working
in the voter registration system, including the inability to pull reports at the county level. Additionally,
the ballot count associated to an absentee application does not always immediately update due to
allocation of system resources, creating confusion for users looking for confirmation a ballot was
created and slowing the processing of information.
Grant County, located in southwest Wisconsin, also provides absentee processing support for its
municipalities. Grant County is made up of 52 municipalities, 41 of which rely on the county to enter
and update the status of their absentee ballots in WisVote. Previously the volume of absentee ballots
was manageable through a simple absentee ballot log passed between the municipality and county. The
county clerk’s office revamped this absentee ballot log and asked all 41 reliers to stick with the standard
format in the weeks leading up to April 7. The log asks for the necessary information to enter it
correctly and efficiently in the voter registration system. The county also asks the reliers to highlight
any changes from the last time the absentee ballot log had been sent so they could focus on the work to
be completed.
Another contributor to processing time is the requirement to individually validate the photo
identification of each voter. While validating any one request is quick, the manual nature of the process
proved challenging when contending with high volume and simultaneously responding to hundreds of
voter inquiries. Compounding the problem was the fact that MyVote shows only complete, accepted
requests. Voters with a request pending ID approval are given no indication that their request is on file.
Improving feedback to voters, and tools available to clerks, is therefore a top agency priority before the
August 2020 election.
4. Technical Problems.
Some voters and clerks have questioned if technical failures caused absentee requests or ballots to be
lost. As a result, WEC technical staff spent considerable time researching this possibility both before
and after election day. Detailed audits were performed on individual complaints and no technical
problems were detected prior to election day. WisVote and its associated systems maintain meticulous

- App.
Page 490
18 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 19 of 24
April 7, 2020 Absentee Ballot Report
Page 19

details of each and every transaction occurring in the system, precisely when it occurs to the fraction of
a second, and who or what executed the transaction. These highly detailed records allow staff to retrace
events, locate errors, and validate system operations. The records enabled staff to review tens of
thousands of transactions from hundreds of jurisdictions. This research revealed one isolated and unique
incident where technology and volume combined to create an error. Staff found no evidence of any
technical error that could have caused an absentee ballot request or a completed ballot to be lost.
The single failure identified came to light after the City of Milwaukee's Election Commission (MEC)
conducted a post election review that could only be identified after election participation was entered.
Upon investigation, MEC staff discovered that the WisVote record for tracking this voter’s ballot had
been created in the middle of the night, at a time when MEC staff would not have been creating ballot
records. They further determined that the ballot record was associated with a batch. A batch is a
WisVote entity that allows clerks to select broad categories of absentee application records and request
the system create ballot tracking records and subsequently generate mailing labels for each of those
absentee applications. Many of the absentee ballots associated with this batch had been created in the
middle of the night, and many of them had not been returned. MEC referred the issue to the WEC for
further investigation during the post-election data reconciliation process.
Upon initial analysis of the batch, WEC staff identified trends that appeared similar to the Oshkosh case.
As in Oshkosh, there was a sharp decline in ballot return rates for a specific subset of ballots. Of the
5,913 ballot records created on or before 10:42:32 p.m. on March 22, 5,237 were recorded as having
returned in some way to the clerk’s office. This is an 88.5% return rate. Of the 2,693 ballots generated
after 10:42:32 p.m., only one was recorded as returned.
Further investigation disclosed several factors unique to Milwaukee. In particular:
•
•
•

It was the largest batch processed by WisVote; ultimately including 8,607 absentee ballot request
records. The median batch size for the same day was 32 records.
It started at 5:16 p.m. on March 22 and did not complete until 1:31 a.m. on March 23. Typically,
batches complete within a few minutes.
Of the absentee application records associated with the batch, many were created after the batch
was generated. Since the first thing the batch does is select the absentee application records that
match its criteria, this should not be possible.

Upon review, it was determined that the timeframe of this particular batch overlapped with maintenance
on a known server issue. On March 22, WEC staff observed high utilization rates in some WisVote
servers that could potentially cause user interface degradation, such as slow page loads or poor
performance of some tasks. In consultation with Microsoft, plans were made to implement server
improvements to prevent further issues. In the interim, system resources were freed by restarting the
servers that process background jobs, called asynchronous servers. Background jobs are intended to be
short-running, and by restarting one server at a time during a period when few users would be
interacting with the system, staff believed that WisVote’s load balancing would shuffle background jobs
as needed and there would be no impact. That has been staff’s experience in past server restarts, and in

- App.
Page 491
19 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 20 of 24
April 7, 2020 Absentee Ballot Report
Page 20

testing no impact was observed. However on subsequent code review it was determined that it is
possible, if a batch workflow is restarted, for that workflow to select applicable ballot requests a second
time, which would generate ballot tracking records for absentee applications not originally associated
with the batch.
It is staff’s belief that an extraordinary confluence of events resulted in additional ballot records being
generated after MEC staff printed their mailing labels, leading MEC to believe those ballots had already
been sent when in fact they had not. First, Milwaukee’s extraordinarily large batch of more than 8,000
ballots, exacerbated by the high user load on the system in the run up to the April election, resulted in
the processing of this batch taking several hours, instead of a few minutes. Second, unbeknown to
MEC, Commission staff conducted an unscheduled restart of the asynchronous servers to address an
unrelated issue, interrupting this long-running job. Third, an oversight in the development of this
process meant that the system failed to handle the restart gracefully, selecting an entirely new collection
of absentee applications instead of continuing from where it had been interrupted.
Since the database contained detailed information tracking batch creation, staff could develop precise
criteria to determine the impact and review transactions across the state. As a result, staff can
conclusively determine that this restart issue only impacted this one batch in the City of Milwaukee. As
a result of this issue, staff believes that 2,693 requested ballots were never sent to City of Milwaukee
residents. Of the affected voters, 52.5% voted in the election either on a replacement absentee ballot or
at the polls on election day.
Ensuring the voting rights of Wisconsin citizens is a hugely complex task without room for error. It
requires, at a minimum, the ability to immediately identify and remedy errors before they affect the
voting process. In this instance, detailed records enabled agency staff to retrace these events, but they
did not provide information in a proactive manner allowing a system problem to be identified in real
time. Neither clerks nor the state would have been able to identify this issue in real-time or based on
single voter reports. Staff are now adopting real-time performance tracking tools for IT professionals
and building user-friendly audit tools for clerks and other election officials. Measures to identify and
avoid technical failures like this one are discussed in the Recommendations section below.
5. Voter Experience & Education
The April 2020 election introduced hundreds of thousands of voters to the absentee process for the first
time. Naturally, many were unfamiliar with the process and did not understand the requirements.
Common errors included:
•
•
•

providing a written request (letter or e-mail) with insufficient information
submitting a personal photograph instead of an acceptable form of photo ID
not completing the on-line application process

An additional complication resulted from third parties mailing absentee application request forms that
did not adequately highlight the photo ID requirement. In these cases, the clerk was unable to fulfill the

- App.
Page 492
20 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 21 of 24
April 7, 2020 Absentee Ballot Report
Page 21

request until they could follow up with the voter to obtain a valid photo ID. Most voters do not provide
a phone number or email, so the clerk must rely on a mailed notification to the voter that their request is
not yet valid. Clerks in these situations were often unfairly blamed for not fulfilling a request that was
not valid in the first place.
WEC staff believes that the creation of voter outreach programs to explain the absentee voting process
will be beneficial, particularly if demand for absentee ballots remains high.
IV. Recommendations: Proposed Courses of Action
A. Assessment Resources. WEC staff is working with various partners to assess and improve the
absentee voting experience. Changes to the voter registration system, public facing websites, and paper
forms and envelopes will largely impact individuals outside of the agency, and the Commission should
provide opportunities to receive and incorporate feedback from our core users.
In addition to the existing Clerk Advisory Committees, a new Clerk Advisory Committee dedicated to
Vote by Mail revisions has been created and is meeting on a weekly basis to provide direction and
feedback on staff proposals. The committee is composed of clerks from jurisdictions of various sizes
and resources. A separate committee dedicated to “reliers” -- clerks who rely on the county or another
municipality to complete some or all of their WisVote work -- will also be convened so that new
workflows meet their unique needs.
Staff is also working with non-profits in the elections space who are stepping up their efforts to support
the nationwide increase in absentee voting. Staff reached out to the Center for Civic Design for
guidance on holding and recruiting inexperienced and first-time voters for remote, video conference
usability sessions. The Center for Civic Design has previously trained staff on making user-centered
design decisions through holding usability sessions, where voters are asked to test-drive new or updated
products such as the absentee ballot request form. Staff is in the process of holding remote video
conference sessions with voters.
WEC staff is also working with Democracy Works - a nonprofit that builds software applications to
assist voters and election officials. WEC has been working with Democracy Works since 2011 in
providing our Voting Information Project data feed, which serves as our alternate means for voters to
locate Election Day polling places. Ballot Scout is another Democracy Works product that tracks
absentee ballots using information from USPS via their Intelligent Barcode and Informed Visibility mail
tracking system. Ballot Scout can be inserted as a "widget" or feature into a website like MyVote,
allowing voters and clerks to track a ballot as it travels through the USPS mail system.
Since April 23, USPS Election Mail and Business Mail integration experts and WEC staff have been
meeting weekly. The focus of these meetings is to provide WEC staff with guidance on the
implementation of intelligent mail barcodes and support in absentee ballot envelope revisions. USPS is
committed to building a relationship with our agency with the goal of improving the experience of
voting by mail in Wisconsin.

- App.
Page 493
21 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 22 of 24
April 7, 2020 Absentee Ballot Report
Page 22

B. Ballot Request Process
Staff, clerks, and voters have provided ample observations on how to improve the absentee ballot
request process. Voters are required to submit a written request to their municipal clerk to receive an
absentee ballot. Requests can be submitted in a standard format when requested through MyVote and
when using the Absentee Ballot Request form (EL-122) or can be submitted in an unstandardized format
through an email or mail correspondence. No matter how the voter submits it, any request that gets to
the clerk must be entered by hand into the voter registration system. Many first-time absentee voters
visited MyVote in the weeks up to the April 7 election to request their ballots where they had to navigate
unfamiliar language and requirements such as uploading a photo ID.
In response, WEC staff will focus on three specific improvements to the process of requesting an
absentee ballot. First, we recognize that technology and internet is not accessible to all voters. WEC
staff is revising the paper Absentee Ballot Request form (EL-122) to be more user friendly and is
exploring the opportunity to mail this form to every registered voter without a current absentee ballot
request on file for 2020. Additional directions on how to provide a copy of a valid photo ID will be
required for this mailing. Second, while hundreds of thousands of voters successfully navigated the
absentee ballot request process on MyVote, the process can be improved, particularly in the areas of
photo ID upload and confirmation of submission. Finally, information submitted to clerks through
MyVote should not require manual data entry into the voter registration system or rely on an emailbased process for most users. WEC staff will work with clerks and voters to review new designs before
implementation of these three improvements ahead of the 2020 Fall elections.
C. Mailing Process and Ballot Tracking
In its current state, the mailing process for absentee ballot requests allows each jurisdiction flexibility to
approach the process in the manner that best meets their needs. As a result, there are situations that lead
to less visibility of the ballot’s mailing status that may not be ideal. One potential direction for
improvements in WisVote is integration of USPS Intelligent Mail Barcodes. Integrating Intelligent Mail
Barcodes would allow those who use the Absentee Ballot mailing label features within WisVote to track
the delivery status of the absentee ballot.
The USPS has the ability to allow WEC to generate a unique serial number from within WisVote; once
the unique serial number is generated, the Absentee Ballot mailing label can be printed using a font that
translates the unique number into a bar code used to identify a mail piece as election mail. The bar code
also enables scanning and tracking the mail piece as it progresses through USPS facilities. For those
who choose to use this function within WisVote once it is developed, clerks will be able to generate and
print a label with a barcode that the USPS would then scan once the mail pieces is received at a Postal
Service location. Once the mail piece is received, tracking information can be updated as frequently as
every hour to track the current location and projected arrival of the mail piece.
With tracking information provided by USPS, WEC can provided specific updates and enhanced
transparency into the vote by mail process to clerks and voters. The hope is that with this addition, the

- App.
Page 494
22 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 23 of 24
April 7, 2020 Absentee Ballot Report
Page 23

number of calls and emails to clerks will be greatly reduced as voters will be able to track their ballot by
accessing MyVote or receiving push notifications to an email or phone number. WEC staff is currently
evaluating options for integrating this data and evaluating the effects this may have on existing clerk
workflows as well as feasibility and timelines.
While evaluating these options and potential for tracking ballots and their return, we are also very
cognizant of WisVote relier clerk access to this information and how reliers may be able to obtain the
barcode for their mail pieces. This specific topic requires quite a bit more consideration and input from
relier community clerks. WEC staff is actively pursuing input from those clerks in order to carefully
assess their current workflow and any potential assistance that could be provided by the intelligent mail
barcode tracking as well as any potential unintended workflow requirements that may be imposed on
those reliers. Integration of tracking via the intelligent mail barcode will increase the transparency of
the mailing process for absentee ballots as they are delivered to voters and as they are returned to their
municipal clerk.
D. Reports and Audit Tools
Wisconsin’s voter registration system serves many purposes for clerks and voters. It maintains the list
of registered voters, the set of candidates and contests assigned to specific districts, tracks absentee
ballot requests and ballots, houses the data displayed to voters on MyVote, and generally facilitates the
administration of elections in Wisconsin. Due to the current pandemic environment, the administration
of elections is changing to occur increasingly by mail and the voter registration system must be adjusted
to support that shift.
The voter registration system currently offers multiple methods to manage absentee ballot request and
ballot records, originally meant to meet the needs of all sizes of communities in Wisconsin. While
meant to be helpful, multiple methods can create confusion among clerk staff using different methods
within an office and require WEC staff to adequately train and support all methods. As utilization of
absentee voting by mail increases all across the state, WEC staff will work with clerks to identify which
method to process absentee ballot requests, ballot records, and absentee address labels is best in
managing high volumes of absentees and then popularize and train clerk staff on this method.
Staff intends to implement additional tracing procedures and tools to enable early detection of issues
such as the batch that restarted in Milwaukee. This will give technical staff greater insight into the
internal processes of WisVote beyond what it presently visible in logs and reports and give near-realtime data on system performance in a more meaningful way. In addition, some tools under WEC
evaluation can provide certainty that workflows and system processes are behaving as expected after
system deployment and provide staff instant notifications if a change is detected.
In response to clerk and voter feedback, WEC staff is investigating numerous methods to improve the
immediacy and accuracy of user feedback. In addition to increasing user satisfaction, improved
feedback should reduce the number of incomplete absentee applications from voters and increase

- App.
Page 495
23 -

Case: 3:20-cv-00249-wmc Document #: 227-2 Filed: 06/25/20 Page 24 of 24
April 7, 2020 Absentee Ballot Report
Page 24

confidence from both clerks and voters that requests are being correctly processed, and ballots are sent
out timely.
Additionally, WEC staff will create reports to help clerks manage and audit absentee ballot requests and
ballots coming into and leaving their office so that they identify issues, anomalies, and ensure all
requests are successfully fulfilled and tracked. WEC staff hopes to provide clerk staff the tools to
monitor their data so that they can identify and resolve issues. Maintaining and verifying data in the
voter registration system database enables our critical role in providing accurate information to voters.
V. Conclusions
The April 7, 2020 election introduced countless challenges that Wisconsin clerks successfully overcame,
enabling a record number of voters to cast their ballots through the absentee process. Moreover, the final
election data conclusively indicates that the election did not produce an unusual number unreturned or
rejected ballots. Despite the overwhelming success of absentee voting as a whole, the experiences leading
up to election day were not trouble-free and illuminated several critical areas for improvement. The
absentee voting process in Wisconsin can be complex for some users and the current system favor the
technically savvy. Voters and clerks would benefit from more information about the status of their
absentee ballots, particularly once they enter the mail system. Finally, clerks and WEC staff need more
powerful but easy-to-use tools that will enable them to quickly identify and correct problems. The 2020
CARES Act affords Wisconsin the necessary resources to implement many of these improvements, but
long-term sustainment will require additional support. With adequate backing, the challenges of April
2020 should ultimately yield voters, clerks, and WEC staff a much-improved absentee voting process.

- App.
Page 496
24 -

Case:INFORMATION
3:20-cv-00249-wmc
IMPORTANT VOTER
ENCLOSED

Document #: 227-3 Filed: 06/25/20 Page 1 of 4

Wisconsin Elections Commission
P.O. Box 7984
Madison, WI 53707-7984

You Have Three Ways to Vote in the Election on November 3, 2020
OPTION 1

Voting at the polls

MAKE SURE YOUR
VOTER REGISTRATION
IS UP TO DATE

You can cast your ballot at your polling
place on Election Day, November 3, 2020.
Polls are open from 7 a.m. to 8 p.m. To find
your polling place, visit myvote.wi.gov or call
1-866-868-3947.

You must be registered to vote,
and your name and address must
be current, before you can vote
in person or request an absentee
ballot. The name and address on
this mailer may be your current
voter registration information. If
you need to check your registration
or update your registration you can
visit myvote.wi.gov. You can also
register to vote by mail, in person
at your municipal clerk’s office, or
at your polling place on Election
Day. Every option has its own
deadline. Visit myvote.wi.gov or call
1-866-868-3947 to learn more.

OPTION 2

In-person voting by absentee ballot
You can cast an absentee ballot in person
before Election Day. Contact your municipal
clerk’s office to learn more about your
community's in-person absentee voting
options, locations, and hours of operation.
To find your clerk, visit myvote.wi.gov or call
the Wisconsin Elections Commission.
OPTION 3

Voting absentee ballot by mail
You can request an absentee ballot at
myvote.wi.gov. You can also make your
request by mail, using the included request
form and postage-paid envelope. To learn
more, turn to the next page. Your request
must be received by the Wisconsin Elections
Commission or your municipal clerk no later
than 5 p.m. on October 29, 2020.

NEED ASSISTANCE?
WE’RE HERE TO HELP.

Visit myvote.wi.gov or call 1-866868-3947 (TTY 1-800-947-3529)
for assistance.
Para obtener información en
Español, llama 1-866-868-3947
o visita myvote.wi.gov/es-es/

To learn more about public health
and elections, visit our website,
https://elections.wi.gov/covid-19

(continued on other side)

Wisconsin Elections Commission



This is an Official Mailing from the State of Wisconsin

- App. 497 -

Case: 3:20-cv-00249-wmc Document #: 227-3 Filed: 06/25/20 Page 2 of 4
Requesting an Absentee Ballot

STEP 1

STEP 2

Visit
MyVote.wi.gov

Click
Vote Absentee

MyVote.wi.gov

STEP 3

STEP 4

Enter your name
and date of birth

Upload a picture or file of
your acceptable photo ID

At the polls or clerk’s office
Just show your photo ID
to receive your ballot.
Requesting an absentee
ballot online

PHOTO ID



Search

No matter how you cast your
vote, most voters will need to
show an acceptable photo ID,
like a Wisconsin driver license
or state ID card, US passport,
or Veterans ID card. Your
photo ID does not need your
current address. Visit bringit.
wi.gov to see a complete list of
acceptable photo IDs and learn
how to get a photo ID for free,
if you don’t have one.


Visit myvote.wi.gov to request your absentee ballot online.
It’s easy, especially when you use a mobile device.

YOU NEED A
PHOTO ID TO VOTE

Upload a picture of your
photo ID. It’s easy when
you use a mobile device.
Don’t have easy access to the internet? Use the enclosed
absentee ballot request form and postage-paid envelope
to make your request.
Here are the three things you have to do:

Requesting an absentee
ballot by mail


No internet? No problem.

Include a picture or
photocopy of your photo
ID with your application.

Fill out the enclosed request form.
ARE YOU INDEFINITELY
CONFINED?

Get a photocopy of your acceptable photo ID.


Mail your completed form and the photocopy of your
photo ID in the enclosed envelope as soon as possible.
It must arrive by October 29.

Don’t wait. Request your absentee ballot today.
Your request must be received by October 29. It takes
time to receive an absentee ballot, and once you receive
your ballot you will need to arrange for a witness to
observe and to sign your ballot return envelope. All
absentee ballots must be received by your municipal clerk
no later than 8 p.m. on Election Day, November 3, 2020.

Wisconsin Elections Commission

If you are indefinitely confined
due to age, illness, infirmity, or
disability, you may certify your
status by checking “indefinitely
confined” on the enclosed
application. Wisconsin law
exempts indefinitely confined
voters from the requirement
to provide a photo ID when
requesting an absentee ballot
by mail.

This is an Official Mailing from the State of Wisconsin

- App. 498 -

Wisconsin Absentee
Ballot Request
Case: 3:20-cv-00249-wmc
Document #: 227-3

Filed: 06/25/20 Page 3 of 4

!

You must be registered to vote before requesting an absentee ballot.

!

You must provide a copy of your photo ID with this request.

!

You must return this request to the WEC or your municipal clerk so it is received no later than 5:00 p.m. on October 29, 2020.

!

This request must be completed by the voter unless assistance is required due to physical disability.

!

If you have questions while completing this request, please contact us at (866) 868-3947.

Please complete legibly
Additional instructions on reverse

First Name

Voter
Information

Middle Name

Last Name

1

Suffix (Jr. II, etc.)

Street Address

Apt/Room #

City/Town/Village of

provide your name and
residential voting address
as they appear on your
Wisconsin voter record

State

Zip

If you are a military or overseas voter, please check the appropriate box:
See additional info on back

Military

Permanent Overseas

Temporary Overseas

Mailing address same as above (check box and proceed to section 3).

Where do you
want your ballot 2
sent?

If you would like your ballot mailed to a different address, provide that information below:
Street Address (or P.O. Box)

City/State/Country/Zip
Please see the back of this form for information on receiving your ballot by email or fax.

For which
election(s) do
you want a
ballot?

The General Election on November 3, 2020
For indefinitely-confined voters only: I certify that I am indefinitely confined due to age, illness, infirmity, or disability
and request absentee ballots be sent to me automatically until I am no longer confined or I fail to return a ballot.

3

Anyone who makes false statements in order to obtain an absentee ballot may be fined not more than $1,000 or imprisoned for not more than 6 months or both.
Wisconsin State Statutes sections 12.13(3)(i) and 12.60(1)(b).

X

mark only one

Make sure you’re
providing a
photocopy of
acceptable photo 4
ID

To certify as indefinitely confined your signature is required here (or an assistant may sign on your behalf if you are unable to sign because of a physical disability).

Please check this box to affirm that, if required, you are providing a photocopy of acceptable photo ID.
These are common types of acceptable photo ID. Check the box for the type you are including with your request:
Wisconsin driver
license or stateissued ID card

additional info on back

University,
college, or tech
college ID (with
enrollment
verification)

Military ID card
or photo ID
issued by the
Department of
Veterans Affairs

U.S. Passport
booklet or card

Certificate of
Naturalization

ID card issued
by a federally
recognized
Wisconsin Tribe

A receipt for a
Wisconsin driver
license or stateissued ID

Please do not include the original physical version of your photo ID when returning your request.

Please consider providing your contact information in case the WEC or your clerk need to follow up on your request (optional).

Contact
Information

5

Phone Number

(

)

Email Address
I am a registered, eligible voter in the State of Wisconsin and my name and address are up-to-date in my voter registration record.

Voter Signature 6

By signing this absentee ballot request form, I attest that the information provided is true and correct to the best of my knowledge and ability and I have not
provided any false information for the purpose of obtaining an absentee ballot. Wisconsin State Statutes sections 12.13(3)(i) and 12.60(1)(b).

X

Assistant
if someone signed this form on
your behalf

Voter Signature

Today’s Date

I certify that the application is made on request and by authorization of the named elector, who is unable to sign the application due to a physical disability.

7 X

- App. 499 -

Assistant Signature

Today’s Date

Wisconsin Absentee
Ballot Request Instructions
Case: 3:20-cv-00249-wmc
Document #: 227-3

Filed: 06/25/20 Page 4 of 4

Photo ID requirement: If you have not provided a copy of acceptable photo ID with a prior absentee ballot request, a copy of a photo
ID must be attached to this request. You may submit your request and a photocopy of your ID by mail, fax, or email.
The following documents are acceptable photo ID
• State of Wisconsin driver license or ID card
• Military ID card issued by a U.S. uniformed service
• Photo ID issued by the federal Department of Veterans
Affairs
• University, college, or technical college ID AND proof
of enrollment (examples include a fee receipt, class
schedule, or enrollment verification form)

•
•
•
•

U.S passport booklet or card
Certification of Naturalization
Wisconsin DOT driver license or ID card receipt
Citation/notice to revoke or suspend Wisconsin driver
license
• ID card issued by a federally recognized Indian tribe in
Wisconsin

For additional information about photo ID, visit https://bringit.wi.gov,
or contact the Wisconsin Elections Commission at (866) 868-3947.
Indefinitely Confined, Military, Permanent Overseas, and Confidential voters are not required to provide photo ID with this request.
•
•
•
•
•

Provide your name as you are registered to vote in Wisconsin. If applicable, please provide your suffix (Jr, Sr, etc.) and/or middle name.
Provide your home address (legal voting residence) with full house number (including fractions, if any).
Indicate the municipality. Use the municipality’s formal name (for example: City of Ashland, Village of Greendale, or Town of Albion).
You may not enter a P.O. Box as a voting residence. A rural route box without a number may not be used.
Please indicate if you are an active duty military voter, a permanent overseas voter, or a temporary overseas voter.
• A military voter is a person, or the spouse or dependent of a person who is a member of a uniformed service or the Merchant Marine, a civilian
employee of the United States, a civilian officially attached to a uniform service and serving outside the United States, or a Peace Corps volunteer.
Military voters do not need to register to vote.
• A permanent overseas voter is a person who is a United States citizen, 18 years old or older, who last resided in Wisconsin prior to leaving the
United States, is not registered at any other location and has no present intent to return. An adult child of a United States citizen who resided in
Wisconsin prior to moving abroad qualifies as a permanent overseas voter. Permanent overseas voters will receive ballots for federal offices only
and must be registered prior to receiving a ballot.
• A temporary overseas voter is a person who is eligible to vote in Wisconsin and has a present intent to return. They will receive the full ballot and
need to be registered to vote prior to receiving a ballot.

2

•
•
•
•
•

Mark the first box if you would like the ballot mailed to the address listed in section 1.
If you would like your ballot mailed to a different address than the address in section 1, please list this address or P.O. Box here.
If no preference is indicated, your absentee ballot will be mailed to the address you provided in section 1.
If you would like to receive your ballot by email or fax, please contact us at (866) 868-3947 for additional information.
Voters who request their ballots by email or fax will require access to a printer and must provide their own envelope and postage to return their ballot.

3

• Mark the first box if you would like to receive a ballot for the November 3, 2020 General Election.
• Mark the second box only if you are indefinitely confined due to age, illness, infirmity, or disability and wish to request absentee ballots for all elections
until you are no longer confined or until you fail to return a ballot. Indefinitely confined voters are not required to provide photo ID with this
request.

4

• Please confirm that you are attaching a copy of acceptable photo ID to your absentee ballot request.
• There may be delays in receiving your absentee ballot if you do not attach a copy of acceptable photo ID to your request.

5

• Consider providing your phone number or email address so the Wisconsin Elections Commission or your municipal clerk can contact you about your
request if necessary. Providing this information is optional and, if included, your contact information will be subject to public records requests.

6

• By signing this absentee ballot request form, you certify and attest that the information provided is true and correct to the best of your knowledge and
ability, and that you have not provided any false information for the purpose of obtaining an absentee ballot. Anyone who makes false statements in
order to obtain an absentee ballot may be fined not more than $1,000 or imprisoned for not more than 6 months or both. Wisconsin State Statutes
12.13(3)(i) and 12.60(1)(b).
• You must be registered to vote before you can request an absentee ballot. Please check this box to confirm that you are registered and that your
name and address are current in your voter registration record.
• To confirm that you are registered to vote and that the information in your registration record is up-to-date, please visit https://myvote.wi.gov or
contact us by phone at (866) 868-3947.

7

• In the situation where the elector is unable to sign this form due to a physical disability, the elector may authorize another elector to sign on his or
her behalf. Any elector signing an application on another elector’s behalf shall attest to a statement that the application is made on request and by
authorization of the named elector, who is unable to sign the application due to a physical disability.

1

!

This request must be received by the WEC or delivered to your municipal clerk no later than 5:00 p.m. on October 29, 2020.
Return your request by mail to the WEC:
Wisconsin Elections Commission
P.O. Box 7984
Madison, WI 53707-7984

or

- App. 500 -

To find contact information for your municipal clerk,
visit https://myvote.wi.gov

